APPENDIX

APPENDIX
TABLE OF CONTENTS
Opinion in the United States Court of Appeals for the Ninth Circuit
(March 24, 2021) .............................................................................................. App. 1
Opinion in the United States Court of Appeals for the Ninth Circuit
(July 24, 2018) ............................................................................................. App. 216
Order Granting County of Hawaii Official Defendants’ Motion to Dismiss (Doc.
23) and State of Hawaii Defendants’ Motion to Dismiss (Doc. 25) in the
United States District Court for the District of Hawaii
(November 29, 2012).................................................................................... App. 292
Judgment in a Civil Case in the United States District Court District of Hawaii
(November 29, 2012).................................................................................... App. 332
Order Rehearing En Banc in the United States Court of Appeals for the Ninth
Circuit
(February 8, 2019) ....................................................................................... App. 334
Judgment in the United States Court of Appeals for the Ninth Circuit
(April 15, 2021) ............................................................................................ App. 336
Constitutional and Statutory Provisions Involved .......................................... App. 337
Const. amend. II .......................................................................................... App. 337
Const. amend. XIV ...................................................................................... App. 338
HRS § 134-5 ................................................................................................ App. 339
HRS § 134-9 ................................................................................................ App. 340
HRS § 134-23 ............................................................................................... App. 342
HRS § 134-24 ............................................................................................... App. 343
HRS § 134-25 ............................................................................................... App. 344
HRS § 134-26 ............................................................................................... App. 345
HRS § 134-27 ............................................................................................... App. 346

i

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 1 of 215

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
GEORGE K. YOUNG, JR.,
Plaintiff-Appellant,
v.
STATE OF HAWAII; NEIL
ABERCROMBIE, in his capacity as
Governor of the State of Hawaii;
DAVID MARK LOUIE I, Esquire, in
his capacity as State Attorney
General; COUNTY OF HAWAII, as a
sub-agency of the State of Hawaii;
WILLIAM P. KENOI, in his capacity as
Mayor of the County of Hawaii;
HILO COUNTY POLICE DEPARTMENT,
as a sub-agency of the County of
Hawaii; HARRY S. KUBOJIRI, in his
capacity as Chief of Police; JOHN
DOES, 1–25; JANE DOES, 1–25; DOE
CORPORATIONS, 1–5; DOE ENTITIES,
1–5,
Defendants-Appellees.

App. 1

No. 12-17808
D.C. No.
1:12-cv-00336HG-BMK
OPINION

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 2 of 215

2

YOUNG V. STATE OF HAWAII
Appeal from the United States District Court
for the District of Hawaii
Helen W. Gillmor, District Judge, Presiding
Argued and Submitted En Banc September 24, 2020
San Francisco, California
Filed March 24, 2021

Before: Sidney R. Thomas, Chief Judge, and Diarmuid F.
O’Scannlain, M. Margaret McKeown, Kim McLane
Wardlaw, William A. Fletcher, Richard R. Clifton, Jay S.
Bybee, Consuelo M. Callahan, Sandra S. Ikuta, Michelle T.
Friedland and Ryan D. Nelson, Circuit Judges.
Opinion by Judge Bybee;
Dissent by Judge O’Scannlain;
Dissent by Judge R. Nelson

App. 2

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 3 of 215

YOUNG V. STATE OF HAWAII

3

SUMMARY*

Civil Rights
The en banc court affirmed the district court’s dismissal
of an action challenging Hawai‘i’s firearm licensing law,
Hawai‘i Revised Statutes § 134-9(a), which requires that
residents seeking a license to openly carry a firearm in public
must demonstrate “the urgency or the need” to carry a
firearm, must be of good moral character, and must be
“engaged in the protection of life and property.”
Appellant George Young applied for a firearm-carry
license twice in 2011, but failed to identify “the urgency or
the need” to openly carry a firearm in public. Instead, Young
relied upon his general desire to carry a firearm for selfdefense. Both of Young’s applications were denied. Young
brought a challenge to Hawai‘i’s firearm-licensing law under
the Second Amendment and the Due Process Clause of the
Fourteenth Amendment. The district court upheld Hawai‘i’s
statute.
The en banc court first held that the scope of its review
would be limited to Young’s facial challenge to HRS § 134-9.
There was no need to determine whether Hawai‘i County
properly applied § 134-9, because Young did not bring an asapplied challenge.
The en banc court noted that this Court has previously
held that individuals do not have a Second Amendment right
This summary constitutes no part of the opinion of the court. It has
been prepared by court staff for the convenience of the reader.
*

App. 3

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 4 of 215

4

YOUNG V. STATE OF HAWAII

to carry concealed weapons in public. Peruta v. County of
San Diego, 824 F.3d 919 (9th Cir. 2016) (en banc). The
question presented in this case, accordingly, was limited to
whether individuals have a right to carry weapons openly in
public. To answer that question, and consistent with the
Supreme Court’s decisions in District of Columbia v. Heller,
554 U.S. 570 (2008), and McDonald v. City of Chicago,
561 U.S. 742 (2010), the en banc court first considered
whether Hawai‘i’s law affects conduct protected by the
Second Amendment.
After careful review of the history of early English and
American regulation of carrying arms openly in the public
square, the en banc court concluded that Hawai‘i’s
restrictions on the open carrying of firearms reflect
longstanding prohibitions, and therefore, the conduct they
regulate is outside the historical scope of the Second
Amendment. The en banc court held that the Second
Amendment does not guarantee an unfettered, general right
to openly carry arms in public for individual self-defense.
Accordingly, Hawai‘i’s firearms-carry scheme is lawful.
The en banc court rejected Young’s argument that HRS
§ 134-9 is invalid as a prior restraint because it vests chiefs of
police with unbridled discretion to determine whether a
permit is issued. Joining its sister circuits, the en banc court
held that the prior restraint doctrine does not apply to Second
Amendment challenges to firearm-licensing laws.
The en banc court also rejected, as premature, Young’s
due process argument that HRS § 134-9 does not provide
adequate process to challenge the denial of a carry-permit
application. The en banc court noted that Young did not
seek review under HRS § 91-9 before bringing suit. So,

App. 4

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 5 of 215

YOUNG V. STATE OF HAWAII

5

Hawai‘i has not yet denied him the opportunity for appellate
review. Because Young has not actually been denied a
hearing, his procedural due process claim was speculative,
and there was no need to reach it.
Dissenting, Judge O’Scannlain, joined by Judges
Callahan, Ikuta, and R. Nelson, would hold that both HRS
§ 134-9 and the 1997 County regulation destroy the core right
to carry a gun for self-defense outside the home and are
unconstitutional under any level of scrutiny. Judge
O’Scannlain stated that the majority holds that while the
Second Amendment may guarantee the right to keep a
firearm for self-defense within one’s home, it provides no
right whatsoever to bear—i.e., to carry—that same firearm
for self-defense in any other place. In his view, the
majority’s decision undermines not only the Constitution’s
text, but also half a millennium of Anglo-American legal
history, the Supreme Court’s decisions in District of
Columbia v. Heller, 554 U.S. 570 (2008), and McDonald v.
City of Chicago, 561 U.S. 742 (2010), and the foundational
principles of American popular sovereignty itself.
Dissenting, Judge R. Nelson, joined by Judges Callahan
and Ikuta, concurred with Judge O’Scannlain’s dissent
concluding that Hawaii Revised Statute 134-9 violates the
Second Amendment. Judge R. Nelson wrote that the majority
erred not only in holding the statute facially constitutional,
but also in rejecting Young’s as-applied challenge. He also
wrote separately to highlight the brazenly unconstitutional
County of Hawaii Regulations applying HRS § 134-9, stating
that there should be no dispute that any law or regulation that
restricts gun ownership only to security guards violates the
Second Amendment.

App. 5

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 6 of 215

6

YOUNG V. STATE OF HAWAII
COUNSEL

Alan Alexander Beck (argued), San Diego, California;
Stephen D. Stamboulieh, Stamboulieh Law PLLC, Madison,
Mississippi; for Plaintiff-Appellant.
Neal Kumar Katyal (argued), Colleen E. Roh Sinzdak,
Mitchell P. Reich, and Sundeer Iyer, Hogan Lovells US LLP,
Washington, D.C.; Clare E. Connors, Attorney General;
Kimberly T. Guidry, Solicitor General; Robert T. Nakatsuji
and Kaliko‘Onalani D. Fernandes, Deputy Solicitors General;
Department of the Attorney General, Honolulu, Hawaii;
Joseph K. Kamelamela, Corporation Counsel; Laureen L.
Martin, Litigation Section Supervisor; D. Kaena Horowitz,
Melody Parker, Christopher P. Schlueter, Michael J. Udovic,
and Kimberly K. Angay, Deputies Corporation Counsel;
Office of the Corporation Counsel, Hilo Hawaii; for
Defendants-Appellees.
Girard D. Lau, former Solicitor General; Kimberly T. Guidry,
Solicitor General; Robert T. Nakatsuji, Deputy Solicitor
General; Department of the Attorney General, Honolulu,
Hawaii; for Amicus Curiae State of Hawaii.
Deepak Gupta and Jonathan E. Taylor, Gupta Wessler PLLC,
Washington, D.C.; Eric Tirschwell and Mark Anthony
Frassetto, Everytown for Gun Safety Support Fund, New
York, New York; Janet Carter, William J. Taylor Jr., and Lisa
M. Ebersole, Everytown Law, New York, New York; for
Amicus Curiae Everytown for Gun Safety.
Simon J. Frankel, Covington & Burling LLP, San Francisco,
California; Paulina K. Slagter, Covington & Burling LLP,
Los Angeles, California; J. Adam Skaggs and David Pucino,

App. 6

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 7 of 215

YOUNG V. STATE OF HAWAII

7

Giffords Law Center to Prevent Gun Violence, New York,
New York; Hannah Shearer, Giffords Law Center to Prevent
Gun Violence, San Francisco, California; for Amicus Curiae
Giffords Law Center to Prevent Gun Violence.
Gurbir S. Grewal, Attorney General; Andrew J. Bruck,
Executive Assistant Attorney General; Jeremy M.
Feigenbaum, Assistant Attorney General; Claudia Joy
Demitro, Adam D. Klein and Tim Sheehan, Deputy Attorneys
General; Attorney General’s Office, Trenton, New Jersey;
Xavier Becerra, Attorney General, Sacramento, California;
William Tong, Attorney General, Hartford, Connecticut;
Matthew P. Denn, Attorney General, Wilmington, Delaware;
Kwame Raoul, Attorney General, Chicago, Illinois; Tom
Miller, Attorney General, Des Moines, Iowa; Maura Healey,
Attorney General, Boston, Massachusetts; Brian E. Frosh,
Attorney General, Baltimore, Maryland; Letitia James,
Attorney General, New York, New York; Ellen F.
Rosenblum, Attorney General, Salem, Oregon; Peter F.
Neronha, Attorney General, Providence, Rhode Island; Mark
R. Herring, Attorney General, Richmond, Virginia; Karl A.
Racine, Attorney General, Washington, D.C.; for Amici
Curiae New Jersey, California, Connecticut, Delaware,
Illinois, Iowa, Massachusetts, Maryland, New York, Oregon,
Rhode Island, Virginia, and the District of Columbia.
Xavier Becerra, Attorney General; Michael J. Mongan,
Solicitor General; Thomas S. Patterson, Senior Assistant
Attorney General; Samuel P. Siegel and Helen H. Hong,
Deputy Solicitors General; Jonathan M. Eisenberg and P.
Patty Li, Deputy Attorneys General; Department of Justice,
Sacramento, California; for Amicus Curiae State of
California.

App. 7

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 8 of 215

8

YOUNG V. STATE OF HAWAII

John W. Dillon, Gatzke Dillon & Ballance LLP, Carlsbad,
California, for Amicus Curiae San Diego County Gun
Owners Political Action Committee.
Richard L. Holcomb, Holcomb Law LLLC, Honolulu,
Hawaii, for Amicus Curiae Hawai‘i Rifle Association.
Donald L. Wilkerson, Laupahoehoe, Hawaii, for Amicus
Curiae Hawaii Firearms Coalition.
Herbert W. Titus, Robert J. Olson, William J. Olson, and
Jeremiah L. Morgan, William J. Olson P.C., Vienna,
Virginia; Joseph W. Miller, Restoring Liberty Action
Committee, Fairbanks, Alaska; for Amici Curiae Gun Owners
of America, Gun Owners Foundation, Heller Foundation,
Virginia Citizens Defense League, Conservative Legal
Defense and Education Fund, and Restoring Liberty Action
Committee.
David G. Sigale, Law Firm of David G. Sigale P.C., Glen
Ellyn, Illinois, for Amicus Curiae Second Amendment
Foundation.
Donald E. J. Kilmer Jr., Law Offices of Donald Kilmer APC,
San Jose, California, for Amici Curiae Madison Society Inc.
Calguns Foundation, Firearms Policy Coalition Inc., and
Firearms Policy Foundation.
John Cutonilli, Garrett Park, Maryland, pro se Amicus
Curiae.
Neal Goldfarb, Washington, D.C., pro se Amicus Curiae.

App. 8

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 9 of 215

YOUNG V. STATE OF HAWAII

9

Adita Dynar and Mark Chenoweth, New Civil Liberties
Alliance, Washington, D.C., for Amicus Curiae New Civil
Liberties Alliance.
Jeff Landry, Attorney General; Elizabeth Baker Murrill,
Solicitor General; Josiah M. Kollmeyer, Assistant Solicitor
General; Department of Justice, Baton Rouge, Louisiana;
Steven T. Marshall, Attorney General, Alabama; Mark
Brnovich, Attorney General, Arizona; Leslie Rutledge,
Attorney General, Arkansas; Christopher M. Carr, Attorney
General, Georgia; Lawrence G. Wasden, Attorney General,
Idaho; Aaron Negangard, Chief Deputy Attorney General,
Indiana; Derek Schmidt, Attorney General, Kansas; Daniel
Cameron, Attorney General, Kentucky; Lynn Fitch, Attorney
General, Mississippi; Timothy C. Fox, Attorney General,
Montana; Douglas J. Peterson, Attorney General, Nebraska;
Wayne Stenehjem, Attorney General, North Dakota; Dave
Yost, Attorney General, Ohio; Mike Hunter, Attorney
General, Oklahoma; Alan Wilson, Attorney General, South
Carolina; Jason Ravnsborg, Attorney General, South Dakota;
Ken Paxton, Attorney General, Texas; Sean D. Reyes,
Attorney General, Utah; Patrick Morrisey, Attorney General,
West Virginia; for Amici Curiae States of Louisiana,
Alabama, Arizona, Arkansas, Georgia, Idaho, Indiana,
Kansas, Kentucky, Mississippi, Montana, Nebraska, North
Dakota, Ohio, Oklahoma, South Carolina, South Dakota,
Texas, Utah, and West Virginia.
Dan Jackson, Special Deputy Corporation Counsel, Keker
Van Nest & Peters LLP, San Francisco, California, for Amici
Curiae City and County of Honolulu, County of Kaua‘i, and
County of Maui.

App. 9

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 10 of 215

10

YOUNG V. STATE OF HAWAII

Brian R. Matsui and Samuel B. Goldstein, Morrison &
Foerster LLP, Washington, D.C.; Jamie A. Levitt and Janie
C. Buckley, Morrison & Foerster LLP, New York, New
York; for Amici Curiae Corpus Linguistics Professors and
Experts.
Michael T. Jean, National Rifle Association of America—
Institute for Legislative Action, Fairfax, Virginia, for Amicus
Curiae National Rifle Association of America.
Matthew J. Silveira, Jones Day, San Francisco, California, for
Amici Curiae Social Scientists and Public Health
Researchers.
Mark D. Selwyn, Wilmer Cutler Pickering Hale and Dorr
LLP, Palo Alto, California; Nicholas G. Purcell, Wilmer
Cutler Pickering Hale and Dorr LLP, Los Angeles,
California; for Amici Curiae Professors of History and Law.
Antonio J. Perez-Marques, Sushila Rao Pentapati, Victor
Obasaju, Korey Boehm, and Thomas Dec, Davis Polk &
Wardwell LLP, New York, New York, for Amicus Curiae
Prosecutors Against Gun Violence.
Joseph G.S. Greenlee, Firearms Policy Coalition,
Sacramento, California; David B. Kopel, Independence
Institute, Denver, Colorado; for Amici Curiae Professors of
Second Amendment Law, Firearms Policy Coalition,
Firearms Policy Foundation, Cato Institute, Madison Society
Foundation, California Gun Rights Foundation, Second
Amendment Foundation, and Independence Institute.
C.D. Michel, Sean A. Brady, and Matthew D. Cubeiro,
Michel & Associates P.C., Long Beach, California; James

App. 10

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 11 of 215

YOUNG V. STATE OF HAWAII

11

Hochberg, James Hochberg Attorney at Law LLLC,
Honolulu, Hawaii; for Amici Curiae Hawaii Rifle
Association, California Rifle & Pistol Association Inc., and
Gun Owners of California.
Mark M. Murakami, Damon Key Leong Kupchak Hastert,
Honolulu, Hawaii; Jonathan Lowy, Kelly Sampson, and
Christa Nichols, Brady, Washington, D.C.; for Amicus Curiae
Brady.

App. 11

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 12 of 215

12

YOUNG V. STATE OF HAWAII
OPINION
TABLE OF CONTENTS

I. BACKGROUND AND PROCEEDINGS . . . . . . . . . 15
A. Hawai‘i’s Licensing Scheme. . . . . . . . . . . . . . . . . 15
1. History of Firearm Regulation in Hawai‘i . . . 15
2. Hawai‘i’s Current Scheme . . . . . . . . . . . . . . . 18
a. The statute. . . . . . . . . . . . . . . . . . . . . . . . . 18
b. The County of Hawai‘i’s regulations . . . . 19
c. Hawai‘i Attorney General Opinion
Letter . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
B. Facts and Proceedings . . . . . . . . . . . . . . . . . . . . . 22
II. THE STANDARDS FOR OUR REVIEW . . . . . . . . . 25
A. Standards of Review of Law and Fact . . . . . . . . . 25
B. Scope of Our Review. . . . . . . . . . . . . . . . . . . . . . . 25
C. Substantive Standards for the Second
Amendment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
1. Heller . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
2. Our Post-Heller Framework . . . . . . . . . . . . . . 34
III. PUBLIC CARRY OF FIREARMS AND THE
SCOPE OF THE SECOND AMENDMENT . . . . . . . 36
A. The English Right to Bear Arms in Public
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40
1. The Royal Decrees . . . . . . . . . . . . . . . . . . . . . 40
2. The Statute of Northampton . . . . . . . . . . . . . . 43
a. The statute. . . . . . . . . . . . . . . . . . . . . . . . . 43
b. Enforcement . . . . . . . . . . . . . . . . . . . . . . . 47
c. Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
d. Treatises . . . . . . . . . . . . . . . . . . . . . . . . . . 52
3. The English Bill of Rights . . . . . . . . . . . . . . . 55
B. Colonial Restrictions on the Right to Bear
Arms in Public . . . . . . . . . . . . . . . . . . . . . . . . . . . 56

App. 12

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 13 of 215

YOUNG V. STATE OF HAWAII

13

C. Post Second Amendment Restrictions on the
Right to Bear Arms . . . . . . . . . . . . . . . . . . . . . . . . 62
1. Post-Ratification Restrictions . . . . . . . . . . . . . 64
2. Nineteenth-Century Restrictions
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65
a. The statutes . . . . . . . . . . . . . . . . . . . . . . . . 65
b. The cases. . . . . . . . . . . . . . . . . . . . . . . . . . 73
c. Treatises . . . . . . . . . . . . . . . . . . . . . . . . . . 87
3. Twentieth-Century Restrictions . . . . . . . . . . . 92
D. The Power to Regulate Arms in the Public
Square . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 96
1. The Basic Rule . . . . . . . . . . . . . . . . . . . . . . . . 96
2. The Exceptions . . . . . . . . . . . . . . . . . . . . . . . 107
a. Classes of persons. . . . . . . . . . . . . . . . . . 107
b. Places . . . . . . . . . . . . . . . . . . . . . . . . . . . 108
c. Licensing and good-cause requirements 108
d. Surety . . . . . . . . . . . . . . . . . . . . . . . . . . . 109
E. Response to the Dissent . . . . . . . . . . . . . . . . . . . 113
F. Application to HRS § 134-9 . . . . . . . . . . . . . . . . 122
IV. OTHER CLAIMS. . . . . . . . . . . . . . . . . . . . . . . . . . . 123
A. Prior Restraint . . . . . . . . . . . . . . . . . . . . . . . . . . 124
B. Procedural Challenge. . . . . . . . . . . . . . . . . . . . . 126
V. CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 127

App. 13

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 14 of 215

14

YOUNG V. STATE OF HAWAII

BYBEE, Circuit Judge:
The State of Hawai‘i requires its residents to obtain a
license to carry a firearm in public. To satisfy the statutory
requirements for an open-carry license, residents must
demonstrate “the urgency or the need” to carry a firearm,
must be of good moral character, and must be “engaged in the
protection of life and property.” Appellant George Young
applied for a firearm-carry license twice in 2011, but failed to
identify “the urgency or the need” to openly carry a firearm
in public. Instead, Young relied upon his general desire to
carry a firearm for self-defense.
Both of Young’s
applications were denied. Young brought a facial challenge
to Hawai‘i’s firearm-licensing law under the Second
Amendment and the Due Process Clause of the Fourteenth
Amendment. The district court upheld Hawai‘i’s statute.
We have previously held that individuals do not have a
Second Amendment right to carry concealed weapons in
public. Peruta v. County of San Diego, 824 F.3d 919 (9th
Cir. 2016) (en banc). The question presented in this case is
whether individuals have a right to carry weapons openly in
public. In order to answer that question, and consistent with
the Supreme Court’s decisions in District of Columbia v.
Heller, 554 U.S. 570 (2008), and McDonald v. City of
Chicago, 561 U.S. 742 (2010), we ask, first, whether
Hawai‘i’s law affects conduct protected by the Second
Amendment. If so, we then determine if the law can survive
the appropriate level of scrutiny. After careful review of the
history of early English and American regulation of carrying
arms openly in the public square, we conclude that Hawai‘i’s
restrictions on the open carrying of firearms reflect
longstanding prohibitions and that the conduct they regulate
is therefore outside the historical scope of the Second

App. 14

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 15 of 215

YOUNG V. STATE OF HAWAII

15

Amendment. Accordingly, Hawai‘i’s firearms-carry scheme
is lawful. We affirm the judgment of the district court.
I. BACKGROUND AND PROCEEDINGS
A. Hawai‘i’s Licensing Scheme
1. History of Firearm Regulation in Hawai‘i
Hawai‘i law began limiting public carriage of dangerous
weapons, including firearms, more than 150 years
ago—nearly fifty years before it became a U.S. territory and
more than a century before it became a state. Hawai‘i
enacted its first statutory regulation of public carry in 1852.
The aptly named “Act To Prevent the Carrying of Deadly
Weapons” recognized that “the habit of carrying deadly
weapons is dangerous to life and the public peace.” Act of
May 25, 1852, 1852 Haw. Sess. Laws 19. To combat those
risks, Hawai‘i’s pre-territorial legislative council prescribed
fines and imprisonment for “[a]ny person not authorized by
law, who shall carry, or be found armed with, any bowieknife, sword-cane, pistol, air-gun, slung-shot or other deadly
weapon.” Id. § 1. The Act of May 25, 1852 categorically
exempted certain professionals “authorized to bear arms,”
such as those “holding official, military, or naval rank . . .
when [the firearm was] worn for legitimate purposes.” Id.
§ 2.
Hawai‘i’s regulation of dangerous weapons remained in
effect after Hawai‘i consented to annexation as a U.S.
territory in 1898. Under the Newlands Resolution, “[t]he
municipal legislation of the Hawaiian Islands . . . not
inconsistent with this joint resolution nor contrary to the
Constitution of the United States nor to any existing treaty of

App. 15

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 16 of 215

16

YOUNG V. STATE OF HAWAII

the United States, shall remain in force until the Congress of
the United States shall otherwise determine.” Resolution of
July 7, 1898, 30 Stat. 750. See Territory of Hawai‘i v.
Mankichi, 190 U.S. 197, 209 (1903). Hawai‘i’s territorial
legislature renewed its 1852 limitations on the carrying of
dangerous weapons in a 1905 Act, as amended in 1913. Haw.
Rev. Laws, ch. 209, § 3089 (1905), as amended 1913 Haw.
Sess. Laws 25, act 22, § 1. Like its predecessors, the 1913
statute made it unlawful to carry deadly weapons unless
“authorized by law.” Id. The statute imposed civil and
criminal penalties on anyone who carried a “deadly weapon”
without prior authorization “unless good cause be shown for
having such dangerous weapon.” Id.
In 1927, Hawai‘i implemented its first restriction on
firearms specifically, as opposed to restrictions on the broader
class of “deadly weapons.” In a section entitled “Carrying or
keeping small arms by unlicensed person,” the law provided:
Except as otherwise provided in Sections 7
and 11 hereof in respect of certain licensees,
no person shall carry, keep, possess or have
under his control a pistol or revolver;
provided, however, that any person who shall
have lawfully acquired the ownership or
possession of a pistol or revolver may, for
purposes of protection and with or without a
license, keep the same in the dwelling house
or business office personally occupied by him,
and, in the case of an unlawful attack upon
any person or property in said house or office,
said pistol or revolver may be carried in any
lawful, hot pursuit of the assailant.

App. 16

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 17 of 215

YOUNG V. STATE OF HAWAII

17

Act 206, § 5, 1927 Haw. Sess. Laws 209, 209–211. The 1927
Act, which was modeled in part on the Uniform Firearms Act,
required a person to obtain a license to carry a “pistol or
revolver concealed upon his person or to carry one elsewhere
than in his home or office.” Id. § 7. Carry licenses could be
issued by the sheriff or a sitting judge after either had
determined that applicant was “suitable . . . to be so licensed.”
Id. An applicant was deemed “suitable” to carry a firearm
upon meeting a citizenship and age requirement and showing
a “good reason to fear an injury to his person or property, or
. . . other proper reason for carrying a pistol or revolver.” Id.
In 1933, the Hawai‘i legislature further refined its
concealed-carry licensing scheme. Act 26, § 8, 1933–1934
Haw. Sess. Laws Spec. Sess. 35, 39. To carry a concealed
weapon, the applicant had to demonstrate an “exceptional
case” and a “good reason to fear injury to his person or
property.” Id.
The “exceptional case” and “good reason to fear injury”
requirements included in the 1933 Act became staples of
Hawai‘i’s future firearm regulations. The Hawai‘i legislature
included those requirements in its 1961 Act “Relating to
Permits to Carry Firearms.” Act 163, 1961 Haw. Sess. Laws
215. The 1961 regulations mirrored those in the 1933 statute
and required an applicant to demonstrate an “exceptional
case” and a “good reason [for the applicant] to fear injury to
his person or property” before publicly carrying a firearm. Id.
§ 1. Whereas the 1933 Act only applied to concealed carry,
however, the 1961 Act announced a new regulatory scheme
for open carry. An individual seeking to carry a firearm
openly in public was required to demonstrate “the urgency of
the need” to carry and must be “engaged in the protection of
life and property.” Id. If the applicant made such a showing

App. 17

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 18 of 215

18

YOUNG V. STATE OF HAWAII

and was not otherwise prohibited from possessing a firearm,
the chief of police had discretion to grant the carry
application. Id. (“[T]he respective chiefs of police may grant
a license . . . .”).
2. Hawai‘i’s Current Scheme
a. The statute. Hawai‘i’s current scheme allows
individuals to possess firearms under a variety of
circumstances. First, individuals who are not members of law
enforcement, the armed forces, or certain federal agencies and
wish to carry firearms in places outside of their homes, places
of business or sojourns must obtain a license from the county
chief of police. Hawai‘i Revised Statutes (HRS) § 134-9(a).
Second, individuals may possess firearms in their homes,
places of business, and sojourns. Id. § 134-23. Third,
persons who are authorized by their public employers,
including law enforcement, the armed forces, and certain
federal agencies, are exempt from other restrictions and may
carry in public. Id. § 134-11(a). Fourth, any person, sixteen
years or older “may carry and use any lawfully acquired rifle
or shotgun and suitable ammunition while actually engaged
in hunting or target shooting.” Id. § 134-5(a). Additionally,
“[a] person may carry unconcealed and use a lawfully
acquired pistol or revolver while actually engaged in hunting
game mammals.” Id. § 134-5(c).
Hawai‘i’s public carry licensing scheme is substantially
the same today as it was in 1961. Hawai‘i continues to
distinguish between concealed carry and open carry, although
it is not clear that the difference is particularly significant. To
obtain a concealed carry license from a county chief of
police, a person must first show “an exceptional case” and a
“reason to fear injury to [his or her] person or property.”

App. 18

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 19 of 215

YOUNG V. STATE OF HAWAII

19

HRS § 134-9(a). As to open carry, the statute states in
relevant part:
Where the urgency or the need has been
sufficiently indicated, the respective chief of
police may grant to an applicant of good
moral character who is a citizen of the United
States of the age of twenty-one years or more,
is engaged in the protection of life and
property, and is not prohibited under section
134-7 from the ownership or possession of a
firearm, a license to carry a pistol or revolver
and ammunition therefor unconcealed on the
person within the county where the license is
granted.
Id. Many of the statute’s requirements are objective. For
instance, whether the applicant meets the citizenship, age, or
legal-ownership requirements may be determined by the
reviewing chief of police by a simple review of the
application and law enforcement databases. On the other
hand, “the urgency or the need” for the license and the
applicant’s participation in “the protection of life and
property” appear to be subjective requirements not
discoverable by reference to a law enforcement database.
b. The County of Hawai‘i’s regulations. In October
1997, the County of Hawai‘i—where Young lives and where
he applied for several carry permits—promulgated countywide rules to evaluate permit applications under § 134-9. See
HRS § 91-3 (detailing the rule-making process for county
boards, county commissions, and other agencies authorized
by law to make rules). These “Rules and Regulations
Governing the Issuance of Licenses to Carry Concealed and

App. 19

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 20 of 215

20

YOUNG V. STATE OF HAWAII

Unconcealed Weapons” outline the process the chief of police
would follow in reviewing carry applications under § 134-9.
The county regulation imposed different rules for
concealed arms and for unconcealed arms consistent with
§ 134-9’s bifurcation, but a brief review of the regulations
reveals several inconsistencies between the state statute and
the county’s administration. At the outset, it is clear that
Hawai‘i County’s regulations are more demanding than
§ 134-9. For instance, the regulations seem to consider opencarry permit applications to be available only to “private
detectives and security guards.” In fact, the first subheading
reads “Rules and Regulations Governing the Carrying of
Concealed Weapons and the Carrying of Weapons by Private
Detectives and Security Guards.” The regulation also
provides the chief of police a mechanism by which to cancel
a previously issued carry permit upon termination of the
applicant’s employment. Meanwhile, § 134-9 does not
impose a professional requirement on the applicant, nor does
it distinguish between applications by security guards and
applications by other citizens.
The county regulation also applies to a broader class of
weapons than does § 134-9. Whereas § 134-9 applies only to
the public carry of “a pistol or revolver and ammunition
therefor,” the county regulation defines “firearm” to include
“rifles, shotguns, automatic firearms, noxious gas projectors,
mortars, bombs, and cannon[s].” Section 134-9 did not
contemplate any of those classes of arms. Similarly, the
county regulation also applies to non-firearm “weapons” that
could be concealed on the person, including “knives,
blackjacks, batons, night sticks, and chemical agents designed
to temporarily subdue or incapacitate a person.” Again,
§ 134-9 is silent on such weapons.

App. 20

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 21 of 215

YOUNG V. STATE OF HAWAII

21

c. Hawai‘i Attorney General Opinion Letter. After this
litigation began, the Hawai‘i Attorney General issued a
formal opinion interpreting § 134-9’s requirements and
clarified that § 134-9 does not reserve open-carry permits to
security guards. See State of Haw., Dep’t of the Att’y Gen.,
Opinion Letter No. 18-1, Availability of Unconcealed-Carry
Licenses (Sept. 11, 2018) (https://ag.hawaii.gov/wp-content
/uploads/2018/09/AG-Opinion-No.-18-1.pdf) (Att’y Gen.
Letter). The Attorney General unequivocally rejected
Hawai‘i County’s interpretation that an open-carry permit
applicant must demonstrate a professional need to carry, such
as being a private investigator or security guard. Id. at 3–4.
The Attorney General concluded that such a showing would
be inconsistent with § 134-9, which “does not limit
unconcealed-carry licenses to individuals employed as private
security officers.” Id. at 6. All that the statute requires is that
the applicant (1) meet the objective qualifications; (2) be of
good moral character; (3) demonstrate “sufficient need”; and
(4) present no other reason to be disqualified. Id. at 6–7.
According to the Attorney General’s Opinion Letter, an
applicant’s need is “sufficient” if it is urgent and is related to
“engage[ment] in the protection of life and property.” Id. at 7
(citing HRS § 134-9). The urgency requirement “connote[s]
an immediate, pressing, and heightened interest in carrying a
firearm.” Id. at 8. Coupled with the requirement that the
applicant be “engaged in the protection of life and property,”
an applicant must demonstrate more than a “generalized
concern for safety.” Id.; see also id. at 7 (noting that the
statute only requires an applicant to show a need for armed
self-defense “that substantially exceeds the need possessed by
ordinary law-abiding citizens”) (citing Drake v. Filko,
724 F.3d 426, 428 & n.2 (3d Cir. 2013)). The Attorney
General provided several examples of applicants who would

App. 21

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 22 of 215

22

YOUNG V. STATE OF HAWAII

plausibly qualify for an open-carry license regardless of their
profession.1
The Attorney General’s Opinion Letter did not repeal
Hawai‘i County’s regulations, but its interpretation of state
law is considered “highly instructive.” See Kepo<o v. Watson,
952 P.2d 379, 387 n.9 (Haw. 1998). And even without the
Attorney General’s clarification, the statute—not the county’s
regulation—would control. See Ruggles v. Yagong, 353 P.3d
953, 964 (Haw. 2015) (citing HRS § 46-1.5(13)) (Hawai‘i
law “authorizes county ordinances ‘to protect health, life, and
property . . .’ as long as they are ‘not inconsistent with’” state
law.). Further, each of Hawai‘i’s other counties agree that
§ 134-9 does not require consideration of an applicant’s
profession when evaluating a carry-permit application. See
Brief of City and County of Honolulu, et. al., as Amici Curiae
4–6 (“The Attorney General’s interpretation of section 134-9,
HRS, comports with [Honolulu, Kaua‘i, and Maui] Counties’
past and current practice[s].”).
B. Facts and Proceedings
George Young wishes to carry a firearm in
public—concealed or unconcealed—but does not fall into one
of Hawai‘i’s categorical exceptions for law enforcement and
military personnel. In 2011, Young applied twice for a
license in the County of Hawai‘i. In both applications,
Young cited a general need for “personal security, selfpreservation and defense, and protection of personal family
This non-exhaustive list included: (1) a victim of domestic abuse
whose former spouse has violated protective orders; (2) a victim of
stalking with credible threats of bodily harm; and (3) a witness to a crime
who has received credible threats to her safety. Att’y Gen. Letter at 8.
1

App. 22

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 23 of 215

YOUNG V. STATE OF HAWAII

23

members and property.” Hawai‘i County police chief, Henry
Kubojiri, denied both of Young’s applications. Chief
Kubojiri determined that Young had neither shown an
“exceptional case[] or demonstrated urgency.”
In 2012 Young filed a pro se complaint under 42 U.S.C.
§ 1983 against the State of Hawai‘i, the governor, the
attorney general, the County of Hawai‘i, the mayor of the
County of Hawai‘i, the Hilo County Police Department, the
County of Hawai‘i chief of police, and unnamed persons and
corporations.2 He brought separate counts under the Bill of
Attainder Clause, the Contracts Clause, the Second
Amendment, the Ninth Amendment, and the Privileges or
Immunities and Due Process Clauses of the Fourteenth
Amendment. Young asked for the permanent enjoining of
HRS § 134, the issuance of a permit, and compensatory and
punitive damages.
The district court dismissed all of Young’s claims in a
published order. Young v. Hawai‘i, 911 F. Supp. 2d 972
(D. Haw. 2012). Although the district court dismissed
Young’s claims on various grounds, the only grounds
relevant here relate to his Second Amendment and Due
Process claims; his other claims have been abandoned on
appeal. With respect to the Second Amendment, the district
court first determined that Hawai‘i’s firearm licensing
scheme did not implicate conduct that is protected by the
Second Amendment. Young, 911 F. Supp. 2d at 987–91.
Looking to “[t]he weight of authority in the Ninth Circuit,
other Circuits, and state courts,” the district court concluded
Young has filed two prior actions. See Young v. Hawai‘i, 73 Fed.
R. Serv. 3d 1635 (D. Haw. 2009); Young v. Hawai‘i, 548 F. Supp. 2d 1151
(D. Haw. 2008). Both actions were dismissed.
2

App. 23

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 24 of 215

24

YOUNG V. STATE OF HAWAII

that “Heller and McDonald establish[] only a narrow
individual right to keep an operable handgun at home for selfdefense.” Id. at 989. Because Hawai‘i’s law permits
individuals to possess firearms in the home and in a place of
business, HRS § 134-9 did not impose on a right protected by
the Second Amendment. Id. at 989–90.
Alternatively, the district court found that even if
Hawai‘i’s statute implicated conduct protected by the Second
Amendment, the statute would survive intermediate
constitutional scrutiny. Id. at 991–92. The district court
determined that Hawai‘i’s law “protects an important and
substantial interest in safeguarding the public from the
inherent dangers of firearms.” Id. at 991. And because
Hawai‘i’s law did not burden in-home possession of firearms
and was not an outright ban on the firearms, the district court
concluded that Hawai‘i’s restrictions reasonably fit its
substantial interest in protecting the public from gun violence.
Id. The court rejected Young’s related argument that
Hawai‘i’s statute vested in the chief of police unbridled
discretion as to whether to grant a carry permit, reasoning that
the “prior restraint doctrine is applicable only in the First
Amendment context.” Id.
The district court also dismissed Young’s due process
claim on the ground that he had no liberty or property interest
in carrying a firearm in public. Id. at 993. The district court
dismissed Young’s complaint, id. at 995–96, and issued a
final judgment.
Young timely appealed, and a divided panel of our court
reversed in part and dismissed in part the district court’s
judgment. Young v. Hawai‘i, 896 F.3d 1044 (9th Cir. 2018).
We granted rehearing en banc to determine whether

App. 24

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 25 of 215

YOUNG V. STATE OF HAWAII

25

Hawai‘i’s regulation of open carry violates the Second
Amendment right to keep and bear arms. Young v. Hawai‘i,
915 F.3d 681 (9th Cir. 2019).
II. THE STANDARDS FOR OUR REVIEW
A. Standards of Review of Law and Fact
The district court had jurisdiction under 28 U.S.C. § 1331,
and we have jurisdiction under 28 U.S.C. § 1291. We review
de novo a district court’s dismissal under Rule 12(b)(6).
Curtis v. Irwin Indus., Inc., 913 F.3d 1146, 1151 (9th Cir.
2019). We accept the allegations in Young’s complaint as
true and construe the pleadings in the light most favorable to
him. See Rowe v. Educ. Credit Mgmt. Corp., 559 F.3d 1028,
1029–30 (9th Cir. 2009).
B. Scope of Our Review
Having identified the applicable standard of review, we
must now consider the scope of our review. During the
supplemental briefing that we allowed after granting en banc
review, the parties disputed what claims Young actually
raised before the district court.3 Young argued that his claims
In the district court, Young argued that § 134-9 violated the Bill of
Attainder Clause, the Contracts Clause, the Ninth Amendment, and the
Privileges or Immunities Clause. He has abandoned those claims on
appeal.
3

Young’s lengthy and rambling complaint focused on firearms.
Nevertheless, in the relief section, Young referred to other arms, “e.g.,
stun gun, tasers, mace spray, switch blade etc.” He did not raise these in
any briefing before the district court. In his panel briefing, Young, for the
first time, referred to Hawai‘i’s prohibitions on the possession of electric

App. 25

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 26 of 215

26

YOUNG V. STATE OF HAWAII

before the district court included both a facial challenge and
an as-applied challenge to HRS § 134-9. Young pointed to
several instances where, he claimed, he preserved an asapplied challenge both before the district court and at his
panel-stage briefing. Hawai‘i4 countered that Young raised
only a facial challenge to the statute below and, to the extent
that Young brought an as-applied challenge, he had forfeited
that claim.
The difference between the two claims is potentially
important for Young. It is no secret that a facial challenge to
a statute is more difficult to prove than an as-applied
challenge. See United States v. Salerno, 481 U.S. 739, 745
(1987). A facial challenge is a claim that the legislature has
violated the Constitution, while an as-applied challenge is a
claim directed at the execution of the law. See Nicholas
Quinn Rosenkranz, The Subjects of the Constitution, 62 Stan.
L. Rev. 1209, 1235–42 (2010); see also Henry Paul
Monaghan, Overbreadth, 1981 Sup. Ct. Rev. 1, 5, 32 n.134
(“[I]f a federal statute is found facially defective it ‘is void in
guns, HRS § 134-16; switchblades, id. § 134-52; and butterfly knives, id.
§ 134-53. He also argued that Hawai‘i prohibits the carrying of rifles and
shotguns publicly, id. § 134-23, § 134-24, in violation of the Second
Amendment. He did not raise these arguments in his supplemental
briefing after we granted en banc review. Because Young did not raise
these arguments properly before the district court, we deem them forfeited.
The district court dismissed the State of Hawai‘i, the governor, and
the attorney general as defendants. Young, 911 F. Supp. 2d at 983. Young
does not challenge that ruling, but has pressed his claims against the
County of Hawai‘i, the mayor and the chief of police. The State has
appeared as amicus, not as a party to the appeal. For convenience,
because this is a facial challenge to a Hawai‘i statute, we will refer to the
State as the party; in fact the remaining defendants are the County of
Hawai‘i and its officials charged with following state law.
4

App. 26

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 27 of 215

YOUNG V. STATE OF HAWAII

27

toto, barring all further actions under it, in this, and every
other case,’” but an as-applied challenge is “wholly fact
dependent: Do the determinative facts shown by the evidence
fall on the protected side of the applicable rule of
constitutional privilege?”) (footnote and citation omitted).
Because a facial challenge is directed to the legislature, the
plaintiff must show that “no set of circumstances exists under
which the [statute] would be valid,” Hotel & Motel Ass’n of
Oakland v. City of Oakland, 344 F.3d 959, 971 (9th Cir.
2003) (citing Salerno, 481 U.S. at 745) (alteration in
original), and our review of the Hawai‘i statute would be
limited to the text of the statute itself. Calvary Chapel Bible
Fellowship v. County of Riverside, 948 F.3d 1172, 1177 (9th
Cir. 2020). On the other hand, if Young raised and preserved
an as-applied challenge to the Hawai‘i law, our review would
include the circumstances surrounding the chief of police’s
decision to deny Young a license. See id.
We need not determine whether Hawai‘i County properly
applied § 134-9, because Young did not bring an as-applied
challenge. Our review of the record demonstrates that,
although Young peppered his pleadings with the words
“application” and “enforcement,” he never pleaded facts to
support an as-applied challenge. He did not brief such a
question to the district court. When the district court
dismissed his complaint and treated it as exclusively a facial
challenge, Young, 911 F. Supp. 2d at 991, Young did not
request reconsideration by the district court to address an asapplied claim.5 To be sure, the district court acknowledged

We agree with Judge Nelson that Young was not required to seek
reconsideration to preserve his claims for appeal. See R. Nelson Dissent
at 205. We merely note that Young did not raise the issue of his allegedly
5

App. 27

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 28 of 215

28

YOUNG V. STATE OF HAWAII

that Young was denied a license, id. at 979–80, but referred
to the fact as relevant to Young’s standing, id. at 987, not to
his causes of action. As we explain in greater detail below,
Young did not set out such a claim as an issue before our
court in his panel appeal, in which he was represented by
counsel. Those briefs were filed in 2013. He did not raise
the issue in supplemental briefs lodged with the court in
2016, and ordered filed in 2018, also submitted by counsel.
The panel’s 2018 opinion noted the various arguments Young
raised in his complaint that he abandoned on appeal and
“several new arguments on appeal.” Because “Young failed
properly to raise these arguments before the district court,”
the panel deemed them forfeited. Young, 896 F.3d at 1050
n.3. Like the district court before it, the panel did not
recognize any as-applied challenge in Young’s complaint or
briefings. Young’s as-applied argument appears for the first
time in his supplemental briefing to the en banc court, which
was filed in June 2020—more than seven years after his
opening brief was filed.
We will not consider the claim. At best, Young’s putative
as-applied challenge was buried in his complaint and not well
pleaded. At worst, even assuming he pleaded it, Young has
long forfeited the challenge.6 The relaxed pleading standard
mischaracterized as-applied challenge to the district court below or to the
panel on appeal.
If we were to take seriously a claim that Young properly pleaded,
and preserved, an as-applied challenge, then the district court should not
have issued a final judgment. In that case, Young’s appeal was premature,
and we should have dismissed his appeal for lack of jurisdiction. See
Galaza v. Wolf, 954 F.3d 1267, 1272 (9th Cir. 2020) (dismissing appeal
for lack of subject matter jurisdiction where a claim remained before the
district court); Chacon v. Babcock, 640 F.2d 221, 222 (9th Cir. 1981) (an
6

App. 28

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 29 of 215

YOUNG V. STATE OF HAWAII

29

we afford pro se litigants does not apply to counseled filings.
See Erickson v. Pardus, 551 U.S. 89, 94 (2007) (Pro se filings
“must be held to less stringent standards than formal
pleadings drafted by lawyers.”) (citation omitted); Mann v.
Boatright, 477 F.3d 1140, 1148 n.4 (10th Cir. 2007) (“While
we generally construe pro se pleadings liberally, the same
courtesy need not be extended to licensed attorneys.”)
(internal citation omitted). Young’s counsel never raised or
argued an as-applied challenge even when he was permitted
a supplemental brief. We do “not ordinarily consider matters
on appeal that are not specifically and distinctly raised and
argued in appellant’s opening brief.” See Hayes v. Idaho
Corr. Ctr., 849 F.3d 1204, 1213 (9th Cir. 2017) (quoting
Officers for Just. v. Civ. Serv. Comm’n of City & Cnty. of San
Francisco, 979 F.2d 721, 726 (9th Cir. 1992)).
If, as our dissenting colleagues claim, Young raised an asapplied challenge that the district court mischaracterized or
ignored, see O’Scannlain Dissent at 188; R. Nelson Dissent
at 196, the point appears nowhere in his panel-stage briefing.
Young’s opening brief mentions the application of HRS
§ 134-9 twice in passing but presents no further argument to
support an as-applied challenge. Instead, Young challenges
HRS § 134-9 exclusively on its face, arguing, for example,
that HRS § 134-9’s “exceptional case” requirement renders
the statute unconstitutional, that HRS § 134-9 violates the
broad right to carry firearms in public, and that HRS § 134-9
impermissibly vests a chief of police with discretion to deny

order is not appealable unless it disposes of each of the parties’ claims or
is appropriate under Fed. R. Civ. P. 54(b)). No one has raised the
argument that Young’s appeal was premature or that the district court’s
judgment was anything but a final decision on the merits. We decline to
manufacture jurisdictional issues.

App. 29

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 30 of 215

30

YOUNG V. STATE OF HAWAII

carry permits. At one point, Young even compares his
challenge to HRS § 134-9 to State v. Delgado, 692 P.2d 610
(Or. 1984), where “[t]he Plaintiff . . . like Mr. Young, made a
facial challenge” to an Oregon switchblade ban. None of
Young’s counseled arguments in his opening brief suggest
that he had brought an as-applied challenge. Nor did
Young’s panel-stage reply brief argue that the district court
mischaracterized or ignored an as-applied challenge.
We think it is more likely that Young brought no asapplied challenge at all, and thus he may pursue whatever
remedies remain to him. In either case, we are under no
obligation to consider arguments unless they are “specifically
and distinctly argued.” Miller v. Fairchild Indus., Inc.,
797 F.2d 727, 738 (9th Cir. 1986); Hayes, 849 F.3d at 1213.
Young did not meet that standard. Even affording Young’s
arguments the deference we typically give to pro se
pleadings, Resnick v. Hayes, 213 F.3d 443, 447 (9th Cir.
2000), a party’s “bare assertion[s],” without more, will not
preserve an argument for review, especially where “a host of
other issues are presented for review,” Greenwood v. F.A.A.,
28 F.3d 971, 977 (9th Cir. 1994) (citation omitted).
We are cognizant of our dissenting colleagues’
reservations about our holding that Young did not raise an asapplied challenge and what that might mean for future pro se
litigants. R. Nelson Dissent at 197–98; see also O’Scannlain
Dissent at 188. Today’s opinion, however, does not alter in
any way the relaxed pleading standard we regularly afford
pro se litigants. We merely hold that in this case, Young has
not met that standard.
The scope of our review will be limited to Young’s facial
challenge to HRS § 134-9. Young brought a Second

App. 30

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 31 of 215

YOUNG V. STATE OF HAWAII

31

Amendment claim, which he supported in part with
arguments based on the First Amendment’s prior restraint
doctrine, and a claim under the Due Process Clause of the
Fourteenth Amendment. We address his primary Second
Amendment claim in Part III and his other claims in Part IV.
C. Substantive Standards for the Second Amendment
The Second Amendment reads: “A well regulated
Militia, being necessary to the security of a free State, the
right of the people to keep and bear Arms, shall not be
infringed.” U.S. Const. amend. II. Our review of Hawai‘i’s
firearm regulation is guided by the Supreme Court’s
landmark decisions in District of Columbia v. Heller,
554 U.S. 570 (2008), and McDonald v. City of Chicago,
561 U.S. 742, 767 (2010). Both parties contend that Heller
supports its view of the Second Amendment. According to
Young, Heller identified a broad right to possess and carry
firearms in public because the Second Amendment protects
one’s right to self-defense, wherever that need arises. On the
State of Hawai‘i’s reading, Heller said no such thing.
According to the State, Heller narrowly defined the right to
keep and bear arms to self-defense in the home and,
accordingly, prohibitions on firearms that do not interfere
with self-defense in the home are valid. We will begin with
a discussion of Heller and then review the two-step approach
we developed after Heller.
1. Heller
The Court in Heller considered a District of Columbia
statute prohibiting the possession of loaded firearms inside
the home. The statute required residents to keep their
firearms unloaded and secured with a trigger lock unless

App. 31

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 32 of 215

32

YOUNG V. STATE OF HAWAII

being used for approved recreational activities or held in a
place of business. Heller, 554 U.S. at 574–75 (citing D.C.
Code § 7-2507.02). The requirement that a firearm be
unloaded and bound by trigger lock rendered a lawfully
possessed firearm inoperable. Id. at 628. Dick Heller, a
resident of the District of Columbia and special police officer,
sought to enjoin enforcement of the D.C. statute insofar as it
prohibited the lawful possession of firearms within his own
home. Id. at 576.
Heller’s challenge to the D.C. statute presented the Court
with its “first in-depth examination of the Second
Amendment.” Id. at 635. In an extensive opinion, the Court
determined that the right to keep and bear arms is an
individual right held by the people, and not limited by the
prefatory clause—“a well regulated Militia”—only to “the
right to possess and carry a firearm in connection with militia
service.” Id. at 596, 577, 599. The Court also concluded that
the “right to keep and bear Arms” was not a new right created
by the Second Amendment but “codified a right ‘inherited
from our English ancestors.’” Id. at 599 (quoting Robertson
v. Baldwin, 165 U.S. 275, 281 (1897)). The right to keep and
bear arms was thus recognized, but not granted, in the
Constitution, “for it had always existed.” Id. at 619 (citing
John Ordronaux, Constitutional Legislation in the United
States 241–42 (1891)). Since the right to keep and bear arms
is an ancient one, the Court evaluated the history of the
Second Amendment starting with English history, and
continuing with American legal materials through the
ratification of the Fourteenth Amendment. Id. at 581–92,
606–19.
Although it was clear to the Court that the history of the
Second Amendment supported an individual right to bear

App. 32

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 33 of 215

YOUNG V. STATE OF HAWAII

33

arms that did not depend on militia service, the Court did not
undertake to explain how far the protection to bear arms
extended. That is, Heller was not an “exhaustive historical
analysis . . . of the full scope of the Second Amendment.” Id.
at 626. The Court acknowledged that the right to keep and
bear arms, “[l]ike most rights, . . . [is] not unlimited,” and that
it is not a right to “carry any weapon whatsoever in any
manner whatsoever and for whatever purpose.” Id. Heller
recognized that the Second Amendment necessarily accepted
certain “longstanding prohibitions” on the possession of
firearms; such restrictions are “presumptively lawful.” Id.
at 626–27, 627 n.26. Although the Court declined to create
an exhaustive list of such longstanding prohibitions, it
identified three classes of lawful prohibitions: bans on
possession by felons and the mentally ill; bans on possession
in sensitive places; and regulations on the commercial sale of
firearms. Id. at 626–27. The Court also determined that the
Second Amendment only protected weapons in “common
use,” id. at 627, including the handgun, which Heller called
the “quintessential self-defense weapon.” Id. at 629.
Heller held that an outright ban of firearms in the home
violates the Second Amendment. Id. at 628–29 (“The
handgun ban amounts to a prohibition of an entire class of
‘arms’ that is overwhelmingly chosen by American society
for that lawful purpose. . . . Under any of the standards of
scrutiny that we have applied to enumerated constitutional
rights, banning from the home ‘the most preferred firearm in
the nation to keep and use for protection of one’s home and
family,’ would fail constitutional muster.” (citation and
footnote omitted)). The extent to which the Second
Amendment protects the right to keep and bear arms outside
the home is less clear. To that issue, Heller posed more
questions than it answered. By tying the Second Amendment

App. 33

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 34 of 215

34

YOUNG V. STATE OF HAWAII

to the need to defend one’s self, Heller implied that some
right to bear arms may exist outside the home. See id. at 599
(the right to self-defense is a “central component of the right
itself”). But the Court’s caveats left open questions
concerning state restraints on persons, weapons, and other
restrictions for possessing arms outside the home. Id.
at 626–27.
Two years after Heller, the Supreme Court reaffirmed that
“[s]elf-defense is a basic right [and] . . . ‘the central
component’ of the Second Amendment right,” whose exercise
was “‘most acute’ in the home.” McDonald, 561 U.S. at 767
(quoting Heller, 554 U.S. at 599, 628). McDonald answered
a different question than Heller, namely, whether the Second
Amendment applies to the states. The Court held that the
Second Amendment was incorporated through the Due
Process Clause of the Fourteenth Amendment and, thus,
applies to the states. Id. In reaching that conclusion, the
Court once again looked to history, but this time to the postratification history of the Second Amendment and the place
of the Second Amendment in the debates over the Fourteenth
Amendment. Id. at 767–80.
2. Our Post-Heller Framework
Following Heller and McDonald, we have created a twostep framework to review Second Amendment challenges.
See Silvester v. Harris, 843 F.3d 816, 820–21 (9th Cir. 2016);
Peruta, 824 F.3d at 939; Jackson v. City and County of San
Francisco, 746 F.3d 953, 960–61 (9th Cir. 2014); United
States v. Chovan, 735 F.3d 1127, 1136 (9th Cir. 2013). Our
two-step test is similar to tests adopted by other circuits.
Chovan, 735 F.3d at 1134–37; Drake, 724 F.3d at 429;
Woollard v. Gallagher, 712 F.3d 865, 874–75 (4th Cir. 2013);

App. 34

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 35 of 215

YOUNG V. STATE OF HAWAII

35

Nat’l Rifle Ass’n of Am., Inc. v. Bureau of ATFE (NRA),
700 F.3d 185, 194 (5th Cir. 2012); United States v. Greeno,
679 F.3d 510, 518 (6th Cir. 2012); Heller v. District of
Columbia (Heller II), 670 F.3d 1244, 1252 (D.C. Cir. 2011);
Ezell v. City of Chicago, 651 F.3d 684, 701–04 (7th Cir.
2011); United States v. Reese, 627 F.3d 792, 800–01 (10th
Cir. 2010). First, we ask if the challenged law affects conduct
that is protected by the Second Amendment. Silvester,
843 F.3d at 821. We base that determination on the
“‘historical understanding of the scope of the right.’” Id.
(quoting Heller, 554 U.S. at 625). We are to inquire
whether there is persuasive historical evidence
showing that the regulation does not impinge
on the Second Amendment right as it was
historically understood. Laws restricting
conduct that can be traced to the founding era
and are historically understood to fall outside
of the Second Amendment’s scope may be
upheld without further analysis.
Id. (internal citations omitted); see also Jackson, 746 F.3d
at 960. Accordingly, a regulation “does not burden conduct
protected by the Second Amendment if the record contain[s]
evidence that [the subjects of the regulations] have been the
subject of longstanding, accepted regulation.” Fyock v.
Sunnyvale, 779 F.3d 991, 997 (9th Cir. 2015). We are
looking for “historical prevalence.” Id. Similarly, we may
uphold a law without further analysis if it falls within the
“presumptively lawful regulatory measures” that Heller
identified. Silvester, 843 F.3d at 821; see Heller, 554 U.S.
at 626–27, 627 n.26.

App. 35

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 36 of 215

36

YOUNG V. STATE OF HAWAII

If the challenged restriction burdens conduct protected by
the Second Amendment—either because “the regulation is
neither outside the historical scope of the Second
Amendment, nor presumptively lawful”—we move to the
second step of the analysis and determine the appropriate
level of scrutiny. Silvester, 843 F.3d at 821. We have
understood Heller to require one of three levels of scrutiny:
If a regulation “amounts to a destruction of the Second
Amendment right,” it is unconstitutional under any level of
scrutiny; a law that “implicates the core of the Second
Amendment right and severely burdens that right” receives
strict scrutiny; and in other cases in which Second
Amendment rights are affected in some lesser way, we apply
intermediate scrutiny. Id.
III. PUBLIC CARRY OF FIREARMS AND THE SCOPE
OF THE SECOND AMENDMENT
Consistent with this scheme, our first task is to determine
whether the right to carry a firearm openly in public is
protected by the Second Amendment. We have been down a
similar road before. In Peruta, we addressed the question of
whether the Second Amendment protected the right of
individuals to carry concealed arms. After canvassing the
historical record, we concluded that “the Second Amendment
does not protect the right of a member of the general public
to carry concealed firearms in public.” Peruta, 824 F.3d at
939. The question we address here is a variation on that
theme:
whether the Second Amendment guarantees
individuals the right to carry arms openly in public. It is a
question we specifically reserved in Peruta. Id. (“There may
or may not be a Second Amendment right for a member of
the general public to carry a firearm openly in public. The
Supreme Court has not answered that question, and we do not

App. 36

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 37 of 215

YOUNG V. STATE OF HAWAII

37

answer it here.”). And it is a question that has divided the
circuits. Compare Gould v. Morgan, 907 F.3d 659 (1st Cir.
2018) (upholding Massachusetts licensing scheme restricting
open carry); Kachalsky v. County of Westchester, 701 F.3d 81
(2d Cir. 2012) (same; New York licensing scheme); Drake,
724 F.3d 426 (same; New Jersey licensing scheme);
Woollard, 712 F.3d 865 (same; Maryland licensing scheme),
with Moore v. Madigan, 702 F.3d 933 (7th Cir. 2012)
(holding Illinois licensing scheme for open carry
unconstitutional); Wrenn v. District of Columbia, 864 F.3d
650 (D.C. Cir. 2017) (same; District of Columbia licensing
scheme).
Our sister circuits have, in large part, avoided extensive
historical analysis. The Second Circuit skimmed a handful of
American statutes and cases and decided against looking
solely “to this highly ambiguous history and tradition.”
Kachalsky, 701 F.3d at 91. The Third Circuit likewise was
“not inclined to . . . engag[e] in a round of full-blown
historical analysis.” Drake, 724 F.3d at 431; see Gould,
907 F.3d at 670 (concluding, without citation to historical
sources, that “the national historical inquiry does not dictate
an answer”); Woollard, 712 F.3d at 876. Each of these
circuits instead assumed that there was some Second
Amendment right to carry firearms in public and applied
intermediate scrutiny to the regulations at issue. Gould,
907 F.3d at 670–72; Drake, 724 F.3d at 435; Woollard,
712 F.3d at 876; Kachalsky, 701 F.3d at 93. The two circuits
that struck down state or D.C. licensing rules also largely
avoided the historical record. The D.C. Circuit thought that
Heller resolved the question so it could “sidestep the
historical debate.” Wrenn, 864 F.3d at 660. With little
review of historical materials, the Seventh Circuit announced
that “one doesn’t have to be a historian to realize that a right

App. 37

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 38 of 215

38

YOUNG V. STATE OF HAWAII

to keep and bear arms for personal self-defense in the
eighteenth century could not rationally have been limited to
the home.” Moore, 702 F.3d at 936. Both courts concluded
that Heller protected a broad right to self-defense that
extended beyond the home. Wrenn, 864 F.3d at 659; Moore,
702 F.3d at 937. To be clear, most of these courts cited some
historical materials, but no court undertook a systematic
review of the historical right to carry weapons in public. See,
e.g., Wrenn, 864 F.3d at 659–61; Drake, 724 F.3d at 432–34;
Moore, 702 F.3d at 936–37; Kachalsky, 701 F.3d at 90–91,
94–96.
We do not think we can avoid the historical record.
Heller relied heavily on history, and we do not think that it
exhausted all subsequent need to confront our history in
resolving challenges to other firearm regulations. See Peruta,
824 F.3d at 929–39 (reviewing the historical materials related
to concealed-carry restrictions). Indeed, the Court was
explicit on this point:
Justice Breyer chides us for leaving so many
applications of the right to keep and bear arms
in doubt, and for not providing extensive
historical justification for those regulations of
the right that we describe as permissible. But
since this case represents this Court’s first indepth examination of the Second Amendment,
one should not expect it to clarify the entire
field, any more than Reynolds v. United
States, 98 U.S. 145 (1879), our first in-depth
Free Exercise Clause case, left that area in a
state of utter certainty. And there will be time
enough to expound upon the historical
justifications for the exceptions we have

App. 38

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 39 of 215

YOUNG V. STATE OF HAWAII

39

mentioned if and when those exceptions come
before us.
Heller, 554 U.S. at 635 (internal citation omitted) (emphasis
added).
We begin with a review of the historical record, starting
with the English tradition, and then review the Colonial era
and the post-Second Amendment era. Our focus on the
American sources will be on state laws and cases. As the
Court explained in Heller, “[f]or most of our history, the Bill
of Rights was not thought applicable to the States, and the
Federal Government did not significantly regulate the
possession of firearms by law-abiding citizens.” 554 U.S. at
625. As we review these records, we are well aware that we
are jurists and not historians. That creates the risk that we are
engaged in Professor Kelly’s “law office history.”7 That is
not only a risk we must assume; after Heller, it is our duty to
confront such history. In an effort to get the history right, we
have also honored the history of common law advocacy: We
have looked to the parties to shape the arguments and call to
the court’s attention the appropriate precedents. We have
also relied on the parties and amici to direct our focus to the
principal historical sources and any important secondary
sources they would like us to consider. We have tried to be
as complete as possible in recounting this history, but this is
a legal opinion, not a dissertation, so we are likely to fall
short in some way.

7
Alfred H. Kelly, Clio and the Court: An Illicit Love Affair, 1965
Sup. Ct. Rev. 119, 122 n.13 (“By ‘law-office history,’ I mean the selection
of data favorable to the position being advanced without regard to or
concern for contradictory data or proper evaluation of the relevance of the
data proffered.”).

App. 39

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 40 of 215

40

YOUNG V. STATE OF HAWAII

As we might expect in this area, fraught with strong
opinions and emotions, history is complicated, and the record
is far from uniform. Nevertheless, we can discern the
principal themes of the historical record. Our review of that
history demonstrates that restrictions on carrying arms openly
have long been a part of our legal tradition.
A. The English Right to Bear Arms in Public
We start, as did the Court in Heller, with the English
concept of the right to bear arms. Our purpose in exploring
the English tradition is not to import its law wholesale to our
modern jurisprudence. Indeed, the evolution of the right to
keep and bear arms is a valuable tool for discerning the
Second Amendment’s meaning. But as Heller made clear,
the Second Amendment did not create a new right; it codified
a pre-existing one that we “inherited from our English
ancestors.” 554 U.S. at 599 (quoting Robertson v. Baldwin,
165 U.S. 275, 281 (1897)).
1. The Royal Decrees
As we recognized in Peruta, English law restricted public
firearm possession as early as the thirteenth century.
824 F.3d at 929. King Edward I and his successor, King
Edward II, issued a series of orders to local sheriffs that
prohibited “going armed” without the king’s permission. In
1299, Edward I ordered the sheriffs of Salop and Stafford to
prohibit any one “from tourneying, tilting . . . or jousting, or
making assemblies, or otherwise going armed within the
realm without the king’s special licen[s]e.” 4 Calendar Of
The Close Rolls, Edward I, 1296–1302, at 318 (Sept. 15,
1299, Canterbury) (H.C. Maxwell-Lyte ed., 1906) (emphasis
added). The punishment for violating the order included

App. 40

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 41 of 215

YOUNG V. STATE OF HAWAII

41

“forfeiture of life and limb, lands,” and any other holdings in
the king’s realm. Id. Although the 1299 order was only
addressed to the sheriffs of Salop and Stafford, the king
intended the order to apply to “to all the sheriffs of England.”
Id.
Three years later, Edward I similarly instructed the sheriff
of York to prohibit “any knight, esquire or any other person
from . . . going armed without the king’s special licen[s]e.”
Id. at 588 (July 16, 1302, Westminster). Any person “found
thus going with arms after the proclamation” should have his
“horses and armour” arrested. Id. In 1304, Edward I ordered
the sheriffs of Leicester and York to issue a proclamation
prohibiting any person from “going armed in any way
without the king’s licen[s]e.” 5 Calendar Of The Close Rolls,
Edward I, 1302–1307, at 210 (June 10, 1304, Stirling) (H.C.
Maxwell-Lyte ed., 1908).
Edward II issued several similar orders. In the months
leading up to Edward II’s coronation in 1308, he issued an
order prohibiting any “knight, esquire, or other” from going
“armed at Croydon or elsewhere before the king’s
coronation.” 1 Calendar Of The Close Rolls, Edward II,
1307–1313, at 52 (Feb. 9, 1308, Dover) (H.C. Maxwell-Lyte
ed., 1892). Two years later Edward II issued an order to the
sheriff of York, and to all the sheriffs of England, prohibiting
any “earl, baron, knight, or other” from “go[ing] armed,
under pain of forfeiture.” Id. at 257 (Apr. 9, 1310, Windsor).
Two years after that, the king ordered the sheriffs in Warwick
and Leicester to proclaim that “no one shall, under pain of
forfeiture, . . . go armed . . . without the king’s special
licen[s]e.” Id. at 553 (Oct. 12, 1312, Windsor). He also
ordered “[t]he like to all the sheriffs of England.” Id.

App. 41

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 42 of 215

42

YOUNG V. STATE OF HAWAII

The frequency and consistency of the royal orders and
their subsequent local proclamations demonstrated a
regulated approach to going armed in public. There was
some ability to do so, but it was subject to first obtaining the
“king’s special license.” 4 Calendar Of The Close Rolls,
Edward I, 1296–1302, at 588 (July 16, 1302, Westminster)
(H.C. Maxwell-Lyte ed., 1906).
Absent the king’s
permission, any person going armed in public was subject to
punishment.
In 1326 Edward II again ordered the sheriff of Huntington
to arrest anyone going armed without the king’s license. The
king commanded:
Whereas the king lately caused proclamation
to be made throughout his realm prohibiting
any one going armed without his licence,
except the keepers of his peace, sheriffs, and
other ministers, willing that any one doing the
contrary should be taken by the sheriff or
bailiffs or the keepers of his peace and
delivered to the nearest gaols, to remain
therein until the king ordered his will
concerning them.
4 Calendar Of The Close Rolls, Edward II, 1323–1327, at 560
(April 28, 1326, Kenilworth) (H.C. Maxwell-Lyte ed., 1898).
The 1326 edict reinforced that no person could carry arms
publicly unless he fell within a certain group of peace keepers
(“sheriffs, and other ministers”) or unless he obtained the
king’s permission. Id.
Other orders from 1326 enforced a ban on publicly
carrying arms unless engaged in law enforcement or with

App. 42

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 43 of 215

YOUNG V. STATE OF HAWAII

43

permission. In a November 1326 order, Edward II prohibited
any person in London from “go[ing] armed by night or day,
save officers and other good men of the City assigned by the
Mayor and Aldermen in their wards to keep watch and
preserve the peace . . . .” 1 Calendar of Plea & Memoranda
Rolls of the City of London, 1323–1364, at 15 (November
1326) (A.H. Thomas ed., 1926). The purpose of the
restriction on arms was to maintain the king’s peace and
allow “all manner of men . . . [to] come and go in safety.” Id.
Three months later, public arms carrying was more forcefully
banned in London. A proclamation from January of 1327
stated that “[t]he bearing of arms is forbidden, except to the
officers of the City assigned by the Mayor and Aldermen to
keep watch in the Wards, and to the Hainaulters of the Queen,
who are accustomed to go armed in the manner of their
country.” Id. (emphasis added). Although the king regularly
granted the sheriffs authority to disarm the people while in
public, it is unclear from these royal orders whether that
authority was absolute or if it was tied to times of potential
upheaval and possible affray. See Patrick J. Charles, The
Faces of the Second Amendment Outside the Home: History
Versus Ahistorical Standards of Review, 60 Clev. St. L. Rev.
1, 12 (2012).
2. The Statute of Northampton
a. The statute. Any doubt as to the scope of
government’s authority to disarm the people in public was
dispelled with Parliament’s 1328 enactment of the Statute of
Northampton, which effectively codified the firearms
restrictions that preceded it. The statute provided:
That no Man great nor small, of what
Condition soever he be, except the King’s

App. 43

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 44 of 215

44

YOUNG V. STATE OF HAWAII
Servants in his presence, and his Ministers in
executing of the King’s Precepts, or of their
Office, and such as be in their Company
assisting them, and also [upon a Cry made for
Arms to keep the Peace, and the same in such
places where such Acts happen,] be so hardy
to come before the King’s Justices, or other of
the King’s Ministers doing their office, with
force and arms, nor bring no force in affray of
the peace, nor to go nor ride armed by night
nor by day, in Fairs, Markets, nor in the
presence of the Justices or other Ministers,
nor in no part elsewhere, upon pain to forfeit
their Armour to the King, and their Bodies to
Prison at the King’s pleasure.

2 Edw. 3, 258, ch. 3 (1328) (emphasis added). The Statute of
Northampton prohibited all people (“great [or] small”) from
going armed in places people were likely to gather (“Fairs,
Markets, [and] in the presence of the Justices or other
Ministers”). Id. The prohibition was not limited to those
enumerated places, but extended to other public places
(“[any] part elsewhere”). Id. Like the royal orders preceding
the statute, Parliament excepted certain people (the “king’s
Servants”) from the ban on being armed in public while on
the king’s business (“in [his] presence” and “executing of the
King’s Precepts”). Id.
To the majority of fourteenth-century Englishmen, the
Statute of Northampton was generally understood to be “a
complete prohibition on carrying weapons in public, at least
in populated areas.” Mark Anthony Frassetto, To the Terror
of the People: Public Disorder Crimes and the Original
Public Understanding of the Second Amendment, 43 S. Ill. U.

App. 44

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 45 of 215

YOUNG V. STATE OF HAWAII

45

L.J. 61, 67 (2018). But its effects were more wide ranging
than a mere public-arms prohibition. The Statute of
Northampton “was to have long-term importance for the
maintenance of law and order” in the realm, by helping keep
the king’s peace. See Anthony Verduyn, The Politics of Law
and Order During the Early Years of Edward III, 108 Eng.
Hist. Rev. 842, 850 (1993).8 The statute applied to anyone
We have referred generally to the “king’s peace” as a shorthand for
the king’s responsibility to maintain the peace in his domain. But the
notion of the king’s peace evolved in England over time. Originally the
king’s peace covered only those within the king’s castle or household. See
David Feldman, The King’s Peace, the Royal Prerogative and Public
Order: The Roots and Early Development of Binding Over Powers,
47 Cambridge L.J. 101, 105 (1988). Just as the king had his “peace,” so
did others: “the peace of the king was one thing, [but] the peace of the
lord of the manor, the peace of the churches, the peace of the sheriff, [and]
the peace of the homestead, were all quite other things.” A.H.F. Lefroy,
Anglo-Saxon Period of English Law, 26 Yale L.J. 388, 388 (1917). Each
head of household had a “duty to protect his household, and an attack on
any member of the household wronged him.” Feldman, 47 Cambridge
L.J. at 105.
8

The expansion of the king’s peace began in the eleventh century. At
first, the king extended his peace to the three-mile radius surrounding his
court. Id. That expansion continued through the fourteenth century and
was especially strong in areas of special importance to the king. Id.
at 106. The king could also extend his peace to any individuals who were
on his errand or otherwise needed the king’s blessing, and “[a]ny assault
on them in their travels would be regarded as a direct affront to the king’s
own personal peace, as if it had happened in his residence.” Id.
Over time, the king’s peace expanded so significantly that it became
the general peace. This “movement of absorption” has “long since
practically concluded in England.” Lefroy, 26 Yale L.J. at 389. As the
king’s peace extended to a larger portion of the kingdom, it increased both
the king’s responsibility to protect his subjects and his jurisdiction to
punish wrongdoers. Id. (“The violation of the king’s peace was the
original offence from which the jurisdiction of the sovereign in criminal

App. 45

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 46 of 215

46

YOUNG V. STATE OF HAWAII

carrying arms, without specifying whether the arms were
carried openly or secretly. In 1350, Parliament specifically
banned the carrying of concealed arms. See 25 Edw. 3, 320,
st. 5, c. 2, § 13 (1350) (“[I]f percase any Man of this Realm
ride armed [covertly] or secretly with Men of Arms against
any other . . . it shall be judged . . . Felony or Trespass,
according to the Laws of the Land.” (alteration in original)).
The Statute of Northampton was amended in 1396. The
amended statute retained all the prohibitions on public
carriage of arms found in the original version and also
expanded the types of armor that could not be carried in
public. As amended, the statute provided “[t]hat no Man
shall ride armed within the Realm, against the Form of the
Statute of Northampton” and that “no Lord, Knight nor other,
little nor great, shall go nor ride by Night nor by Day armed,
nor bear [Sallet] nor Skull of Iron, nor [of] other Armour,
upon the pain aforesaid; save and except the King’s Officers
and Ministers in doing their Office.” 20 Ric. 2, 92–93, ch. 1
(1396) (internal footnotes omitted).

matters arose.”). “Slowly the idea of a ‘general peace’ embracing the
‘peace’ of the various customary jurisdictions was evolved.” Id.; see
Feldman, 47 Cambridge L.J. at 107 (“It was the Norman kings who used
the idea of the king’s peace as a means of extending their jurisdiction at
the expense of local courts.”).
When the king’s justices of the peace tried criminal matters, those
matters were tried as an offense against the king. “In modern pleading [in
the United States], the phrase ‘against the peace of the commonwealth’ or
‘of the people’ is used.” Contra pacem, Black’s Law Dictionary (rev. 4th
ed., 1968). Hence, our cases are charged as an offense against the “United
States” or the “State.”

App. 46

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 47 of 215

YOUNG V. STATE OF HAWAII

47

b. Enforcement. We have record of few indictments
under the Statute of Northampton, but there is evidence that
Edward III and his successors regularly instructed sheriffs to
enforce the statute.9 For instance, in 1328, Edward III
ordered the sheriff of Southampton to “cause the statute [of
Northampton] prohibiting men coming armed before justices
or other ministers of the king, or going armed, etc., to be
observed in all its articles throughout the whole of his
bailiwick.” 1 Calendar Of The Close Rolls, Edward III,
1327–1330, at 420 (November 10, 1328 Walingford) (H.C.
Maxwell-Lyte ed., 1896). The sheriff was further ordered to
“take and imprison all found contravening” the statute. Id.
The king similarly ordered sheriffs to enforce the Statute of
Northampton if he learned that the people were not compliant
with its restrictions on arms. For example, when the king
discovered that the people of Surrey and Sussex were “going
about armed in the sheriff’s bailiwick, contrary to the form of
the statute made in the late parliament of Northampton,” he
instructed the sheriffs to imprison “all those whom he shall
find going armed, with their horses and armor.” 2 Calendar
Of The Close Rolls, Edward III, 1330–1333, at 131 (April 3,
There is some dispute among historians over the extent to which the
Statute of Northampton was enforced as a broad ban on public carry of
arms. For example, historian Joyce Lee Malcolm argues that the statute,
and other firearms prohibitions, were rarely enforced. She claims that
“[a]lthough men were occasionally indicted for carrying arms to terrorize
their neighbours, the strict prohibition against going armed ‘by Night nor
by Day . . . in Fairs, Markets . . . nor in no part elsewhere’ had never been
enforced.” Joyce Lee Malcolm, To Keep and Bear Arms 104 (1994).
Other historians argue that the lack of indictments under the statute is not
probative of its overall enforcement in fourteenth-century England. See,
e.g., Charles, 60 Clev. St. L. Rev. at 13–16 (identifying several royal
edicts that instructed sheriffs to enforce the Statute of Northampton and
noting that Richard II amended the statute in 1396 but retained the
prohibition on going armed in public).
9

App. 47

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 48 of 215

48

YOUNG V. STATE OF HAWAII

1330, Woodstock) (H.C. Maxwell-Lyte ed., 1898). Four
years later, the king issued another order consistent with the
Statute of Northampton, which reinforced the statute’s
exceptions for those on the king’s errand. 3 Calendar Of The
Close Rolls, Edward III, 1333–1337, at 294 (January 30,
1334, Woodstock) (H.C. Maxwell-Lyte ed., 1926) (“[I]n the
statute of Northampton . . . it was ordained that no one except
a minister of the king should use armed force or go armed in
fairs, markets, etc. . . . ).
The Statute of Northampton’s restrictions on carrying also
permeated public life. For example, in preparation for the
Feast of St. Thomas in 1343, Edward III ordered London
hostelries to warn their guests “against going armed in the
City.” 1 Calendar of Plea & Memoranda Rolls of the City of
London, 1323–1364, at 156 (December 19, 1343) (A.H.
Thomas ed., 1898). The guests’ violation of the arms
prohibition would have subjected them to arrest and forfeiture
of their arms. Id.
The Statute of Northampton continued in force after
Edward III was succeeded by King Richard II in 1377. Like
his predecessor, Richard II issued orders to county sheriffs to
enforce the Statute of Northampton and keep the king’s
peace. Months after Richard II’s coronation, he reminded the
mayor and bailiffs of Newcastle upon Tyne that the Statute of
Northampton provided the vehicle to keep the peace by
prohibiting the public carry of arms. The king’s order stated
that the “statute published at Norhampton [sic] in 2 Edward
III . . . contained that . . . no man of whatsoever estate or
condition shall go with armed force, lead any force to the
disturbance of the peace, ride or go armed by day or night in
fairs, markets or in presence of justices or other the king’s
ministers” without risking arrest and forfeiture of their arms.

App. 48

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 49 of 215

YOUNG V. STATE OF HAWAII

49

1 Calendar Of The Close Rolls, Richard II, 1377–1381, at 34
(December 1, 1377, Westminster) (H.C. Maxwell-Lyte ed.,
1914) (emphasis added).
c. Cases. We have been pointed to two cases that may
shed light on the restrictions in the Statute of Northampton.
The first is Chune v. Piott (1615), 80 Eng. Rep. 1161 (K.B.),
in which the Statute of Northampton is not mentioned.
Chune was a false-arrest case that challenged the sheriff’s
authority to arrest people who had not actually breached the
peace. The King’s Bench concluded that sheriffs had
authority “without all question” to arrest anyone carrying a
weapon “in the high-way, in terrorem populi Regis.” Id. The
phrase in terrorem populi Regis—“to the terror of the king’s
people”—might suggest one of two things: First, that there
must be some proof of the carrier’s intent to terrorize the
people or, second, that there must be some proof of the effect
(whether intended or not) on the people. But the court
ultimately concluded that neither was an element of the crime
of unlawful carrying. The sheriff could arrest a person
carrying arms in public “notwithstanding he doth not break
the peace.” Id.
The second is Sir John Knight’s Case, which is important
because it was one of the few prosecutions under the Statute
of Northampton for which we have some record, even if there
are some disputes about what that record signifies. Sir John
Knight was accused of “going armed, to the terror of the
public” and charged under the Statute of Northampton and
the common law crime of “affray.” Sir John Knight’s Case
(1686), 87 Eng. Rep. 75–76 (K.B.).10 According to one
An “affray” was a “noisy fight . . . in some public place, to the
terror of onlookers.” Affray, Black’s Law Dictionary (10th ed. 2014).
10

App. 49

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 50 of 215

50

YOUNG V. STATE OF HAWAII

report, the crown alleged that Knight went armed in public,
and more specifically, that he “went into the church of St.
Michael . . . in the time of divine service, with a gun, to
terrify the King’s subjects.” Id. at 76. A second report states
that he went into a church “with pistols,” Rex v. Sir John
Knight (1686), 90 Eng. Rep. 330, 330 (K.B.), while an
unofficial report states that he was “goeing with a blunderbus
in the streets, to the terrifyeing his majesties subjects,”
1 Narcissus Luttrell, A Brief Historical Relation of State
Affairs, September 1678 to April 1714, at 380 (Oxford Univ.
Press 1857).
Whatever Knight was doing, the sources agree that
Knight was acquitted, but they disagree on what grounds.
According to one report, the Statute of Northampton was
“almost gone in [desuetude],” but Knight could still be
punished if he carried arms with mal-intent to terrify the
people. Presumably, his acquittal was due to this lack of such
intent. Knight’s Case, 90 Eng. Rep. at 330. Similarly, the
unofficial report claimed that Knight was “tried by a jury of
his own citty [sic], that knew him well, [and] he was
acquitted, not thinking he did it with any ill design, to the
great disappointment of some persons.” Luttrell, A Brief
Historical Relation at 389. According to another reporter, the
Chief Justice of the King’s Bench opined that the meaning of
the Statute of Northampton was to punish those who go
armed. Knight’s Case, 87 Eng. Rep. at 76. The Chief Justice
explained that publicly carrying arms was not just an act that
could terrify the people but was also an affront to the king’s
peace because the act of carrying arms in public suggested
that “the King [was] not able or willing to protect his
subjects,” id.—indicating perhaps that Knight was acquitted
because he had not intended criticism of the king’s authority
or ability to keep the peace. See Frassetto, 43 S. Ill. U. L.J.

App. 50

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 51 of 215

YOUNG V. STATE OF HAWAII

51

at 70 (“Notably, Knight defended himself on the grounds of
his ‘active loyalty’ to the crown rather than by denying that
he had created a public terror.”). We cannot resolve this
dispute in the original sources, much less in the academic
literature.11 What is curious is that according to two
reporters, Knight was “acquitted, yet bound to good
behaviour.” Knight’s Case, 90 Eng. Rep. at 331; see Knight’s
Case, 87 Eng. Rep. at 76 n.(a) (“But on the motion of the
Attorney General he was bound to his good behaviour.”). It
thus seems that Knight was required to pay a surety for good
behavior—making Knight’s “acquittal” more of a conditional
pardon.12
Scholars continue to disagree about the reasons underlying Knight’s
acquittal. There seem to be two current schools of thought. Either the
Statute of Northampton required the prosecution to show that Knight
intended to terrorize others by publicly carrying arms, or Knight was
acquitted by virtue of his aristocratic status. Compare David B. Kopel,
The First Century of Right to Arms Litigation, 14 Geo. J. L. & Pub. Pol’y
127, 135–37 (2016) (“[O]nly malicious, terrifying carry was illegal” under
the statute.), with Saul Cornell, The Right to Keep and Carry Arms in
Anglo-American Law: Preserving Liberty and Keeping the Peace, 80 Law
& Contemp. Probs. 11, 26–27 (2017) (positing that aristocrats were “the
one group expressly exempted from the Statute of Northampton”).
Relying on the former explanation, some scholars have argued that Sir
John Knight’s Case shifted English jurisprudence towards a more
permissive open-carry regime. See Eugene Volokh, The First and Second
Amendments, 109 Colum. L. Rev. Sidebar 97, 101–02 (2009); Kopel,
14 Geo. J. L. & Pub. Pol’y at 137–38. Other scholars are unsurprised by
Knight’s acquittal as he was of the class of Englishman that the Statute of
Northampton would not have reached anyway. See Frassetto, 43 S. Ill. U.
L.J. at 64 & n.15.
11

12
The development of a system of “surety” was closely related to the
development of the “king’s peace.” There were two types of sureties:
sureties for good behavior and sureties of the peace. Feldman,
47 Cambridge L.J. at 102–03. They had different goals. The surety of
good behavior was “a form of conditional pardon given by the king to

App. 51

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 52 of 215

52

YOUNG V. STATE OF HAWAII

d. Treatises. English treatises also recognized the
prohibition on publicly carrying arms in England. In one of
England’s first treatises, John Carpenter observed that public
carriage of arms was dependent upon first obtaining the
king’s license. In the aptly titled section “That no one go
armed,” Carpenter stated:
that no one, of whatever condition he be, go
armed in the said city or in the suburbs, or
carry arms, by day or by night, except the
vadlets of the great lords of the land, carrying
the swords of their masters in their presence,
and the serjeants-at-arms of his lordship the
King, of my lady the Queen, the Prince, and
the other children of his lordship the King,
malefactors,” similar to posting bail as a condition of probation. Id.
at 103. So, for a surety of good behavior, there had to be some sort of
charge of wrongdoing that preceded the surety. The surety for good
behavior essentially allowed those accused of crimes—who could afford
it—to avoid punishment while allowing the crown to “rehabilitate and
make use of military men who were urgently needed . . . .” Id. at 121.
The surety of the peace was administered by the Keepers (Justices)
of the Peace and was employed to keep the king’s peace in areas where a
centralized police force did not exist. The surety of the peace followed an
accusation by someone that an individual would likely violate the law in
the future. It was either a money payment or pledge by others “in support
of his future good conduct.” Id. at 104. See Kopel, 14 Geo. J. L. & Pub.
Pol’y at 131 n.14 (citing Y.B. Trin. 14 Hen. 7 (1499), reported in Y.B.
21 Henry 7, fol. 39, Mich., pl. 50 (1506) (“Anonymous.” No case name)
(“[A] man’s house is his castle and defense,” but “if one were threatened
that if he should come to such a market . . . he should there be beaten, in
that case he could not assemble persons to help him go there in personal
safety, for he need not go there, and he may have a remedy by surety of
the peace.”)). The money payment (or the pledge by others) was released
after a period of time in which the person did not violate the law.

App. 52

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 53 of 215

YOUNG V. STATE OF HAWAII

53

and the officers of the City, and such persons
as shall come in their company in aid of them,
at their command, for saving and maintaining
the said peace; under the penalty aforesaid,
and the loss of their arms and armour.
John Carpenter, Liber Albus: The White Book of the City of
London 335 (Henry Thomas Riley ed., 1862) (footnote
omitted) (emphasis added).
Other English treatises weigh in on whether prosecution
under the Statute of Northampton required proof that carrying
arms caused terror. William Hawkins, a seventeenth century
barrister and jurist, stated that a person may commit an
“affray where there is no actual violence; as where a man
arms himself with dangerous and unusual weapons, in such
a manner as will naturally cause a terror to the people.”
1 William Hawkins, A Treatise of the Pleas of the Crown 488
(John Curwood ed., 1824). On the other hand, Hawkins also
stated that wearing arms—perhaps those that were not
“dangerous and unusual”—alone was not enough to warrant
prosecution. “[N]o wearing of arms is within the meaning of
this statute [of Northampton], unless it be accompanied with
such circumstances as are apt to terrify the people . . . .” Id.
at 489. Hawkins continued that “persons of quality” did not
risk violating the statute by wearing “common weapons . . .
for their ornament or defence.” Id. Some have interpreted
Hawkins’s reference to “persons of quality” as an indication
that certain classes of people could carry arms consistent with
their status because that would be neither uncommon nor
overtly terrifying to the people. See Frassetto, 43 S. Ill. U.
L.J. at 67–69 (describing Hawkins’s statement that public
carry was not threatening when it was done by the wealthy
whose carrying of arms would not be out of the ordinary).

App. 53

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 54 of 215

54

YOUNG V. STATE OF HAWAII

Hawkins, however, also recognized that the lawful public
carry of arms required some particular need. The desire for
proactive self-defense was not a good enough reason to go
armed openly. “[A] man cannot excuse the wearing [of] such
armour in public, by alleging that such a one threatened him,
and [that] he wears it for the safety of his person from his
assault.” 1 Hawkins, A Treatise of the Pleas of the Crown at
489.
Joseph Keble, another seventeenth-century English
barrister, recognized that public terror resulted from
witnessing arms unexpectedly. While examining the crime
of affray in a 1683 treatise, Keble noted “if a man shall shew
himself furnished with Armour or Weapon which is not
usually worn, it will strike a fear upon others that be not
armed.” Joseph Keble, An Assistance to the Justices of the
Peace, for the Easier Performance of their Duty 147 (1689).
Keble’s reference to weapons “not usually worn” could refer
either to “unusual weapons” or to common weapons worn
when one would not expect it.
Sir William Blackstone and Lord Edward Coke strongly
suggested that carrying arms openly was a status offense and
that the law did not require proof of intent or effect.
Blackstone clarified the principle, stating that the mere act of
going armed in and of itself terrified the people. He stated
that “[t]he offence of riding or going armed with dangerous
or unusual weapons, is a crime against the public peace, by
terrifying the good people of the land, and is particularly
prohibited by the Statute of Northampton.” 4 William
Blackstone, Commentaries *148–49 (1769). According to
Blackstone, going armed with dangerous or unusual weapons
was all that was required to terrify the people of the land, and
thus the law required neither proof of intent to terrify nor

App. 54

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 55 of 215

YOUNG V. STATE OF HAWAII

55

proof that actual terror resulted from the carrying of arms.13
Lord Coke observed that the Statute of Northampton meant
that no one could “goe nor ride armed by night nor by day . . .
in any place what[s]oever.” Edward Coke, The Third Part of
the Institutes of the Laws of England 160 (E. and R. Brooke
ed., 1797). Coke continued that “he cannot assemble force,
though he be extremely threatened, to go with him to church,
or market, or any other place, but that is prohibited by this
[a]ct.” Id. at 161 (emphasis added). He also noted that the
Statute did not apply to a man who must “assemble force to
defend his house.” Id. at 161.
3. The English Bill of Rights
Following the Glorious Revolution, the English right to
bear arms changed with the enactment of the English Bill of
Rights in 1689.14 The English Bill of Rights created, for the
first time, a right for certain people to possess arms, but it
was a conditional right. It provided “[t]hat the [s]ubjects
which are Protestants may have [a]rms for their [d]efence
suitable to their [c]onditions and as allowed by [l]aw.” 1 W.
& M., ch. 2, § 7, in 3 Eng. Stat. at Large 441 (1689). The
new provision was important, for several reasons. First, for
the first time, English law explicitly tied the carrying of arms
Subsequent royal edicts suggest that merely carrying firearms
caused terror even absent an intent to cause terror. See By the Quenne
Elizabeth I: A Proclamation Against the Carriage of Dags, and for
Reformation of Some Other Great Disorders (London, Christopher
Barker, 1594) (the public carry of arms caused “terrour [to] all people
professing to travel and live peaceably”).
13

The Glorious Revolution overthrew James II, who was Catholic.
In his place William and Mary took the throne. Mary, also known as
Queen Mary II, was James’s daughter, but she was Protestant.
14

App. 55

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 56 of 215

56

YOUNG V. STATE OF HAWAII

to a right of self-defense. Second, it recognized that even the
right of self-defense could be curtailed by government action
“as allowed by law.” Third, the right was not guaranteed to
the people generally, and the full exercise of the right was
occasionally contingent upon the religion of the monarch in
power. See Diarmuid F. O’Scannlain, Glorious Revolution to
American Revolution: The English Origin of the Right to
Keep and Bear Arms, 95 Notre Dame L. Rev. 397, 404–06
(2019).
Blackstone characterized the new right as one to bear
arms in the interest of self-defense, but he acknowledged that
the right was not absolute. The right to carry arms was
subject to government regulation, and thus the right of the
people to “hav[e] arms for their defense” only extended as far
as the right was “allowed by law.” 1 William Blackstone,
Commentaries *130 (emphasis added). Blackstone continued
that “these rights and liberties [are] our birthright to enjoy . . .
unless where the laws of our country have laid them under
necessary restraints.” Id. at *131 (language modernized).
Indeed, the right to carry arms was a “public allowance under
due restrictions.” Id. at *130. Blackstone’s example of such
a “due restriction[],” was the prohibition on publicly carrying
weapons, codified in the Statute of Northampton. See 4
William Blackstone, Commentaries *148–49.
B. Colonial Restrictions on the Right to Bear Arms in Public
Early American colonists brought to the New World the
English sensibilities over the carrying of arms in public. A
number of colonies implemented restrictions on the carrying
of arms similar to those found in the Statute of Northampton.
Indeed, some colonies adopted the Statute of Northampton
almost verbatim. The colonists shared the English concern

App. 56

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 57 of 215

YOUNG V. STATE OF HAWAII

57

that the mere presence of firearms in the public square
presented a danger to the community.
New Jersey acted first. In 1686 (three years prior to the
English Bill of Rights), the colony passed “An Act against
wearing Swords, &c.” in response to the “great complaint by
the inhabitants of [the] Province, that several persons [were]
wearing swords, daggers, pistols, dirks, stilladoes, skeines, or
any other unusual or unlawful weapons.” An Act against
Swords, &c., 1686 N.J. Laws 289, 289, ch. IX.15
Accordingly, the statute provided that “no person or persons
after publication hereof, shall presume privately to wear any
pocket pistol, skeines, stilladers, daggers or dirks, or other
unusual or unlawful weapons within [the] Province.” Id. at
290. The law further provided that “no planter shall ride or
go armed with sword, pistol, or dagger, upon the penalty of
five pounds.” Id. The law exempted two groups: “all
officers, civil and military, and soldiers while in actual
service” and “all strangers, travelling upon their lawful
occasion thro’ this Province, behaving themselves
peaceably.” Id.

We have not been pointed to any English counterpart for the New
Jersey statute. The closest was a proclamation of King James I that
banned the sale, wearing, or carrying of “Steelets, pocket Daggers, pocket
Dags and Pistols, which are weapons utterly unserviceable for defence,
Militarie practise, or other lawfull use, but odious, and noted Instruments
of murther, and mischiefe.” By the King James I: A Proclamation
Against Steelets, Pocket Daggers, Pocket Dagges and Pistols, reprinted
in 1 Stuart Royal Proclamations 359–60 (James F. Larkin & Paul L.
Hughes eds., 1973). The weapons listed in the proclamation were of
particular concern because they were so easily concealed. See Peruta,
824 F.3d at 931. Nothing in the proclamation or the New Jersey statute,
however, limited the prohibition to concealed carry.
15

App. 57

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 58 of 215

58

YOUNG V. STATE OF HAWAII

Six years after New Jersey enacted its restriction on arms,
Massachusetts Bay enacted its own restrictions. The
Massachusetts law was patterned after the Statute of
Northampton. It outlawed affray, rioting, and disturbing or
breaching the peace. An Act for the Punishing of Criminal
Offenders, 1692 Mass. Laws No. 6, at 11–12. In addition, the
statute authorized justices of the peace to arrest those that
“ride or go armed Offensively before any of Their Majesties
Justices . . . by Night or by Day . . . .” Id. (spelling
modernized). The punishment for such action varied, but the
offender could be fined, have his or her armor and weapons
seized, be imprisoned until paying a surety, or even be bound
over to answer the charge before a justice of the peace. Id.
at 12.
New Hampshire enacted a similar restriction in 1699,
which punished any person who went “armed offensively” or
“put his Majesty’s subjects in fear” and outlawed affray,
rioting, and disturbing the peace. 1699 N.H. Laws. 1.
Punishment ranged from imprisonment to payment of a
surety. Id. at 1–2. The offender also risked forfeiture of the
arms or weapons, to be “sold for his Majesty’s use.” Id.
To the examples of prohibitions on public carry, we must
add examples of colonial laws that not only permitted public
carry, but mandated it. Some colonies required men to carry
arms while attending church or other public gatherings. They
also protected travelers passing through the several colonies
and those assembled as a militia. For example, Virginia
required colonists to carry arms to church. In a 1619 statute,
it instructed “[a]ll persons whatsoever upon the Sabaoth daye
[who] frequente divine service and sermons . . . [to] beare
armes [and] bring their pieces swordes, poulder and shotte.”
Proceedings of the Virginia Assembly, 1619, in Narratives of

App. 58

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 59 of 215

YOUNG V. STATE OF HAWAII

59

Early Virginia, 1606–25, at 273 (Lyon Gardiner Tyler ed.,
1907). Any colonist refusing to carry arms to church was
subject to a fine of three shillings, paid to the church. Id.
Virginia’s mandate was a model for several other
colonies. Connecticut, Maryland, South Carolina, and
Georgia all required men to carry arms at church. See 1 The
Public Records of the Colony of Connecticut 95 (1850)
(“[O]ne person in every several house wherein is any soldier
or soldiers, shall bring a musket, pistol or some piece, with
powder and shot, to each meeting . . . .” (spelling
modernized)); Proceedings of the Council of Maryland,
1636–1667, reprinted in 3 Archives of Maryland 103 (1885)
(“No man able to bear arms to go to church or Chappell . . .
without fixed gun and 1 Charge at least of powder and shot.”
(spelling modernized)); 7 The Statutes at Large of South
Carolina 418 (1840) (requiring any person able to do so to
bear arms to “places of public worship” to secure against
slave insurrections); 19 The Colonial Records of the State of
Georgia (pt. 1) 137–38 (1911) (requiring every male, white
militiaman to carry firearms “on any Sunday or other times,
to any church, or other place of divine worship”). Plymouth
Colony, prior to its merger with Massachusetts Bay, had also
enacted a church-based firearm requirement in 1636, but its
mandate was seasonal. See The Compact with the Charter
and Laws of the Colony of New Plymouth 102 (1836)
(requiring arms at churches between April and November
annually).
At least two colonies required carrying arms to other
public gatherings. See 1 Records of the Governor and
Company of the Massachusetts Bay in New England 190
(1853) (All eligible persons “shall come to the public
assemblies with their muskets, or other pieces fit for service.”

App. 59

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 60 of 215

60

YOUNG V. STATE OF HAWAII

(spelling modernized)); 1 Records of the Colony of Rhode
Island and Providence Plantations in New England 94 (1856)
(“It is ordered, that no man . . . shall come to any public
Meeting without his weapon.” (spelling modernized)).
Several colonies also required persons traveling outside
of the public square to arm themselves.
Virginia,
Massachusetts, Rhode Island, and Maryland all enacted some
requirements for travelers to carry arms. See 1 The Statutes
at Large; Being a Collection of all the Laws of Virginia 127
(1823) (“That no man go or send abroad without sufficient
partie will armed.”); 1 Records of the Governor and Company
of the Massachusetts Bay in New England 85 (1853) (“[I]t is
ordered, that no person shall travel single betwixt
[Massachusetts] and Plymouth, nor without some arms . . . .”
(spelling modernized)); 1 Records of the Colony of Rhode
Island and Providence Plantations in New England 94 (1856)
(“It is ordered, that no man shall go two miles from the Town
unarmed.” (spelling modernized)); Proceedings of the
Council of Maryland, 1636–1667, reprinted in 3 Archives of
Maryland 103 (1885) (“No man able to bear arms to go . . .
any considerable distance from home without fixed gun and
1 Charge at least of powder and Shot.” (spelling
modernized)).16

Historical context offers some possible explanations for the tension.
Some colonies’ issuance of carry requirements—especially to church,
public gatherings, and other travel—reflects “adaptation to the realities of
colonial life, especially [considering] the ongoing hostile relationship with
Native Americans.” Cornell, 80 Law & Contemp. Probs. at 28. In
addition to tense relations with Native Americans, southern colonies also
feared the possibility of slave uprisings. Id. South Carolina’s churchcarry mandate expressly acknowledged that risk. 7 Statutes at Large of
South Carolina 418 (requiring parishioners to carry arms to church so that
16

App. 60

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 61 of 215

YOUNG V. STATE OF HAWAII

61

The overall effect that these various carry mandates had
on the right to bear arms is unclear, and there is some tension
between the various ordinances. What is clear is that the
colonies assumed that they had the power to regulate—
whether through mandates or prohibitions—the public
carrying of arms. This history may also evince a general
acceptance by local governments of some firearms in the
public square. See Brief of Professors of Second Amendment
Law et al., as Amici Curiae 17. But the public carrying of
arms was always subject to conditions prescribed by the
legislature.
The Statute of Northampton continued to influence state
law in the interregnum between the Revolutionary War and
the adoption of the Constitution. Three years after the Treaty
of Paris, Virginia enacted prohibitions on public carriage of
firearms that tracked the Statute of Northampton. Virginia’s
statute provided that “no man, great nor small, . . . [shall] go
nor ride armed by night nor by day, in fairs or markets, or in
other places, in terror of the Country.” 1786 Va. Laws 33,
ch. 21.
Early American history thus strongly suggests that
colonists brought with them the English acquiescence to
firearm limitations outlined in the Statute of Northampton.
The colonies and early American states enacted facsimiles of
the Statute of Northampton’s broad prohibitions on the public
carriage of firearms. And where the colonies did allow public
carry—or even mandated it—those laws were tied to the
overarching duty to bear arms in defense of the community,
and it was the role of local government, not individuals, to
South Carolinians “may be the better secured and provided against the
insurrections and other wicked attempts of negroes and other slaves”).

App. 61

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 62 of 215

62

YOUNG V. STATE OF HAWAII

decide when that duty justified or mandated public carry. At
bottom, restrictions on firearms in public were prevalent in
colonial law.
C. Post Second Amendment Restrictions on the Right to Bear
Arms
The Constitution was ratified in 1789.
Almost
immediately, Congress began work on a bill of rights, a
promise the Federalists had made as a condition for
ratification. As the Court observed in Heller, “[d]uring the
1788 ratification debates, the fear that the Federal
Government would disarm the people in order to impose rule
through a standing army or select militia was pervasive in
Antifederalist rhetoric.” 554 U.S. at 598. The amendments
that became our Bill of Rights were proposed in 1789 and
ratified by 1791.
At the time of its adoption, the Bill of Rights did not
apply to the states. Barron v. Mayor & City Council of
Baltimore, 32 U.S. (7 Pet.) 243 (1833); see United States v.
Cruikshank, 92 U.S. 542, 553 (1875) (“The second
amendment . . . means no more than that it shall not be
infringed by Congress. This is one of the amendments that
has no other effect than to restrict the powers of the national
government, leaving the people to look for their protection [to
state law].”). Prior to the adoption of the Constitution, the
states—at the urging of the Continental Congress in
anticipation of a declaration of independence—had adopted
their own constitutions, some of which expressly provided
some protection for the right to keep and bear arms. See
Heller, 554 U.S. at 585–86, 585 n.8, 600–03 (discussing state
constitutional provisions); Eugene Volokh, State
Constitutional Rights to Keep and Bear Arms, 11 Tex. Rev.

App. 62

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 63 of 215

YOUNG V. STATE OF HAWAII

63

L. & Pol. 191 (2006) (compiling provisions by state and by
date).17 Accordingly, we have few relevant federal materials.
As the Court explained in Heller, “[f]or most of our history
the Bill of Rights was not thought applicable to the states, and
the Federal Government did not significantly regulate the
possession of firearms by law-abiding citizens.” Heller,
554 U.S. at 625. Therefore, the majority of the nineteenthcentury cases we discuss in this section feature challenges to
firearms regulations that were made under state constitutional
analogues to the Second Amendment, not the Second
Amendment itself, although some decisions refer to the
Second Amendment.18 As we discuss state regulation of
Not all the states adopted such a measure. California, Iowa,
Maryland, Minnesota, New Jersey, and New York have never adopted a
constitutional guarantee to keep and bear arms. And some of the states
did not adopt a guarantee until the twentieth century. Volokh, State
Constitutional Rights, 11 Tex. Rev. L. & Pol. at 193–204. Although
Maryland did not adopt a formal guarantee, the Maryland Declaration of
Rights stated that “the inhabitants of Maryland are entitled to the common
law of England, . . . and to the benefit of such of the English statutes, as
existed at the time of their first emigration.” Md. Decl. of Rights, art. III
(1776).
17

In some respects, the Second Amendment is less important than
state constitutions and laws in helping us determine the scope of any preexisting right to keep and bear arms. Congress had no general power over
crime, except in federal enclaves or territories. The Constitution gave
Congress authority over three enumerated crimes: counterfeiting, piracy
and felonies on the high seas, and treason. U.S. Const. art. I, § 8, cls. 6,
10; id. art. III, § 3, cl. 2. Any other authority over crime that Congress
asserts must be tied to an enumerated power—such as the Commerce
Clause—through the Necessary and Proper Clause. Id. art. I, § 8, cl. 18.
See United States v. Lopez, 514 U.S. 549, 561 n.3 (1995) (“Under our
federal system, the States possess primary authority for defining and
enforcing the criminal law.”) (quotation marks and citations omitted);
Screws v. United States, 325 U.S. 91, 109 (1945) (plurality opinion)
(“[T]he administration of criminal justice rests with the States except as
18

App. 63

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 64 of 215

64

YOUNG V. STATE OF HAWAII

firearms, we will note where the state had an applicable
guarantee in its own constitution.
1. Post-Ratification Restrictions
After ratification of the U.S. Constitution, and subject to
their own state constitutions, the states continued to adopt
laws that restricted the public carrying of arms. See Saul
Cornell & Nathan DeDino, A Well Regulated Right: The
Early American Origins of Gun Control, 73 Fordham L. Rev.
487, 505 (2004) (examining “[a] variety of laws regulating
firearms . . . already in place during the Founding Era”).
Many of these laws were influenced by the Statute of
Northampton. North Carolina provides us with a prime
example. Just a year after the ratification of the Bill of
Rights, North Carolina adopted, nearly verbatim, the Statute
of Northampton. Indeed, the statute had a heading that
recited that these were “Statutes made at Northampton . . . in
the Second Year of the Reign of Edward the Third, and in the
Year of our Lord 1328.” See 1792 N.C. Laws 60, ch. 3.
Ironically, notwithstanding its recent independence, North
Carolina did not even remove the references to the king:
It is enacted, that no man great nor small, or
what condition soever he be, except the
King’s servants in his presence . . . go nor ride
armed by night nor by day, in fairs, markets,
Congress, acting within the scope of those delegated powers, has created
offenses against the United States.”). Given that relationship between the
federal government and the states, early state constitutions, laws, and
practices may be a more reliable indicator of what we thought the states
could and could not do under the “pre-existing [right]” that we “inherited
from our English ancestors.” Heller, 554 U.S. at 599 (quoting Robertson
v. Baldwin, 165 U.S. 275, 281 (1897)).

App. 64

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 65 of 215

YOUNG V. STATE OF HAWAII

65

nor in the presence of the King’s Justices, or
other ministers, nor in no part elsewhere.
Id. at 60–61.19 As we have noted, Massachusetts had first
enacted a law based on the Statute of Northampton in 1692.
In 1795, it repealed a portion of the 1692 Act but kept the
firearms restrictions. 1795 Mass. Acts 436, ch. 2. The 1795
version had strong echoes of the Statute of Northampton and
authorized its justices of the peace to arrest “all affrayers,
rioters, disturbers, or breakers of the peace, and such as shall
ride or go armed offensively, to the fear or terror of the good
citizens of this Commonwealth.” Id.20
2. Nineteenth-Century Restrictions
a. The statutes. Early American versions of the Statute
of Northampton continued into the nineteenth century. In

North Carolina’s Declaration of Rights, adopted in 1776, provided:
“That the people have a right to bear arms, for the defence of the State
. . . .” N.C. Decl. of Rights § XVII (1776).
19

North Carolina’s reliance upon English law would prove to be
controversial over the next century. In 1836, the North Carolina
legislature explicitly repealed “all the statutes of England or Great Britain”
in use in the state, 1 N.C. Rev. Stat. 52–53, ch. 1, § 2 (1837), which
prompted a challenge to its Northampton analogue. The Supreme Court
of North Carolina upheld the statute, however, finding that the Statute of
Northampton did not create the substantive prohibitions therein. State v.
Huntly, 25 N.C. 418, 420–21 (1843). Citing Blackstone and Hawkins, the
court concluded that the statute’s prohibitions “[had] been always an
offen[s]e at common law.” Id. at 421 (citation and emphasis omitted).
The Massachusetts Constitution of 1780 provided: “The people
have a right to keep and to bear arms for the common defence.” Mass.
Const. of 1780, pt. 1, art. 17.
20

App. 65

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 66 of 215

66

YOUNG V. STATE OF HAWAII

1801, Tennessee prohibited any person from “go[ing] armed
to the terror of the people, or privately carry[ing] any dirk,
large knife, pistol, or any other dangerous weapon, to the fear
or terror of any person.” 1801 Tenn. Pub. Acts 260, ch. 22
§ 6.21 Anyone carrying a firearm in violation of the statute
was subject to a fine and potential imprisonment. Id. at 261.
Repeat offenders could be indicted and prosecuted for
breaching the peace. Id. Other states followed. Louisiana
punished “any person who shall be found with any concealed
weapon, such as a dirk, dagger, knife, pistol or any other
deadly weapon concealed in his bosom, coat or in any other
place about him that do not appear in full open view.” La.
Acts, 1st Legis., 2d Sess. 172 (1813). Maine also enacted a
version of the Statute of Northampton in the early nineteenth
century, outlawing “affrayers, rioters, disturbers or breakers
of the peace, and such as shall ride or go armed offensively,
to the fear or terror of the good citizens of this State.” 1821
Me. Laws 285, ch. 73 § 1.22 It also imposed a surety system
whereby potential offenders would pay a fine to ensure their
future good behavior. Id.
The early nineteenth century saw new restrictions on
firearms that incorporated broader prohibitions than the one
found in the Statute of Northampton. These restrictions more
forcefully prohibited the mere act of carrying a firearm
instead of coupling going armed with affray, rioting, or
The Tennessee Constitution of 1796 provided: “That the freemen
of this State have a right to keep and to bear [a]rms for their common
defence.” Tenn. Const. of 1796, art. XI, § 26.
21

Maine had adopted a constitution only two years earlier. It
provided: “Every citizen has a right to keep and bear arms for the common
defence; and this right shall never be questioned.” Me. Const. of 1819,
art. I, § 16.
22

App. 66

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 67 of 215

YOUNG V. STATE OF HAWAII

67

disturbing the peace. The major changes began with
Tennessee and Massachusetts. Recall that Tennessee had
enacted a firearm restriction in 1801 that prohibited going
armed “to the terror of the people.” 1801 Tenn. Pub. Acts
260, ch. 22, § 6. It revised that restriction in 1821, stating
that “every person so degrading himself, by carrying . . . belt
or pocket pistols, either in public or in private” was subject to
a fine for each offense. 1821 Tenn. Pub. Acts 15, ch. 13.
There was no question of whether proof of terror or intent
was required. The statute simply outlawed such carry. It did
exempt the carrying of “a knife of any size in a conspicuous
manner on the strop of a shot pouch.” Id. at 16.
Massachusetts adopted a more generous change and
became a template for other states. As we have observed, in
1795 Massachusetts renewed its colonial firearms restrictions,
enacting a firearms regulation that resembled the Statute of
Northampton. See 1795 Mass. Acts 436, ch. 2 (allowing
every justice of the peace to arrest all that “ride or go armed
offensively, to the fear or terror of the good citizens of [the]
Commonwealth”). In 1836 Massachusetts broadly revamped
its criminal law; in the process it abandoned the Northampton
framework in favor of a good-cause restriction. In Chapter
134, entitled “Of Proceedings to Prevent the Commission of
Crimes,” Massachusetts added eighteen sections dealing with
complaints, arrests, trials, appeals, penalties and sureties.23
Section 16 provided:
If any person shall go armed with a dirk,
dagger, sword, pistol, or other offensive and
We discuss the details of the Massachusetts surety law in greater
detail, infra at note 40 and accompanying text. We covered the English
practice of requiring a surety of the peace supra at note 12.
23

App. 67

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 68 of 215

68

YOUNG V. STATE OF HAWAII
dangerous weapon, without reasonable cause
to fear an assualt [sic] or other injury, or
violence to his person, or to his family or
property, he may, on complaint of any person
having reasonable cause to fear an injury, or
breach of the peace, be required to find
sureties for keeping the peace, for a term not
exceeding six months, with the right of
appealing as before provided.

1836 Mass. Acts 750, ch. 134, § 16. The 1836 Massachusetts
statute permitted public carry, but limited it to persons who
could demonstrate their need to carry for the protection of
themselves, their families, or their property. In effect, the
Massachusetts law provided that such weapons could not be
carried in public unless the person so armed could show
“reasonable cause.”
A number of states followed Massachusetts and adopted
some version of Chapter 134, including Section 16. Many of
those states adopted Section 16 verbatim. For example, in
1839 Wisconsin adopted “An Act to prevent the commission
of crimes.” Section 16 was a word-for-word (with minor
changes in punctuation) replication of Section 16 of the 1836
Massachusetts statute. 1838 Wis. Sess. Laws 381, § 16.
Other states and territories followed. If they did not adopt
Section 16 verbatim, the changes were minor, but the
references to the 1836 Massachusetts law were unmistakable.
See 1841 Me. Laws 709, ch. 169, § 16; 1846 Mich. Laws 692,
ch. 162, § 16;24 1847 Va. Laws 129, ch. XIV, § 16; 1851
The Michigan Constitution of 1835 provided: “Every person has
a right to bear arms for the defense of himself and the State.” Mich.
Const. of 1835, art. I, § 13.
24

App. 68

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 69 of 215

YOUNG V. STATE OF HAWAII

69

Minn. Pub. Acts 528, ch. 112, § 18; 1854 Or. Laws 220, ch.
XVI, § 17; 1870 W. Va. Acts 703, ch. CLIII, § 8. The
giveaway was Massachusetts’ distinctive phrase “dirk,
dagger, sword, pistol, or other offensive and dangerous
weapon.” Of these states, only Virginia and West Virginia
did not use the phrase. Instead they simply prohibited the
carrying of “any dangerous or offensive weapon” or of a
“deadly and dangerous weapon,” respectively.
Other states followed Massachusetts’ formulation but
qualified the right in some other way. Pennsylvania, for
example, provided an introductory exemption: “If any person,
not being an officer on duty in the military or naval service of
the state or of the United States, shall go armed with dirk,
dagger, sword or pistol . . . .” 1862 Pa. Laws 250, § 6
(emphasis added).25 Texas expanded the list of prohibited
items. In a statute entitled “An Act to Regulate the Keeping
and Bearing of Deadly Weapons,” Texas regulated the
carrying of “any pistol, dirk, dagger, slung-shot, sword-cane,
spear, brass-knuckles, bowie-knife, or any other kind of
knife.” 1874 Tex. Gen. Laws 1322, art. 6512; see also id.
art. 6511 (entitled “An Act Regulating the Right to Keep and
Bear Arms;” prohibiting anyone carrying “a bowie-knife,
dirk, or butcher-knife, or firearms, whether known as a sixshooter, gun, or pistol of any kind” from entering “any church
or religious assembly, any school-room or other place where
persons are assembled for educational, literary, or scientific
purposes, or into a ballroom, social party, or other social
gathering . . . or to any election precinct . . . or to any other
place where people may be assembled . . . , or any other
The Pennsylvania Constitution of 1790 provided: “The right of
citizens to bear arms in defence of themselves and the State shall not be
questioned.” Pa. Const. of 1790, art. IX, § XXI.
25

App. 69

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 70 of 215

70

YOUNG V. STATE OF HAWAII

public assembly”).26 The Territories of Arizona and Idaho
each enacted some version of the expanded Texas list. 1889
Ariz. Sess. Laws 16–17, No. 13, §§ 1, 3; 1889 Idaho Laws 23,
§ 1.27
A number of other states regulated the carrying of arms,
even though they did not follow the Massachusetts model.
Delaware, for example, continued to follow the outline of the
Statute of Northampton. 1852 Del. Stat. 333, ch. 97, § 13
(making subject to arrest “all affrayers, rioters, breakers and
disturbers of the peace, and all who go armed offensively to
the terror of the people”). Kansas and the Territory of
Wyoming also prohibited both the concealed and open
carrying of weapons, although with more modern language.
1881 Kan. Sess. Laws 80, ch. XXXVII, § 23 (“The [city]
council shall prohibit and punish the carrying of firearms, or
other dangerous or deadly weapons, concealed or otherwise
. . . .”);28 1876 Wyo. Sess. Laws 352, ch. 52, § 1 (prohibiting
the “bear[ing] upon his person, concealed or openly, any fire
arm or other deadly weapon, within the limits of any city,
town or village”).

The Texas Constitution of 1869 provided: “Every person shall have
the right to keep and bear arms, in the lawful defence of himself or the
State, under such regulations as the legislature may prescribe.” Tex.
Const. of 1869, art. I, § 13.
26

Idaho was admitted to the Union in 1890. The Idaho Constitution
of 1889 provided: “The people have the right to bear arms for their
security and defence; but the legislature shall regulate the exercise of this
right by law.” Idaho Const. of 1889, art. I, § 11.
27

The Kansas Bill of Rights, adopted in 1859, provided: “The people
have the right to bear arms for their defense and security . . . .” Kan.
Const. of 1859, Bill of Rights § 4.
28

App. 70

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 71 of 215

YOUNG V. STATE OF HAWAII

71

Most, but not all, of the weapons enumerated in these
statutes were capable of being concealed. The statutes we
have discussed thus far, however, did not prohibit only the
concealed carrying of such weapons. Some states, however,
did so limit their laws. Alabama, for example, punished “any
one who carrie[d] concealed about his person a pistol, or any
other description of fire arms, not being threatened with, or
having good reason to apprehend an attack, or travelling
. . . .” 1852 Ala. Laws 588, art. VI, § 3274.29 Georgia
prohibited “[a]ny person having or carrying about his person,
unless in an open manner and fully exposed to view, any
pistol, (except horseman’s pistols,) dirk, sword in a cane,
spear, bowie-knife, or any other kind of knives . . . .” 1861
Ga. Laws 859, div. 9, § 4413.
On the other hand, two territories had nominal concealed
weapons prohibitions that also applied to open carry. New
Mexico made it “unlawful for any person to carry concealed
weapons on their persons, of any class of pistols whatever,
bowie knife . . . Arkansas toothpick, Spanish dagger, slungshot, or any other deadly weapon.” 1860 N.M. Laws 94, § 1
(emphasis added). However, in the following section, it
prescribed the punishment for any person who “carr[ies]
about his person, either concealed or otherwise, any deadly
weapon of the class and description mentioned in the
preceding section . . . .” Id. § 2 (emphasis added). The
Territory of Oklahoma had a complex series of prohibitions
in an article entitled “Concealed Weapons,” but some of the
prohibitions applied to open carry. For instance, one
provision made it “unlawful for any person in the Territory of
The Alabama Constitution of 1819 provided: “Every citizen has a
right to bear arms in defence of himself and the State.” Ala. Const. of
1819, art. I, § 23.
29

App. 71

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 72 of 215

72

YOUNG V. STATE OF HAWAII

Oklahoma to carry concealed . . . any pistol, revolver, bowie
knife, dirk, dagger, slung-shot, sword cane, spear, metal
knuckles, or any other kind of knife . . . .” 1891 Okla. Sess.
Laws 495, art. 47, § 1. But the next section prohibited “any
person . . . to carry upon or about his person any pistol,
revolver, bowie knife, dirk knife, loaded cane, billy, metal
knuckles, or any other offensive or defensive weapon, except
as in this article provided.” Id. § 2 (emphasis added). The
article then made exceptions for “[P]ublic officers while in
the discharge of their duties,” id. § 4, and persons carrying
“shot-guns or rifles for the purpose of hunting,” id. § 5.
Additionally, the statute made it “unlawful for any person,
except a peace officer, to carry into any church or religious
assembly, any school room . . . or into any circus, show or
public exhibition of any kind, or into any ball room, or to any
social party or social gathering, or to any election, or to any
place where intoxicating liquors are sold, or to any political
convention, or to any other public assembly, any of the
weapons designated in sections one and two of this article.”
Id. § 7. In the end, section 7 was a broad prohibition on
carrying arms into public places.
Before we discuss the state cases, we have several
observations on the statutes. First, the states broadly agreed
that small, concealable weapons, including firearms, could be
banned from the public square. Although the record is not
uniform, the vast majority of the states did not distinguish
between regulation of concealed carry and regulation of open
carry of weapons that were capable of being concealed.
None of the statutes we have discussed in this section makes
any mention of long-barreled guns, such as muskets, rifles, or
shotguns. Second, although many of the states had
constitutional provisions that guaranteed some kind of right
to keep and bear arms, state legislatures evidently did not

App. 72

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 73 of 215

YOUNG V. STATE OF HAWAII

73

believe that the restrictions we have discussed here were
inconsistent with their state constitutions. At the same time,
the territories enacted similar restrictions, and the
territories—unlike the states—would have been subject to the
Second Amendment. U.S. Const. art. IV, § 3, cl. 2.
The Territory of Hawai‘i’s enumerated restrictions on
carrying weapons were well within this tradition. Hawai‘i’s
1852 law punished “[a]ny person not authorized by law, who
shall carry, or be found armed with, any bowie-knife, swordcane, pistol, air-gun, slung-shot or other deadly weapon.”
1852 Haw. Sess. Laws 19, § 1. Like many states, Hawai‘i
exempted persons “authorized to bear arms,” including
persons “holding official, military, or naval rank” so long as
the weapon was “worn for legitimate purposes.” Id. § 2.
b. The cases. The parties have directed our attention to
a number of reported state cases that address the right to keep
and bear firearms. They are largely from Southern states;
even then, they are far from uniform in their reasoning and
conclusions. We will start with the cases in which the state
courts adopted the most generous protections for those
bearing arms. Our first such case is Bliss v. Commonwealth,
12 Ky. (2 Litt.) 90 (1822). Like many statutes we have seen,
Kentucky law banned the carrying of concealed weapons,
including pocket pistols, dirks, large knives and sword-canes.
Id. at 90. Bliss was charged with carrying a sword in a cane
and contended that the Kentucky Constitution prohibited such
restrictions.30 Id. A divided Kentucky Court of Appeals,
Kentucky’s highest court, held the statute unconstitutional.
The Kentucky Constitution provided: “That the right of the citizens
to bear arms in defence of themselves and the State shall not be
questioned.” Ky. Const. of 1799, art. X, § 23.
30

App. 73

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 74 of 215

74

YOUNG V. STATE OF HAWAII

The court determined that the right to bears arms “existed at
the adoption of the constitution . . . [and] consisted in nothing
else but in the liberty of the citizens to bear arms.” Id. at 92.
The court took a bright-line position on any difference
between the state regulating and prohibiting the carrying of
arms: “in principle, there is no difference between a law
prohibiting the wearing concealed arms, and a law forbidding
the wearing such as are exposed; and if the former be
unconstitutional, the latter must be so likewise.” Id. The
court held the act “unconstitutional and void.” Id. at 93. One
judge dissented, but did not file an opinion. Id. at 94.
Bliss’s expansive view of the right to carry firearms was
short lived. Following the Kentucky Court of Appeals’
opinion, the legislature amended the constitution to allow the
type of restriction the court had struck down. Ky. Const. of
1850, art. XIII, § 25 (“That the rights of the citizens to bear
arms in defence of themselves and the State shall not be
questioned; but the general assembly may pass laws to
prevent persons from carrying concealed arms.”). See
Peruta, 824 F.3d at 935–36 (citing Robert M. Ireland, The
Problem of Concealed Weapons in Nineteenth-Century
Kentucky, 91 Reg. Ky. Hist. Soc’y 370, 373 (1993)
(discussing the aftermath of the decision; noting that the
Governor criticized the court for reading the state constitution
so literally)). Bliss appears to be an isolated decision. The
decision was not followed by any other court, and it was
considered and rejected by state courts in Alabama, Arkansas,
Georgia, and Tennessee. See Peruta, 824 F.3d at 936;
Strickland v. State, 72 S.E. 260, 261 (Ga. 1911) (“[Bliss] has

App. 74

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 75 of 215

YOUNG V. STATE OF HAWAII

75

not been followed, but severely criticised. The decisions are
practically unanimous to the contrary.”); id. (citing cases).31
No other court went as far as the Kentucky court in Bliss;
indeed, courts in Georgia, Alabama, and Louisiana deviated
from Bliss by holding that restrictions on concealed weapons
were permissible. Georgia drew its line between open and
concealed carry in reversing a conviction for carrying
firearms. In Nunn v. State, 1 Ga. 243 (1846), Nunn was
charged with carrying pistols, but the indictment failed to
state whether he carried them in secret. Discussing Bliss, the
Georgia Supreme Court relied largely on the Second
Amendment of the U.S. Constitution, denying that “because
the people withheld this arbitrary power of disfranchisement
from Congress [in the Second Amendment], they ever
intended to confer it on the local legislatures.” Id. at 250.
The court concluded that
so far as the [challenged state] act . . . seeks to
suppress the practice of carrying certain
weapons secretly, that it is valid, inasmuch as
it does not deprive the citizen of his natural
right of self-defence, or of his constitutional
right to keep and bear arms. But that so much
of it, as contains a prohibition against bearing
arms openly, is in conflict with the
Constitution, and void.

31
The decision, however, is notable for another reason. Prompted by
the decision, Kentucky became the first state to write into its constitution
what had long been implicit: that “the general assembly may pass laws to
prevent persons from carrying concealed arms.” Ky. Const. of 1850, art.
XIII, § 25.

App. 75

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 76 of 215

76

YOUNG V. STATE OF HAWAII

Id. at 251. Because Nunn had not been charged with carrying
his pistol in secret, the judgment of conviction was reversed.32
See also In re Brickey, 70 P. 609, 609 (Idaho 1902) (holding
unconstitutional under both the state and federal constitutions
a statute prohibiting the carrying of deadly weapons in the
city; suggesting that a statute prohibiting concealed carry
would be constitutional).

When Nunn was decided, there was no Georgia provision
concerning the right to keep and bear arms. Following the Civil War, the
Georgia Constitution was revised to read: “A well regulated Militia being
necessary to the security of a free people, the right of the people to keep
and bear arms shall not be infringed; but the General Assembly shall have
power to prescribe by law the manner in which arms may be borne.” Ga.
Const. of 1868, art. I, § XIV. In Hill v. State, 53 Ga. 472 (1874), the
Georgia Supreme Court upheld against a state constitutional challenge a
statute prohibiting the carrying of a pistol or revolver, among other
“deadly weapon[s],” in courts, places of worship, and public gatherings.
Id. at 480–81 (“The manner of bearing arms includes not only the
particular way they may be carried upon the person, that is openly or
secretly, on the shoulder or in the hand, loaded or unloaded, cocked or
uncocked, capped or uncapped, but it includes, also, the time when, and
the place where, they may be borne.”).
32

In 1877, the Georgia Constitution was revised again, and the right to
bear arms lost its prefatory clause. Ga. Const. of 1877, art. I, § 1, para.
XXII (“The right of the people to keep and bear arms shall not be
infringed, but the General Assembly shall have power to prescribe, the
manner in which arms may be borne.”). In Strickland, the Georgia
Supreme Court upheld against a state constitutional challenge a law
requiring a license for any person to “carry[] about his person” a pistol or
revolver. 72 S.E. at 260. The court cited the Statute of Northampton and
other English sources. The court observed that “no one will contend that
children have a constitutional right to go to school with revolvers strapped
around them, or that men and women have a right to go to church, or sit
in the courtrooms, or crowd around election precincts, armed like
desparadoes, and that this is beyond the power of the Legislature to
prevent.” Id. at 264.

App. 76

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 77 of 215

YOUNG V. STATE OF HAWAII

77

The Alabama Supreme Court changed its views over time
on the state’s power to regulate open carry. Like Georgia,
Alabama first upheld the power of the state legislature to
prohibit carrying concealed weapons. In State v. Reid, 1 Ala.
612 (1840), the Alabama Supreme Court affirmed Reid’s
conviction for carrying a concealed pistol.33 The court
considered Bliss, but refused to go so far. Instead, it was
“incline[d] to the opinion that the Legislature cannot inhibit
the citizen from bearing arms openly, because [the
Constitution] authorizes him to bear them for the purposes of
defending himself and the State, and it is only when carried
openly, that they can be efficiently used for defence.” Id. at
619. But the court also understood the right to bear arms
openly to be subject to some degree of regulation. The
Alabama Constitution had not “denied to the Legislature, the
right to enact laws in regard to the manner in which arms
shall be borne. The right guarantied to the citizen, is not to
bear arms upon all occasions and in all places, but merely ‘in
defence of himself and the State.’” Id. at 616. As a result,
the legislature retained “the authority to adopt such
regulations of police, as may be dictated by the safety of the
people and advancement of public morals.” Id.
An early twentieth-century case from Alabama, although
outside our current historical discussion, shows that this
limiting principle first articulated in Reid had teeth. In Isaiah
v. State, 176 Ala. 27 (1911), the Alabama Supreme Court
upheld, under the same provision of the Alabama
Constitution, a statute prohibiting the carrying of a pistol
“about his person on premises not his own or under his
The Alabama Constitution stated that “[e]very citizen has a right to
bear arms in defence of himself and the State.” Ala. Const. of 1819, art. I,
§ 23.
33

App. 77

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 78 of 215

78

YOUNG V. STATE OF HAWAII

control.” Id. at 28. The court concluded that the statute
properly restricted the manner and places in which arms
could be carried. Id.; see also id. at 34 (McClellan, J.,
concurring) (stating that the legislature could prohibit a
person “to carry a pistol off one’s premises”). In his
concurrence, and citing Reid, Justice McClellan made clear
what is unstated in the majority: that the legislature retained
the authority to regulate where and how a person could
legally carry a firearm in Alabama. Id. at 37–38 (McClellan,
J., concurring) (“To deny the validity of [the regulation]
would, without doubt, restrict the legislative right to regulate
. . . to the manner only of bearing arms; and this would clothe
the constitutional right to bear arms with an effect to deny to
legislative function the power to determine . . . what are arms
proper to be borne . . . [or] at what places arms of a defined
character should not be borne.”). Isaiah tells us that
Alabama’s right to carry openly, even if constitutionally
protected, was nevertheless amenable to even severe
restrictions by the state legislature.
The Louisiana Supreme Court also marked the difference
between concealed carry and open carry, albeit in dicta. An
1813 statute prohibited concealed carriage of enumerated
dangerous weapons. Chandler was charged with murder
using a Bowie knife; he claimed it was in self defense. In the
course of describing the statute, the Louisiana Supreme Court
observed that the prohibition on concealed weapons was
“absolutely necessary to counteract a vicious state of society
. . . and to prevent bloodshed and assassinations committed
upon unsuspecting persons. It interfered with no man’s right
to carry arms . . . ‘in full open view,’ which places men upon
an equality.” State v. Chandler, 5 La. Ann. 489, 489–90
(1850). In State v. Smith, 11 La. Ann. 633 (1856), Smith was
charged with carrying a concealed weapon. The statute

App. 78

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 79 of 215

YOUNG V. STATE OF HAWAII

79

specified that a weapon was concealed when it did not appear
“in full open view.” Id. at 634. Smith contended that the
weapon was partially exposed and, therefore, not concealed.
The Louisiana Supreme Court disagreed. Citing the Second
Amendment, the court commented that the amendment was
“never intended to prevent the individual States from
adopting such measures of police as might be necessary, in
order to protect the orderly and well disposed citizens from
the treacherous use of weapons not even designed for any
purpose of public defence . . . .” Id. at 633. As to the
question before it, the court held that partial concealment was
a violation of the statute. It appeared to exempt from the
statute “the extremely unusual case of the carrying of such
weapon in full open view, and partially covered by the pocket
or clothes,” but not “where the partial exposure is the result
of accident or want of capacity in the pocket to contain, or
clothes fully to cover the weapon.” Id. at 634. Finally, in
State v. Jumel, 13 La. Ann. 399 (1858), the Louisiana
Supreme Court upheld a conviction for carrying a concealed
weapon and commented that the statute “does not infringe the
right of the people to keep or bear arms. It is a measure of
police, prohibiting only a particular mode of bearing arms
which is found dangerous to the peace of society.” Id.
at 399–400.
In contrast to these states, other states—also from the
South—upheld good-cause restrictions on the open carry of
certain dangerous firearms. The Texas Supreme Court did so
in a pair of cases. In English v. State, 35 Tex. 473 (1871),
English had been charged under the Act of April 12, 1871,
which prohibited the carrying of deadly weapons, including
“pistols, dirks, daggers, slungshots, swordcanes, spears,
brass-knuckles and bowie knives,” unless the carrier could
show an “exceptional case[]” of self-defense. Id. at 474, 477.

App. 79

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 80 of 215

80

YOUNG V. STATE OF HAWAII

At trial, English proved that the pistol was not loaded and was
inoperable. Id. at 473. The court took note of various state
decisions, including the Alabama and Georgia decisions. It
also referred to the Statute of Northampton, Sir John Knight’s
Case, and Blackstone. Id. at 476. Analyzing the Second
Amendment, the court concluded that its intended scope was
limited to arms that were “useful and proper to an armed
militia.” Id. at 474 (“Can it be understood that these [deadly
weapons named in the statute] were contemplated by the
framers of our bill of rights? Most of them are the wicked
devices of modern craft.”). The Texas Supreme Court
rejected as “simply ridiculous” the idea that the specific
weapons banned in the statute were “proper or necessary
arms of a ‘well-regulated militia.’” Id. at 476; see id. (“The
word ‘arms’ . . . refers to the arms of a militiaman or soldier,
and the word is used in its military sense.”). Turning next to
English’s challenge under the state constitution, the court
determined that the Texas Constitution “confers upon the
legislature the power to regulate the privilege [to bear arms]”
so long as it does not “tak[e] it away.” Id. at 478.34 The court
concluded that Texas law restricted, but did not deprive, its
residents of the right to bear arms. No one “should claim the
right to carry upon his person any of the mischievous devices
inhibited by the statute, into a peaceable public assembly, as,
for instance into a church, a lecture room, a ball room, or any
other place where ladies and gentlemen are congregated
together.” Id. at 478–79.

The Texas Constitution provided: “Every person shall have the
right to keep and bear arms, in the lawful defence of himself or the State,
under such regulations as the legislature may prescribe.” Tex. Const. of
1869, art. I, § 13.
34

App. 80

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 81 of 215

YOUNG V. STATE OF HAWAII

81

In a later case, the Texas Supreme Court clarified that the
use of “arms” in the Texas Constitution does not refer “only
to the arms of a militiaman or soldier.” Rather, the weapons
“secured [in] the right to keep and bear” arms “must be such
arms as are commonly kept, according to the customs of the
people, and are appropriate for open . . . use in self-defense.”
State v. Duke, 42 Tex. 455, 458 (1875) (upholding the same
good-cause restriction challenged in English). The court
counted among such defensive weapons “the double-barreled
shot-gun, the huntsman’s rifle, and such pistols at least as are
not adapted to being carried concealed,” such as “the dragoon
or holster pistol.” Id. at 458–59.
Other, more extensive firearms regulations were held
constitutional, including restrictions on open carry that were
tailored to small and concealable weapons. In Andrews v.
State, 50 Tenn. 165 (1871), Andrews was charged with
carrying a pistol in violation of state law. The Tennessee
statute in question made it unlawful “for any person to
publicly or privately carry a dirk, swordcane, Spanish stiletto,
belt or pocket pistol or revolver.” Id. at 171 (quoting Act of
June 11, 1870, § 1).35 Andrews argued that the weapon he
was charged with carrying was not one encompassed by the
statute. The Tennessee Supreme Court agreed and overturned
his conviction. The court reasoned that the right to bear arms
was “the right to use such arms for all the ordinary purposes,
and in all the ordinary modes usual in the country.” Id.
at 178. Keeping in mind “a knowledge of the habits of our
people, and of the arms in the use of which a soldier should
Tennessee’s Constitution of 1870 provided: “That the citizens of
this State have a right to keep and to bear arms for their common defense;
but the [L]egislature shall have power by law, to regulate the wearing of
arms with a view to prevent crime.” Tenn. Const. of 1870, art. I, § 26.
35

App. 81

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 82 of 215

82

YOUNG V. STATE OF HAWAII

be trained,” the court held that “the rifle of all descriptions,
the shot gun, the musket, and repeater,” were “the usual arms
of the citizen of the county.” Id. at 179. Although the court
concluded that “the right to keep such arms, can not be
infringed or forbidden by the Legislature,” it acknowledged
that their use could “be subordinated to such regulations and
limitations as are or may be authorized by the law of the
land.” Id. at 179–80. The court declared the statute
constitutional, at least insofar as it prohibited “belt or pocket
pistol[s].” It reserved judgment on the statute’s prohibition
against “revolvers” because the evidence was unsettled as to
whether the term referred to a “repeater[,which] is a soldier’s
weapon,” the carrying of which could not be constitutionally
prohibited. Id. at 186–87. The court acknowledged that even
the weapons lawfully prohibited by the statute might be used
in one’s self-defense. Nevertheless, the court found that
[t]he law allows ample means of self-defense,
without the use of the weapons which we have
held may be rightfully prescribed by this
statute. The object being to banish these
weapons from the community by an absolute
prohibition for the prevention of crime, no
man’s particular safety, if such case could
exist, ought to be allowed to defeat this end.
Id. at 189; see also Aymette v. State, 21 Tenn. 154, 160–61
(1840) (suggesting, in dicta, that “swords, muskets, rifles,
etc., must necessarily be borne openly . . . to bear arms in
defence of themselves [and the state]”). For the court in
Andrews, the right of individual self-defense did not trump
the legislature’s ability to regulate—or even
“banish”—certain types of firearms from the public square.
In a companion case, Page v. State, 50 Tenn. 198 (1871), the

App. 82

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 83 of 215

YOUNG V. STATE OF HAWAII

83

court upheld Page’s conviction for carrying a revolver. The
“revolver” was only about eight inches long, and the court
concluded it was not a “an arm for war purposes” and thus
could be constitutionally prohibited by the state legislature
under Andrews. Id. at 198. In a subsequent case, the court
upheld an indictment for carrying an army pistol that was not
displayed in hand. State v. Wilburn, 66 Tenn. 57 (1872).
Like Tennessee, Arkansas upheld a ban on open carry of
certain dangerous weapons. In Fife v. State, 31 Ark. 455
(1876), the Arkansas Supreme Court upheld Fife’s conviction
for carrying a pistol in hand. The court looked at “the
prohibited list of weapons,” under the relevant state
law—including the pistol, dirk, Bowie knife, swordcane and
brass knuckles—and found that the state legislature intended
to prevent “known public mischief,” the pistol being “usually
carried in the pocket, or of a size to be concealed about the
person, and used in private quarrels and brawls.” Id. at 461.
It upheld the law under Arkansas’s Constitution, which
guaranteed that “[t]he citizens of this State shall have the
right to keep and bear arms for their common defense.” Ark.
Const. of 1874, art. II, § 5. In a later case, Haile v. State,
38 Ark. 564 (1882), the court confirmed the legislature’s
power to prescribe the permissible manner of carrying a
weapon in public, including weapons used in war. Haile was
carrying a pistol at his waist. An Arkansas law, adopted in
1881, prohibited the carrying of “such pistol as is used in the
army or navy of the United States, in any manner, except
uncovered, and in the hand.” Id. at 565. The court rejected
the claim that the right to keep and bear arms guaranteed
“protection to the citizen, in going, with convenience to
himself, and after his own fashion, prepared at all times to
inflict death upon his fellow-citizens, upon the occasion of
any real or imaginary wrong.” Id. at 566. Although the

App. 83

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 84 of 215

84

YOUNG V. STATE OF HAWAII

Arkansas Constitution did not expressly reserve to the
legislature the right to regulate arms, the court thought it
followed “from the undefined police powers, inherent in all
governments.” Id. at 567.36
The cases, much more so than the statutes, are divided.
As the Supreme Court of Georgia so eloquently put it “‘tot
homines, quot sententiae’—so many men, so many
opinions!” Nunn, 1 Ga. at 248. Cf. Isaiah, 176 Ala. at 35
(McClellan, J., concurring) (“There is wide and fundamental
divergence of opinion upon the scope and effect of
constitutional provisions [concerning the right to bear
arms].”); City of Salina v. Blaksley, 83 P. 619, 620 (Kan.
1905) (“[T]he carrying of deadly weapons has been the
subject of much dispute in the courts. The views expressed
in the decisions are not uniform, and the reasonings of the
different courts vary.”). In a trenchant decision summarizing

Fife and Haile were not the only cases from the Arkansas Supreme
Court to evaluate the constitutionality of a firearms restrictions under the
state constitution. Both cases built on an 1842 concealed-carry decision,
which concluded that the “[l]egislature possesses competent powers to
prescribe, by law, that any and all arms, kept or borne by individuals, shall
be so kept and borne as not to injure or endanger the private rights of
others . . . .” State v. Buzzard, 4 Ark. 18, 27 (1842) (op. of Ringo, C.J.).
See Ark. Const. of 1836, art. II, § 21 (“That the free white men of this
State shall have a right to keep and to bear arms for their common
defence.”).
36

Though Buzzard did not involve open carry, the court’s reasons for
upholding the statute reveal an expansive understanding of the
legislature’s authority to regulate public-arms carriage. In the court’s
view, “if the right to keep and bear arms be subject to no legal control or
regulation whatever, it might, and in time to come doubtless will, be so
exercised as to produce in the community disorder and anarchy.” Id. at 21
(op. of Ringo, C.J.).

App. 84

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 85 of 215

YOUNG V. STATE OF HAWAII

85

the debates, the Supreme Court of Georgia commented that
there were
two general lines of reasoning [that] have
been employed in upholding [statutes
regulating the carrying of certain weapons]:
First, that such provisions are to be construed
in the light of the origin of the constitutional
declarations . . . ; and[] second, that the right
to bear arms, like other rights of person and
property, is to be construed in connection with
the general police power of the state, and as
subject to legitimate regulation thereunder.
Strickland, 72 S.E. at 262. The court noted that some states
expressly reserved to the legislature the power to regulate
arms, but the court thought that “even where such expressions
do not occur,” the state retains some general police power
“unless the language of the instrument itself should exclude
such a construction.” Id. Critically, the court observed that
“if the right to bear arms includes deadly weapons of every
character, . . . [then] the citizen [is] guaranteed the right to
carry weapons or arms, in the broadest meaning of that term,
whenever, wherever, and however he please[s]”—a
possibility that the court dismissed by holding that the
licensing regulation at issue was “legitimate and reasonably
within the police power.” Id. at 262–63. The court also
rejected the contention that the right to bear arms was
uniquely immune from reasonable regulation. See id. at 264
(“Many persons are required to obtain a license before
engaging in certain businesses or performing certain acts;
where a legitimate exercise of the police power of the state,
it has never been thought that this was a violation of any
constitutional right as to person or property.”).

App. 85

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 86 of 215

86

YOUNG V. STATE OF HAWAII

The cases that we have just discussed largely confirm
Strickland’s understanding of the historical scope of the right
to bear arms openly in public. There are divisions between
state courts and even some disagreements within state courts.
Moreover, we should repeat here that the cases represent a
limited cross-section of the courts of the United States. Here
is what we can say. Only one state court (Kentucky, Bliss)
has held that there is a constitutional right to carry arms
publicly, whether concealed or openly. Outside of that one
case, the state courts generally agree that the legislature can
prohibit the carrying of concealed weapons.37 Beyond
concealed carry, the courts diverge in their views. At least
three state courts (Georgia, Nunn; Idaho, Brickey; Louisiana,
Chandler, Jumel, Smith) have stated that the legislature can
prohibit concealed carry, but suggested, in dicta, that it cannot
prohibit open carry. At least five state courts have said that
the legislature can prohibit the open carrying of firearms at
least to the extent that the regulations forbid open carrying in
certain places (Alabama, Reid, Isaiah; Georgia, Hill); forbid
most open carrying of certain types of firearms or weapons
(Arkansas, Fife, Haile; Tennessee, Andrews, Page; Texas,
English, Duke), or forbid open carrying without a license on
conditions set forth by the legislature (Georgia, Strickland).
Our survey has yielded no firm consensus in American
courts.

There are a number of cases we have not reviewed here that discuss
only the question of concealed carry, without addressing, in a holding or
dicta, the question of open carry. See, e.g., State v. Mitchell, 3 Blackf. 229
(Ind. 1833); Wright v. Commonwealth, 77 Pa. 470 (1875); State v.
Wilforth, 74 Mo. 528 (1881); State v. Speller, 86 N.C. 697 (1882); State
v. Workman, 35 W. Va. 367 (1891).
37

App. 86

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 87 of 215

YOUNG V. STATE OF HAWAII

87

c. Treatises. Nineteenth-century American legal treatises
provide some insight into the scope of the right to carry arms
in public. Like the English commentators, American
commentators drew a distinction between the carrying of
concealable arms and military arms suitable for militia
service. St. George Tucker discussed the English concept of
treason, which was levying war against the king. Quoting
Matthew Hale, Tucker observed that an assembly, armed with
weapons suitable for military service and “‘without the king’s
licen[s]e, unless in some lawful and special cases, carries a
terror with it, and a presumption of warlike force[.]’ The bare
circumstance of having arms, therefore, of itself, creates a
presumption of warlike force.” 5 St. George Tucker,
Blackstone’s Commentaries app’x 19 (William Young Birch
& Abraham Small eds. 1803) (quoting 1 Matthew Hale, The
History of the Pleas of the Crown 150 (1736)) (emphasis
added). Tucker then commented,
But ought that circumstance of itself, to create
any such presumption in America, where the
right to bear arms is recognized and secured in
the constitution itself? In many parts of the
United States, a man no more thinks, of going
out of his house on any occasion, without his
rifle or musket in his hand, than an European
fine gentleman without his sword by his side.
Id. Where St. George Tucker addressed the Second
Amendment specifically, and stated that “[t]he right of self
defence is the first law of nature,” it is clear from context that
he is principally concerned with the regulation of military
arms, such as muskets, rifles, or shotguns, which were
prohibited for a time in England “under the specious pretext
of preserving the game.” 1 St. George Tucker, Blackstone’s

App. 87

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 88 of 215

88

YOUNG V. STATE OF HAWAII

Commentaries, at app’x 300. Joseph Story’s comments on
the Second Amendment bear a similar concern with depriving
the people of arms, on the logic that bearing arms acted as “a
strong moral check against the usurpation and arbitrary power
of rulers.” 3 Joseph Story, Commentaries on the Constitution
of the United States 746 (1833); see also William Rawle, A
View of the Constitution of the United States of America at
125 (1829) (“No clause in the Constitution could by any rule
of construction be conceived to give to congress a power to
disarm the people.”).
Most nineteenth-century American authors assumed that
the state had the right to regulate arms in the public square.
William Rawle, for example, agreed with Blackstone’s
criticism of governmental attempts to disarm the people in the
guise of forest and game regulations. But he then drew a line
between the use of firearms for hunting and their possession
in other public places:
This right ought not, however, in any
government, to be abused to the disturbance
of the public peace. . . . [E]ven the carrying of
arms abroad by a single individual, attended
with circumstances giving just reason to fear
that he purposes to make an unlawful use of
them, would be sufficient cause to require him
to give surety of the peace. If he refused he
would be liable to imprisonment.
Id. at 126. Francis Wharton in his criminal law treatise
quotes the Statute of Northampton and then comments:
A man cannot excuse wearing such armour in
public, by alleging that such a one threatened

App. 88

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 89 of 215

YOUNG V. STATE OF HAWAII

89

him, and that he wears it for the safety of his
person against his assault; but it is clear that
no one incurs the penalty of the statute for
assembling his neighbours and friends in his
own house, against those who threaten to do
him any violence therein, because a man’s
house is his castle.
Francis Wharton, A Treatise on the Criminal Law of the
United States 932, § 2497 (1857) (citing 1 Hawkins, A
Treatise of the Pleas of the Crown at 489). He adds “that the
public and open exhibition of dangerous weapons by an
armed man, to the terror of good citizens, is a misdemeanor
at common law.” Id. at 933 (footnote omitted). In his
discussion of the Second Amendment, Dean Pomeroy
observed that
a militia would be useless unless the citizens
were enabled to exercise themselves in the use
of warlike weapons. . . . But all such
provisions, all such guaranties, must be
construed with reference to their intent and
design. This constitutional inhibition is
certainly not violated by laws forbidding
persons to carry dangerous or concealed
weapons . . . .
John Norton Pomeroy, An Introduction to the Constitutional
Law of the United States 152–53 (1868). One of the most
influential commentators of the nineteenth century, Thomas
Cooley opined that “[t]he meaning of the provision
undoubtedly is, that the people, from whom the militia must
be taken, shall have the right to keep and bear arms; and they
need no permission or regulation of law for the purpose.”

App. 89

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 90 of 215

90

YOUNG V. STATE OF HAWAII

Thomas M. Cooley, The General Principles of Constitutional
Law in the United States of America 271 (1880). At the same
time, Cooley suggested that “[t]he arms intended by the
Constitution are such as are suitable for the general defence
of the community against invasion or oppression, and the
secret carrying of those suited merely to deadly individual
encounters may be prohibited.” Id. at 271–72 (footnote
omitted). And one of the principal reporters of New York’s
penal code and a prolific author, Benjamin Vaughan Abbott,
offered this practical guide to the Second Amendment:
The Constitution secures the right of the
people to keep and bear arms. No doubt, a
citizen who keeps a gun or pistol under
judicious precautions, practises in safe places
the use of it . . . exercises his individual right.
No doubt, a person whose residence or duties
involve peculiar peril may keep a pistol for
prudent self-defence. But . . . carrying them
carelessly in the pocket; toying with them at
picnics, on board steamers, and in saloons
. . . . These are practices upon which every
good citizen will frown, and which the law of
the land is every year more explicitly
discouraging.
Benjamin Vaughan Abbott, Judge and Jury 333 (1880).
Abbott concludes: “Carrying [pistols] for defence, in the
more settled parts of the land, savors of cowardice rather than
of prudence; a well-behaved man has less to fear from
violence than from the blunders of himself and friends in
managing the pistol he might carry as a protection.” Id.
at 333–34.

App. 90

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 91 of 215

YOUNG V. STATE OF HAWAII

91

One commentator distinguished between what the Second
Amendment prohibits Congress from doing and more general
constitutional principles applicable to the states, and in the
course of his discussion offered perhaps the strongest
endorsement for the right to carry firearms openly in public.
Distilling principles from some of the early Southern cases
that distinguished between concealed carry and open carry,
Professor Ordronaux wrote:
[I]t was not necessary that the right to bear
arms should be granted in the Constitution, for
it had always existed. It is not in consequence
dependent upon that instrument, and is only
mentioned therein as a restriction upon the
power of the national government against any
attempt to infringe it. In other words, it is a
right secured and not created. But this
prohibition is not upon the States, whose
citizens are left free in respect to the extent of
their enjoyment or limitation of the right. The
word “arms” being used in its military sense
alone, and as part of the equipment of a
citizen in the public service, the provision
does not prevent a State from enacting laws
regulating the manner in which arms may be
carried. Thus, the carrying of concealed
weapons may be absolutely prohibited
without the infringement of any constitutional
right, while a statute forbidding the bearing of
arms openly would be such an infringement.
In order to prevent breaches of the peace . . .
a State may, as part of its police regulations
require that . . . a private citizen shall obtain a

App. 91

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 92 of 215

92

YOUNG V. STATE OF HAWAII
license in order to be permitted to carry a
concealed weapon.

John Ordronaux, Constitutional Legislation in the United
States 242–43 (1891) (footnotes omitted). Ordronaux did not
explain his reasoning, other than to drop a footnote with
citations to five cases we have discussed: a Georgia case,
Nunn; three Louisiana cases, Chandler, Smith, and Jumel; and
a Tennessee case, Andrews. At least Andrews is contrary to
Ordronaux’s statement, because the Tennessee Supreme
Court upheld Andrew’s conviction for openly carrying. See
Andrews, 50 Tenn. at 171, 186–87.
None of these commentaries, with the possible exception
of Ordronaux, seriously questions the power of the
government to regulate the open carrying of arms in public.
And several of them reinforce the Court’s holding in Heller,
that there is a general right of self-defense in the home. No
one suggested that those two conclusions are inconsistent
with each other.
3. Twentieth-Century Restrictions
We are not inclined to review twentieth-century
developments in detail, in part because they may be less
reliable as evidence of the original meaning of the American
right to keep and bear arms. We will review some early
developments to place Hawai‘i’s statutes in context.
The first part of the twentieth century saw a change in
approach in some states, as they adopted more detailed
regulations, including licensing requirements. In 1906
Massachusetts adopted “An Act to Regulate by License the
Carrying of Concealed Weapons.” Although the title referred

App. 92

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 93 of 215

YOUNG V. STATE OF HAWAII

93

to “concealed weapons,” the legislation in fact prohibited
carrying “a loaded pistol or revolver, without authority or
permission, . . . or . . . any stiletto, dagger, dirk-knife, slungshot or metallic knuckles.” 1906 Mass. Acts 150, ch. 172,
§ 2. A license “to carry a loaded pistol or revolver” could be
issued to an applicant who had “good reason to fear an injury
to his person or property” and was otherwise “suitable.” Id.
at 150, § 1. Alabama prohibited persons from carrying a
“pistol concealed,” but it also made it “unlawful for any
person to carry a pistol about his person on premises not his
own or under his control.” 1909 Ala. Laws 258 No. 215,
§§ 1–2. Hawai‘i adopted a similar provision: the territory’s
1913 Act prohibited any person “not authorized by law” to
“carry, or be found armed with any bowie-knife, sword-cane,
pistol, air-gun, slung-shot, or other deadly weapon.” 1913
Haw. Laws 25, § 3089.
Most of the laws we have examined lumped firearms into
the same category as knives, brass knuckles and similar
weapons that could be concealed. In the early to midtwentieth century, however, a number of states began to
distinguish between firearms and other dangerous weapons
that could be concealed. In 1911, New York adopted the
Sullivan Law, which made it unlawful to possess without a
license any pistol, revolver, or other firearm capable of being
concealed. See Kachalsky, 701 F.3d at 84–85 (providing
background). In 1913, New York amended the Sullivan Law
“in relation to the carrying, use and sale of dangerous
weapons.” 1913 N.Y. Laws 1627–30, vol. III, ch. 608, § 1.
The legislature made it a felony to carry or possess “any
instrument or weapon of the kind commonly known as a
blackjack, slungshot, billy, sandclub, sandbag, metal
knuckles, bludgeon, bomb or bombshell” and to carry or
possess “with intent to use the same unlawfully against

App. 93

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 94 of 215

94

YOUNG V. STATE OF HAWAII

another . . . a dagger, dirk, dangerous knife, razor, stiletto, or
any other dangerous or deadly instrument or weapon.” Id.
at 1627–28. The legislature, however, separately prohibited
“possession in any city, village or town of this state, any
pistol, revolver or other firearm of a size which may be
concealed upon the person, without a written license
therefor.” Id. at 1628. Openly carrying a concealable
weapon was a misdemeanor; concealed carry was a felony.
Id. New York’s judges were authorized to issue a license to
“any householder, merchant, storekeeper or messenger of any
banking institution or express company” so long as the judge
was “satisfied of the good moral character of the applicant”
and that the householder intended “to have such weapon in
his dwelling”; the “merchant, or storekeeper, to have such
weapon in his place of business”; and the banking messenger
intended “to have and carry such weapon concealed while in
[his] employ.” Id. at 1629. The law exempted law
enforcement officials and “duly authorized military or civil
organizations, when parading [and] . . . when going to and
from the place of meeting of their respective organizations.”
Id.
A number of other states followed New York’s model. In
1923 California adopted “An act to control and regulate the
possession, sale and use of pistols, revolvers and other
firearms capable of being concealed upon the person . . . .”
1923 Cal. Stat. 695, ch. 339. Like New York, and states
before it, California banned possession of dangerous
weapons, including “the kind commonly known as a
blackjack, slungshot, billy, sandclub, sandbag, or metal
knuckles” and concealed dirks and daggers. Id. at 696, § 1.
Separately, it banned felons and aliens from possessing “any
pistol, revolver or other firearm capable of being concealed
upon the person.” Id. at 696, § 2. Other persons were

App. 94

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 95 of 215

YOUNG V. STATE OF HAWAII

95

prohibited from “carry[ing] concealed upon his person or
within any vehicle . . . any pistol, revolver or other firearm
capable of being concealed” without a license. Id. at 697, § 5.
The licensing requirement, however, did not apply to persons
“owning, possessing or keeping within his place of residence
or place of business any pistol, revolver or other firearm
capable of being concealed upon the person.” Id. The act did
not apply to law enforcement officials, members of the
military, persons at target ranges, and licensed hunters.
Other states followed New York and California, although
a number of them banned only concealed firearms. A
standard provision would prohibit any person from carrying
“a pistol or revolver concealed in any vehicle or upon his
person, except in his dwelling house or place of business,
without a permit.” 1925 Ind. Acts 496, ch. 207, § 5. See
1923 N.D. Laws 380 ch. 266, § 6. In 1926 the National
Conference of Commissioners on Uniform State Laws issued
the Uniform Firearms Act, and a number of states adopted the
UFA. See Note, The Uniform Firearms Act, 18 Va. L. Rev.
887, 904 (1932). The UFA proposed licensing concealed
firearms. See, e.g., 1931 Pa. Laws 498, No. 158, § 5; 1935
S.D. Sess. Laws 355, ch. 208, § 5; 1935 Wash. Sess. Laws
599–60, ch. 172, § 5. The note in the Virginia Law Review
praised the UFA, while noting that “[t]he provisions of the
Act contain little that is startling in the way of new
legislation. . . . [The Act] jealously guards the right of the
honest citizen to bear arms.” 18 Va. L. Rev. at 906.
Hawai‘i’s 1927 revisions tracked the UFA and became
the basis for its current licensing scheme. In the 1927 Act,
Hawai‘i provided that

App. 95

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 96 of 215

96

YOUNG V. STATE OF HAWAII
no person shall carry, keep, possess or have
under his control a pistol or revolver;
provided, however, that any person who shall
lawfully acquire the ownership or possession
of a pistol or revolver may, for purposes of
protection and with or without a license, keep
the same in the dwelling house or business
office personally occupied by him, and in case
of an unlawful attack upon any person or
property in said house or office, said pistol or
revolver may be carried in any lawful, hot
pursuit of the assailant.

Act 206, 1927 Haw. Sess. Laws 209–10, § 5. A license “to
carry a pistol or revolver concealed upon his person or to
carry one elsewhere than in his home or office” could be
issued if “the applicant has good reason to fear an injury to
his person or property . . . and . . . is a suitable person to be so
licensed.” Id. at 210, § 7.
D. The Power to Regulate Arms in the Public Square
1. The Basic Rule
Our review of more than 700 years of English and
American legal history reveals a strong theme: government
has the power to regulate arms in the public square. History
is messy and, as we anticipated, the record is not uniform, but
the overwhelming evidence from the states’ constitutions and
statutes, the cases, and the commentaries confirms that we
have never assumed that individuals have an unfettered right
to carry weapons in public spaces. Indeed, we can find no
general right to carry arms into the public square for selfdefense. See Kachalsky, 701 F.3d at 96 (“[O]ur tradition . . .

App. 96

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 97 of 215

YOUNG V. STATE OF HAWAII

97

clearly indicates a substantial role for state regulation of the
carrying of firearms in public.”). To be sure, any onesentence declaration that we might make will be subject to
qualifications and exceptions (which we will address in the
next section), but in the main, we have long distinguished
between an individual’s right of defense of his household and
his business and his right to carry a weapon in public for his
own defense, absent exceptional circumstances. “Like . . . the
right secured by the Second Amendment,” the government’s
right to regulate the carriage of weapons in public places “is
not unlimited.” Heller, 554 U.S. at 626. But we are
persuaded that government regulations on open carry are
“[l]aws restricting conduct that can be traced back to the
founding era and are historically understood to fall outside of
the Second Amendment’s scope,” and thus “may be upheld
without further analysis.” Silvester, 843 F.3d at 821.
The contours of the government’s power to regulate arms
in the public square is at least this: the government may
regulate, and even prohibit, in public places—including
government buildings, churches, schools, and markets—the
open carrying of small arms capable of being concealed,
whether they are carried concealed or openly. We need go no
further than this, because the Hawai‘i firearms licensing
scheme Young challenges only applies to “a pistol or revolver
and ammunition therefor.” HRS § 134-9(a). This power to
regulate is fully consonant with the Second Amendment right
recognized in Heller. Heller found that the pre-existing right
to keep and bear arms is not a right to “carry any weapon
whatsoever in any manner whatsoever and for whatever
purpose.” 554 U.S. at 626. “‘[T]he central component’ of
the Second Amendment” is the “basic right” of self-defense,
whose exercise is “‘most acute’ in the home.” McDonald,
561 U.S. at 767 (quoting Heller, 554 U.S. at 599, 628). The

App. 97

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 98 of 215

98

YOUNG V. STATE OF HAWAII

heart of the Second Amendment is “defense of hearth and
home.” Heller, 554 U.S. at 635.
The power of the government to regulate carrying arms in
the public square does not infringe in any way on the right of
an individual to defend his home or business. In the English
legal tradition, “every man’s house is looked upon by the law
to be his castle.” 3 William Blackstone, Commentaries *288;
see Semayne’s Case (1604), 77 Eng. Rep. 194, 194 (K.B.).
See also Carpenter v. United States, 138 S. Ct. 2206, 2239
(2018) (Thomas, J., dissenting). The principle was colorfully
expressed by William Pitt in Parliament:
The poorest man may in his cottage bid
defiance to all the forces of the Crown. It
may be frail, its roof may shake; the wind may
blow through it; the storm may enter; the rain
may enter; but the King of England cannot
enter—all his force dares not cross the
threshold of the ruined tenement!
See Miller v. United States, 357 U.S. 301, 307 (1958)
(quoting William Pitt) (citation omitted). The principle was
further reinforced in the Bill of Rights, particularly by the
Third and Fourth Amendments. See U.S. Const. amends. III
(“No Soldier shall, in time of peace be quartered in any
house, without the consent of the Owner . . . .”), IV (“The
right of the people to be secure in their . . . houses . . . against
unreasonable searches and seizures, shall not be violated
. . . .”); United States v. Craighead, 539 F.3d 1073, 1077 (9th
Cir. 2008) (“The home occupies a special place in the
pantheon of constitutional rights.” (citing the First, Second,
Third, and Fourth Amendments.)).

App. 98

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 99 of 215

YOUNG V. STATE OF HAWAII

99

Defense of the public square stands on entirely different
footing. “One of the first duties of government is to afford []
protection.” Marbury v. Madison, 5 U.S. (1 Cranch) 137, 163
(1803). Indeed, among the fundamental privileges of
citizenship in the United States is “[p]rotection by the
government.” Corfield v. Coryell, 6 F. Cas. 546, 551
(C.C.E.D. Pa. 1823) (No. 3230). Protection is the quid pro
quo for our allegiance to the government. As Blackstone
explained, “the community should guard the rights of each
individual member, and . . . (in return for this protection) each
individual should submit to the laws of the community;
without which submission of all it was impossible that
protection could be certainly extended to any.” 1 William
Blackstone, Commentaries at *47–48; see also Calvin’s Case
(1609), 77 Eng. Rep. 377, 382 (K.B.) (Coke, J.) (stating that
“the Sovereign is to govern and protect his subjects” and “the
subject oweth to the King his true and faithful ligeance”);
English, 35 Tex. at 477 (“It is useless to talk about personal
liberty being infringed by laws such as that under
consideration. The world has seen too much licentiousness
cloaked under the name of natural or personal liberty; natural
and personal liberty are exchanged, under the . . . social
compact of states, for civil liberty.”). The king who cannot
guarantee the security of his subjects—from threats internal
or external—will not likely remain sovereign for long.
The distinction between hearth and home and the public
square is reinforced in the U.S. Constitution in another way:
it is peculiarly the duty of the states to defend the public
square. We should observe at this juncture that the American
legal experience differed from the English tradition in two
very important respects—written constitutions and
federalism. Americans departed from their English forebears
by creating written constitutions. “English colonists in

App. 99

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 100 of 215

100

YOUNG V. STATE OF HAWAII

America became used to writing their own documents to flesh
out the particulars of their governments.” Donald S. Lutz,
Colonial Origins of the American Constitution xx, xxi (1998).
As a consequence, “[l]ocal government in colonial America
was the seedbed of American constitutionalism.” Id. Thus,
Chief Justice Marshall wrote, “in America, . . . written
constitutions have been viewed with so much reverence;”
they were our “greatest improvement on political
institutions.” Marbury, 5 U.S. (1 Cranch) at 178. The U.S.
Constitution was written against a background of existing
state constitutions, charters, and laws; indeed, it borrowed
generously from those constitutions. The U.S. Constitution
did not displace such laws, U.S. Const. amend. X, except
where it did so expressly, see, e.g., id. art. I, § 8, cls. 1–3; art.
VI, cl. 2. Thus, as we are looking for the meaning of “the
right of the people to keep and bear Arms”—which owed its
phrasing to the Massachusetts Constitution, Mass. Const. of
1780, pt. 1, art. 17 (“The people have a right to keep and to
bear arms . . . .”)—we should be looking to state constitutions
and practices for the best evidence of how Americans viewed
their inherited right to bear arms.
That brings us to the other American innovation:
American federalism contemplated distinct roles for the
federal government and the states, and it was the states that
had responsibility for maintaining the public peace. The U.S.
Constitution declared at the outset that the federal
government would bear responsibility to “provide for the
common defence.” U.S. Const. pmbl. (emphasis added). To
effect that, the Constitution conferred on the United States the
power to raise and support armies and navies and imposed a
duty to “protect [the states] against Invasion.” Id. art. I, § 8,
cls. 12–13; art. IV, § 4. Correspondingly, the states were
forbidden to “keep Troops, or Ships of War,” or to “engage

App. 100

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 101 of 215

YOUNG V. STATE OF HAWAII

101

in War unless actually invaded, or in such imminent Danger
as will not admit of delay.” Id. art. I, § 10, cl. 3. On the other
hand, the United States shared responsibility with the states
for “promot[ing] the general Welfare,” and thus was granted
the power to “lay and collect Taxes . . . to provide . . . for the
general Welfare of the United States.” Id. pmbl.; art. I, § 8,
cl. 1. By contrast, the United States was not enjoined to
secure or provide “domestic Tranquility,” but only to
“insure” it. Id. pmbl. Accordingly, the United States was
made the “guarant[or] . . . against domestic Violence,” but
only “on Application of the Legislature, or of the Executive
(when the Legislature cannot be convened).” Id. art. IV, § 4.
That meant that the states had the primary responsibility for
securing what was formerly known as “the king’s peace.”
See 1 St. George Tucker, Blackstone’s Commentaries, at
app’x 367 (“[E]very pretext for intermeddling with the
domestic concerns of any state, under colour of protecting it
against domestic violence is taken away, by that part of the
provision which renders an application from the legislative,
or executive authority of the state endangered, necessary to be
made to the federal government, before it[]s interference can
be at all proper.”).
The states, in place of the king, assumed primary
responsibility for maintaining the “king’s peace,”38 consistent

St. George Tucker explained that “[u]pon dissolution of the regal
government, all public offences became offences against that particular
state in which they were committed.” Accordingly, crimes in Virginia
were “alledged to be committed against the peace and dignity of this
commonwealth.” 5 St. George Tucker, Blackstone’s Commentaries, at
app’x 20.
38

App. 101

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 102 of 215

102

YOUNG V. STATE OF HAWAII

with their constitutions, laws, and traditions. As we have
seen, maintaining the “king’s peace” was the king’s duty and,
in the English view, the carrying of weapons in public areas
was an affront to the king’s authority, for two reasons. First,
public carry threatened the king’s peace because the mere
presence of the weapons terrorized the people. Second, it
suggested that the king was unable or unwilling to protect the
people. Carrying arms in the public square infringes on
states’ police powers for similar reasons. Thus, whether a
man carried arms publicly as an open challenge to the king’s
peace, or did so as a vote of no confidence in the king’s
ability to maintain it, the Statute of Northampton was among
the earliest efforts to assert formal authority over the public
square. And, in the English view, the Statute of Northampton
did not infringe any right to defend one’s castle, what the
Supreme Court colloquially referred to in Heller as “hearth
and home.” As Lord Coke explained, the Statute did not
apply to the man who “assemble[s] force to defend his

The Supreme Court has further explained:
[W]hen the Constitution was written the term ‘breach
of the peace’ did not mean, as it came to mean later, a
misdemeanor such as disorderly conduct but had a
different 18th century usage, since it derived from
breaching the King’s peace and thus embraced the
whole range of crimes at common law.
United States v. Brewster, 408 U.S. 501, 521 (1972). See U.S. Const. art.
I, § 6, cl. 1 (granting Senators and Representatives privilege against arrest
during and traveling to and from legislative sessions “except [for]
Treason, Felony and Breach of the Peace”); Williamson v. United States,
207 U.S. 425, 446 (1908) (“[T]he term treason, felony and breach of the
peace, as used in the constitutional provision relied upon, excepts from the
operation of the privilege all criminal offenses” (internal quotation marks
omitted)).

App. 102

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 103 of 215

YOUNG V. STATE OF HAWAII

103

house.” Coke, The Third Part of the Institutes of the Laws of
England 161. Hearth and home and the public square were
separate domains.
Even as the colonists broadly adopted the Statute of
Northampton, they also adapted it, by enumerating the kinds
of weapons that were banned. The lists vary from jurisdiction
to jurisdiction, but what commonly appears on the lists are
small, hand-held weapons, capable of being concealed,
including pistols, revolvers, dirks, daggers, brass knuckles,
and slung shots—which were, at the time of the colonies and
early statehood, considered deadly and dangerous weapons.
Throughout the nineteenth century, American courts
continued to question the usefulness of such weapons, see
Andrews, 50 Tenn. at 178; Page, 50 Tenn. at 201; Hill, 53 Ga.
at 474–75; English, 35 Tex. at 476–77; Duke, 42 Tex.
at 458–59; Haile, 38 Ark. at 565–66, characterizing them as
given to “known public mischief,” Fife, 31 Ark. at 461.
Although some states only prohibited concealed carry, many
more states banned the carrying of concealable weapons
whether actually concealed or not.
The states broadly adopted restrictions on possessing
arms in the public square, and they did so even in the face of
the states’ own constitutional provisions protecting the right
to keep and bear arms. Four states had constitutional
protections for arms-bearing that pre-date the U.S.
Constitution. N.C. Decl. of Rights of 1776, § 17; Pa. Decl. of
Rights of 1776, cl. XIII; Vt. Const. of 1777, ch. I, art. 15;
Mass. Const. of 1780, part. 1, art. 17. North Carolina,
Pennsylvania and Vermont characterized it as the “right to
bear arms” to defend themselves and the state. Massachusetts
called it the “right to keep and to bear arms for the common
defence.” Following independence and continuing to today,

App. 103

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 104 of 215

104

YOUNG V. STATE OF HAWAII

forty-four of the fifty states have some kind of Second
Amendment analogue. Most of those provisions have some
kind of clause referring to the militia or the need to keep the
militia under civilian control. Most of the provisions refer to
the right to defend self and state. A number of states spelled
out that the right to keep and bear arms extended to defense
of self, family, and property. The Montana provision is
typical: “The right of any person to keep or bear arms in
defense of his own home, person, and property, or in aid of
the civil power when thereto legally summoned, shall not be
called in question . . . .” Mont. Const. of 1889, art. III, § 13;
see also Neb. Const. of 1988, art. I, § 1; N.H. Const. of 1982,
pt. 1, art. 2-a; N.D. Const. of 1984, art. I, § 1; Okla. Const. of
1907, art. II, § 26; Utah Const. of 1984, art. I, § 6; W. Va.
Const. of 1986, art. III, § 22. Others added that the right to
bear arms included a right to engage in hunting or other
recreational use. See Neb. Const. of 1988, art. I, § 1; Nev.
Const. of 1982, art. I, § 11(1); N.M. Const. of 1986, art. II,
§ 6; N.D. Const. of 1984, art. I, § 1; W. Va. Const. of 1986,
art. III, § 22. The states divided over the line between the
legislature’s power to regulate concealed carry and its power
to regulate the carrying of arms, concealed or open. A
number of constitutions did not explain one way or the other,
but nine state constitutions expressly referred to the
legislature’s power to regulate concealed carry. For example,
the Louisiana Constitution provided that the right to keep and
bear arms did “not prevent the passage of laws to punish
those who carry weapons concealed.” La. Const. of 1879, art.
III, § 3; see also Colo. Const. of 1876, art. I, § 13; Idaho
Const. of 1978, art. I, § 11; Ky. Const. of 1850, art. XIII,
§ 25; Ky. Const. of 1891, art. II, § 1; Miss. Const. of 1890,
art. III, § 12; Mo. Const. of 1875, art. II, § 17; Mont. Const.
of 1889, art. III, § 13; N.M. Const. of 1911, art. II, § 6; N.M.
Const. of 1971, art. II, § 6; N.C. Const. of 1876, art. I, § 24;

App. 104

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 105 of 215

YOUNG V. STATE OF HAWAII

105

N.C. Const. of 1971, art. I, § 30; cf. La. Const. of 1974, art. I,
§ 11 (removing any reference to the state’s authority to
regulate concealed carry); Mo. Const. of 1945, art. I, § 23
(same). Eight states recognized the legislature’s power to
regulate the carrying of arms, without limiting the express
power to concealed carry. Perhaps the most explicit of these
is the Oklahoma Constitution, which provides: “The right of
a citizen to keep and bear arms in defense of his home,
person, or property, or in aid of the civil power, when
thereunto legally summoned, shall never be prohibited; but
nothing herein contained shall prevent the Legislature from
regulating the carrying of weapons.” Okla. Const. of 1907,
art. II, § 26; see also Fla. Const. of 1885, art. I, § 20; Fla.
Const. of 1968, art. I, § 8; Ga. Const. of 1868, art. I, § 14; Ga.
Const. of 1877, art. I, § 1, para. XXII; Idaho Const. of 1889,
art. I, § 11; Ill. Const. of 1970, art. I, § 22; Tenn. Const. of
1870, art. I, § 26; Tex. Const. of 1869, art. I, § 13; Tex.
Const. of 1876, art. I, § 23; Utah Const. of 1895, art. I, § 6;
Utah Const. of 1984, art. I, § 6.39
Although “the [Second] Amendment did not originally
apply to the States, . . . that does not make state practice
39
Even when a state constitution was silent on the power of the
legislature to regulate the carrying of weapons (openly or concealed), state
courts upheld the power of the legislature to regulate carrying. See, e.g.,
Mitchell, 3 Blackf. at 229; Aymette, 21 Tenn. at 161–62; Buzzard, 4 Ark.
at 28 (op. of Ringo, C.J.), 33 (op. of Dickinson, J.); Wright, 77 Pa. at 471;
Blaksley, 83 P. at 620–21; Isaiah, 176 Ala. at 28. The Supreme Court of
Arkansas, reviewing the cases and acknowledging that the Arkansas
Constitution lacked an express conferral of legislative power, referred to
an express provision in the Tennessee Constitution as “a matter of
superabundant caution, inserted to prevent a doubt, and that, unexpressed,
it would result from the undefined police powers, inherent in all
governments, and as essential to their existence as any of the muniments
of the bill of rights.” Haile, 38 Ark. at 567.

App. 105

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 106 of 215

106

YOUNG V. STATE OF HAWAII

irrelevant in unearthing the Amendment’s original meaning.”
Atwater v. City of Lago Vista, 532 U.S. 318, 338–39 (2001)
(discussing the Fourth Amendment). We can, and should,
look to “early state practice,” particularly where “[a] number
of state constitutional . . . provisions served as models for the
. . . Amendment.” Id. at 339. Even after the adoption of the
Second Amendment, states continued to adopt constitutional
provisions protecting the right to keep and bear arms,
precisely because it was not clear that the Second
Amendment did bind them. And even as the states enshrined
a right to bear arms in their fundamental documents, they
continued to regulate the presence and use of arms in the
public square. The states themselves saw no inconsistency
between their citizens’ right to keep and bear arms and the
states’ duty to protect those citizens. When we look to those
early state practices, we must conclude that “history, if not
unequivocal, has expressed a decided, majority view,” id. at
345, and it is one that comes with “an impressive historical
pedigree,” United States v. Villamonte-Marquez, 462 U.S.
579, 585 (1983), and that is sufficient.
It would be anomalous in the extreme if, having gone to
the trouble of spelling out the respective responsibilities of
the new federal government and the states in 1789, the
framers of the Bill of Rights undid that relationship with the
Second Amendment (adopted in 1791) by overruling existing
state constitutions and statutes. And the Court has assured us
that the Second Amendment did no such thing, but merely
codified a pre-existing right to keep and bear arms. Heller,
554 U.S. at 599. For us, this powerfully suggests that the
Second Amendment should be read in light of state
constitutions and laws roughly contemporaneous with the
adoption of the Constitution; it should be seen as consistent
with pre-existing laws regarding the king’s peace, and not as

App. 106

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 107 of 215

YOUNG V. STATE OF HAWAII

107

a novel federal check on those laws. Cf. Atwater, 532 U.S.
at 336–37 (finding that the petitioner “has cited no particular
evidence that those who framed and ratified the Fourth
Amendment sought to limit peace officers’ warrantless
misdemeanor arrest authority” and citing “[t]he evidence of
actual practice . . . . [d]uring the period leading up to and
surrounding the framing of the Bill of Rights [by] colonial
and state legislatures”).
2. The Exceptions
The American record is clear enough, but as we have said,
it is not uniform. States adapted the Statute of Northampton
to fit their own needs. Although they did not agree on all the
particulars, they did agree that the state legislatures had
power to regulate the carrying of arms in public. In this
section, we consider some of the general exceptions the states
made to the no public carry rule to understand how it might
affect any right to bear arms in the public square.
a. Classes of persons. The statutes exempted certain
classes of persons from the restrictions. For example, the
statutes are nearly unanimous in stating, so that there would
be no misunderstanding, that the restrictions on public carry
did not apply to law enforcement officials. As a nod to our
federalism, the states generously made clear that their statutes
also did not regulate federal law enforcement officials from
carrying. And the statutes exempt military personnel when
on duty and required by the military to be armed. Many of
the statutes also took into account people who were travelling
through the locale and, of necessity, were carrying their
belongings, including firearms. More recent statutes make
clear that hunters and target shooters may carry their weapons

App. 107

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 108 of 215

108

YOUNG V. STATE OF HAWAII

to and from the places where they may be lawfully
discharged.
b. Places. The statutes generally regulate carrying arms
in public places such as fairs, markets, churches, and in
places where the king’s ministers or agents might be found,
which we accept as a primitive reference to government
buildings. We do have a couple of colonial examples where,
by statute, persons were required to carry their weapons to
such public places, most notably churches. We have
explained that these early statutes were for the perceived need
for protection from outside groups, such as slaves and Native
Americans.
Although it might be argued that this
demonstrates that early Americans had a right to carry their
firearms, the statutes impose a duty to carry, which is quite
different. When the government imposes such a duty it
assumes that it has the power to regulate the public carrying
of weapons; whether it forbids them or commands them, the
government is regulating the practice of public carrying.
So far as we can tell from the historical record, none of
the early statutes forbade the possession of such weapons in
the home. And more modern statutes sometimes allow
individuals to keep weapons in a place of business as well.
c. Licensing and good-cause requirements. Some of the
first English provisions forbade the carrying of arms unless
licensed by the king. We do not have much information on
what criteria were used or how frequently such licenses were
issued. By the nineteenth century, some states authorized a
form of licensure as an alternative to a ban on public carriage,
although it was not a formal process such as we think of
today. The 1836 Massachusetts statute, which served as a
model for many states, provided that any person who went

App. 108

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 109 of 215

YOUNG V. STATE OF HAWAII

109

“armed with a dirk, dagger, sword, pistol, or other offensive
and dangerous weapon, without reasonable cause to fear an
assault or other injury, or violence to his person, or to his
family or property,” was subject to surety (which we discuss
below). 1836 Mass. Acts 750, ch. 134, § 16 (emphasis
added). One way of reading this statute is that it gave
permission to people to carry concealable arms if they had
“reasonable cause,” which the statute defined as fear of
assault, injury, or violence to themselves, their families, or
their property. Unlike the modern practice, no advance
permission needed to be obtained.
The modern practice of formal licensing of firearms
appears to be a twentieth-century innovation. A number of
the twentieth-century statutes granted a license to carry in
public if the applicant had good cause, such as fear of injury
to himself or his property. Some states generally authorized
the carrying of firearms in the home or at a place of
employment but forbade persons to carry elsewhere unless
they could demonstrate good cause. The influential 1913
New York law allowed persons to carry a pistol, revolver, or
other firearm to protect their home or business, but it required
advance application to a magistrate. 1913 N.Y. Laws 1629,
vol. III, ch. 608, § 1.
d. Surety. Both English and American law allowed the
practice of surety as an alternative to a broad ban on open
carry. Massachusetts provides a typical example. The surety
was a form of “security to keep the peace, or . . . good
behavior, or both.” 1836 Mass. Acts 750, ch. 134, § 1. It was
a form of prior restraint where “there [was] just cause to fear
that any such offence may be committed.” Id. § 3. If a
person was found with one of the enumerated weapons, or
any other “offensive and dangerous weapon,” then “any

App. 109

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 110 of 215

110

YOUNG V. STATE OF HAWAII

person having reasonable cause to fear an injury, or breach of
the peace” could file a complaint. Id. § 16. Upon complaint,
a magistrate could issue a warrant for the apprehension of the
person accused of threatening the peace. The accused would
be brought before the court where he could present his
defense. If the person carrying the weapon did not have
“reasonable cause” to fear for himself, his family, or his
property, then the magistrate could require the accused to post
“sufficient sureties . . . to keep the peace towards all the
people of this Commonwealth, and especially towards the
person requiring such security.” The surety was known as a
“recognizance.” Id. §§ 3–4. Effectively, posting surety was
similar to posting bail against one’s future conduct. If surety
was not posted, the person was imprisoned for the term for
which the surety was to be posted, a term not to exceed six
months. Id. § 4. If the person violated his recognizance, the
surety was forfeited. Id. § 17.40
The surety provision allowed people against whom a
complaint had been made to carry in public, but only if they
could demonstrate good cause. The penalties for failing to
show good cause were severe—including fines and
imprisonment. Moreover, the law allowed “any person” who
feared “injury, or breach of the peace” to file a complaint.
Id. § 16 (emphasis added). Filing a complaint did not require
proof that the person carrying was a threat to the complainant;
it was sufficient for the complainant to show that there was a
The Massachusetts law contemplated both sureties of the peace and
sureties for good behavior, a practice with deep roots in English law. See
supra note 12 (explaining the forms of surety). Section 16 required that
a person accused of being a threat to the peace in the future “find sureties
for keeping the peace.” Section 18 referenced “[a]ny surety in a
recognizance to keep the peace, or for good behavior . . . .” 1836 Mass.
Acts 750, ch. 134, §§ 16, 18 (emphasis added).
40

App. 110

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 111 of 215

YOUNG V. STATE OF HAWAII

111

threat to the peace—a standard that harkened to the Statute of
Northampton. The possibility of having to respond to such a
complaint, much less having to post surety, appears to have
been a severe constraint on anyone thinking of carrying a
weapon in public.
We thus vigorously disagree with the D.C. Circuit’s
conclusion that “[u]nder surety laws, put simply, everyone
started out with robust carrying rights.” Wrenn, 864 F.3d
at 661. This conclusion simply ignores the plainest of
readings of English and American laws. The English practice
of surety of the peace, which carried over to the states, was a
substantive restraint on anyone who was the subject of a
complaint for openly carrying arms or other dangerous
weapons. The surety laws permitted courts to impose a bond
requirement on people who had not actually violated any
laws, but might do so in the future. Surety was a means of
keeping the peace in areas lacking a centralized police force.
See supra note 12. No one would describe such regulations
as “‘akin to modern penalties for minor public-safety
infractions like speeding or jaywalking,’ which makes them
. . . poor evidence of limits on the [Second] Amendment’s
scope.” Id. (quoting Heller, 554 U.S. at 633).41 The history
of sureties shows that carrying arms in public was not treated
as a fundamental right.
***
None of the longstanding exceptions for certain types of
public carry diminishes in any significant way the
We note that the Court in Heller was not referring to surety
provisions, but to provisions dealing with discharging weapons. 554 U.S.
at 632–34.
41

App. 111

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 112 of 215

112

YOUNG V. STATE OF HAWAII

government’s power to regulate the carrying of arms in public
places. The fact that we have recognized the need for law
enforcement officials and military personnel to carry
weapons; that we have understood the right of self-defense in
our businesses; that we have made accommodations to reality
by allowing persons in transit to cross public areas with their
arms; that we have granted limited license to people to carry
in the public square; and that we have, at times, employed
sureties as an alternative to an outright ban on open carry
does not detract in any way from the fundamental point that
for centuries we have accepted that, in order to maintain the
public peace, the government must have the power to
determine whether and how arms may be carried in public
places. There is no right to carry arms openly in public; nor
is any such right within the scope of the Second Amendment.
Cf. Kachalsky, 701 F.3d at 96 (“[S]tate regulation of the use
of firearms in public was ‘enshrined with[in] the scope’ of the
Second Amendment when it was adopted.” (alteration in
original) (quoting Heller, 554 U.S. at 634)).
We recognize that, although there have been few
technological advances in the last centuries in dirks, daggers,
slung shots, and brass knuckles, there clearly have been
advances in the manufacture of pistols and revolvers. Heller
observed that today the handgun is “an entire class of ‘arms’
that is overwhelmingly chosen by American society for . . .
[a] lawful purpose.”
Heller, 554 U.S. at 628.
Notwithstanding the advances in handgun technology, and
their increasing popularity, pistols and revolvers remain
among the class of deadly weapons that are easily transported
and concealed. That they may be used for defense does not
change their threat to the “king’s peace.” It remains as true
today as it was centuries ago, that the mere presence of such
weapons presents a terror to the public and that widespread

App. 112

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 113 of 215

YOUNG V. STATE OF HAWAII

113

carrying of handguns would strongly suggest that state and
local governments have lost control of our public areas.
Technology has not altered those very human
understandings.42
We may, of course, change our conception of what we
need to do to protect ourselves. The Constitution does not
impose the Statute of Northampton on the states. But the
Second Amendment did not contradict the fundamental
principle that the government assumes primary responsibility
for defending persons who enter our public spaces. The
states do not violate the Second Amendment by asserting
their longstanding English and American rights to prohibit
certain weapons from entering those public spaces as means
of providing “domestic Tranquility” and forestalling
“domestic Violence.” U.S. Const. pmbl.; U.S. Const. art. IV,
§ 4. Any change we wish to make in our allocation of
responsibility between ourselves and our governments may
be had through ordinary legislation, amendment to state
constitutions, or amendment to the U.S. Constitution.
E. Response to the Dissent
Before we apply our conclusion to the Hawai‘i statute, we
have several general observations to make on the views of our
dissenting colleagues. We have tried to address all relevant
materials—statutes, cases, and treatises—and we have
labored to make sense of the whole record. We have

42
Even if we were disposed to declare pistols and revolvers necessary
for our own self-defense in public places, we see no reasonable stopping
point at firearms. See Strickland, 72 S.E. at 263. If pistols and revolvers
are useful for self-defense, so are dirks and daggers and “other dangerous
and unusual weapons” such as Samurai swords or a trident and net.

App. 113

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 114 of 215

114

YOUNG V. STATE OF HAWAII

recognized that the materials do not always agree in all the
particulars, but we have worked to distill the central meaning
from the record. The dissent, however, reviews a much more
limited historical record. Where we referred to state
constitutions as evidence of the meaning of the Second
Amendment, the dissent finds them “entirely irrelevant” to
the question presented in this case. O’Scannlain Dissent
at 147. Where we worked through the history of legislation
in the colonies, states, and territories—covering a variety of
regulations from some thirty-one separate jurisdictions—the
dissent dismisses the legislation as “regulation at its edges,”
id. at 132, from a “smattering of nineteenth-century gun
regulations,” id. at 160.43 When we point out that three U.S.

The history of legislation the dissent does cite is the post-Civil War
history of the Black Codes. See O’Scannlain Dissent at 150–53. We do
not disagree with the history the dissent recounts, but it is not clear how
that history informs the issue before us. The Black Codes, for example,
forbade black Americans (and others) from keeping arms. See id. at 150
n.8 (citing examples). The congressional reaction to these codes was the
Civil Rights Act of 1866. That Act provided that all citizens, without
regard to prior condition of slavery, would have “the same right . . . to
make and enforce contracts, to sue, be parties, and give evidence, to
inherit, purchase, lease, sell, hold, and convey real and personal property,
and to full and equal benefit of all laws and proceedings for the security
of person and property, as is enjoyed by white citizens . . . .” Act of Apr.
9, 1866, ch. 31, § 1, 14 Stat. 27. Concerned that the Act might be beyond
Congress’s powers, Congress proposed a new amendment, which became
our Fourteenth Amendment. As he introduced the proposed amendment,
Representative Thaddeus Stevens explained that it would guarantee that
43

whatever law punishes a white man for a crime shall
punish the black man precisely in the same way and to
the same degree. Whatever law protects the white man
shall afford “equal” protection to the black man.
Whatever means of redress is afforded to one shall be
afforded to all. Whatever law allows the white man to

App. 114

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 115 of 215

YOUNG V. STATE OF HAWAII

115

territories, which were bound by the Second Amendment and
whose own constitutions had to be approved by Congress,
had firearms restrictions similar to those of the states, the
dissent answers that they are “isolated, territorial statutes,” id.
at 169, from Western regions where “life on the frontier
might have motivated territorial legislatures to undertake
more severe measures against the use of weapons” than in
other states, id. at 165–66. Where we carefully analyzed the
full range of views expressed in the nineteenth-century state
cases, the dissent begins with the cases that favor its view, id.
at 138–44, and discards the remaining cases as “carry[ing] no
interpretive weight after Heller,” id. at 144. See id. at 144–49
(discussing and dismissing other state cases). Where we cited
to all the treatises that were relevant to the parties, the dissent
only relies on the treatises that agree with its bottom line. Id.
at 135–38, 155–56, 164–65. Having dispensed with most of
the resources available to us, it is of no surprise that the
dissent concludes that “[t]he important Founding-era
treatises, the probative nineteenth-century case law, and the
post-Civil War legislative scene all reveal a single American
voice.” Id. at 153 (emphasis added).

testify in court shall allow the man of color to do the
same.
Cong. Globe, 39th Cong., 1st Sess. 2459 (1866).
As equality provisions, the Privileges or Immunities Clause and the
Equal Protection Clause of the Fourteenth Amendment guaranteed that all
citizens would enjoy the same rights as “white citizens,” including Second
Amendment rights. But those provisions do not tell us anything about the
substance of the Second Amendment, any more than an equal right to
enter into contracts or inherit property tells us whether the state may alter
the Statute of Frauds or the Rule Against Perpetuities, so long as it does
so for all citizens.

App. 115

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 116 of 215

116

YOUNG V. STATE OF HAWAII

The dissent’s conclusion is, with respect, a modest thesis.
And, more importantly, it is not history. We acknowledged
from the very beginning that the historical record was mixed
and that we were going to have to work through it—all of
it—to discern the long-term trends. The dissent has picked its
friends and come to a fore-ordained conclusion that its friends
have spoken with a “single American voice.” We deal below
with some of the dissent’s reasons for dismissing the
evidence laid out before us, but one important point needs to
be made here. The dissent dismisses out of hand many
nineteenth-century sources as irrelevant because they “carr[y]
no interpretive weight after Heller.” Id. at 144. See also id.
at 145–47, 163–65. Indeed, in the end, examining any
evidence beyond that supporting the dissent “is foreclosed by
Heller.” Id. at 174. We do not believe that Heller has
decided the issue presented to us in this case, nor do we
believe that Heller has foreclosed our examination of the
historical record. But we, and the dissent, should be clear: If
Heller has answered these questions then there is no reason
to review the historical record. In the end the dissent’s view
is not that our understanding of the history is wrong, but that
history is now beside the point because Heller has reached a
different conclusion. But that is an argument based on
Heller, not an argument based on the historical evidence, and
we ought not to pretend that selective citation of historical
sources is itself good history.
We are thus content, in the main, to rest on our review of
the historical record. There are a couple of points we should
address. We will start with the relevance of legislation as
evidence of the scope of a constitutional right. The dissent
simply elides the substantial history of colonial, state, and
territorial restrictions on the possession of firearms in the
public square, most of it derived from the Statute of

App. 116

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 117 of 215

YOUNG V. STATE OF HAWAII

117

Northampton and related English practices. For the dissent,
“the existence of historical regulations” is of little value, for
two reasons: (1) “the majority offers no enforcement history”
and (2) those regulations “largely evaded constitutional
scrutiny.” Id. at 160; see also id. at 166 (“[O]ne can learn
little about the general understanding of the Second
Amendment from such isolated statutes, which were enacted
so distant from the Founding and for which we have no
record of enforcement.”). The question of whether these
statutes were actually enforced is a fair one. There are many
statutes on the books of American jurisdictions that have
never been enforced or, having once been enforced, have
fallen into desuetude. There are several things in the record
that make us think that these statutes were not merely
symbolic. The statutes adopted by the states owed much to
their English antecedents. Whatever deference the colonists
thought they owed to England was severed in the Revolution.
Yet, shortly after the adoption of the Second Amendment, the
states adopted statutes similar to the Statute of Northampton.
And the states, acting independently, copied statutes from
each other. And such statutes were updated and altered as
necessary. That strongly suggests that the states felt the need
for such legislation. How tightly each state or jurisdiction
within a state decided to enforce the statute is beyond the
materials that we have seen. But even if a statute was not
enforced, or was loosely enforced, the fact of the statute alone
is some evidence that the state legislature believed that it was
within its power to adopt the legislation. The sheer breadth
of firearms legislation in the United States suggests that its
constitutionality was broadly accepted. Moreover, the
handful of cases we do have from various courts, based on
fairly mundane facts, proves that the statutes were enforced.

App. 117

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 118 of 215

118

YOUNG V. STATE OF HAWAII

Nevertheless, the dissent correctly points out that there
are a relatively small number of state cases—largely from the
South—testing the constitutionality of such statutes. There
are several things that may explain this. Since Marbury v.
Madison, we have come to accept the primacy of the
judiciary in deciding the constitutionality of legislative acts.
As twenty-first century Americans we believe that all
constitutional questions not only will, but must, be resolved
in the courts. Thus, we may be forgiven for believing that, if
these statutes were enforced, there would be more reported
appellate decisions. From this the dissent would have us
conclude that the statutes were simply not enforced. But, on
the other hand, our twenty-first century assumptions may not
have been true of the nineteenth century. At least in the U.S.
Supreme Court, the routine exercise of the Marbury power is
largely a post-Civil War development. Until 1865, the Court
struck down exactly two federal statutes, one in Marbury and
one in Dred Scott v. Sandford, 60 U.S. (19 How.) 393 (1857).
Whether there was a similar reluctance on the part of state
supreme courts to address such questions, whether state
courts routinely accepted the constitutionality of the statutes,
or whether the statutes were sparingly enforced and
challenged in court is not apparent, but it is clear that as a
nation we became much more constitutionally litigious after
the Civil War. See Heller, 554 U.S. at 625–26 (commenting
on a number of “significant matter[s]” that have “been for so
long judicially unresolved”). Without some basis for
rejecting the extensive history of legislation, we are not free
to ignore it. It is the best evidence we have of the American
understanding of the interface between the right to keep and
bear arms and the police power over the public square.
The scholarly commentary offers additional explanation.
Military historian Patrick Charles points out that prior to the

App. 118

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 119 of 215

YOUNG V. STATE OF HAWAII

119

Civil War, the states divided along sectional lines over how
to regulate arms, with Northern and Western states following
what has been called the “Massachusetts Model.” He
observes, consistent with the dissent’s point, that “the
constitutionality of the Massachusetts Model was never
sufficiently called into question.” Patrick J. Charles, Armed
in America: A History of Gun Rights from Colonial Militias
to Concealed Carry 143 (2018) (footnote omitted). He
suggests three reasons why that is so. First, “Northerners, by
and large, detested the practice of going habitually armed,”
and therefore accepted the legitimacy of this exercise of
police power. Id. Second, even under the Massachusetts
Model, individuals could “carry weapons for self-defense so
long as they could show a pressing or imminent threat.” Id.
at 144. And third, “Northerners viewed the right to selfdefense as a right of the last resort”; they simply did not feel
the need to carry as often as their Southern counterparts, who
“embrace[d] notions of vengeance and honor.” Id. at 145. In
the South, the states “differentiate[d] between the open and
concealed carriage of arms. While open carriage was more
often than not legally condoned, concealed carriage was
prohibited.” Id.
Even accepting the relatively small number of reported
cases, we have an additional concern with the dissent’s
rejection of roughly half of the state cases that did address the
constitutionality of firearms regulations.
Compare
O’Scannlain Dissent at 138–43 (citing with approval cases
from Kentucky, Tennessee, Alabama, Georgia, and
Louisiana), with id. at 144–49 (rejecting cases from Arkansas,
Georgia, Texas, West Virginia, and Oklahoma).44 Once the
We have addressed all of these cases in Part III.C.2.b and will not
repeat our discussion here.
44

App. 119

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 120 of 215

120

YOUNG V. STATE OF HAWAII

dissent dismisses all the state cases that disagreed with its
conclusion, it confidently concludes that “the majority has not
cited a single apposite case in which any nineteenth-century
court held to the contrary.” Id. at 149. The trick, of course,
is the word “apposite.” The dissent rejects decisions from
four states, Arkansas, Georgia, Texas, and West Virginia
because “each decision was explicitly premised on a militiafocused view of the right to bear arms.” Id. at 145.
According to the dissent, Heller rejected a militia-based
reading of the Second Amendment, and each of these cases
“rests on the untenable militia-based view of the right.” Id.
at 144. The dissent has overstated its case. In Heller, the
Court rejected the view that the Second Amendment’s
prefatory clause—“A well regulated Militia, being necessary
to the security of a free State”—was “the central component
of the right,” that is, that one might possess arms only in
defense of the state. Heller, 554 U.S. at 599 (emphasis
omitted); see id. at 577 (“Petitioners and today’s dissenting
Justices believe that [the Second Amendment] protects only
the right to possess and carry a firearm in connection with
militia service.”). Rather, the Court held that the “entirely
sensible” reading was that the Second Amendment prevented
“the threat that the new Federal Government would destroy
the citizens’ militia by taking away their arms.” Id. at 599;
see id. at 598 (“During the 1788 ratification debates, the fear
that the Federal Government would disarm the people in
order to impose rule through a standing army or select militia
was pervasive in Antifederalist rhetoric.”).
There is nothing in the state cases that the dissent rejects
and, therefore, ignores that is inconsistent with Heller’s
conclusion that the Second Amendment protects an individual
right. None of those state decisions took the position
disapproved by the Supreme Court in Heller. What they did

App. 120

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 121 of 215

YOUNG V. STATE OF HAWAII

121

was refer to arms useful in service in the militia as way of
distinguishing between constitutional regulations (small
weapons traditionally prohibited under English and American
law and not useful in military service) and a right to keep and
bear arms that could be exercised in defense of self and state.
See id. at 602 (referring to state constitutions that “referred to
the right of the people to ‘bear arms in defence of themselves
and the State’”). The dissent’s own quotations from the cases
it rejects demonstrates the state courts’ concerns. See
O’Scannlain Dissent at 144–47. None of those cases could
reasonably be read to support the ban of all weapons except
when actually used in militia service, which was the theory
Heller rejected. The militia clause helps us understand the
contours of the Second Amendment. After Heller, the
prefatory clause may not dictate the content of Second
Amendment rights, but neither is it irrelevant to it.
Finally, the dissent’s treatment of the state cases that do
not agree with its conclusion reinforces the dissent’s Heller
problem. If the Second Amendment codifies an “existing
right,” we have to look to some source for the right. And
unless we are willing to say that it is a natural right without
reference to English or American practice, we have to look
at all of the materials. The dissent can only get to its
conclusion by rejecting the English practice, the entire history
of American legislation, half of the state cases, and at least
half of the scholarly commentary. That is not much of a “preexisting right” if all the state legislatures and half of state
supreme courts got it wrong. The dissent’s argument thus
contains the seeds of its own destruction, because if the
dissent is correct that much of our history is, at best,
irrelevant, but more likely just wrong, then perhaps there is
no such pre-existing right. In which case, under the dissent’s
own reasoning, Heller is wrong. We are not willing to follow

App. 121

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 122 of 215

122

YOUNG V. STATE OF HAWAII

the dissent down that road. Either Heller has decided this
question, in which case there is no need for further historical
inquiry, or we need to examine the entire historical record
with care.
F. Application to HRS § 134-9
Hawai‘i’s licensing scheme stands well within our
traditions. Section 134-9 requires a license to carry a pistol
or revolver, concealed or unconcealed. Consistent with
English and American legal history, Hawai‘i exempts from its
firearms regulation scheme police officers, certain persons
employed by the state, and members of the armed forces
“while in the performance of their respective duties.” HRS
§ 134-11(a). It permits hunters and target shooters to carry
openly and to transport their arms. Id. § 134-5. It recognizes
the right of persons to arm themselves in their “place of
business, residence, or sojourn” and transport unloaded arms
between those locales. Id. § 134-23. Persons who have
“reason to fear injury to . . . person or property” may apply
for a license to carry a pistol or revolver concealed and,
“[w]here the urgency or the need has been sufficiently
indicated” and the applicant is “engaged in the protection of
life and property,” to carry a pistol or revolver openly. Id.
§ 134-9(a).45
Hawai‘i’s restrictions have deep roots in the Statute of
Northampton and subsequent English and American

45
Subject to the permissions outlined in § 134-5 and to other
enumerated exceptions, Hawai‘i also prohibits the public carry of loaded
or unloaded firearms other than a pistol or revolver. HRS §§ 134-23, 13424. The state further prohibits the possession of automatic firearms,
certain types of rifles and shotguns, and most assault pistols. Id. § 134-8.

App. 122

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 123 of 215

YOUNG V. STATE OF HAWAII

123

emendations, and do not infringe what the Court called the
“historical understanding of the scope of the right.” Heller,
554 U.S. at 625. Those restrictions are within the state’s
legitimate police powers and are not within the scope of the
right protected by Second Amendment. That means that
Young’s challenge to Hawai‘i’s restrictions fails at step one
of our framework and “may be upheld without further
analysis.” Silvester, 843 F.3d at 821. We easily conclude
that HRS § 134-9 is facially consistent with the Second
Amendment.
IV. OTHER CLAIMS
In addition to Young’s primary Second Amendment
claim, he brings two other claims against HRS § 134-9. First,
borrowing the doctrine of prior restraint from the First
Amendment, Young argues that the chief of police’s
discretionary authority to deny carry-permit applications
violated his Second Amendment right. He argues that § 1349 is invalid because it vests chiefs of police “with unbridled
discretion to determine whether a permit is issued,” which
imposes on his right to carry a firearm in public. The
application of the prior restraint doctrine to a Second
Amendment challenge hinges on Young’s assumption that the
right to keep and bear arms is similar enough to the right to
free speech that preemptive firearm-licensing requirements
are also presumptively invalid. Second, Young brings a due
process challenge to the Hawai‘i statute. He claims that
§ 134-9 lacks a mechanism for appealing a chief of police’s
denial of a carry application, and that due process requires
some form of hearing. See Mathews v. Eldridge, 424 U.S.
319 (1976). Assuming that Young has a liberty or property
interest in obtaining a license to carry a firearm, it is not clear
that Hawai‘i does not provide him with the process he seeks.

App. 123

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 124 of 215

124

YOUNG V. STATE OF HAWAII

Young did not attempt to exhaust his remedies before
bringing this suit. We do not find either of these arguments
persuasive.
A. Prior Restraint
We start with Young’s prior restraint claim. A “prior
restraint” is any law or judicial order that preemptively
forbids certain speech before the speech occurs. Alexander
v. United States, 509 U.S. 544, 550 (1993); In re Nat’l Sec.
Letter, 863 F.3d 1110, 1127 (9th Cir. 2017). These
restrictions generally break down into two classes:
“censorship schemes and licensing schemes.” In re Nat’l Sec.
Letter, 863 F.3d at 1127. In the First Amendment context,
the threat of preemptive censorship by a governing body is
apparent enough in prior restraints to render such restrictions
presumptively invalid. Bantam Books, Inc. v. Sullivan, 372
U.S. 58, 70 (1963). So, although a prior restraint is not
unconstitutional per se, it “bear[s] a heavy presumption
against its constitutional validity.” Id. This makes sense in
the speech context, given that “a free society prefers to punish
the few who abuse rights of speech after they break the law
than to throttle them and all others beforehand,” which is “a
theory deeply etched in our law.” Se. Promotions, Ltd. v.
Conrad, 420 U.S. 546, 559 (1975).
On the surface, it is easy to see why Second Amendment
challenges to licensing schemes so often invoke First
Amendment jurisprudence. See, e.g., Heller, 554 U.S. at 582
(finding that the Second Amendment extends to modern
firearms just as the First Amendment extends to “modern
forms of communication”); Jackson, 746 F.3d at 961
(concluding that in the context of step two of Heller, “we are
likewise guided by First Amendment principles”); see also

App. 124

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 125 of 215

YOUNG V. STATE OF HAWAII

125

Binderup v. Att’y Gen., 836 F.3d 336, 344 (3d Cir. 2016) (en
banc) (finding that restrictions on Second Amendment rights
are “subject to scrutiny in much the way that burdens on First
Amendment rights are”); Ezell v. City of Chicago, 651 F.3d
684, 706–07 (7th Cir. 2011) (recognizing that courts have
adopted First Amendment principles of scrutiny in Second
Amendment cases). After all, the Bill of Rights explicitly
protects both the freedom of speech and the right to keep and
bear arms.
But when we look beneath the surface, the analogy to the
prior restraint doctrine quickly falls apart. See Pena v.
Lindley, 898 F.3d 969, 1008–09 (9th Cir. 2018) (Bybee, J.,
concurring in part and dissenting in part) (“The analogy to the
First Amendment begins to break down, however, once we
move beyond rules of general applicability.”); United States
v. Marzzarella, 614 F.3d 85, 96 n.15 (3d Cir. 2010) (“While
we recognize the First Amendment is a useful tool in
interpreting the Second Amendment, we are also cognizant
that the precise standards of scrutiny and how they apply may
differ under the Second Amendment.”). To start, although
the Bill of Rights protects both speech and the right to keep
and bear arms, there are “salient differences between the
state’s ability to regulate” First and Second Amendment
rights. Kachalsky, 701 F.3d at 92. Most notably, the inherent
risk that firearms pose to the public distinguishes their
regulation from that of other fundamental rights. See Bonidy
v. U.S. Postal Serv., 790 F.3d 1121, 1126 (10th Cir. 2015).
Additionally, while everyone enjoys the right to speak, even
under the most generous reading of the Second Amendment,
not everyone enjoys the right to carry a firearm in public. See
Heller, 554 U.S. at 626–27; Berron v. Ill. Concealed Carry
Licensing Rev. Bd., 825 F.3d 843, 847 (7th Cir. 2016).
Where the public square is concerned, states have always

App. 125

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 126 of 215

126

YOUNG V. STATE OF HAWAII

enjoyed broader authority to regulate firearms than speech.
For these reasons, we think it “imprudent to assume that the
principles and doctrines developed in connection with the
First Amendment apply equally to the Second . . . .”
Kachalsky, 701 F.3d at 92.
We are not alone in concluding that the prior restraint
doctrine does not apply in the Second Amendment context.
So far as we can tell, every court to address the question has
declined to apply the prior restraint doctrine to firearmlicensing laws. See id. at 91–92; Hightower v. City of Boston,
693 F.3d 61, 80–81 (1st Cir. 2012); Drake, 724 F.3d at 435;
Woollard, 712 F.3d at 883 n.11; United States v. Focia, 869
F.3d 1269, 1283–84 (11th Cir. 2017). We, therefore, join our
sister circuits in holding that the prior restraint doctrine does
not apply to Second Amendment challenges involving
firearm-licensing laws.
B. Procedural Challenge
Young’s due process argument fares no better. He claims
that HRS § 134-9 does not provide adequate process to
challenge the denial of his carry-permit application.
Young’s procedural challenge is premature. Young
claims that he was deprived of due process because HRS
§ 134-9 does not provide a mechanism for review of a chief
of police’s denial of a permit application. It is not clear that
Young is correct. Hawai‘i’s administrative procedure act
affords “all parties . . . an opportunity for hearing” in any
“contested case.” HRS § 91-9. A “contested case” is any
“proceeding in which the legal rights, duties, or privileges of
specific parties are required by law to be determined after an
opportunity for agency hearing.” HRS § 91-1. Following

App. 126

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 127 of 215

YOUNG V. STATE OF HAWAII

127

such a hearing, “[a]ny person aggrieved by a final decision
and order in a contested case . . . is entitled to judicial
review.” HRS § 91-14(a). It is not clear to us whether the
denial of an open-carry application would fall under § 91-9’s
umbrella. But it is clear that Young did not pursue a hearing
under § 91-9 and did not seek judicial review as provided by
§ 91-14 prior to bringing suit in federal court. Young’s claim
that § 134-9 lacks an opportunity for appellate review is
based on his own speculation.
A claim that “rests upon contingent future events that may
not occur as anticipated, or indeed may not occur at all” is not
ripe for review. Texas v. United States, 523 U.S. 296, 300
(1998) (internal quotation marks omitted); Wolfson v.
Brammer, 616 F.3d 1045, 1064 (9th Cir. 2010). Young did
not seek review under § 91-9 before bringing suit. So,
Hawai‘i has not yet denied him the opportunity for appellate
review. Because Young has not actually been denied a
hearing, his procedural due process claim is speculative, and
we need not reach it. Ass’n of Am. Med. Colls. v. United
States, 217 F.3d 770, 779 (9th Cir. 2000) (citing Abbott Labs.
v. Gardner, 387 U.S. 136, 148 (1967), abrogated on other
grounds by Califano v. Sanders, 430 U.S. 99 (1977)).
V. CONCLUSION
The judgment of the district court is AFFIRMED.

App. 127

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 128 of 215

128

YOUNG V. STATE OF HAWAII

O’SCANNLAIN, Circuit Judge, with whom CALLAHAN,
IKUTA, and R. NELSON, Circuit Judges, join, dissenting:
The Second Amendment to the United States Constitution
guarantees “the right of the people to keep and bear Arms.”
U.S. Const. amend. II (emphasis added). Today, a majority of
our court has decided that the Second Amendment does not
mean what it says. Instead, the majority holds that while the
Second Amendment may guarantee the right to keep a firearm
for self-defense within one’s home, it provides no right
whatsoever to bear—i.e., to carry—that same firearm for selfdefense in any other place.
This holding is as unprecedented as it is extreme. While
our sister circuits have grappled with—and disagreed
over—the question of whether public firearms carry falls
within the inner “core” of the Second Amendment, we now
become the first and only court of appeals to hold that public
carry falls entirely outside the scope of the Amendment’s
protections.
In so holding, the majority reduces the right to “bear
Arms” to a mere inkblot. The majority’s decision undermines
not only the Constitution’s text, but also half a millennium of
Anglo-American legal history, the Supreme Court’s decisions
in District of Columbia v. Heller, 554 U.S. 570 (2008), and
McDonald v. City of Chicago, 561 U.S. 742 (2010), and the
foundational principles of American popular sovereignty
itself.
I respectfully dissent.

App. 128

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 129 of 215

YOUNG V. STATE OF HAWAII

129

I
A
George Young wishes to carry a handgun publicly for
self-defense in the State of Hawaii. Twice in 2011, he applied
for a license to carry a handgun, either openly or concealed.
His application was denied each time by the County of
Hawaii’s Chief of Police because Young failed to satisfy the
requirements set forth in section 134-9 of the Hawaii Revised
Statutes (“H.R.S.”).
Section 134-9 acts as a limited exception to the State of
Hawaii’s “Place[s] to Keep” statutes, which generally require
that gun owners keep their firearms at their “place of
business, residence, or sojourn.” H.R.S. §§ 134-23 to -27. The
exception allows citizens to obtain a license to carry a loaded
handgun in public under certain circumstances. Id. § 1349(a). For concealed carry, section 134-9 provides that “[i]n an
exceptional case, when an applicant shows reason to fear
injury to the applicant’s person or property, the chief of
police of the appropriate county may grant a license to an
applicant . . . to carry a pistol or revolver and ammunition
therefor concealed on the person.” Id. For open carry, the
chief of police may grant a license only “[w]here the urgency
or the need has been sufficiently indicated” and the applicant
“is engaged in the protection of life and property.” Id.
These baseline requirements limit who “may” be eligible
to obtain a public-carry license but leave each county with
discretion to impose even tighter restrictions. The County of
Hawaii, where Young lives, has done just that. When it
promulgated regulations implementing section 134-9, Hawaii
County created an open-carry licensing regime that is

App. 129

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 130 of 215

130

YOUNG V. STATE OF HAWAII

available only to “private detectives and security guards.”
Police Dep’t of Cnty. of Haw., Rules and Regulations
Governing the Issuance of Licenses to Carry Concealed and
Unconcealed Weapons 1 (Oct. 22, 1997). Moreover, the
county regulation allows open carry “only” when the license
holder is “in the actual performance of his duties or within the
area of his assignment.” Id. at 10. Thus, for any person who
is not an on-duty security guard, the only opportunity to carry
a firearm for self-defense is via concealed carry. And even
then, a citizen must demonstrate “an exceptional case” just to
be considered eligible for a concealed-carry permit. H.R.S.
§ 134-9(a).
Absent a license under section 134-9, a person may only
transport an unloaded firearm, in an enclosed container, to
and from a place of repair, a target range, a licensed dealer,
a firearms exhibit, a hunting ground, or a police station, id.
§§ 134-23 to -27, and may use those firearms only while
“actually engaged” in hunting or target shooting, id. § 1345(a), (c).
B
On June 12, 2012, Young filed this pro se civil-rights
action against the State of Hawaii, its Governor, and its
Attorney General (collectively, “the State”), as well as the
County of Hawaii and its Mayor, Chief of Police, and Police
Department (collectively, “the County”), under 42 U.S.C.
§ 1983. Young alleged, primarily, that the denial of his
application for a handgun license violated his Second
Amendment right to carry a loaded handgun in public for
self-defense.

App. 130

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 131 of 215

YOUNG V. STATE OF HAWAII

131

The State filed a motion to dismiss Young’s claims under
Federal Rules of Civil Procedure 12(b)(1) and 12(b)(6), and
the County filed a motion to dismiss the claims under Rule
12(b)(6). The district court granted both motions. As to the
State, the district court found that Young’s claims (for both
monetary and injunctive relief) were barred by sovereign
immunity. Dismissing Young’s claims against the County on
the merits, the district court found that section 134-9 “does
not implicate activity protected by the Second Amendment”
because that Amendment “establishes only a narrow
individual right to keep an operable handgun at home for selfdefense.” Young v. Hawaii, 911 F. Supp. 2d 972, 989–90 (D.
Haw. 2012). In the alternative, the district court indicated that
it would uphold section 134-9’s open- and concealed-carry
limitations under intermediate scrutiny. Id. at 990–91. Young
timely appealed.
In 2018, a three-judge panel of our court reversed the
district court’s dismissal of Young’s Second Amendment
claim against the County, holding that he “has indeed stated
a claim that section 134-9’s limitations on the issuance of
open carry licenses violate the Second Amendment.” Young
v. Hawaii, 896 F.3d 1044, 1074 (9th Cir. 2018). The panel
dismissed Young’s appeal as to the State. Id.
We then granted rehearing en banc, thus vacating the
three-judge panel’s decision. Young v. Hawaii, 915 F.3d 681
(9th Cir. 2019).
II
At the heart of this case is a straightforward question:
Does the Second Amendment, as originally understood,

App. 131

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 132 of 215

132

YOUNG V. STATE OF HAWAII

protect the right of an ordinary, law-abiding citizen to carry
a handgun openly for self-defense outside the home?
The majority holds that it does not—and that a total ban
on carrying a handgun outside the home does not implicate
the Second Amendment right to bear arms whatsoever. The
majority reaches this startling conclusion not because it finds
that the text of the Second Amendment supports it, that early
American cases interpreted the Amendment in this way, nor
even that open public carry was regularly and uncritically
subject to legislative prohibitions across our country’s early
history. Instead, the majority has declared that a state may
constitutionally forbid all public carry of firearms, based on
the utterly inconsequential fact that the lawful manner of
open public carry has historically been subject to modest
regulation (but never to outright prohibition).
Respectfully, the majority’s opinion—and in particular,
its extreme and bizarre reliance on the mere fact of some
historical regulation of firearms—represents a gross
misapplication of the textual and historical inquiries that
Heller demands. Under appropriate inspection, the critical
sources on the meaning of the Second Amendment—its text,
its historical interpretations by the commentators and courts
most proximate to the Founding, and its treatment by early
legislatures—unequivocally demonstrate that the Amendment
does indeed protect the right to carry a gun outside the home
for self-defense, even if that right might be subject to some
regulation at its edges.
A
To begin, as we must, with the text: The Second
Amendment guarantees that “the right of the people to keep

App. 132

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 133 of 215

YOUNG V. STATE OF HAWAII

133

and bear Arms, shall not be infringed.” U.S. Const. amend. II.
Critically, the Amendment protects not only the right to
“keep” arms, but also the right to “bear” arms. Central to
Young’s challenge is the latter of these two verbs.
It is hornbook constitutional law that “to bear arms
implies something more than mere keeping.” Thomas M.
Cooley, The General Principles of Constitutional Law in the
United States of America 271 (1880). Indeed, the Supreme
Court in Heller was clear about what it means to “bear” arms:
“At the time of the founding, as now, to ‘bear’ meant to
‘carry.’” 554 U.S. at 584. That the Constitution delineates a
specific right to carry a firearm—as distinguished from the
right simply to keep a firearm—strongly implies the right to
take one’s firearm outside the home in which it is kept.
The Founding-era dictionaries relied upon by the Court in
Heller confirm this intuition, making clear that one would
typically “bear” a firearm when carrying it in garments worn
outside the home. See 1 Samuel Johnson, Dictionary of the
English Language 161 (4th ed. 1773) (reprinted 1978)
(defining “Bear” as “To carry as a mark of distinction. . . . So
we say, to bear arms in a coat” (first emphasis added)), cited
in Heller, 554 U.S. at 584; Noah Webster, American
Dictionary of the English Language (1828) (unpaginated)
(defining “Bear” as “To wear; to bear as a mark of authority
or distinction; as, to bear a sword, a badge, a name; to bear
arms in a coat”), cited in Heller, 554 U.S. at 584. Wearing
one’s firearm in a coat or carrying it in one’s pocket are
strong indicia of activity that would be expected to take place
outside the home.
Moreover, to deny that the right to “bear Arms” protects
at least some degree of public carry would render it mere

App. 133

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 134 of 215

134

YOUNG V. STATE OF HAWAII

surplusage, coextensive with the separately enumerated right
to “keep” a gun in the home. Cf. Marbury v. Madison, 5 U.S.
(1 Cranch) 137, 174 (1803) (“It cannot be presumed that any
clause in the constitution is intended to be without effect
. . . .”); see also Drake v. Filko, 724 F.3d 426, 444 (3d Cir.
2013) (Hardiman, J., dissenting) (“[Such a reading] would
conflate ‘bearing’ with ‘keeping,’ in derogation of [Heller’s]
holding that the verbs codified distinct rights . . . .”).
The evidence that the Second Amendment’s Framers and
ratifiers understood the right to bear arms to encompass
public carry is not only lexical, but logical. The Court in
Heller observed that the right to “bear arms” historically
referred to a right to “wear, bear, or carry upon the person or
in the clothing or in a pocket, for the purpose of being armed
and ready for offensive or defensive action in a case of
conflict with another person.” 554 U.S. at 584 (quoting
Muscarello v. United States, 524 U.S. 125, 143 (1998)
(Ginsburg, J., dissenting)) (alterations omitted and emphasis
added). Such “conflict” or “confrontation” with another
person is at least as apt to arise outside the home as it is
inside the home—and perhaps even more so. See Wrenn v.
District of Columbia, 864 F.3d 650, 657 (D.C. Cir. 2017)
(“[T]he Amendment’s core lawful purpose is self-defense,
and the need for that might arise beyond as well as within the
home.” (internal quotation marks and citation omitted));
Moore v. Madigan, 702 F.3d 933, 941 (7th Cir. 2012) (“[T]he
interest in self-protection is as great outside as inside the
home.”). Indeed, it would require a highly unnatural reading
of the text to infer “that the Framers understood the Second
Amendment to protect little more than carrying a gun from
the bedroom to the kitchen” in case a conflict arose along the
way. Peruta v. California, 137 S. Ct. 1995, 1998 (2017)
(Thomas, J., dissenting from denial of certiorari).

App. 134

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 135 of 215

YOUNG V. STATE OF HAWAII

135

The opinions in Heller and McDonald underscore this
straightforward understanding of “bear.” Heller described the
“inherent right of self-defense” as “most acute” within the
home, implying that the right does extend elsewhere, even if
less “acutely.” 554 U.S. at 628 (emphasis added). McDonald
similarly described the right as “most notabl[e]” within the
home, implying the right does extend elsewhere, even if less
“notably.” 561 U.S. at 780 (emphasis added). Heller also took
pains to avoid “cast[ing] doubt” on “laws forbidding the
carrying of firearms in sensitive places such as schools and
government buildings.” 554 U.S. at 626. But why bother
clarifying the Second Amendment’s application in
particularly sensitive public places if it does not apply, at all,
in any public place?
In short, the Second Amendment’s text—understood by
reference to the historical sources relied upon by Heller and
McDonald—points toward the conclusion that public carry
lies within the scope of the Amendment’s protections. That
the majority altogether declines to engage with textual
analysis is telling.
B
Next, the history of the Second Amendment confirms
what the text so strongly suggests: that the Amendment
encompasses a general right to carry firearms openly in
public.
1
As guided by Heller, the historical inquiry begins with the
writings of “important founding-era legal scholars”—the

App. 135

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 136 of 215

136

YOUNG V. STATE OF HAWAII

evidence most probative of how the Framers understood the
right to bear arms. 554 U.S. at 605.
The plain textual understanding of “bear arms” finds
unequivocal support in the most prominent, widely circulated
legal treatises from throughout the Founding era. In an early
American edition of Blackstone’s Commentaries on the Laws
of England—indeed, the “most important” edition, as Heller
points out, see 554 U.S. at 594—St. George Tucker, a law
professor at the College of William & Mary and an influential
Antifederalist, insisted that the right to armed self-defense is
the “first law of nature” and that “the right of the people to
keep and bear arms” is the “true palladium of liberty.”1 1 St.
George Tucker, Blackstone’s Commentaries: With Notes of
Reference to the Constitution and Laws of the Federal
Government of the United States; and of the Commonwealth
of Virginia app. n.D, at 300 (Phil., William Young Birch &
Abraham Small 1803); see also McDonald, 561 U.S. at 769
(treating Tucker’s notes on Blackstone as heavily instructive
in interpreting the Second Amendment); Heller, 554 U.S. at
606 (same). Even more explicitly, Tucker wrote that “[i]f . . .
congress were to pass a law prohibiting any person from
bearing arms, as a means of preventing insurrections, the
judicial courts . . . would be able to pronounce decidedly
upon the constitutionality of these means.” 1 Tucker, supra,
at app. n.D, at 289; see also Michael P. O’Shea, Modeling the
Second Amendment Right to Carry Arms (I): Judicial
Tradition and the Scope of “Bearing Arms” for Self-Defense,

1
Hawaii bizarrely suggests that we should not focus too heavily on
Tucker, whom Hawaii discounts as “a single nineteenth-century
commentator.” This is a strange attack, indeed, given the Supreme Court’s
direct reliance on Tucker’s notes in both McDonald, 561 U.S. at 769, and
Heller, 554 U.S. at 606. Tucker’s notes deserve similar weight here.

App. 136

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 137 of 215

YOUNG V. STATE OF HAWAII

137

61 Am. U. L. Rev. 585, 637–38 & n.262 (2012). Indeed, as
Tucker explained, “[i]n many parts of the United States, a
man no more thinks, of going out of his house on any
occasion, without his rifle or musket in his hand, than an
European fine gentleman without his sword by his side.”
5 Tucker, supra, at app. n.B, at 14.
Blackstone himself espoused a similar view of the
inviolability of an Englishman’s right to bear arms, which
was most notably codified in the 1689 English Declaration of
Rights as the right of Protestants to “have Arms for their
Defence suitable to their Conditions, and as allowed by Law.”
Bill of Rights 1689, 1 W. & M., ch. 2, § 7 (Eng.); see also
Alden v. Maine, 527 U.S. 706, 715 (1999) (noting that
Blackstone’s works “constituted the preeminent authority on
English law for the founding generation”). As Blackstone
explained, the 1689 Declaration enshrined “the natural right
of resistance and self-preservation” and “the right of having
and using arms for self-preservation and defence.” 1 William
Blackstone, Commentaries *144.2 It followed from
Blackstone’s premise that such a right—the predecessor to
our Second Amendment—“was by the time of the founding
2
Blackstone was far from alone in recognizing a natural right to selfdefense “belong[ing] to [all] persons merely in a state of nature, and which
every man is intitled to enjoy whether out of society or in it.” 1 William
Blackstone, Commentaries *123. Quite a few commentators of that era
likewise championed such a right. See Leonard W. Levy, Origins of the
Bill of Rights 140–41 (2001) (referencing a 1769 article in the prominent
colonial newspaper A Journal of the Times, which described the English
right as “a natural right which the people have reserved to themselves,
confirmed by the Bill of Rights, to keep arms for their own defence”);
David B. Kopel, The Natural Right of Self-Defense: Heller’s Lesson for
the World, 59 Syracuse L. Rev. 235, 242 (2008) (“The Anglo-Americans
learned the language of natural rights, including the natural right of selfdefense . . . .”).

App. 137

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 138 of 215

138

YOUNG V. STATE OF HAWAII

understood to be an individual right protecting against both
public and private violence.” Heller, 554 U.S. at 594
(emphasis added); see also 2 William Blackstone,
Commentaries *441 (Edward Christian ed. 1795)
(“[E]veryone is at liberty to keep or carry a gun, if he does
not use it for the [unlawful] destruction of game.” (emphasis
added)).
2
Following Heller’s historical imperative, the inquiry turns
to nineteenth-century judicial interpretation of the right to
bear arms, whether as part of the Second Amendment or
analogous state constitutional provisions. See 554 U.S. at
610–14. For by analyzing “how the Second Amendment was
interpreted . . . immediately after its ratification,” we can
“determine the [original] public understanding of [its] text.”
Id. at 605. Many of the same nineteenth-century cases
marshaled in Heller, to prove that the Second Amendment
secures an individual right to self-defense, reveal just as
persuasively that the Amendment encompasses a right to
carry a firearm openly outside the home.
a
The first of these is Bliss v. Commonwealth, 12 Ky.
(2 Litt.) 90 (1822), cited in Heller, 554 U.S. at 585 n. 9, a
decision “especially significant both because it is nearest in
time to the founding era and because the state court assumed
(just as [Heller] does) that the constitutional provision at
issue codified a preexisting right,” Nelson Lund, The Second
Amendment, Heller, and Originalist Jurisprudence, 56 UCLA
L. Rev. 1343, 1360 (2009) (footnote omitted). Interpreting
Kentucky’s Second Amendment analogue—which provided

App. 138

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 139 of 215

YOUNG V. STATE OF HAWAII

139

that “the right of the citizens to bear arms in defense of
themselves and the state, shall not be questioned”—the state’s
highest court had no doubt that any law restricting the public
carry of firearms would “import a restraint on the right of the
citizens to bear arms.” Bliss, 12 Ky. (2 Litt.) at 90, 92. The
court then invalidated a restriction on the concealed carry of
weapons, despite the availability of open carry, reasoning that
“whatever restrains the full and complete exercise of [the
right to bear arms], though not an entire destruction of it, is
forbidden by the explicit language of the constitution.” Id. at
91–92. Kentucky later amended its constitution to allow the
legislature to “pass laws to prevent persons from carrying
concealed arms,” Ky. Const. art. XIII, § 25 (1850) (emphasis
added), but left untouched the premise in Bliss that the right
to bear arms protects open carry.
Tennessee’s highest court offered its own, similar
interpretation of the right to bear arms in Simpson v. State, 13
Tenn. (5 Yer.) 356 (1833), cited in Heller, 554 U.S. at 585
n.9, 603, 614. There, after Simpson was convicted of
disturbing the peace by appearing armed in public, he faulted
the indictment for failing to require clear proof of actual
violence. Id. at 357–58. The high court agreed. Id. at 357–60.
First, the court cast doubt on the State’s argument that
English law would have allowed conviction without proof of
actual “fighting of two or more persons.” Id. at 357–58
(quoting 4 William Blackstone, Commentaries *145).
Second, the court explained that even assuming English law
had criminalized the carrying of weapons without proof of
actual violence, the Tennessee “constitution ha[d] completely
abrogated it.” Id. at 360. No such prohibition could survive
the state constitution’s grant of “an express power . . . secured
to all the free citizens of the state to keep and bear arms for

App. 139

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 140 of 215

140

YOUNG V. STATE OF HAWAII

their defence, without any qualification whatever as to their
kind or nature.” Id.
In 1840, the Alabama Supreme Court offered a similar
interpretation of its own state’s constitution. See State v. Reid,
1 Ala. 612 (1840), cited in Heller, 554 U.S. at 585 n.9, 629.
Construing the Alabama “right to bear arms, in defence of
[]self and the State,” the court declared that an Alabamian
must be permitted some means of carrying a weapon in public
for self-defense. Id. at 616–17. The court ultimately upheld a
restriction on “the evil practice of carrying weapons secretly,”
citing the legislature’s power “to enact laws in regard to the
manner in which arms shall be borne. . . . as may be dictated
by the safety of the people and the advancement of public
morals.” Id. at 616 (emphasis added). But the court made
clear where that legislative power ran dry:
We do not desire to be understood as
maintaining, that in regulating the manner of
bearing arms, the authority of the Legislature
has no other limit than its own discretion. A
statute which, under the pretence of
regulating, amounts to a destruction of the
right, or which requires arms to be so borne as
to render them wholly useless for the purpose
of defence, would be clearly unconstitutional.
Id. at 616–17.3

3
The majority curiously (and erroneously) suggests that, many
decades later, the Alabama Supreme Court recognized a state power to
impose “severe restrictions” on open public carry in a case that upheld a
prohibition against carrying certain arms on private property owned by
another. See Maj. Op. 77–78 (citing Isaiah v. State, 58 So. 53 (Ala.

App. 140

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 141 of 215

YOUNG V. STATE OF HAWAII

141

The Georgia Supreme Court embraced precisely the same
position in an opinion central to the Supreme Court’s
historical analysis in Heller. See Nunn v. State, 1 Ga. 243
(1846), cited in Heller, 554 U.S. at 585 n.9, 612–13, 626,
629; O’Shea, supra, at 627 (“No case, historic or recent, is
discussed more prominently or positively in Heller than the
Georgia Supreme Court’s 1846 decision in Nunn v. State.”).
There, the court considered a Second Amendment challenge
to a statute that criminalized carrying a pistol, either openly
or concealed. Nunn, 1 Ga. at 245–46. Starting off with a clear
statement of the constitutional guarantee, the court explained:
“The right of the whole people, old and young, men, women
and boys, and not militia only, to keep and bear arms of every
description, and not such merely as are used by the militia,
shall not be infringed, curtailed, or broken in upon, in the
smallest degree . . . .” Id. at 251 (emphasis omitted). With
those Second Amendment lines properly set, the court held
that Georgia’s statute had gone too far:
[S]o far as the act of 1837 seeks to suppress
the practice of carrying certain weapons
secretly, that it is valid, inasmuch as it does
not deprive the citizen of his natural right of
self-defence, or of his constitutional right to
keep and bear arms. But that so much of it, as
contains a prohibition against bearing arms

1911)). Aside from relying on a concurrence rather than the majority
opinion in that case, the majority fails to point out that the law specifically
allowed open carry on public highways “or elsewhere other than upon the
premises of another.” Isaiah, 58 So. at 54. Accordingly, the court held that
such a restriction was constitutional specifically because it “merely
prevents the carrying of arms for offensive purposes, and does not deprive
a person of the right to bear arms in defense of himself or the state.” Id.

App. 141

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 142 of 215

142

YOUNG V. STATE OF HAWAII
openly, is in conflict with the Constitution,
and void . . . .

Id. We should afford Nunn’s understanding of the Second
Amendment significant weight because, as Heller explains,
“[i]ts opinion perfectly captured the way in which the
operative clause of the Second Amendment furthers the
purpose announced in the prefatory clause.” 554 U.S. at 612.
The Louisiana Supreme Court soon followed the course
set by Alabama and Georgia. See State v. Chandler, 5 La.
Ann. 489 (1850), cited in Heller, 554 U.S. at 585 n.9, 613,
626. The high court first rejected Chandler’s Second
Amendment challenge to a Louisiana law prohibiting
concealed carry, reasoning that the law was “absolutely
necessary to counteract a vicious state of society, growing out
of the habit of carrying concealed weapons, and to prevent
bloodshed and assassinations committed upon unsuspecting
persons.” Id. at 489–90. But, in precisely the same manner as
the Nunn and Reid courts, the Chandler court drew the line
which the legislature could not cross. The court explained that
a prohibition on concealed carry could be held constitutional
because it “interfered with no man’s right to carry arms . . .
‘in full open view,’ which places men upon an equality. This
is the right guaranteed by the Constitution of the United
States . . . .” Id. at 490 (emphasis added); see also Heller, 554
U.S. at 613 (citing favorably Chandler’s holding that
“citizens had a right to carry arms openly”).
The majority largely rejects the lessons of these cases by
first suggesting that only Bliss could support the view that
open public carry was historically understood to be within the
scope of the Second Amendment, then characterizing Bliss as
an “isolated decision.” See Maj. Op. 74–75, 86. While Bliss

App. 142

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 143 of 215

YOUNG V. STATE OF HAWAII

143

may have gone farther than other nineteenth-century cases in
holding that any restraint on “the full and complete exercise
of th[e] right [to bear arms] . . . is forbidden by the . . .
constitution,” 12 Ky. (2 Litt.) at 91–92, it could hardly be
described as an outlier for purposes of the issue before us
here. Our question is not whether the Second Amendment
was historically understood to foreclose any and all
regulation of public carry. Rather, the question is and must be
whether the right to “keep and bear Arms” was originally
understood to limit states’ power to restrict the freedom to
carry a firearm in public for self-defense. And Bliss is far
from the only nineteenth-century case to hold that extensive
prohibitions on open carry would indeed infringe on a
constitutionally protected right—even if the manner of open
public carry could be regulated at its margins. Simpson, Reid,
Nunn, and Chandler all stand for precisely that proposition.4
In short, the same nineteenth-century cases found
instructive by the Supreme Court in Heller underscore what
nineteenth-century legal commentator John Ordronaux (also
cited in Heller) aptly summarized: Though “a State [might]
enact[] laws regulating the manner in which arms may be
carried,” including “the carrying of concealed weapons,” any
“statute forbidding the bearing of arms openly would . . .
infringe[]” the Second Amendment. John Ordronaux,
Constitutional Legislation in the United States: Its Origin,
and Application to the Relative Powers of Congress, and of
And, just after the turn of the twentieth century, the Supreme Court
of Idaho likewise struck down a robust territorial prohibition against the
public carry of firearms, holding that it violated of the Second Amendment
because “the legislature has no power to prohibit a citizen from bearing
arms in any portion of the state of Idaho, whether within or without the
corporate limits of cities, towns, and villages.” In re Brickey, 70 P. 609,
609 (Idaho 1902).
4

App. 143

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 144 of 215

144

YOUNG V. STATE OF HAWAII

State Legislatures 242–43 (1891), cited in Heller, 554 U.S.
at 619.
b
The majority observes that there were some judicial
proponents of a more limited right to bear arms during the
nineteenth century. See Maj. Op. 79–84. But their reasoning
rests on the untenable militia-based view of the right, which
carries no interpretive weight after Heller.
Most prominent is the Arkansas Supreme Court’s 1842
interpretation of the right in State v. Buzzard, 4 Ark. 18
(1842). There, a divided court upheld a prohibition on the
concealed carry of “any pistol, dirk, butcher or large knife, or
a sword in a cane,” id. at 18, but each judge in the splintered
majority appeared poised to go further. Chief Justice Ringo
advocated the view that the Second Amendment did not bar
the Arkansas legislature from prohibiting any carrying of
firearms: “[N]o enactment on this subject, which neither
directly nor indirectly so operates as to impair or render
inefficient the means provided by the Constitution for the
defense of the State, can be adjudged invalid on the ground
that it is repugnant to the Constitution.” Id. at 27 (opinion of
Ringo, C.J.). Chief Justice Ringo believed this to be so
specifically because such restrictions would not “detract
anything from the power of the people to defend their free
state and the established institutions of the country.” Id.
Justice Dickinson echoed this view, writing that the Second
Amendment was nothing “but an assertion of that general
right of sovereignty belonging to independent nations to
regulate their military force,” thus finding no individual right
within its guarantee. Id. at 32 (opinion of Dickinson, J.); but

App. 144

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 145 of 215

YOUNG V. STATE OF HAWAII

145

see id. at 34–36 (Lacy, J., dissenting) (viewing the Second
Amendment as an individual right to self-defense).
Several other nineteenth-century courts hewed to
Buzzard’s approach and upheld laws restricting public carry
without emphasizing, as did courts in Nunn’s camp, the limits
of legislative authority. See Hill v. State, 53 Ga. 472, 474–77
(1874) (upholding prohibition on carrying weapons “to any
court of justice . . . or any place of public worship, or any
other public gathering . . . except militia muster grounds”);
English v. State, 35 Tex. 473, 474, 480 (1871) (upholding
prohibition on carrying “pistols, dirks, daggers, slungshots,
swordcanes, spears, brass-knuckles and bowie knives”); State
v. Workman, 14 S.E. 9, 10–12 (W. Va. 1891) (upholding
presumption of criminality “when a man is found going
around with a revolver, razor, billy, or brass knuckles upon
his person”). Like Buzzard, each decision was explicitly
premised on a militia-focused view of the right to bear arms.
See Hill, 53 Ga. at 475 (“In what manner the right to keep and
bear these pests of society [dirks, bowie knives, and the like],
can encourage or secure the existence of a militia, and
especially of a well regulated militia, I am not able to
divine.”); English, 35 Tex. at 477 (“The terms dirks, daggers,
slungshots, sword-canes, brass-knuckles and bowie knives,
belong to no military vocabulary.”); Workman, 14 S.E. at 11
(“So, also, in regard to the kind of arms referred to in the
amendment, it must be held to refer to the weapons of warfare
to be used by the militia . . . .”).5

5
Moreover, not even all the cases with militia-focused views of the
right to bear arms took Buzzard’s approach to open public carry. Several
such cases protected the right to bear arms in a way that supports, or is at
least consistent with, a right to such carry. See, e.g., Andrews v. State,
50 Tenn. (3 Heisk.) 165, 186–87 (1871) (holding that, if a pistol “is

App. 145

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 146 of 215

146

YOUNG V. STATE OF HAWAII

With Heller on the books, cases in Buzzard’s flock offer
little instructive value. That is because Heller made clear that
the Second Amendment is, and always has been, an
individual right centered on self-defense; it has never been a
right to be exercised only in connection with a militia. See
554 U.S. at 592, 599, 616; see also Wrenn, 864 F.3d at 658
(reasoning that such cases are “sapped of authority by
Heller”); Moore, 702 F.3d at 941 (treating “the historical
issues as settled by Heller”); O’Shea, supra, at 653
(“Decisions like English . . . have little relevance to
determining the scope of Second Amendment carry rights
today . . . [because] the question presented by current carry
litigation is whether firearms that are constitutionally
protected, as Heller holds handguns to be, may be carried
outside the home pursuant to a constitutional right to bear
arms that is not a hybrid individual right [or] a fictive
‘collective right’ . . . , but instead is centrally concerned with
self-defense.”). Contrary to the majority’s suggestion, Maj.
Op. 116, recognition of this reality does not require one to
believe that Heller directly answered the historical question
before us. But Heller undeniably dictates which historical
question we must now endeavor to answer: Was the right to
bear arms for the purpose of individual self-defense
historically understood to protect a person’s right to carry
common arms in public? Cases like Buzzard offer historical
answers to a different question altogether—namely, whether
open public carry of handguns was protected by a right to

adapted to the usual equipment of the soldier,” then a statute that “forbids
by its terms the carrying of the weapon publicly or privately, without
regard to time or place, or circumstances . . . . violates the constitutional
right to keep arms”); Aymette v. State, 21 Tenn. (2 Hum.) 154, 160 (1840)
(“In the nature of things, if they were not allowed to bear arms openly,
they could not bear them in their defence of the State at all.”).

App. 146

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 147 of 215

YOUNG V. STATE OF HAWAII

147

bear arms for the specific purpose of facilitating the militia’s
“defen[se] [of the] free state and the established institutions
of the country.” Buzzard, 4 Ark. at 27 (opinion of Ringo,
C.J.).6
Although ours is an historical inquiry, we are judges, not
historians. And, bound as the inferior court that we are, we
may not revisit questions of historical interpretation already
decided in binding decisions of the Supreme Court, as the
majority seems so keen to do. Rather, we may only assess
whether the right to bear arms extends outside the home on
the understanding—dictated by Heller—that the right is an
individual one centered on self-defense. On such an
understanding, cases like Buzzard only bear upon the entirely
irrelevant question of whether open public carry was
embraced by state constitutions’ militia-focused provisions
for keeping and bearing arms (or by erroneously militiafocused views of the Second Amendment). We, by contrast,
are interested in whether open public carry is embraced by the
U.S. Constitution’s individual right to “keep and bear Arms.”

The majority dismisses Heller’s relevance on this point only by
grossly understating its holding. The majority suggests that Heller left
open the possibility that the Second Amendment protects gun rights only
to the extent that such rights are relevant to a functional militia. See Maj.
Op. 120–22. Nothing could be further from the truth. To be sure, Heller
observed that “the threat that the new Federal Government would destroy
the citizens’ militia by taking away their arms was the reason that right [to
keep and bear arms]—unlike some other English rights—was codified in
a written Constitution.” Heller, 554 U.S. at 599 (emphasis added). But the
Court made abundantly clear that the substance of the right that was so
codified was not limited to militia-relevant firearms practices. Rather,
even if it might be shown that individual “self-defense had little to do with
the right’s codification[,] it was the central component of the right itself.”
Id.
6

App. 147

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 148 of 215

148

YOUNG V. STATE OF HAWAII
c

Setting aside those cases that rest on a militia-focused
view of the right to bear arms, there remain only two
nineteenth-century cases that might be read to allow severe
deprivations of the right to open carry. Upon closer
examination, neither is instructive on the meaning of the
Second Amendment.
The first, State v. Duke, is an 1874 decision from the
Supreme Court of Texas, which concluded that the legislature
could confine the carry of pistols to specified places (at least
if the bearer did not have reasonable grounds to fear an
attack). 42 Tex. 455, 456–59 (1875). Why the departure from
the Nunn line of cases? One need only peek at the Texas
constitutional provision under which Duke was decided,
which provided that “[e]very person shall have the right to
keep and bear arms in the lawful defense of himself or the
State, under such regulations as the Legislature may
prescribe.” Id. at 458 (emphasis added). While the Second
Amendment surely tolerates some degree of regulation, its
very text conspicuously omits any such regulatory caveat. We
shouldn’t pencil one in.7
The second case, Walburn v. Territory, is an 1899
decision from the Supreme Court of the Territory of
Oklahoma, decided at the very end of the nineteenth century.
And “even Duke, an outlier which marks perhaps the most
restrictive interpretation that any nineteenth-century court gave to the
defense-based right to bear arms, implicitly rejected no-carry laws as
unconstitutional” when it reasoned that the Texas provision “was
constitutional because it ‘respected the right to carry a pistol openly when
needed for self-defense.’” O’Shea, supra, at 655 (quoting Duke, 42 Tex.
at 459).
7

App. 148

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 149 of 215

YOUNG V. STATE OF HAWAII

149

See 59 P. 972 (Okla. 1899). Convicted of carrying a revolver
on his person, Walburn challenged his conviction on several
grounds, one being that Oklahoma’s carrying prohibition was
“in conflict with the constitution of the United States.” Id. at
973. Beyond such a general assertion, however, “[n]o
authorities [were] cited in support of this position, nor [was]
the proposition very earnestly urged.” Id. Accordingly, the
court rejected the challenge: “As at present advised, we are of
the opinion that the statute violates none of the inhibitions of
the constitution of the United States, and that its provisions
are within the police power of the territory.” Id. (emphasis
added). There is little reason to credit a decision that
explicitly acknowledged a lack of due consideration. Cf.
Heller, 554 U.S. at 623–24 (rejecting the dissent’s reliance on
United States v. Miller, 307 U.S. 174 (1939), in part because
of the incomplete briefing in Miller and its lack of a thorough
consideration of the history of the Second Amendment).
d
In sum, there are at least five nineteenth-century cases
(plus another that came two years into the twentieth century)
in which state supreme courts held that the individual right to
bear arms for self-defense—i.e., the right guaranteed by the
Second Amendment—must encompass a right to open public
carry. And the majority has not cited a single apposite case in
which any nineteenth-century court held to the contrary.
3
Finally, Heller’s historical methodology leads us to the
legislative scene following the Civil War. See 554 U.S. at
614–16.

App. 149

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 150 of 215

150

YOUNG V. STATE OF HAWAII

Particularly relevant in this period are the efforts of many
Southern states to disarm freedmen by adopting Black
Codes.8 For it was universally understood—by these odious
laws’ proponents and opponents alike—that the debates over
the Black Codes were debates over freedmen’s fundamental
constitutional rights.
On the one side, “[t]hose who opposed these injustices
frequently stated that they infringed blacks’ constitutional

8
Those freedmen who had fought for the Union Army during the war
frequently returned home “to the States of the old Confederacy, where
systematic efforts were made to disarm them and other blacks.”
McDonald, 561 U.S. at 771; see also The Freedmen’s Bureau Bill, N.Y.
Evening Post, May 30, 1866, at 2 (“In South Carolina and Florida the
freedmen are forbidden to wear or keep arms.”). These were part and
parcel with the broader efforts of “those who sought to retain the
institution of slavery . . . to eliminate more and more of the basic liberties
of slaves, free blacks, and white abolitionists.” See McDonald, 561 U.S.
at 843–44 (Thomas, J., concurring in part and concurring in the judgment).

Emblematic of these efforts was an 1865 law in Mississippi that
declared, “no freedman, free negro or mulatto . . . shall keep or carry firearms of any kind, or any ammunition, dirk or bowie knife.” Id. at 771
(majority opinion) (quoting Certain Offenses of Freedmen, 1865 Miss.
Laws 165, § 1, in 1 Documentary History of Reconstruction 289 (W.
Fleming ed. 1950)). The law was vigorously enforced. As an 1866 letter
from Rodney, Mississippi, to Harper’s Weekly lamented, “[t]he militia of
this county have seized every gun and pistol found in the hands of the (so
called) freedmen. . . . They claim that the statute laws of Mississippi do
not recognize the negro as having any right to carry arms.” The Labor
Question at the South, Harper’s Weekly, Jan. 13, 1866, at 19. Seeking
help from outside of the state, the letter emphasized that such Mississippi
laws did “not protect, but insist[ed] upon infringing on their liberties.” Id.
Worse still, “[w]ithout federal enforcement of the inalienable right to keep
and bear arms, . . . militias and mobs were tragically successful in waging
a campaign of terror against [newly free slaves].” McDonald, 561 U.S.
at 856 (Thomas, J., concurring in part and concurring in the judgment).

App. 150

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 151 of 215

YOUNG V. STATE OF HAWAII

151

right to keep and bear arms.” Heller, 554 U.S. at 614; see also
Clayton E. Cramer, The Racist Roots of Gun Control, 4 Kan.
J.L. & Pub. Pol’y 17, 20 (Winter 1995) (“The various Black
Codes adopted after the Civil War required blacks to obtain
a license before carrying or possessing firearms . . . . These
restrictive gun laws played a part in provoking Republican
efforts to get the Fourteenth Amendment passed.”).
As they witnessed the state governments of the former
Confederacy turning a blind eye to mob violence against
newly freed slaves, the Reconstruction Republicans came to
recognize that “when guns were outlawed, only the Klan
would have guns.” Akhil Reed Amar, The Bill of Rights:
Creation and Reconstruction 266 (1998) [hereinafter Bill of
Rights]. Yet such blatant injustices did not continue unnoticed
by Congress, which established the Freedmen’s Bureau to
vindicate the constitutional rights of freedmen still suffering
in the Reconstruction South. Working to fulfill its mandate,
an 1866 report by the Bureau targeted a Kentucky law that
sought to deprive freedmen of their Second Amendment
rights: “[T]he civil law [of Kentucky] prohibits the colored
man from bearing arms . . . . Their arms are taken from them
by the civil authorities . . . . Thus, the right of the people to
keep and bear arms as provided in the Constitution is
infringed.” H.R. Exec. Doc. No. 70, at 233, 236 (1866),
quoted in Heller, 554 U.S. at 614–15. And Kentucky was far
from the only state subject to scrutiny; a joint congressional
report decried a South Carolina practice of “seizing all firearms found in the hands of the freedmen.” J. Comm. on
Reconstruction, H.R. Rep. No. 30, pt. 2, at 229 (1866)
(Proposed Circular of Brigadier General R. Saxton), quoted
in Heller, 554 U.S. at 615.

App. 151

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 152 of 215

152

YOUNG V. STATE OF HAWAII

On the other side, even those congressmen who opposed
federal action to protect the rights of freedmen understood the
fundamental constitutional rights at stake. Senator Davis of
Kentucky acknowledged, on equal footing with the writ of
habeas corpus, the right “for every man bearing his arms
about him and keeping them in his house, his castle, for his
own defense,” but argued that congressional action on the
matter would usurp the role of Kentucky in caring for its
citizens. Cong. Globe, 39th Cong., 1st Sess. 370–71 (1866)
(Sen. Davis) (emphasis added), cited in Heller, 554 U.S. at
616.
Indeed, even before the Civil War, those who had sought
to dispossess black Americans of the right to carry arms for
self-defense understood that they were really seeking to
dispossess black Americans of fundamental constitutional
rights. This was made all-too-painfully clear by the Supreme
Court’s infamous decision in Dred Scott v. Sandford, 60 U.S.
(19 How.) 393 (1857), rendered four years before the first
shots were fired at Fort Sumter. See McDonald, 561 U.S. at
807–08, 822–23, 849 (Thomas, J., concurring in part and
concurring in the judgment) (looking to Dred Scott as
necessary context for Reconstruction-era historical analysis).
Writing for the Court, Chief Justice Taney—disgracefully—
dismissed Dred Scott’s suit for freedom after concluding that
black men and women had never been a part of the sovereign
“people” of the United States and therefore could find no
recourse in an Article III court. See Dred Scott, 60 U.S. (19
How.) at 407. To hold otherwise, Chief Justice Taney wrote,
would have “entitled [black Americans] to the privileges and
immunities [i.e., fundamental rights] of citizens” and thus
granted them the rights he felt only whites could enjoy: “[I]t
would give them the full liberty of speech in public and in
private upon all subjects upon which [white] citizens might

App. 152

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 153 of 215

YOUNG V. STATE OF HAWAII

153

speak; to hold public meetings upon political affairs, and to
keep and carry arms wherever they went.” Id. at 416–17
(emphasis added).
C
To summarize the history canvassed thus far: The
important Founding-era treatises, the probative nineteenthcentury case law, and the post–Civil War legislative scene all
reveal a single American voice. The right to bear arms must
include, at the least, the right to carry a firearm openly for
self-defense. Perhaps surprisingly, the majority does not
seriously dispute either the linguistic or historical evidence
recounted above.
Instead—and in lieu of any apposite cases that actually
upheld the constitutionality of severe restrictions on the open
carry of firearms—the majority suggests that the clear lessons
of this evidence are undermined by the mere fact that the
public carry of firearms has historically been subject to some
manner of regulation. While this is undoubtedly true, the
evidence of such lesser restrictions on firearms carry does not
come close to supporting the majority’s view that any
restriction upon public carry—even a complete ban—was
understood to be immune to constitutional scrutiny.
1
For one, the majority argues that the English right to carry
weapons openly was severely limited for centuries by the
1328 Statute of Northampton and suggests, in turn, that we
should incorporate such an understanding of English rights
into our Constitution’s Second Amendment. Exploring

App. 153

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 154 of 215

154

YOUNG V. STATE OF HAWAII

fourteenth-century English law books (after a thorough
dusting) reveals no such thing.
a
The Statute of Northampton made it unlawful for an
ordinary Englishman to “bring . . . force in affray of the
peace, nor to go nor ride armed by night nor by day, in Fairs,
Markets, nor in the presence of the Justices or other
Ministers, nor in no part elsewhere.” Statute of Northampton
1328, 2 Edw. 3, c. 3 (Eng.).9 By its terms, the Statute appears
to proscribe the mere act of riding armed, and in the
immediate period after Parliament enacted the statute, it
appears that some English constables indeed were ordered to
enforce the statute literally. See Letter to the Mayor and
Bailiffs of York (Jan. 30, 1334), in 3 Calendar of the Close
Rolls, Edward III, at 294 (H.C. Maxwell-Lyte ed. 1898)
[hereinafter Close Rolls]; see also John Carpenter & Richard
Whitington, Liber Albus: The White Book of the City of
London 335 (Henry Thomas Riley ed. & trans., 1862) (1419)
(“[N]o one, of whatever condition he be, [may] go armed in
the said city [of London] or in [its] suburbs . . . except the
vadlets of the great lords of the land, . . . the serjeants-at-arms
of his lordship the King, . . . and such persons as shall come
in their company in aid of them . . . for saving and
maintaining the said peace . . . .”). But not all English
constables faced similar orders. Indeed, officers in
Northumberland and at least twelve other counties or
“ridings” (sub-counties) were ordered to arrest only “persons
riding or going armed to disturb the peace.” Letter to Keepers
An “affray,” derived from the French word “effraier” (meaning “to
terrify”), is an act that disturbs the peace. See 1 William Hawkins, A
Treatise of the Pleas of the Crown 134 § 1 (1716).
9

App. 154

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 155 of 215

YOUNG V. STATE OF HAWAII

155

and Justices of Northumberland (Oct. 28, 1332), in 2 Close
Rolls, supra, at 610 (emphasis added).
And in any event, looking only to Chaucer’s fourteenthcentury England provides little instructive force, particularly
because “[c]ommon-law rights developed over time.” Wrenn,
864 F.3d at 660. And over the next few centuries, a narrow
interpretation of the statute—like that given to
Northumberland constables in 1332—began to dominate the
English legal landscape. Writing almost 300 years after the
statute was enacted, Serjeant William Hawkins, an English
legal commentator praised by Blackstone, explained that “no
wearing of Arms is within the meaning of this Statute, unless
it be accompanied with such Circumstances as are apt to
terrify the People; from whence it seems clearly to follow,
That Persons of Quality are in no Danger of Offending
against this Statute by wearing common Weapons.” 1
Hawkins, supra, at 136 § 9. Hawkins’s narrow interpretation
of the statute was in accord with that of the Court of King’s
Bench, which clarified that “the meaning of the [Statute of
Northampton] was to punish people who go armed to terrify
the King’s subjects.” Sir John Knight’s Case (K.B. 1686), 87
Eng. Rep. 75, 76; 3 Mod. 117, 118 (emphasis added).10

The majority erroneously asserts that Chune v. Piott (K.B. 1615),
80 Eng. Rep. 1161, eliminated from “the crime of unlawful carrying” the
“element” of “in terrorem populi Regis” (i.e., carrying “to the terror of the
king’s people”). See Maj. Op. 49. In actuality, Chune merely held that a
valid arrest for “unlawful carrying” did not require the arresting sheriff to
have personally witnessed the accused causing terrorem populi Regis.
80 Eng. Rep. at 1162. That is to say, King’s Bench loosened the
evidentiary standards by which the element of in terrorem populi Regis
could be proven; it did not abandon the element itself.
10

App. 155

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 156 of 215

156

YOUNG V. STATE OF HAWAII

To be sure, an untoward intent to terrorize the local
townsfolk was not always needed to face arrest and
imprisonment. But without malicious intentions or violent
behavior, the carrying of weapons alone was prohibited only
for such weapons that were specifically known to have a
terrorizing effect. As Blackstone interpreted the statute—an
interpretation credited by Heller, 554 U.S. at 627—“going
armed, with dangerous or unusual weapons, is a crime
against the public peace, by terrifying the good people of the
land.” 4 William Blackstone, Commentaries *149 (emphasis
added); accord Joseph Keble, An Assistance to Justices of the
Peace, for the Easier Performance of their Duty 147 (1689);
Francis Wharton, A Treatise on the Criminal Law of the
United States 932 § 2497 (4th ed. 1857). Similarly, Hawkins
wrote that “a Man cannot excuse the wearing [of] such
Armour” even “by alledging that such a one threatened him.”
1 Hawkins, supra, at 136 § 8; accord Wharton, supra, at 932
§ 2497. But clearly not all weapons can be characterized as
“dangerous or unusual.” Indeed, Heller itself recognized that
the Second Amendment might not preclude restrictions on
weapons of that kind. 554 U.S. at 627. Such an exception
would—inexplicably—swallow up the whole of the
Amendment’s protections if all firearms were defined as
“dangerous or usual” per se. See Moore, 702 F.3d at 936
(“[T]he Court cannot have thought all guns are ‘dangerous or
unusual’ and can be banned, as otherwise there would be no
right to keep a handgun in one’s home for self-defense.”).
Consequently, there is little in the Statute of Northampton
to suggest that it supports a ban on carrying common (not
unusual) arms for defense (not terror).

App. 156

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 157 of 215

YOUNG V. STATE OF HAWAII

157

b
More fundamentally, it would be misguided to accept
Hawaii’s invitation to import medieval English law wholesale
into our Second Amendment jurisprudence.
While English law is certainly relevant to our historical
inquiry insofar as the Second Amendment “codified a preexisting right,” Heller, 554 U.S. at 592, our aim here is not
merely to discover the rights of the English. There is a
scholarly consensus that the 1689 English right to have arms
was less protective than its American counterpart. See
Jonathan Meltzer, Note, Open Carry for All: Heller and Our
Nineteenth-Century Second Amendment, 123 Yale L.J. 1486,
1500 (2014); Joyce Lee Malcolm, To Keep and Bear Arms:
The Origins of an Anglo-American Right 120–22 (1994).
Illustratively, the English right was “not available to the
whole population, given that it was restricted to Protestants,
and like all written English rights it was held only against the
Crown, not Parliament.” Heller, 554 U.S. at 593. In keeping
with that limited scope, it included a regulatory caveat of the
type consciously spurned by the Framers of the Second
Amendment, only guaranteeing the right of Protestants to
have arms “as allowed by law.” See Malcolm, supra, at 121,
162.
Unsurprisingly, then, not all laws that restricted
Englishmen’s right to have arms found a place across the
Atlantic. For example, as St. George Tucker observed, it
would have been strange to apply in the United States an
English law that presumed any gathering of armed men was
treasonous, because “the right to bear arms is recognized and
secured in the [American] constitution itself.” 5 Tucker,
supra, at app. n.B, at 19; see also Cooley, supra, at 270

App. 157

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 158 of 215

158

YOUNG V. STATE OF HAWAII

(noting that the Second Amendment “was adopted with some
modification and enlargement from the English Bill of
Rights”); William Rawle, A View of the Constitution of the
United States of America 126 (2d ed. 1829) (writing that the
English right, unlike the Second Amendment, “is allowed
more or less sparingly, according to circumstances”). Thus,
instead of stitching into the Second Amendment every odd
law that hemmed in the rights of fourteenth-century
Englishmen, we are to consider English laws only insofar as
they inform the original public understanding of the Second
Amendment.
To the extent that the Framers did consider the Statute of
Northampton instructive of the preexisting right to bear arms,
they took a narrow view of its prohibitions. See Eugene
Volokh, The First and Second Amendments, 109 Colum. L.
Rev. Sidebar 97, 101 (2009). For example, Justice James
Wilson, a leading drafter of the Constitution, credited
Serjeant Hawkins and construed the statute to prohibit arming
oneself “with dangerous and unusual weapons, in such a
manner, as will naturally diffuse a terrour among the people.”
2 James Wilson, Collected Works of James Wilson 1138
(Kermit L. Hall & Mark D. Hall eds. 1967); see also Volokh,
supra, at 101 (“American benchbooks for justices of the
peace echoed [Wilson’s observation], citing Hawkins . . . .”).
William Rawle, a prominent member of the Pennsylvania
Assembly that ratified the Constitution, likewise cited
Hawkins and wrote that the right to bear arms would not rule
out a law prohibiting “the carrying of arms abroad by a single
individual” if such carry was “attended with circumstances
giving [observers] just reason to fear that he purposes to make
an unlawful use of them.” Rawle, supra, at 126.

App. 158

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 159 of 215

YOUNG V. STATE OF HAWAII

159

Justice Wilson and William Rawle’s reading of the statute
is confirmed by the various state regulations, adopted
throughout the Founding era and beyond, that were expressly
modelled after the Statute of Northampton. See Eric M.
Ruben & Saul Cornell, Firearm Regionalism and Public
Carry: Placing Southern Antebellum Case Law in Context,
125 Yale L.J.F. 121, 129 (2015) (“[S]everal early American
states expressly incorporated versions of the Statute of
Northampton into their laws.”). The state-enacted
Northampton analogues sought to regulate particularly
disruptive—more specifically, terrifying—arms carrying. For
example, Massachusetts in 1794 enacted a law authorizing
justices of the peace to arrest “all affrayers, rioters, disturbers,
or breakers of the peace, and such as shall ride or go armed
offensively, to the fear or terror of the good citizens.” 1794
Mass. Acts 66, ch. 26 (emphasis added); see also 1786 Va.
Acts 35, ch. XLIX (prohibiting going “armed by night []or by
day, in fairs or markets, or in other places, in terror of the
county”).
The North Carolina Supreme Court offered a definitive
interpretation of that state’s Northampton analogue in 1843,
providing us with the benefit of a more thorough discussion
of its elements. See State v. Huntly, 25 N.C. (3 Ired.) 418
(1843). The court clarified:
[T]he carrying of a gun per se constitutes no
offence. For any lawful purpose—either of
business or amusement—the citizen is at
perfect liberty to carry his gun. It is the
wicked purpose—and the mischievous
result—which essentially constitute the crime.
He shall not carry about this or any other
weapon of death to terrify and alarm, and in

App. 159

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 160 of 215

160

YOUNG V. STATE OF HAWAII
such manner as naturally will terrify and
alarm, a peaceful people.

Id. at 422–23 (emphasis added).
2
Next, the majority refers to a smattering of nineteenthcentury gun regulations, most of which appear to have gone
unchallenged in the courts. See Maj. Op. 65–73.
As a threshold matter, one should be wary of divining
constitutional meaning from the existence of historical
regulations that largely evaded constitutional scrutiny and for
which the majority offers no enforcement history. This is
especially true where, as here, as “[f]or most of our history[,]
the question” of their constitutionality simply “did not present
itself”—not least because for more than a century, “the Bill
of Rights was not thought applicable to the States, and the
Federal Government did not significantly regulate the
possession of firearms by law-abiding citizens.” Heller, 554
U.S. at 625–26.
In any event, the nineteenth-century statutes relied upon
by the majority simply do not say what the majority claims
they say—much less what it needs them to say—which is that
the Constitution was generally understood to allow states to
“forcefully prohibit[] the mere act of carrying a firearm.”
Maj. Op. 66–67.
a
Principally, the majority refers to various “surety” laws,
as pioneered by Massachusetts and then adopted in

App. 160

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 161 of 215

YOUNG V. STATE OF HAWAII

161

Wisconsin, Maine, Michigan, Virginia, Minnesota, Oregon,
and West Virginia. The majority characterizes such laws as
“a form of prior restraint,” an ostensibly interchangeable
“alternative to a broad ban on open carry,” and asserts that
they allowed individuals to carry weapons in public “only if
they could demonstrate good cause.” Id. at 109–10.
Not so.
Many states during the nineteenth century required people
who carried weapons in a disruptive fashion to post a bond
(or a “surety”) to ensure their good behavior. See, e.g., Mass.
Rev. Stat. ch. 134, § 16 (1836). To enforce the surety
requirement, such states commonly relied on a citizencomplaint mechanism. That is, if an arms carrier gave any
observer “reasonable cause to fear an injury, or breach of the
peace,” the observer could complain to his local magistrate,
who might then require the disruptive carrier “to find sureties
for keeping the peace,” generally “for a term not exceeding
six months.” Id. But if the disruptive carrier also had
“reasonable cause to fear an assault or other injury,” such
person would be excused from posting sureties despite the
complaint. Id. As an example of the pieces put together,
Michigan’s 1846 surety law provided that if any person went
armed with an “offensive and dangerous weapon, without
reasonable cause to fear an assault or other injury . . . he may,
on complaint of any person having reasonable cause to fear
an injury or breach of the peace, be required to find sureties
for keeping the peace.” Mich. Rev. Stat. tit. XXXI, ch. 163,
§ 16 (1846).
The majority erroneously characterizes surety laws as
imposing a severe restriction on the public carry of weapons
absent good cause to fear injury. But the majority focuses on

App. 161

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 162 of 215

162

YOUNG V. STATE OF HAWAII

an exception to the surety requirement (for carriers with a
specialized need for self-defense), while overlooking the
clearly limited scope of the requirement in the first place:
Only upon a well-founded complaint that the carrier had
threatened “injury or a breach of the peace” did the burden to
pay sureties even apply. Thus, individuals were generally free
to carry weapons without having to pay a surety, unless they
had been the subject of a specific complaint. Only then did
the “good cause” exception come into play, “exempting even
the accused” from the burden of paying sureties. Wrenn, 864
F.3d at 661. In short, “[a] showing of special need did not
expand carrying for the responsible; it shrank burdens on
carrying by the (allegedly) reckless.” Id.
Even if these laws had required all arms carriers without
good cause to post sureties (and they did not), they would not
add much to the relevant historical analysis. Heller saw little
weight in historical penalties that imposed only “a small fine
and forfeiture of the weapon (or in a few cases a very brief
stay in the local jail).” 554 U.S. at 633. Certainly, an
obligation to post a surety fits that mold. Like a small fine,
sureties are “‘akin to modern penalties for minor publicsafety infractions like speeding or jaywalking,’ which makes
them (in the Court’s view) poor evidence of limits on the
[Second] Amendment’s scope.” Wrenn, 864 F.3d at 661
(quoting Heller, 554 U.S. at 633–34). In fact, sureties seem
even less noteworthy than small fines, since a disruptive
carrier—once he posted a surety—“could go on carrying
without criminal penalty.” Id. And if he refrained from
breaching the peace, of course, the money he posted as a
surety would be returned in a matter of months. The
majority’s (unsupported) assertion that such sureties would
“have been a severe constraint on anyone thinking of carrying
a weapon in public” is therefore unconvincing. Maj. Op. 111.

App. 162

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 163 of 215

YOUNG V. STATE OF HAWAII

163

b
Next, the majority observes that some states and federal
territories restricted the particular places in which one could
legally carry a gun. See id. at 69–70, 72. But that is hardly
more helpful to the majority than the Statute of Northampton
or the American surety statutes.
While these statutes (unlike surety laws) did impose some
actual prohibitions on carrying firearms, they focused
narrowly on restricting carry in specifically enumerated,
particularly sensitive public places. See, e.g., 1870 Tex. Gen.
Laws 63, ch. XLVI, § 1 (prohibiting carry in “any church or
religious assembly, any school room or other place where
persons are assembled for educational, literary or scientific
purposes, or in[] a ball room, social party or other social
gathering composed of ladies and gentlemen, or to any
election precinct . . . or any other public assembly”); 1889
Ariz. Laws 30, No. 13 §§ 1, 3 (adopting a version of the
Texas statute). Such statutes establish nothing beyond the
anodyne proposition—acknowledged in Heller and not
disputed here—that the Second Amendment might have
historically tolerated “laws forbidding the carrying of
firearms in sensitive places such as schools and government
buildings.” 554 U.S. at 626.
The fact that such laws existed hardly shows that general
prohibitions on public carry would have been understood to
be constitutional at the time. On the contrary, the only reason
to enact laws specifically prohibiting firearm carry in

App. 163

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 164 of 215

164

YOUNG V. STATE OF HAWAII

sensitive places would be that carry was presumptively lawful
everywhere else.11
c
Next, the majority identifies three U.S. territories—New
Mexico, Oklahoma, and Wyoming—that enacted broad
prohibitions against the public carrying of all manner of
weapons toward the end of the nineteenth century. See Maj.
Op. 70–72; 1860 N.M. Laws 94, §§ 1–2 (prohibiting the
carry, “concealed or otherwise,” of “any class of pistols
whatever, bowie knife . . . Arkansas toothpick, Spanish
dagger, slung-shot, or any other deadly weapon”); Okla. Stat.
ch. 25, art. 47, § 2 (1890) (prohibiting “any person . . . to
carry upon or about his person any pistol, revolver, bowie
knife, dirk knife loaded cane, billy, metal knuckles, or any
other offensive or defensive weapon”); 1876 Wyo. Laws 352,
In a similar (though somewhat more colorful) vein, the majority
cites in passing an 1880 treatise in which Benjamin Vaughan Abbott
approved of regulations that would address the particular danger posed by
careless individuals mishandling firearms as “fireworks” in public. See
Maj. Op. 90 (citing Benjamin Vaughan Abbott, Judge and Jury 333
(1880)). First, Abbott recognized that the “Constitution secures the right
of the people to keep and bear arms,” including the right of a citizen to
“keep[] a gun or pistol under judicious precautions” and to “practise[] in
safe places the use of it.” Abbott, supra, at 333. But, Abbott contended,
a state could nonetheless enact restrictions against “keeping pistols for
playthings; carrying them carelessly in the pocket; toying with them at
picnics, on board steamers, and in saloons; exhibiting them to curious
girls; lending them to boys; firing at random with them upon city
sidewalks.” Id.
11

As with restrictions against the carrying of firearms in particular
places, Abbott’s approval of restrictions against using firearms in a
particularly careless manner suggests that one would indeed have a right
to carry them in ordinary and responsible ways.

App. 164

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 165 of 215

YOUNG V. STATE OF HAWAII

165

ch. 52, § 1 (prohibiting “bear[ing] upon [one’s] person,
concealed or openly, any fire arm or other deadly weapon,
within the limits of any city, town or village”). There are
several reasons to be cautious about ascribing much
interpretive significance to these laws.
First, it would be exceedingly difficult to discern whether
such laws were enacted with a proper understanding of the
individual right to armed self-defense secured by the Second
Amendment, as opposed to the militia-oriented view of the
right that was common at the time. See O’Shea, supra, at
642–53; see also, e.g., Cooley, supra, at 271 (“The arms
intended by the Constitution are such as are suitable for the
general defence of the community against invasion or
oppression . . . .”); John Norton Pomeroy, An Introduction to
the Constitutional Law of the United States 152–53 § 239
(1868) (“[A] militia would be useless unless the citizens were
enabled to exercise themselves in the use of warlike
weapons. . . . [But] [t]his constitutional inhibition is certainly
not violated by laws forbidding persons to carry dangerous or
concealed weapons . . . .”). Indeed, the Oklahoma statute
included an exception that allowed the public carry of rifles
or shotguns for use “in public muster or military drills,”
suggesting that it might have been enacted with a mistaken
understanding of the nature of the right. Okla. Stat. ch. 25,
art. 47, § 5 (1890).
Second, one should be hesitant to assume too much about
the constitutional validity of laws that sought to disarm
inhabitants of these Western territories, where the unique
circumstances of life on the frontier might have motivated
territorial legislatures to undertake more severe measures
against the use of weapons than we have seen reflected in the

App. 165

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 166 of 215

166

YOUNG V. STATE OF HAWAII

many state laws recounted above.12 Indeed, just after the turn
of the twentieth century, the Idaho Supreme Court struck
down as unconstitutional a similarly restrictive measure that
had been put in place by the territorial legislature there. See
Brickey, 70 P. at 609. And, as with the Black Codes which
sought to suppress the ability of freedmen to own guns
following the Civil War, there may be reason to question
whether similarly illicit goals may have inspired arms
restrictions in these heavily Indian territories. See generally
Angela R. Riley, Indians and Guns, 100 Geo. L.J. 1675, 1680
(2012) (“[T]he relationship of Indians and guns [in early
America] developed in parallel to African-Americans and
guns, with both groups situated at the bottom of a racial
hierarchy that facilitated oppression, noncitizen status, and
subjugation.”).
Third, and most fundamentally, one can learn little about
the general understanding of the Second Amendment from
such isolated statutes, which were enacted so distant from the
Founding and for which we have no record of enforcement.
Cf. Heller, 554 U.S. at 632 (“[W]e would not stake our
interpretation of the Second Amendment upon a single law

The majority cites only one state (as opposed to territorial) law that
purportedly imposed such a broad prohibition. See 1881 Kan. Sess. Laws
80, 92, ch. 37, § 23 (“The [city] council shall prohibit and punish the
carrying of firearms, or other dangerous or deadly weapons, concealed or
otherwise . . . .”). But this provision did not actually impose a direct,
statewide prohibition on carry. Rather, it was contained in the organic
statute incorporating certain cities within the State of Kansas, which in
turn directed their city councils to pass ordinances generally regulate
potential nuisances ranging from “the carrying of firearms” to the mischief
caused by “vagrants, tramps, [and] confidence men.” Id. The majority
presents no evidence of the nature of any municipal firearms regulations
that were actually enacted pursuant to the Kansas statute.
12

App. 166

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 167 of 215

YOUNG V. STATE OF HAWAII

167

. . . that contradicts the overwhelming weight of other
evidence . . . .”). Three statutes of this kind certainly do not
undermine the far more extensive historical evidence in
support of a more robust view of public-carry rights at the
time of our Founding and beyond.
d
Finally, the majority suggests the overall effect of this
hodgepodge of state and territorial statutes is to show that the
government may prohibit the public “carrying of small arms
capable of being concealed, whether they are carried
concealed or openly.” Maj. Op. 97 (emphasis added). More
specifically, the majority attempts to justify this conclusion
by observing that many of the statutes in question imposed
their restrictions on specifically “enumerated” weapons that
“were capable of being concealed.” Id. at 71. But this line of
reasoning falters on three distinct levels:
First, the category of “weapons capable of being
concealed” appears to be an invention of the majority’s own
creation or, at the very least, an historical anachronism. The
oldest usage of that phrase the majority can conjure is from
a 1923 California statute. Id. at 94 (citing 1923 Cal. Stat. 695,
ch. 339). The nineteenth-century statutes themselves were
certainly not written in terms of “concealability.” And as the
majority concedes, “[m]ost, but not all, of the weapons
enumerated in these statutes were capable of being
concealed.” Id. at 71 (emphasis added). Rather—as often
recognized by the very courts interpreting such statutes—the
common thread seems to be that the enumerated weapons
were more apt for use in person-to-person confrontation than
in hunting or militia activity. See, e.g., English, 35 Tex. at
474 (distinguishing a statute regulating “pistols, dirks,

App. 167

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 168 of 215

168

YOUNG V. STATE OF HAWAII

daggers, slungshots, swordcanes, spears, brass-knuckles and
bowie knives” from the regulation of arms “useful and proper
to an armed militia”); Hill, 53 Ga. at 474 (same); Workman,
14 S.E. at 11 (same).
That leads right into the second flaw in the majority’s
reliance upon such enumerated lists: They again betray a
view of the Second Amendment as being focused on militias
or hunting—for which rifles and shotguns were most
commonly used—rather than individual self-defense. For
example, as discussed above, the Oklahoma statute expressly
excepted from its list of prohibited weapons the public carry
of rifles or shotguns for use “in public muster or military
drills.” Okla. Stat. ch. 25, art. 47, § 5 (1890). As already
explained at length, Heller foreclosed any reliance on
historical sources animated by such an erroneous view that
would limit the right to “keep and bear Arms” to only its
militaristic applications. Moreover, Heller made clear that
restrictions on handguns are especially repugnant to the
Second Amendment because handguns are the “quintessential
self-defense weapon.” 554 U.S. at 629. Indeed, to paraphrase
Heller, “[i]t is no answer to say . . . that it is permissible to
ban the [carry] of handguns so long as the [carry] of other
firearms (i.e., long guns) is allowed.” Id.
Third, most of the statutes that included versions of the
enumerated list of regulated weapons were not prohibitions
on open carry at all. Most were surety statutes. See Mass.
Rev. Stat. ch. 134, § 16 (1836); 1838 Wis. Laws 379, 381,
§ 16; Me. Rev. Stat. tit. XII, ch. 169, § 16 (1841); Mich. Rev.
Stat. tit. XXXI, ch. 163, § 16 (1846); Minn. Rev. Stat. ch.
112, § 18 (1851); 1854 Or. Laws 218, 220, ch. XVI, § 17.
Several others were focused on restricting carry in
particularly sensitive places. See 1870 Tex. Gen. Laws 63;

App. 168

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 169 of 215

YOUNG V. STATE OF HAWAII

169

1889 Ariz. Laws 30, No. 13, §§ 1, 3. The Georgia statute
prohibiting concealed carry of the enumerated weapons
expressly allowed for their open carry. See Ga. Code pt. 4, tit,
1, div. 9, § 4413 (1861). That leaves only two statutes
containing versions of the enumerated weapons list: those
adopted by the territories of New Mexico and Oklahoma. See
1860 N.M. Laws 94, § 1; Okla. Stat. ch. 25, art. 47, § 2
(1890). And—for reasons already discussed in the above
analysis of those two, isolated, territorial statutes—they are
incapable of bearing the analytical load required to establish
that “the states broadly agreed that small, concealable
weapons, including firearms, could be banned from the public
square.” Maj. Op. 72.
D
In sum, the history extensively canvassed above leads to
a straightforward conclusion: Beginning in England and
throughout the development of the early American Republic,
individuals maintained the general right to carry common
firearms openly for their own self-defense in public, provided
that they did not do so in a way that would “terrorize” their
fellow citizens or intrude upon particularly sensitive places
like churches or schools.
Of course, the majority arrives at a starkly different
conclusion. Namely, the majority reads the history as
showing that “the government”—above and beyond its ability
to regulate which arms were legal to carry and which places
they could be carried—“may . . . even prohibit, in public
places[,] . . . the open carrying of small arms capable of being
concealed, whether they are carried concealed or openly.” Id.
at 97 (emphasis added). Indeed, the majority denies that such
an extensive prohibition would implicate “conduct [within]

App. 169

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 170 of 215

170

YOUNG V. STATE OF HAWAII

the historical scope of the Second Amendment” altogether.
Id. at 14–15. In the majority’s words, there is simply “no
right to carry arms openly in public.” Id. at 112 (emphasis
added).
This must seem strange, given that we are looking at the
same historical record, and that—with the exception of
certain points at the margins—we appear not to disagree
significantly on the substance of what the historical sources
actually say. (Indeed, the majority concedes that the “history
is complicated, and the record . . . far from uniform[ly]”
supports its conclusion. Id. at 40.)13 Our disagreement, it
seems, is not so much over what the history says, as it is over
what the history would need to say in order to sustain the
majority’s atextual conclusion that the scope of the right to
On this point, one should not be misled by the majority’s baseless
suggestion that the preceding historical review has cherry-picked
favorable evidence or somehow been an exercise in something that is “not
history.” See Maj. Op. 116. That is flatly wrong. Once one pierces through
the majority’s theatrical language, the inescapable fact remains that the
majority has identified no historical evidence that has been “discard[ed],”
see id. at 115—let alone any that would undermine the conclusions
articulated above.
13

The majority’s fundamental gripe seems to be that the preceding
analysis does not (as the majority has largely done) indiscriminately round
up the sources cited in the parties’ briefs, decline to consider whether
some might merit greater weight than others, and then uncritically accept
them all as equally instructive on the present question. It is precisely such
an oversimplified view of “history” that ought to be avoided. Otherwise,
we would risk falling into exactly the habit the majority wishes to avoid:
practicing “law-office history,” controlled by the parties’ self-interested
selection of historical evidence and analyzed without “proper evaluation
of the relevance of the data proffered.” Alfred H. Kelly, Clio and the
Court: An Illicit Love Affair, 1965 Sup. Ct. Rev. 119, 122 n.13, cited in
Maj. Op. 39 n.7.

App. 170

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 171 of 215

YOUNG V. STATE OF HAWAII

171

“keep and bear Arms” extends no further than the right to
“keep” arms inside the home. In other words, our
disagreement is not one of historical exegesis, but one of
historical synthesis.
In order to establish its startling conclusion that the
carrying of common arms for self-defense lies completely
outside the Second Amendment, the majority surely must
show that complete prohibitions on open public carry were
historically understood to be lawful. Perhaps, one would
think, the majority might have done so through evidence that
the Founding generation had regular experience with such
prohibitions and understood them to pose no problem to the
new Constitution they were creating. Perhaps the majority
might have marshaled evidence that such prohibitions had
been commonly upheld against relevant legal challenges in
early America. Or perhaps, at least, the majority might have
found evidence that such prohibitions, where not subjected to
judicial scrutiny, were historically widespread and
uncontroversial.
But the majority has found none of the above. All the
majority has managed to demonstrate is that the manner of
open public carry has at times been regulated (by laws
criminalizing the carry of especially dangerous or unusual
weapons with the intent or effect of “terrorizing the people,”
surety laws, laws restricting carry in particularly sensitive
public places, and the like), and that such narrow regulations
have at times been upheld or otherwise left unchallenged.
When all is said and done, there is a vast and undeniable
chasm between these (largely uncontroverted) propositions
about the historical presence of some firearms regulation and
the far more troubling proposition that the majority today

App. 171

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 172 of 215

172

YOUNG V. STATE OF HAWAII

pronounces: that public carrying of common arms could
generally be banned.14
The majority is left to bridge this chasm by making
logical leaps and critically shifting the goalposts in ways it
fails to justify. It is utterly baffling for the majority to contend
that, merely because the lawful manner of open public carry
has historically been regulated in certain respects, we may
conclude that the practice of public carry itself is not entitled
to constitutional protection. What right enshrined in our
Constitution has not historically been regulated to some
degree? Surely, we would never hold (for example) that the
right to speak publicly on political matters lies wholly outside
the First Amendment merely because such speech has been
subject to “longstanding, accepted regulation,” cf. Maj.
Op. 35, in the form of libel laws, defamation laws, and timeplace-and-manner restrictions. Yet this is exactly how the
majority appears to believe we must interpret the Second
Amendment. The majority’s invitation to interpret the right
to bear arms “as a second-class right, subject to an entirely
different body of rules than the other Bill of Rights
guarantees,” must be rejected. McDonald, 561 U.S. at 780
(plurality op.).

The majority might object that it has sometimes “qualified” its
analysis as to apply to prohibitions on the public carry of handguns
specifically (though, sometimes, it has not, see, e.g., Maj. Op. 112). As
discussed above, any such qualification is of no moment, given that Heller
made clear that protections for handguns are especially central to the
Second Amendment because the handgun is the “quintessential selfdefense weapon.” 554 U.S. at 629. If, as the majority says, public carry of
the “quintessential self-defense weapon” can be prohibited, what cannot?
14

App. 172

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 173 of 215

YOUNG V. STATE OF HAWAII

173

E
One last line of argument to rebut: The majority,
unavailed by text and history, relies on two ostensible—but
in reality, untenable—principles of constitutional
construction to buttress its assertion that an individual right
to armed self-defense in public would somehow contradict
the nature of our constitutional framework. Neither argument
holds water.
1
First, the majority asserts that constitutional
rights—across the board—inhere more strongly within the
home than outside the home. See Maj. Op. 98–99. The
majority cannot identify any case that actually establishes
such a “principle.” Instead, it opines that this lurking (and
heretofore unidentified) notion is “reinforced . . . by the Third
and Fourth Amendments,” which guarantee, respectively,
Americans’ rights to be free from the quartering of soldiers
and from unreasonable searches and seizures in their homes.
Id. at 98.
To the extent they are even relevant to our question here,
the lessons of the Third and Fourth Amendments cut in
exactly the opposite direction of the majority’s novel
approach. The text of both the Third and the Fourth
Amendments explicitly announces a focus on “houses.” See
U.S. Const. amends. III (“in any house”), IV (“in their . . .
houses”). The Second Amendment, by contrast, does not
mention any spatial limitations on the right to keep and bear
arms whatsoever. See U.S. Const. amend. II. Our inference,
then, should be that unlike the Third and Fourth
Amendments, the Second Amendment’s lack of any reference

App. 173

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 174 of 215

174

YOUNG V. STATE OF HAWAII

to the home means its protections are not specifically focused
there. See, e.g., Russello v. United States, 464 U.S. 16, 23
(1983) (“[Where a legal text] includes particular language in
one section of [the document] but omits it in another section
of the same . . . , it is generally presumed that [its drafters]
act[ed] intentionally and purposely in the disparate inclusion
or exclusion.” (internal quotation marks omitted)). It would
be odd, indeed, to infer (as the majority apparently does) that
the express limitation of two constitutional rights to “houses”
means that every other constitutional right is spatially limited
by implication. We certainly would never assume as much
about any other enumerated right in the Constitution.
In short, it is unnecessary to reach for the Third or Fourth
Amendments when the Second Amendment’s own text
supplies a clear answer.
2
Second, the majority raises the structural argument that
“the Second Amendment did not contradict the fundamental
principle that the government assumes primary responsibility
for defending persons who enter our public spaces.” See Maj.
Op. 99–107, 111–13. But this argument is foreclosed by
Heller and, more fundamentally, is premised on deep
misapprehensions of the first principles of American popular
sovereignty.
a
At the outset, the majority’s structural argument suggests
that even if “keep[ing]” arms is an individual right,
“bear[ing]” arms is a corporate right that belongs to the
government alone, which has sole authority to ensure security

App. 174

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 175 of 215

YOUNG V. STATE OF HAWAII

175

in public. Such a suggestion directly contradicts Heller,
which emphatically rejected the argument that the right to
“keep and bear Arms” was limited to the “militia.” See
554 U.S. at 579–83, 585–86. This contradiction alone would
be a sufficient reason to reject the majority’s assertion that
the Second Amendment encompasses no individual right to
self-defense in public.
b
But the flaws of the majority’s structural argument run
deeper than its incompatibility with Heller.
The heart of the majority’s argument is the proposition
that “[t]he states, in place of the king, assumed primary
responsibility” for “securing what was formerly known as
‘the king’s peace.’” Maj. Op. 101. The majority reasons that
“maintaining the ‘king’s peace’ was the king’s duty and, in
the English view, the carrying of weapons in public areas was
an affront to the king’s authority.” Id. at 102. This entire line
of reasoning overlooks our Constitution’s profound departure
from English ideas about the nature and locus of sovereignty.
The great and enduring conceit of our Founders’ political
theory was their insistence on breaking any analogy between
the king’s sovereignty and that of the states.
What the majority overlooks is that our Constitution
relocated the king’s sovereignty not in American State or
federal governments, but in “We the People of the United
States.” U.S. Const. pmbl. Indeed, copious volumes of
scholarly ink have been spilled in showing that the
Constitution’s text, history, and structure converge on this

App. 175

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 176 of 215

176

YOUNG V. STATE OF HAWAII

conclusion.15 And it has been a bedrock principle of
constitutional construction since the dawn of American
constitutional jurisprudence. See, e.g., Chisholm v. Georgia,
2 U.S. (2 Dall.) 419, 472 (1793) (opinion of Jay, C.J.) (“In
Europe the sovereignty is generally ascribed to the Prince;
here it rests with the people; there, the sovereign actually
administers the Government; here, never in a single instance;
our Governors are the agents of the people . . . .”); id. at 461
(opinion of Wilson, J.) (criticizing England’s “haughty
notions of . . . state sovereignty and state supremacy” as
allowing “the state [to] assum[e] a supercilious preeminence
above the people, who have formed it”).
With a proper conception of American popular
sovereignty, it should be easy to see the irrelevance of “the
English view” that “the carrying of weapons in public areas
was an affront to the king’s authority” insofar as it “suggested
that the king was unwilling or unable to protect the people.”
Maj. Op. 102. For an English subject to “carr[y] arms
publicly . . . as a vote of no confidence in the king’s ability to
maintain [the public peace]” would be an affront to his
sovereign. Id. But for an American citizen to carry arms
publicly could be no such thing. The American citizen, in
contrast with the English subject, is a constituent part of a
free and sovereign people, whom state governments serve as
agents. Indeed, the “principal object” of our Constitution was
not to grant “new rights” from government to the people, but

See, e.g., Gordon S. Wood, The Creation of the American Republic:
1776–1787, at 344–89 (1998); Edmund S. Morgan, Inventing the People:
The Rise of Popular Sovereignty in England and America 235–306 (1988);
Bernard Bailyn, The Ideological Origins of the American Revolution
55–93 (1967); Akhil Reed Amar, Of Sovereignty and Federalism, 96 Yale
L.J. 1425, 1429–66 (1987).
15

App. 176

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 177 of 215

YOUNG V. STATE OF HAWAII

177

rather to “secur[e]” against the government “those rights” we
already possess by nature. 1 Wilson, supra, at 1053–54. It is
thus emphatically the prerogative of the American citizen to
give a “vote of no confidence” in state governments’ exercise
of those powers delegated from the sovereign people
themselves. See, e.g., Chisholm, 2 U.S. (2 Dall.) at 472; 4
Jonathan Elliot, The Debates of the Several State Conventions
on the Adoption of the Federal Constitution 9 (1888) (“The
people are known with certainty to have originated [our
government] themselves. Those in power are their servants
and agents; and the people, without their consent, may newmodel their government whenever they think proper . . . .”
(statement of James Iredell)).
For the same reason, the majority’s suggestion that the
values of federalism somehow preclude the Second
Amendment from guaranteeing an individual right to carry
arms for self-defense in the public square is fundamentally
misguided. The majority’s argument is essentially this: As
between the federal government and the states, the
Constitution gave the states “primary responsibility” for
“maintaining the public peace.” Maj. Op. 100–01. And in
turn, “[i]t would be anomalous in the extreme if, having gone
to the trouble of spelling out the respective responsibilities of
the new federal government and the states in 1789, the
framers of the Bill of Rights undid that relationship with the
Second Amendment (adopted in 1791).” Id. at 106. By “that
relationship,” the majority appears to refer to the ostensible
principle that “it is peculiarly the duty of the states to defend
the public square.” Id. at 99.
The majority’s argument begs the very question which
must be answered. To be sure, the “general police power” is
“retained by the States,” to the exclusion of any federal

App. 177

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 178 of 215

178

YOUNG V. STATE OF HAWAII

general police power. United States v. Lopez, 514 U.S. 549,
567 (1995). So we know that states generally have primacy
over the national government for protecting the public peace.
But the question here is whether the State governments were
understood to exercise a “duty to protect [their] citizens,”
Maj. Op. 106, that also excludes the citizens’ fundamental
right to protect themselves. The relative division of
governmental powers between the federal and State
governments provides no answer to this question at all. And
the majority’s premise—that the states’ constitutional power
to protect the public was conferred to the exclusion of
citizens’ own right to self-defense—is unmoored from the
text and structure of the Constitution; contravenes the lessons
of Heller; is desperately ahistorical, for reasons already
discussed at length; and cannot be squared with the first
principles of American popular sovereignty.
III
Accordingly, the majority is wrong to conclude that
H.R.S. § 134-9 does not implicate the right to bear arms
whatsoever. Because the statute clearly does tread upon
conduct protected by the Second Amendment, the next step
must be to analyze it under an “appropriate level of scrutiny.”
Jackson v. City & County of San Francisco, 746 F.3d 953,
960 (9th Cir. 2014). In the framework developed by our court
following Heller, the first question in determining the
appropriate level of scrutiny is this: Does the right of an
ordinary citizen to bear arms openly in public for purposes of
self-defense fall within the “core” of the Second
Amendment—or does it lie somewhere else, at the periphery
of the Amendment’s guarantees? See id. at 960–61.

App. 178

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 179 of 215

YOUNG V. STATE OF HAWAII

179

The Second Amendment’s text, history, and structure, and
the Supreme Court’s reasoning in Heller, all point squarely to
the same conclusion: Armed self-defense in public is at the
very core of the Second Amendment right. At the risk of
repeating myself (though it does, apparently, bear repeating),
the Second Amendment safeguards both the right to keep a
firearm and the right to bear—or to carry—that firearm.
Neither the text of the Amendment nor its historical
interpretations suggests that either right has priority over the
other. The obvious inference one should draw is that there is
no pecking order between the “core” status of the
Amendment’s expressly enumerated guarantees.16 The right
to armed self-defense—both by keeping a gun at home and
by carrying one elsewhere—lies at the heart of the Second
Amendment.
Indeed, Heller made clear that the “central” purpose
undergirding the Second Amendment is “the inherent right of
self-defense.” 554 U.S. at 628; see also id. at 599 (describing
self-defense as “the central component of the right itself”).
This is why, for instance, it was particularly troubling to the
Court in Heller that the District of Columbia had banned
handguns—“an entire class of ‘arms’ that is overwhelmingly
chosen by American society for that lawful purpose [of selfdefense].” Id. at 628. To be sure, Heller addressed the
application of this right to the home—and necessarily so,
given that the case involved specifically a challenge to a ban
By way of (illustrative) comparison, courts have been more willing
to consider the non-“core” status of gun rights other than the expressly
enumerated rights to “keep” (i.e., to possess) and to “bear” (i.e., to carry)
arms, such as the rights to sell certain firearms, or to manufacture firearms
with or without certain features. See, e.g., Pena v. Lindley, 898 F.3d 969,
1009 (9th Cir. 2018) (Bybee, J., concurring in part and dissenting in part);
United States v. Marzzarella, 614 F.3d 85, 92 n.8 (3d Cir. 2010).
16

App. 179

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 180 of 215

180

YOUNG V. STATE OF HAWAII

on handgun possession in the home. See id. at 575–76; see
also Drake, 724 F.3d at 445 (Hardiman, J., dissenting). But
nothing in Heller remotely suggests that the core “inherent
right of self-defense” was understood to stop at the walls of
one’s home. Rather, Heller’s (and subsequently McDonald’s)
language suggests exactly the opposite, as it addresses the
application of the right of self-defense to the home in
comparative terms. In these cases, the Court described the
“need for defense of self, family, and property” as “most
acute” within the home, Heller, 554 U.S. at 628 (emphasis
added), or “most notabl[e]” there, McDonald, 561 U.S. at 780
(plurality op.) (emphasis added)—suggesting of course that
this same core right was felt (even if perhaps less “acutely”)
elsewhere.
More fundamentally, a great deal of Heller’s analysis
reflects an abiding concern for the inherent right to defend
one’s person, not just one’s home. For example, the Court
cited (without reference to the home) “at least seven [state
constitutional provisions that] unequivocally protected an
individual citizen’s right to self-defense,” which is “strong
evidence that that is how the founding generation conceived
of the right.” 554 U.S. at 603. Also without any reference to
the home, Heller noted that “[a]ntislavery advocates routinely
invoked the right to bear arms for self-defense.” Id. at 609.
Charles Sumner’s famous “Bleeding Kansas” speech, quoted
at length in Heller, can hardly be read without sensing its
vociferous declaration that the Second Amendment’s core
reaches self-defense on the wide open spaces of the American
frontier: “Never was this efficient weapon [the rifle] more
needed in just self-defense, than now in Kansas, and at least
one article in our National Constitution must be blotted out,
before the complete right to it can in any way be impeached.”
Id. (quoting Charles Sumner, The Crime Against Kansas,

App. 180

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 181 of 215

YOUNG V. STATE OF HAWAII

181

May 19–20, 1856, in American Speeches: Political Oratory
from the Revolution to the Civil War 553, 606–07 (T. Widmer
ed. 2006)); see also McDonald, 561 U.S. at 775 (“[O]ne of
the ‘core purposes of the Civil Rights Act of 1866 and of the
Fourteenth Amendment was to . . . affirm the full and equal
right of every citizen to self-defense.’” (quoting Amar, Bill of
Rights, supra, at 264–65)).
Perhaps most tellingly, the Court in Heller ultimately
likened the constitutional repugnance of restrictions on
keeping arms inside the home with that of restrictions on
bearing arms outside the home. In striking down the District
of Columbia’s ban on handgun possession in the home,
Heller observed that the only restrictions that had historically
“come close” to such a “severe” measure were laws that
unconstitutionally restricted the open carry of firearms
outside the home in some states. 554 U.S. at 629 (citing
Nunn, 1 Ga. at 251; Andrews, 50 Tenn. (3 Heisk.) at 187;
Reid, 1 Ala. at 616–17).
Thus, there can be no avoiding Heller’s—and
McDonald’s—admonition that the Second Amendment
guarantees the individual right “to use handguns for the core
lawful purpose of self-defense.” McDonald, 561 U.S. at 768
(quoting Heller, 554 U.S. at 630 (alteration omitted)); see
also Wrenn, 864 F.3d at 659 (“Whatever motivated the
Amendment, at its core was the right to self-defense.”). In
turn, there can be no support for a cramped reading of the
Second Amendment that renders to “keep” and to “bear”
unequal guarantees. As recounted at length above, both the
text of the Amendment and the relevant historical sources
confirm this understanding. The right to carry a firearm
openly for self-defense falls within the core of the Second
Amendment.

App. 181

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 182 of 215

182

YOUNG V. STATE OF HAWAII
IV

Because the right to carry a handgun openly for selfdefense lies within the “core” of the Second Amendment,
Hawaii faces a steep burden in its attempt to justify the
constitutionality of section 134-9. Under our court’s
framework, if Hawaii’s law “amounts to a destruction” of the
core right, it must be held “unconstitutional under any level
of scrutiny.” Silvester v. Harris, 843 F.3d 816, 821 (9th Cir.
2016). And if it severely burdens (but does not destroy) the
core right, it still “warrants strict scrutiny.” Id.
Though it is doubtful whether Hawaii could prevail under
either standard, the unavoidable reality is that Hawaii’s
severe deprivation of the core right to carry a firearm in
public can only be understood as amounting to a total
destruction of such right. It is thus necessarily
unconstitutional.
A
Section 134-9 limits the open carry of firearms to people
“engaged in the protection of life and property,” H.R.S.
§ 134-9(a), i.e., “private detectives and security guards,” as
defined by the County of Hawaii’s implementing regulations,
see Police Dep’t of Cnty. of Haw., Rules and Regulations
Governing the Issuance of Licenses to Carry Concealed and
Unconcealed Weapons 1 (Oct. 22, 1997). Even those lucky
few may carry firearms only when “in the actual performance
of [their] duties.” Id. at 10. There can be little question that
the core Second Amendment rights of Hawaii residents are
effectively destroyed by such severe restrictions on who may
openly carry a firearm.

App. 182

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 183 of 215

YOUNG V. STATE OF HAWAII

183

Because the Second Amendment protects the right of
individuals, not groups of individuals, to keep and to bear
arms, Heller, 554 U.S. at 595, the relevant question is the
extent to which a law restrains the rights of a typical, lawabiding citizen. Wrenn, 864 F.3d at 665 (“[I]f the Amendment
is for law-abiding citizens as a rule, then it must secure gun
access at least for each typical member of that class.”). And
section 134-9 all but eliminates the right to open carry for
such citizens. To restrict open carry to those whose job entails
protecting life or property is, necessarily, to restrict open
carry to a small and insulated subset of law-abiding citizens.
Just as the Second Amendment does not protect a right to
bear arms only as an on-duty militia member, it surely does
not protect a right to bear arms only as an on-duty security
guard. The typical, law-abiding citizen in the State of Hawaii
is therefore all but foreclosed from exercising the core
Second Amendment right to bear unconcealed arms for selfdefense.
It follows that section 134-9, by its own terms, “amounts
to a destruction” of a core right and is therefore infirm
“[u]nder any of the standards of scrutiny.” See Heller, 554
U.S. at 628–29. The County may not constitutionally enforce
section 134-9’s limitation on the open carry of firearms to
those “engaged in the protection of life and property.”
Hawaii resists this conclusion by arguing that section 1349 does not in fact limit open carry to security guards and
those similarly employed. Rather, Hawaii insists that “a
private individual may be ‘engaged in the protection of life
and property,’ even when it is not part of her job”—and thus
the statute is open to everyone, at least in appropriate
circumstances. In a vacuum, that might be a perfectly
plausible—even natural—way to read the words in the

App. 183

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 184 of 215

184

YOUNG V. STATE OF HAWAII

statute. But in the real world, it is not how the State of Hawaii
or its constituent counties have actually interpreted and
applied section 134-9.
Counsel for the County acknowledged as much at oral
argument before the three-judge panel in this case, stating
that, to his knowledge, no one other than a security guard—or
someone similarly employed—had ever been issued an opencarry license. Hawaii’s Attorney General, in a September
2018 Opinion Letter on this very subject, likewise failed to
provide evidence that any of Hawaii’s counties had ever
issued an open-carry permit to even a single person not
employed in the security profession. See generally State of
Haw., Dep’t of Att’y Gen., Opinion Letter No. 18-1,
Availability of Unconcealed-Carry Licenses (Sept. 11, 2018)
[hereinafter Opinion Letter 18-1]. And the State has not
shown that it has taken any action to remedy the putatively
“incorrect” interpretation of section 134-9 that continues to
be enforced in Hawaii County and throughout the state.
Indeed, it appears that no carry licenses have been issued to
private, non-security guard citizens anywhere in the State
since the issuance of the State’s 2018 Opinion Letter.
See State of Haw., Dep’t of Att’y Gen., Firearm
Registrations in Hawaii, 2019, at 9 (Mar. 2020),
https://ag.hawaii.gov/cpja/files/2020/03/FirearmRegistrations-in-Hawaii-2019.pdf; State of Haw., Dep’t of
Att’y Gen., Firearm Registrations in Hawaii, 2018, at 9 (May
2019), https://ag.hawaii.gov/cpja/files/2019/05/FirearmRegistrations-in-Hawaii-2018.pdf.
In the County of Hawaii, the historical dearth of opencarry permits for private citizens is no mere “pattern or
practice.” It is a matter of official policy. Again, in its 1997
regulations implementing section 134-9’s open-carry

App. 184

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 185 of 215

YOUNG V. STATE OF HAWAII

185

permitting regime, the County created an application process
that is open only to “private detectives and security guards.”
Police Dep’t of Cnty. of Haw., Rules and Regulations
Governing the Issuance of Licenses to Carry Concealed and
Unconcealed Weapons 1 (Oct. 22, 1997).17 Although the
County now asserts that it does not “understand” the
regulation to limit carry permits to such individuals, its 1997
Police Department regulation remains on the books. Further,
as Young rightly notes, “[t]he County of Hawaii . . . has not
[since] issued any new regulations or even created an
application form for private citizens.”
B
In the face of this damning factual record, both Hawaii
and the majority urge that we should simply look the other
way.
No thanks!
1
For its part, Hawaii argues that its actual enforcement of
the statute is irrelevant because “the meaning of a state statute
is determined by its text, not by how a local government
supposedly applies it.” The case Hawaii cites for that
contention, however, is wholly inapposite. In the cited
passage, the Hawaii Supreme Court simply recited the

17
Whereas the State now seeks to create ambiguity about whether its
statute limits open carry to security guards and those similarly employed,
there can be no such ambiguity that the County’s 1997 regulation does
exactly that. Accordingly, such a regulation is unconstitutional in its own
right.

App. 185

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 186 of 215

186

YOUNG V. STATE OF HAWAII

anodyne administrative-law maxim that when a court
conducts de novo review of an agency’s statutory
construction, “the fundamental starting point for statutory
interpretation is the language of the statute itself.” Del Monte
Fresh Produce (Haw.), Inc. v. Int’l Longshore & Warehouse
Union, Local 142, 146 P.3d 1066, 1076 (Haw. 2006) (internal
quotation marks omitted). But ours is not an administrativelaw case; it is a challenge to the constitutionality of Hawaii’s
severe restrictions on the right of individuals to carry firearms
in public. The pertinent question is not whether the County’s
interpretation of H.R.S. § 134-9 is adequately faithful to the
statutory text. Rather, the question is whether Hawaii’s
restrictions on open public carry are adequately faithful to the
Second Amendment. And enforcement history illuminates
whether the State’s statute and the County’s regulation are
laws “which, under the pretence of regulating, amount[] to a
destruction of the right.” Jackson, 746 F.3d at 960 (quoting
Heller, 554 U.S. at 629).
2
Similarly, the majority contends that we may not consider
the enforcement history of H.R.S. § 134-9 because Young has
supposedly forfeited any as-applied challenge to the statute,
limiting our review “to the text of the statute itself.” See Maj.
Op. 25–31. This is simply wrong—and for several reasons.
For starters, the majority’s premise that Young’s
complaint outlined only a “facial” challenge to the statute is
dubious. Young’s complaint challenged far more than the
theoretical facial validity of section 134-9. Unlike in many
facial challenges, here section 134-9 has actually been
enforced against Young, and he claims that such
enforcement—i.e., the denial of his applications for an open-

App. 186

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 187 of 215

YOUNG V. STATE OF HAWAII

187

carry permit—violated the Second Amendment. Indeed,
Young alleged that his Second Amendment rights had been
violated by the “[c]ombined” statutes, regulations, and
actions of “the State of Hawaii, County of Hawaii[,] and the
Hawaii County Police Department and its Chief of Police.”
More specifically, he alleged that the County had
unconstitutionally denied his permit applications even though
they “stat[ed] the purpose being for personal security, selfpreservation and defense,” and he contended that carry
permits had been made available only to those who were
“employed by a licensed private security company.”18 Thus,
unlike a stereotypical facial challenge, Young’s claim does
not “rest on speculation” about how the statute might be
enforced, nor does it ask our court to “short circuit” the
State’s “opportunity to implement [the statute] . . . [and] to
construe the law in the context of actual disputes.” See Wash.
State Grange v. Wash. State Republican Party, 552 U.S. 442,
450–51 (2008). Young’s very point is that the State and
County have construed and implemented the statute—against
him—in a way that is unconstitutional.

The majority’s assertion that “Young did not set out [an as-applied]
claim as an issue before our court in his panel appeal,” Maj. Op. 28, is
even more inaccurate. Young’s opening brief, filed in 2013, plainly states:
“[Hawaii County Police] Chief Kubojiri’s failure to adopt policies which
comport with constitutional guidelines has resulted in HRS § 134-9, as
applied to Mr. Young, to be an unconstitutional deprivation of his
constitutional rights. In the alternative, if no guidelines could make the
statute constitutional then it is unconstitutional on its face.” And it is of no
moment that the panel opinion referred to “several . . . arguments” that
Young had abandoned or waived on appeal. Id. (quoting Young, 896 F.3d
at 1050 n.3). The panel expressly listed those claims that Young had
forfeited; Young’s as-applied challenge to Hawaii’s restrictions on his
ability to carry a handgun openly was not one of them. See Young,
896 F.3d at 1050 n.3.
18

App. 187

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 188 of 215

188

YOUNG V. STATE OF HAWAII

Further, we cannot lose sight of the fact that Young filed
his complaint pro se—and, as the Supreme Court has
instructed, “[a] document filed pro se is ‘to be liberally
construed,’ and ‘a pro se complaint, however inartfully
pleaded, must be held to less stringent standards than formal
pleadings drafted by lawyers.’” Erickson v. Pardus, 551 U.S.
89, 94 (2007) (per curiam) (quoting Estelle v. Gamble,
429 U.S. 97, 106 (1976)) (citations omitted). Here, Young’s
pro se complaint stated clearly, if inartfully, his theory that
his Second Amendment rights were violated by the combined
effects of H.R.S. § 134-9 and the County’s actual
enforcement thereof. Such a claim is clearly sufficient to put
the State and County’s record of enforcement of section 1349 at issue.
More fundamentally, the majority’s contrary conclusion
relies on the erroneous notion that there is a bright-line
categorical distinction between facial and as-applied
challenges. The Supreme Court has cautioned that “the
distinction between facial and as-applied challenges is not so
well defined that it has some automatic effect or that it must
always control the pleadings and disposition in every case
involving a constitutional challenge. The distinction . . . goes
to the breadth of the remedy employed by the Court, not what
must be pleaded in a complaint.” Citizens United v. Fed.
Election Comm’n, 558 U.S. 310, 331 (2010) (emphasis
added); see also Bucklew v. Precythe, 139 S. Ct. 1112, 1128
(2019) (“The line between facial and as-applied challenges
can sometimes prove ‘amorphous’ and ‘not so well defined.’”
(citations omitted)); Richard H. Fallon, Jr., As-Applied and
Facial Challenges and Third-Party Standing, 113 Harv. L.
Rev. 1321, 1324 (2000) (“[T]here is no single distinctive
category of facial, as opposed to as-applied, litigation. Rather,
all challenges to statutes arise when a particular litigant

App. 188

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 189 of 215

YOUNG V. STATE OF HAWAII

189

claims that a statute cannot be enforced against her. . . . [I]t is
more misleading than informative to suggest that ‘facial
challenges’ constitute a distinct category of constitutional
litigation.”). Indeed, whether a constitutional challenge is
described as “facial” or “as-applied” “does not speak at all to
the substantive rule of law necessary to establish a
constitutional violation.” Bucklew, 139 S. Ct. at 1127
(emphasis added). And, at least in the First Amendment
context—which guides our analysis of “the extent to which
a challenged prohibition burdens the Second Amendment
right,” Jackson, 746 F.3d at 961—even where the bare text of
a statute is theoretically capable of competing constructions,
we analyze a “facial” attack to the statute in light of how it
has actually been interpreted and applied. See, e.g., Forsyth
County v. Nationalist Movement, 505 U.S. 123, 131 (1992)
(“In evaluating [a] facial challenge, we must consider the
county’s authoritative constructions of the ordinance,
including its own implementation and interpretation of it.”);
Gooding v. Wilson, 405 U.S. 518, 524 (1972).
Regardless of its particular phrasing, the essence of
Young’s claim is unquestioned: He contends that the State
and County of Hawaii have enacted and enforced against him
sweeping prohibitions on ordinary, non-security-guard
citizens’ right to carry a firearm openly in public, in violation
of the Second Amendment. That claim necessarily questions
not only the nature of the statute that Hawaii enacted but
moreover how that statute has been interpreted and enforced
by the responsible government officials. And our analysis of
such a claim surely does not turn on which ill-defined label
one might now attach to it. Cf. Bucklew, 139 S. Ct. at 1128
(“To hold now, for the first time, that choosing a label
changes the meaning of the Constitution would only
guarantee a good deal of litigation over labels, with lawyers

App. 189

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 190 of 215

190

YOUNG V. STATE OF HAWAII

on each side seeking to classify cases to maximize their
tactical advantage.”).
C
So, at least as informed by the draconian enforcement
history of section 134-9, such law unquestionably destroys
ordinary Hawaiians’ freedom to carry a handgun for selfdefense in public. But that understates the point. For even if
we chose to ignore the enforcement history showing that the
County has never issued an open-carry permit to a nonsecurity-guard citizen, section 134-9 would still be
unconstitutional on its terms.
The Second Amendment protects “the right of the people
to keep and bear Arms”—not the right of a select group of
“exceptional” people to keep and bear arms. U.S. Const.
amend. II (emphasis added). And in Heller, the Court left no
doubt that “the people” refers to “all Americans.” 554 U.S. at
580–81. “[I]f the Amendment is for law-abiding citizens as
a rule, then it must secure gun access at least for each typical
member of that class.” Wrenn, 864 F.3d at 665. Indeed,
although “certain weapons or activities [may] fall outside the
scope of the” Second Amendment, “certain people” do not.
Kanter v. Barr, 919 F.3d 437, 452 (7th Cir. 2019) (Barrett, J.,
dissenting).
Thus, for Hawaii’s measure to be constitutional, at the
very least, it must not destroy the right of the typical, law
abiding citizen to carry a gun in public for self-defense. By its
very terms, section 134-9 plainly does just that—and does so
even if we set aside its requirement that firearms carriers be
“engaged in the protection of life and property.” The
language of the statute allows only those individuals who can

App. 190

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 191 of 215

YOUNG V. STATE OF HAWAII

191

show “an exceptional case” or special “urgency” to be
eligible to carry a gun. H.R.S. § 134-9(a).19 The Hawaii
Attorney General’s 2018 Opinion Letter only exacerbated this

19
To be sure, Hawaii argues—and the majority intimates—that
history countenances such an approach. Young’s interest in self-defense,
they say, is merely “generalized,” whereas the Second Amendment and its
English forbearers protected a right to open carry only in service of a
“particularized” need for self-defense. See Maj. Op. 54–55. This putative
distinction, however, proves specious.

For example, the majority accepts the invitation of Hawaii’s en banc
brief to read Lord Coke as advocating the proposition “that the law did not
allow public carry merely ‘for doubt of danger.’” See id. at 54–55; Edward
Coke, The Third Part of the Institutes of the Laws of England 161
(London, R. Brooke 1797). But what Hawaii would pass off as a general
maxim of English law is in fact a comment on the very particular and
unusual case of Sir Thomas Figett. There, “doubt of danger” was held an
insufficient defense for Figett’s going armed “in the palace,” and “before
the justice[s] of the kings bench.” Coke, supra, at 161–62 (emphasis
added). Ironically enough, Figett did assert a “particularized” threat in
seeking to justify his carrying of a weapon, stating that he had concrete
reason to fear an attack from one “Sir John Trevet knight.” Id. The failure
of Figett’s defense, then, had nothing to do with how “generalized” or
“particularized” his interests in self-defense were, and everything to do
with the fact that he had gone armed in uniquely “sensitive places” where
carry was categorically prohibited. Cf. Heller, 554 U.S. at 626.
Similarly, the majority reads Serjeant Hawkins as “recogniz[ing] that
the . . . . desire for proactive self-defense was not a good enough reason
to go armed openly.” Maj. Op. 54. Yet this contradicts what Hawkins
actually wrote. In the treatise relied upon by Hawaii and the majority, he
expressly clarified that “no wearing of Arms is within the meaning of th[e]
Statute [of Northampton],” even if “it be accompanied with such
Circumstances as are apt to terrify the People,” so long as one had
“arm[ed] himself to suppress Rioters, Rebels, or Enemies” or “upon a Cry
made for Arms to keep the Peace.” Hawkins, supra, at 136 §§ 9–10. That
is to say, Hawkins placed “generalized” and “particularized” interests in
self-defense on equal footing.

App. 191

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 192 of 215

192

YOUNG V. STATE OF HAWAII

problem by offering “illustrative examples” of classes of
persons whom the Attorney General “believe[s] . . . could
present a sufficient urgency or need for protection under the
statute,” such as political activists, state’s witnesses, private
security guards, psychiatrists, physicians, attorneys, business
owners, entertainers, and bank employees. See Opinion Letter
18-1, supra, at 8–9. But no matter the particular categories of
people who fall in or out of the State and County’s favor,
Hawaii’s statute necessarily destroys the right to carry a
firearm for self-defense for all “typical . . . law-abiding
citizens” who are not deemed to be “exceptional.” Wrenn,
864 F.3d at 665. That would be no less true if we were to set
aside the ample factual record showing that Hawaii has also
further extinguished the public-carry rights of those who are
not security guards.
In short, no matter how much one cares to look to H.R.S.
§ 134-9’s troubling and well-documented enforcement
history, we cannot escape the conclusion that it is
“unconstitutional under any level of scrutiny.” Jackson,
746 F.3d at 961.
V
The Second Amendment’s text, history, and structure—as
interpreted in light of the Supreme Court’s binding
precedents—all converge on an unequivocal conclusion: At
its core, the Second Amendment protects the ordinary, lawabiding citizen’s right to carry a handgun openly for purposes
of self-defense outside the home.
Despite an exhaustive historical account, the majority has
unearthed nothing to disturb this conclusion. At most, and
after great length, the majority arrives at the unexceptional

App. 192

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 193 of 215

YOUNG V. STATE OF HAWAII

193

observation that the lawful manner of open carry has
historically been regulated in varying and limited ways (for
example, by prescribing particularly dangerous guns that may
not be carried or particularly sensitive places into which guns
may not be carried). But nothing in the history—both by my
own read and as reported by the majority itself—suggests that
the mere presence of some regulation of open carry was
understood to negate the underlying status of the right to open
carry, or to mean that such right could be altogether
extinguished for the typical law-abiding citizen. The majority
cites nothing that could justify such an extravagant
interpretation of the record of gun regulation in this country,
and I do not share the majority’s eagerness to impart one by
ipse dixit.
Most alarming is the conjunction of today’s holding and
our court’s earlier holding that the concealed carry of
firearms in public is not protected by the Second Amendment
“in any degree.” See Peruta v. County of San Diego, 824 F.3d
919, 939 (9th Cir. 2016) (en banc). For the more than 60
million people within the nine western states of this circuit,
the combined effect of these two opinions is to remove all
forms of public carry—whether open or concealed—from the
protections of the Second Amendment. In so doing, our
circuit has not merely demoted “the right of the people to . . .
bear Arms,” U.S. Const. amend. II, to the status of “a secondclass right” but has extinguished its status as a right
altogether. See McDonald, 561 U.S. at 780 (plurality op.). It
is no badge of honor that we now become the first and only
court of appeals to do so.
Accordingly, and for the reasons expressed above, I
would hold that both H.R.S. § 134-9 and the 1997 County
regulation destroy the core right to carry a gun for self-

App. 193

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 194 of 215

194

YOUNG V. STATE OF HAWAII

defense outside the home and are “unconstitutional under any
level of scrutiny.” Jackson, 746 F.3d at 961.20
To be sure, I do not reach this conclusion without
appreciation for the real and serious problem of gun
violence—a problem which I do not take lightly, and which
the State of Hawaii “has understandably sought to fight . . .
with every legal tool at its disposal.” Wrenn, 864 F.3d at 667.
And nothing in my analysis would prevent the State from
regulating the right to bear arms, for the Second Amendment
leaves the State with “a variety of tools for combatting [the
problem of gun violence], including some measures
regulating handguns.” Heller, 554 U.S. at 636. Yet, for better
or for worse, the Second Amendment does protect a right to
carry a firearm openly for self-defense in public—and
Hawaii’s near complete ban on the open carry of handguns
cannot stand.
I cannot join an opinion that would flout the Constitution
by holding, in effect, that “in regulating the manner of
bearing arms, the authority of [the State] has no other limit
than its own discretion.” Reid, 1 Ala. at 616. While many
respectable scholars and activists might find virtue in a
firearms-carry regime that restricts the right to a privileged
few, “the enshrinement of constitutional rights necessarily
takes certain policy choices off the table.” Heller, 554 U.S. at
636.
I most respectfully dissent.

Because I would reverse the district court on Second Amendment
grounds, I would decline to reach Young’s prior-restraint and due-process
claims.
20

App. 194

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 195 of 215

YOUNG V. STATE OF HAWAII

195

R. NELSON, Circuit Judge, with whom CALLAHAN and
IKUTA, Circuit Judges, join, dissenting:
I concur with Judge O’Scannlain’s dissent concluding that
Hawaii Revised Statute 134-9 violates the Second
Amendment. If the statute is facially unconstitutional, it is
also unconstitutional as-applied. See, e.g., Powell’s Books,
Inc. v. Kroger, 622 F.3d 1202, 1207 n.1 (9th Cir. 2010). The
majority, however, errs not only in holding the statute facially
constitutional, but also in rejecting Young’s as-applied
challenge. See Hargis v. Foster, 312 F.3d 404, 410, 412 (9th
Cir. 2002) (noting the “inquiry does not end with [a] facial
analysis” and reversing and remanding on the as-applied
challenge).
The majority summarily dismisses Young’s Second
Amendment as-applied claim with far less respect than we
have given other constitutional claims. See McDonald v. City
of Chicago, 561 U.S. 742, 780 (2010) (plurality opinion)
(recognizing the Second Amendment is not a “second-class”
constitutional right). Indeed, the majority’s holding that
Young failed to plead an as-applied challenge may be its
longest lasting legacy, as it effectively reverses several of our
prior cases. It will preclude a host of future as-applied
constitutional challenges under the First, Fourth, Fifth, and
Eighth Amendments previously recognized by this
court—especially for pro se civil rights plaintiffs. The
majority should have at least remanded for the district court
to address Young’s as-applied challenge or allow him to
amend his complaint.
I also write separately to highlight the brazenly
unconstitutional County of Hawaii (“County”) Regulations
applying H.R.S. § 134-9. There should be no dispute that any

App. 195

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 196 of 215

196

YOUNG V. STATE OF HAWAII

law or regulation that restricts gun ownership only to security
guards violates the Second Amendment. The County
Regulations squarely present this issue. But the majority
sidesteps it relying on a theory never briefed by the parties
and not supported by Hawaii precedent. Because the County
Regulations were the operative basis for denying Young a
permit and remain legally enforceable, Young should be
allowed on remand to challenge his denial under H.R.S.
§ 134-9. Accordingly, I respectfully dissent.
I
Young brought both a facial and an as-applied challenge
to H.R.S. § 134-9 and the County Regulations. He sought
general relief—asking to strike down the statute—but also
personal relief—requesting to be granted a firearm permit.
Moreover, he explicitly preserved his as-applied challenge in
his complaint, opposition to the motion to dismiss, and on
appeal.
The district court erred by dismissing Young’s complaint
with prejudice while mischaracterizing his separate asapplied claim and not allowing him to amend his complaint.
And the majority errs in concluding Young failed to plead an
as-applied challenge. Young’s complaint pleaded that under
H.R.S. § 134-9 and the County Regulations he was denied a
firearm permit because he was not a security guard. The
majority should have, at a minimum, vacated the district
court’s order and remanded for the district court to address
the as-applied challenge in the first instance or to allow
Young to amend his complaint.

App. 196

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 197 of 215

YOUNG V. STATE OF HAWAII

197

As a threshold matter, Young was pro se when he
litigated the motion to dismiss before the district court;1 thus,
this court liberally construes his filings. Ross v. Williams,
950 F.3d 1160, 1173 n.19 (9th Cir. 2020) (en banc). “The
obligation to construe pro se filings liberally means courts
must frequently look to the contents of a pro se filing rather
than its form.” Id.; see also Erickson v. Pardus, 551 U.S. 89,
94 (2007) (per curiam). This obligation to give the pro se
complainant “‘the benefit of any doubt’” is heightened
“‘particularly in civil rights cases,’” such as this one. Hebbe
v. Pliler, 627 F.3d 338, 342 (9th Cir. 2010) (quoting Bretz v.
Kelman, 773 F.2d 1026, 1027 n.1 (9th Cir. 1985) (en banc)).
This benefit of the doubt applies with even greater force
when considering whether a claim raises a facial challenge,
an as-applied challenge, or both. See Real v. City of Long
Beach, 852 F.3d 929, 934 (9th Cir. 2017) (considering both
facial and as-applied challenges even where appellant “did
not clearly state to the district court whether his challenge
was as-applied or facial”);2 Read v. Haley, 650 F. App’x 492,
494 n.1 (9th Cir. 2016) (“Mindful that we construe pro se
pleadings liberally, we view [plaintiff’s] claims as facial
attacks that are not barred” even though plaintiff’s “prolix”

Young’s counsel appeared on December 21, 2012, after the notice
of appeal was filed.
1

Indeed, we held the plaintiff in Real, represented by counsel,
brought an as-applied challenge though he had never applied for a permit
and his complaint never mentioned the words “as-applied.” 852 F.3d
at 934 (holding Real had standing to bring an as-applied challenge since
he “alleged an intention” to undertake constitutionally protected activity
but “ordinances proscribe[d] his intended conduct”). Just like Young,
Real stated in his response opposing the motion to dismiss that he brought
an as-applied challenge.
2

App. 197

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 198 of 215

198

YOUNG V. STATE OF HAWAII

made it “understand[able] why the district court considered
his Complaint to assert ‘as applied’ challenges” (emphasis
added) (citation omitted)); Morrison v. Peterson, 809 F.3d
1059, 1062 (9th Cir. 2015) (considering both facial and asapplied challenges, though pro se litigant characterized his
challenge as only as-applied);3 United States v. Kaczynski,
551 F.3d 1120, 1124 (9th Cir. 2009) (recognizing an asapplied claim even though pro se appellant “characterize[d]
his claim as a purely facial legal challenge”); United States v.
Kafka, 222 F.3d 1129, 1130 (9th Cir. 2000) (considering an
as-applied challenge even where “it [was] unclear whether
Kafka [was] making only a facial challenge . . . or whether he
[was] also asserting an ‘as applied’ challenge”);4 Asselin v.
Santa Clara Cnty., 185 F.3d 865 (9th Cir. 1999)
(unpublished) (holding that the “complaint, charitably read,
also allege[d] that the County’s policy was unconstitutional
as applied” where it asserted that the plaintiff had “merely
discussed religion with the minor” and thus the “as-applied
challenge [was] entitled to proceed past the pleading stage”).
This benefit of the doubt has greater force because “[t]he
line between facial and as-applied challenges can sometimes
prove ‘amorphous.’” Bucklew v. Precythe, 139 S. Ct. 1112,

Morrison’s complaint never used the words “as-applied” or “facial”
and included only two sentences that could have raised a facial challenge.
In his opposition to the motion to dismiss, Morrison only stated he was
challenging the statute as-applied.
3

The government’s brief argued that Kafka brought only a facial
challenge because “[t]he district court specifically inquired into the
Defendant’s wish to present a case purely as a matter of law, or if he
wished to make a factual record” and Kafka had “declined to present any
facts.” Neither Kafka’s Opening Brief or Reply Brief ever used the words
“as-applied.”
4

App. 198

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 199 of 215

YOUNG V. STATE OF HAWAII

199

1128 (2019) (quoting Elgin v. Dep’t of Treasury, 567 U.S. 1,
15 (2012)). “The label is not what matters.” John Doe No.
1 v. Reed, 561 U.S. 186, 194 (2010) (noting whether the
words “as-applied” were used in a complaint is not
determinative). A claim can “obviously ha[ve] characteristics
of both” types of challenges. Id. And “[a]s-applied
challenges . . . may be coupled with facial challenges.”5 Foti
v. City of Menlo Park, 146 F.3d 629, 635 (9th Cir. 1998).
Accordingly, “the distinction between facial and as-applied
challenges is not so well defined that it has some automatic
effect or that it must always control the pleadings and
disposition in every case involving a constitutional
challenge.” Citizens United v. Fed. Election Comm’n, 558
U.S. 310, 331 (2010).
Rather, the “distinction . . . goes to the breadth of the
remedy employed by the Court, not what must be pleaded in
a complaint.” Id. (citation omitted). A court should look at
the “claim and the relief that would follow” to determine the
type of claim brought. See John Doe No. 1, 561 U.S. at 194.
And a court should consider different types of challenges as
the “exercise of its judicial responsibility” demands. See
Citizens United, 558 U.S. at 333. Thus, this court must look
to the substance of the complaint and the remedy to identify
what type of claims are brought. See Isaacson v. Horne,
716 F.3d 1213, 1230 (9th Cir. 2013). The majority
effectively overturns our precedents and ignores Supreme
Court direction to establish a new vague standard for pleading
an as-applied challenge. See Maj. Op. at 27, 28–30.
It is far different when a party, represented by counsel, specifically
pleads only a facial challenge and affirmatively disclaims any as-applied
challenge. See Calvary Chapel Bible Fellowship v. Cnty. of Riverside,
948 F.3d 1172, 1177 (9th Cir. 2020).
5

App. 199

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 200 of 215

200

YOUNG V. STATE OF HAWAII

Under long-standing precedent, there is ample support
that Young’s pro se complaint alleges both a facial and an asapplied challenge. Young argues he was denied a permit and
that this denial violated his constitutional rights. Crucially,
he seeks multiple forms of relief: first, to strike down the
statute as part of his facial challenge; and second, to be
personally granted a firearm permit as part of his as-applied
challenge.
See Citizens United, 558 U.S. at 331.
Furthermore, he refers to himself and his efforts to gain a
firearm permit numerous times throughout the complaint.
See Foti, 146 F.3d at 635 (“An as-applied challenge contends
that the law is unconstitutional as applied to the litigant’s
particular . . . activity.”).
As just a few examples, Young alleges:
·

“Plaintiff, recently, on two occasions . . .
applied for a personal permit . . . . On both
occasions Plaintiff was denied a permit,
by the Defendant Kubojiri, pursuant to
H.R.S. 134-9, citing that ‘…only in
exceptional cases or a demonstrated
urgency…’, which is yet to be defined, the
Chief of Police ‘…may grant…’ a permit,
subject to his personal opinion.”

·

“Within the jurisdiction of Hilo County
and according to its police administrator,
it is a matter of routine procedure that a
Concealed Carry Weapons (CCW) permit
is not to be issued, but only upon
demonstration of an actual menace and
subjected to the discretion of the local
county Chief of Police.”

App. 200

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 201 of 215

YOUNG V. STATE OF HAWAII
·

“Plaintiff is denied and prohibited from
exercising his individual second
amendment right.”

·

He suffered “irreparable emotional and
physical distress” as a result of the
“present enforcement of H.R.S. 134-9 and
H.R.S. 134-6.”

·

“Plaintiff has a clear and unambiguous
claim of right to property in the Second
Amendment of the Constitution of the
United States.”

201

And in his opposition to the motion to dismiss, Young
explicitly challenged H.R.S. § 134-9 both “on its face and or
the application thereof,” showing his intent to bring both a
facial and an as-applied challenge. Young also argues on
appeal:
·

In his 2013 Opening Brief, “Chief
Kubojiri’s failure to adopt policies which
comport with constitutional guidelines has
resulted in HRS §134-9, as applied to
Young, to be an unconstitutional
deprivation of his constitutional rights.” 6

As Judge O’Scannlain notes, the three-judge panel did not find
Young forfeited his as-applied challenge. O’Scannlain Dissent at 187
n.18. To the extent that the majority believes otherwise, Maj. Op.
at 29–30, “a party does not necessarily forfeit an issue by first raising it”
in en banc proceedings. United States v. Hernandez-Estrada, 749 F.3d
1154, 1160 (9th Cir. 2014) (en banc). Indeed, the “exercise” of our
“judicial responsibility” dictates considering the as-applied challenge. See
6

App. 201

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 202 of 215

202

YOUNG V. STATE OF HAWAII
·

“Young challenged the law and
regulations both facially and as-applied
‘to the facts of’ his case,” citing Citizens
United, 558 U.S. at 331.

·

“At every stage of the proceedings,”
Young, proceeding pro se, raised an asapplied challenge, which has been
preserved on appeal.

·

“Mr. Young’s claim that H.R.S. § 134-9 is
unconstitutional both facially and asapplied by the County to Mr. Young.”

Young thus “brings a paradigmatic as-applied challenge,
arguing that it is unconstitutional to apply the [Hawaii statute
and County Regulations] to him because, given all the
circumstances, his ability to” exert his Second Amendment
rights is “unduly constricted.” Hoye v. City of Oakland, 653
F.3d 835, 857 (9th Cir. 2011).

Citizens United, 558 U.S. at 333. Particularly here, since “these
arguments are intertwined with the validity of the claim.” Engquist v. Or.
Dep’t of Agric., 478 F.3d 985, 996 n.5 (9th Cir. 2007), aff’d, 553 U.S. 591
(2008).
Moreover, the majority makes much of the fact that the three-judge
panel did not address Young’s as-applied challenge. Maj. Op. at 28. But
as the majority acknowledges, since the three-judge panel (rightfully) held
the statute to be facially unconstitutional, the statute was “void in toto”
and unconstitutional as-applied; thus, there was no need for the threejudge panel to address the as-applied challenge separately. See Maj. Op.
at 26–27; Powell’s Books, 622 F.3d at 1207 n.1.

App. 202

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 203 of 215

YOUNG V. STATE OF HAWAII

203

Despite these plain and consistently detailed allegations
and arguments, the majority asserts Young’s as-applied
challenge is “[a]t best . . . buried in his complaint and not well
pleaded.” Maj. Op. at 28. It holds that Young’s arguments,
presented repeatedly throughout Young’s complaint,
opposition to the motion to dismiss, and on appeal, are not
“specific[] and distinct[]” enough to permit review.7 Maj.
Op. at 29–30. The majority’s summary conclusion is belied
by a plain reading of Young’s complaint and his subsequent
filings, as detailed above. And we have in numerous cases
addressed as-applied challenges in much thinner vehicles.
See, e.g., Real, 852 F.3d at 934; Kaczynski, 551 F.3d at 1124.
If nothing else, the fact that Young asked for a specific asapplied remedy in a firearm permit means he more than
adequately alleged an as-applied challenge. See Citizens
United, 558 U.S. at 331. The majority’s contrary conclusion
impermissibly “invites pleading games.” Bucklew, 139 S. Ct.
at 1128 (noting it “would only guarantee a good deal of
litigation over labels, with lawyers on each side seeking to
classify cases to maximize their tactical advantage”).
The majority thus offhandedly establishes a new
heightened pleading standard for pro se civil rights litigants
that is both legally unfounded and practically concerning.
Maj. Op. at 29–30. The 35-year old case it cites to support
this proposition, Miller v. Fairchild Industries, Inc., involved
a represented party’s appellate brief, not a pro se litigant’s

The majority also characterizes Young’s pro se civil rights
complaint as “lengthy and rambling.” Maj. Op. at 25 n.3. On the one
hand, the majority thus criticizes Young’s pro se complaint for his verbose
diction, and on the other, the majority faults Young for not alleging
enough.
Even besides this contradiction, such uncharitable
characterizations are unhelpful to resolving this case.
7

App. 203

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 204 of 215

204

YOUNG V. STATE OF HAWAII

first un-amended civil rights complaint. 797 F.2d 727, 738
(9th Cir. 1986). Whether this heightened standard might be
expected of seasoned counsel, we have never applied it to pro
se citizens seeking to vindicate their constitutional rights.8
Erickson, 551 U.S. at 94 (“[A] pro se complaint, however
inartfully pleaded, must be held to less stringent standards
than formal pleadings drafted by lawyers.” (internal quotation
marks and citations omitted)). In any event, Young’s
voluminous as-applied pleadings are far more than the “bare
assertion[s]” the majority characterizes them to be. See Maj.
Op. at 30.
Consider what this holding of the en banc court means:
any time a government agency hides behind an opaque policy
to deny someone a constitutional right, a pro se litigant is
held to some rigorous yet herein undefined pleading standard
to even have his challenge considered in the first place. The
majority holding thus overrules many prior panel opinions
and ignores Supreme Court precedent. If Young’s pleadings
here are insufficient even to warrant consideration in deciding
a motion to dismiss, then a host of pleadings in our prior
cases are now no longer sufficient either. See, e.g., Real,

Though the majority pays lip service to the relaxed pro se pleading
standard, the majority nevertheless applies Miller’s stringent “specific[]
and distinct[]” standard—dealing with a represented party’s appellate
brief—to Young’s pro se complaint. Maj. Op. at 28–30. And the majority
exacerbates its error by inappositely relying on Greenwood v. F.A.A.,
where the represented appellant raised an issue “for the first time on
appeal.” 28 F.3d 971, 977 (9th Cir. 1994). The majority ignores the
consistently detailed allegations in Young’s complaint. Moreover, it also
ignores our duty to look at “the breadth of the remedy employed by the
Court” as the “exercise of its judicial responsibility” demands. Citizens
United, 558 U.S. at 331, 333; see also Isaacson, 716 F.3d at 1230.
8

App. 204

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 205 of 215

YOUNG V. STATE OF HAWAII

205

852 F.3d at 934; Kaczynski, 551 F.3d at 1124; supra at 197–98.
Indeed, the district court itself recognized that Young
challenged the statute as-applied, noting “Plaintiff requests an
injunction against the enforcement of HRS Chapter 134.”
Young v. Hawaii, 911 F. Supp. 2d 972, 984 (D. Haw. 2012).
But the district court “erroneously treated the as-applied
challenge brought in this case as a facial challenge,”
Stormans, Inc. v. Selecky, 586 F.3d 1109, 1140 (9th Cir.
2009), concluding Young “is actually challenging the
constitutional validity of Hawaii’s Firearm Carrying Laws
. . . .” Young, 911 F. Supp. 2d at 984. In reality, Young
properly pleaded both an as-applied and a facial challenge.
The district court erred by dismissing Young’s claim
without considering whether he pleaded sufficient facts to
support his as-applied challenge. See La. Mun. Police Emps.’
Ret. Sys. v. Wynn, 829 F.3d 1048, 1063 (9th Cir. 2016)
(“[C]ourts ruling on a motion to dismiss ‘must consider the
complaint in its entirety, as well as other sources courts
ordinarily examine when ruling on Rule 12(b)(6) motions to
dismiss . . . .’” (quoting Tellabs, Inc. v. Makor Issues &
Rights, Ltd., 551 U.S. 308, 322 (2007))). “To the extent that
the district court considered [Young’s] complaint to rest on
a facial, rather than an as-applied challenge, . . . it erred.” See
Hoehne v. Cnty. of San Benito, 870 F.2d 529, 534 (9th Cir.
1989).
Moreover, the majority faults Young, a pro se litigant, for
not pursuing reconsideration instead of appeal. Maj. Op.
at 27. Yet we have never required even a represented party,
let alone a pro se party, to seek reconsideration to preserve an
argument for appeal. The majority acknowledges that Young
was not required to seek reconsideration, but nonetheless

App. 205

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 206 of 215

206

YOUNG V. STATE OF HAWAII

faults him for choosing to immediately appeal. Maj. Op.
at 27 & n.5.
The majority punishes Young for asking us to review de
novo the district court’s order viewing all allegations in the
light most favorable to him, instead of first attempting to
convince the district court his case fell under the “highly
unusual circumstances” warranting reconsideration. See
Guenther v. Lockheed Martin Corp., 972 F.3d 1043, 1058
(9th Cir. 2020) (citation omitted). The majority thus suggests
Young should have “relitigate[d] old matters” before
appealing, or else risk forfeiting his as-applied challenge. See
Exxon Shipping Co. v. Baker, 554 U.S. 471, 485 n.5 (2008)
(citation omitted).
Again, consider what this holding means. A pro se
plaintiff repeatedly raises an as-applied challenge in his
complaint and opposition to a motion to dismiss; it is
recognized by the district court, but then erroneously
categorized only as a facial challenge upon final judgment.
And we fault the pro se civil rights litigant for immediately
appealing the final judgment instead of pursuing
reconsideration. The majority’s conclusion lacks both legal
authority and equitable justification.
Additionally, it is not sensible here to affirm the dismissal
of an as-applied challenge that the district court did not
address in the first instance.9 This court need only decide that

9
The majority suggests it would “manufacture jurisdictional issues”
to remand for the district court to consider the as-applied challenge
erroneously labeled as a facial challenge. Maj. Op. at 28 n.6. Not so. Our
court has appellate jurisdiction over final judgments of the district court,
including ones that “erroneously treated the as-applied challenge brought

App. 206

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 207 of 215

YOUNG V. STATE OF HAWAII

207

an as-applied challenge was properly raised and should not
address whether Young’s complaint met the 12(b)(6) standard
in the first instance. See, e.g., CPR for Skid Row v. City of
Los Angeles, 779 F.3d 1098, 1111 (9th Cir. 2015); Planned
Parenthood of Greater Wash. & N. Idaho v. U.S. Dep’t of
Health & Hum. Servs., 946 F.3d 1100, 1111 (9th Cir. 2020)
(“An appellate court should usually wait for the district court
to decide in the first instance.”); Puente Arizona v. Arpaio,
821 F.3d 1098, 1110 (9th Cir. 2016) (remanding for
consideration of a pending as-applied challenge which
“should be addressed in the first instance by the district
court”); Henry v. Cnty. of Shasta, 132 F.3d 512, 522 (9th Cir.
1997), opinion amended on denial of reh’g, 137 F.3d 1372
(9th Cir. 1998) (remanding an as-applied challenge
erroneously dismissed by the district court because the
challenge “depend[ed] on questions of fact and law . . . that
the district court did not address, [and thus] we prefer not to
decide it initially on appeal” (citation omitted)).
But the majority apparently did reach the issue, holding
that Young “never pleaded facts to support an as-applied
challenge.” Maj. Op. at 27. The majority’s holding again
disregards Supreme Court precedent.
Young’s complaint alleged “sufficient factual matter,
accepted as true, to ‘state a claim to relief that is plausible on
its face.’” See Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)

. . . as a facial challenge.” See Stormans, Inc., 586 F.3d at 1140; CPR for
Skid Row v. City of Los Angeles, 779 F.3d 1098, 1111 (9th Cir. 2015)
(remanding where district court did not address crucial part of as-applied
challenge); Foti, 146 F.3d at 635, 640–42 (recognizing plaintiffs’ asapplied challenge even though the district court considered only the facial
challenge and expressly declined to consider the as-applied challenge).

App. 207

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 208 of 215

208

YOUNG V. STATE OF HAWAII

(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007)). Young challenged how the County applied the
statute to deny his permit application in June 2012. His
allegations were plausible based on the County Regulations
and legal grounds as reasonably understood at the time he
filed his complaint—alleging he had applied but was not
granted a permit because he was not a security guard, as
required by the County Regulations. For example, Young:
·

Challenged the denial of his permit due to
the “engaged in the protection of life and
property” clause because “as used, [it]
implies a person must currently be a
member of a law enforcement agency or
employed by a private security company,
licensed to do business in the State of
Hawaii, and engaged in the employment
of protecting a paying third party’s life
and property.”

·

Stated that county police have
“unbridle[d] discretionary authority to
decide whether an applicant possesses an
‘exceptional case’ or ‘sufficient urgency’
to qualify for a permit to carry a
concealed or unconcealed firearm, without
further identifying the parameters of the
additional requirement to the point where
Plaintiff knows whether or not he is
within the boundaries of the law.”

·

Argued “since Defendants collectively
enforce H.R.S. 134 and 134-9 the
irreparable injury claimed was both

App. 208

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 209 of 215

YOUNG V. STATE OF HAWAII

209

threatened at time of Plaintiff’s filing of
complaint and continues to occur in the
present instance.”
·

Questioned “[h]ow does the Hawaii
County Chief of Police Harry Kubojiri
apply and enforce H.R.S. 134-9?”

Young pleaded he met the requirements of H.R.S. § 134-9
in all other respects, including the provision of being
“engaged in protection of life and property,” H.R.S. § 134-9,
because he “applied for a personal permit, in accordance with
Hawaii Revised Statute (H.R.S.) 134-9(a)(c), . . . stating the
purpose being for personal security, self-preservation and
defense, and protection of personal family members and
property.”10
Even under the majority’s view, we should have—at a
minimum—remanded to allow Young to amend his
complaint. See Fed. R. Civ. P. 15 (courts “should freely give
leave [to amend] when justice so requires”). Indeed, Hawaii
specifically suggested this court remand to allow Young to
amend his complaint. “Rule 15’s policy of favoring
amendments to pleadings should be applied with extreme
liberality,” Price v. Kramer, 200 F.3d 1237, 1250 (9th Cir.
2000) (internal quotation marks and citation omitted),

This court should not decide in the first instance to dismiss Young’s
complaint based on a failure to plead according to the non-binding Hawaii
Attorney General’s Opinion (“AG Opinion”) issued over six years after
his complaint was filed—in response to the panel opinion upholding his
facial challenge. Such positions taken purely for the sake of litigation are
entitled to little, if any, weight. See Kisor v. Wilkie, 139 S. Ct. 2400, 2417
& n.6 (2019).
10

App. 209

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 210 of 215

210

YOUNG V. STATE OF HAWAII

“guided by the underlying purpose of Rule 15—to facilitate
decision on the merits rather than on the pleadings or
technicalities,” Eldridge v. Block, 832 F.2d 1132, 1135 (9th
Cir. 1987) (internal quotation marks and citation omitted).
Thus, “a district court should grant leave to amend even
if no request to amend the pleading was made, unless it
determines that the pleading could not possibly be cured by
the allegation of other facts.” Lopez v. Smith, 203 F.3d 1122,
1127 (9th Cir. 2000) (en banc) (emphasis added) (internal
quotation marks and citations omitted). Indeed, a “pro se
litigant [is] entitled to procedural protections, including [the]
right to amend [a] complaint unless futile.” Eldridge, 832
F.2d at 1136 (emphasis added) (citation omitted); see also
Houghton v. South, 865 F.2d 264 (9th Cir. 1988)
(unpublished) (holding that the “policy of liberality under
Rule 15 for pro se plaintiffs” means “the district court should
have allowed Houghton to supplement his complaint . . . on
remand from the first appeal” to “allege[] an ‘as applied’
challenge”). Remand is particularly warranted here since
Young has challenged the operative County Regulations.
Given the changed legal circumstances, including Hawaii’s
recent AG Opinion, Young is more than entitled to amend his
complaint.
Young’s as-applied challenge should not have been
ignored by the district court or the majority to “foreclose a
future as applied challenge.”11 See Nordyke v. King, 319 F.3d

11
Without remand, Young could suffer claim or issue preclusion if
this court affirms the dismissal of his complaint with prejudice. See
Littlejohn v. United States, 321 F.3d 915, 919–20 (9th Cir. 2003) (“Claim
preclusion prevents the relitigation of claims previously tried and
decided.” (citation omitted)); Scafidi v. Las Vegas Metro. Police Dep’t,

App. 210

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 211 of 215

YOUNG V. STATE OF HAWAII

211

1185, 1190 n.3 (9th Cir. 2003). Indeed, the First, Third,
Fourth, Seventh, Eighth, and D.C. Circuits have held that a
litigant may be able to raise an as-applied challenge even to
presumptively lawful firearms prohibitions. Binderup v. Att’y
Gen. U.S., 836 F.3d 336, 343–48 (3d Cir. 2016) (en banc);
Schrader v. Holder, 704 F.3d 980, 988–89 (D.C. Cir. 2013);
United States v. Moore, 666 F.3d 313, 316–17 (4th Cir.
2012); United States v. Torres-Rosario, 658 F.3d 110, 113
(1st Cir. 2011); United States v. Williams, 616 F.3d 685,
691–92 (7th Cir. 2010); see also United States v. Woolsey,
759 F.3d 905, 909 (8th Cir. 2014) (hearing as-applied
challenge to § 922(g)(1) but not mentioning Heller).
The district court’s failure to consider the as-applied
challenge separately, even after dismissing the facial
challenge, was error. The majority compounds this error by
refusing to remand the case to allow consideration—or
amendment—of an as-applied challenge. See Norse v. City
of Santa Cruz, 629 F.3d 966, 970 (9th Cir. 2010) (en banc)
(noting we have rejected a facial challenge but remanded the
as-applied challenge); Menotti v. City of Seattle, 409 F.3d
1113, 1156 (9th Cir. 2005) (rejecting the facial challenges but
reversing and remanding the as-applied challenge). In doing
so, the majority errs by not “exercis[ing] . . . its judicial

966 F.3d 960, 963 (9th Cir. 2020) (“Issue preclusion, or collateral
estoppel, bars successive litigation of an issue of fact or law actually
litigated and resolved in a valid court determination essential to the prior
judgment.” (internal quotation marks and citations omitted)). Thus, it is
unclear whether he could bring his complaint anew given the current
disposition of the case. See Outdoor Media Dimensions Inc. v. Crunican,
202 F.3d 278 (9th Cir. 1999) (unpublished) (affirming a facial challenge
but “remand[ing] so that the judgment can be amended to state that it is
without prejudice as to an ‘as applied challenge’”).

App. 211

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 212 of 215

212

YOUNG V. STATE OF HAWAII

responsibility” and considering the as-applied challenge. See
Citizens United, 558 U.S. at 333.
II
Though consideration of the as-applied challenge is better
left to the district court, the plain unconstitutionality of the
County Regulations governing Young’s application for a
firearm permit warrants mention. In 1997, the County
promulgated its Regulations governing its issuance of firearm
licenses under H.R.S. § 134-9. Police Dep’t of Cnty. of
Haw., Rules and Regulations Governing the Issuance of
Licenses 10 (Oct. 22, 1997). Hawaii does not dispute that the
County Regulations remain on the books. The County may
choose to enforce them at any time.
Hawaii’s counsel at en banc oral argument argued the AG
Opinion (issued six years after Young filed his complaint)
controls to the extent the County Regulations are inconsistent
with the AG Opinion. And Hawaii asserts that this court
should defer to the County’s interpretation of its own
Regulations.
There has been no preemption under Hawaii state law
here and the non-binding AG Opinion does not control,
despite the majority’s suggestion to the contrary. Contra
Maj. Op. at 19–22. “[A] municipal ordinance may be
preempted pursuant to HRS § 46–1.5(13) if (1) it covers the
same subject matter embraced within a comprehensive state
statutory scheme disclosing an express or implied intent to be
exclusive and uniform throughout the state or (2) it conflicts
with state law.” Richardson v. City & Cnty. of Honolulu, 868
P.2d 1193, 1209 (Haw. 1994). There is no express
preemption clause in the state statute at issue here, nor any

App. 212

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 213 of 215

YOUNG V. STATE OF HAWAII

213

clear intent to preempt regulations such as the County’s. See
generally H.R.S. § 134 et seq.; see also Syngenta Seeds, Inc.
v. Cnty. of Kauai, 842 F.3d 669, 675 (9th Cir. 2016) (“[T]he
Hawaii Supreme Court has presumed that a county’s exercise
of police power is within its delegated authority so long as the
legislature did not ‘clearly intend[ ] to preempt the field of
regulation.’” (quoting Haw. Gov’t Employees’ Ass’n v. Maui,
576 P.2d 1029, 1038 (Haw. 1978))).
The parties do not argue such preemption exists either.12
And because the AG Opinion is legally non-binding, it cannot
preempt the County Regulations as “state law.” See Cedar
Shake & Shingle Bureau v. City of Los Angeles, 997 F.2d 620,
625–26 (9th Cir. 1993).
Furthermore, deferring to the County’s interpretation of
its own Regulations advanced in its amicus brief is not
warranted under the “limits inherent” in administrative law
doctrine. See Kisor, 139 S. Ct. at 2415. Deference is proper
only when an agency’s interpretation of its own regulations
survives a gauntlet of conditions. First, the regulations must
be “genuinely ambiguous.” Id. (citations omitted). Second,

Hawaii did not address this position in any of its briefs; it merely
stated in response to questioning at oral argument that the County
Regulations are inconsistent with the AG Opinion’s reading of the statute.
It did not specify whether or how supposed inconsistency with a nonbinding legal opinion meets the preemption requirements under H.R.S
§ 46–1.5(13). In any event, arguments regarding statutory questions
“raised for the first time at oral argument” are waived. Perez-Guzman v.
Lynch, 835 F.3d 1066, 1075 n.4 (9th Cir. 2016). “That course seems
doubly wise because, based on oral argument, it appears that the
government knew of this potential argument, but may have deliberately
chosen not to raise it.” Ctr. for Investigative Reporting v. United States
Dep’t of Justice, 982 F.3d 668, 686 (9th Cir. 2020).
12

App. 213

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 214 of 215

214

YOUNG V. STATE OF HAWAII

the agency’s interpretation must be “reasonable.” Id.
(citation omitted). Third, “a court must make an independent
inquiry into whether the character and context of the agency
interpretation entitles it to controlling weight.” Id. at 2416
(citations omitted). Fourth, “the agency’s interpretation must
in some way implicate its substantive expertise.” Id. at 2417.
“Finally, an agency’s reading of a rule must reflect fair and
considered judgment . . . .” Id. (internal quotation marks and
citations omitted). An interpretation that is a “convenient
litigating position” or a “post hoc rationalizatio[n]” does not
merit deference. Id. (internal quotation marks and citation
omitted). “The general rule, then, is not to give deference to
agency interpretations advanced for the first time in legal
briefs.” Id. at 2417 n.6 (citation omitted). The County’s
interpretation does not meet any of these requirements. Thus,
the County’s interpretation, “advanced for the first time” in
its amicus brief, is not worthy of any deference. See id.;
Christopher v. SmithKline Beecham Corp., 567 U.S. 142,
155–56 (2012).
An independent review of how the County Regulations
have “been interpreted and applied by local officials”
demonstrates the County unconstitutionally enforces H.R.S.
§ 134-9 through its Regulations. See Calvary Chapel, 948
F.3d at 1177. The County Regulations were promulgated to
govern “the granting of authorization for the carrying of
weapons as provided by section 134-9, Hawaii Revised
Statutes.” And the County Regulations’ title, “Rules and
Regulations Governing the Carrying of Concealed Weapons
and the Carrying of Weapons by Private Detectives and
Security Guards,” explicitly applies H.R.S. § 134-9 only to
certain occupations. Under the County Regulations, then,
open carry is proper only when the license-holder is “in the
actual performance of his duties or within the area of his

App. 214

Case: 12-17808, 03/24/2021, ID: 12051540, DktEntry: 315-1, Page 215 of 215

YOUNG V. STATE OF HAWAII

215

assignment.”13 The Second Amendment “surely does not
protect a right to bear arms only as a security guard.” Young
v. Hawaii, 896 F.3d 1044, 1071 (9th Cir. 2018), reh’g en
banc granted, 915 F.3d 681 (9th Cir. 2019). Thus, the
County Regulations are “infirm [u]nder any of the standards
of scrutiny.” Id. (internal quotation marks and citation
omitted).
The County Regulations are facially
unconstitutional, and Young alleges they have been
unconstitutionally applied to deny him a permit under H.R.S.
§ 134-9. The majority’s failure to grapple with the County
Regulations in any meaningful way suggests an unwillingness
to apply the Second Amendment with the respect it deserves.
III
Even if the Hawaii statute were facially constitutional as
the majority holds, Young’s challenge should be remanded to
address or develop the as-applied challenge. Therefore, I
respectfully dissent.

Hawaii defends the County Regulations only with a conclusory
assertion that the “regulation does not limit open-carry licenses to security
guards,” because “[t]he language of the County’s regulation mirrors the
language of the state statute.” This interpretation is flatly contradicted by
the plain language of the County Regulations. The statute does not
include the regulatory language cited here, nor is the phrase “security
guards” included in the statute’s title, as it is in the County Regulations’
title.
13

App. 215

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 1 of 76

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
GEORGE K. YOUNG, JR.,
Plaintiff-Appellant,
v.
STATE OF HAWAII; NEIL
ABERCROMBIE, in his capacity as
Governor of the State of Hawaii;
DAVID MARK LOUIE I, Esquire, in his
capacity as State Attorney General;
COUNTY OF HAWAII, as a sub-agency
of the State of Hawaii; WILLIAM P.
KENOI, in his capacity as Mayor of
the County of Hawaii; HILO COUNTY
POLICE DEPARTMENT, as a subagency of the County of Hawaii;
HARRY S. KUBOJIRI, in his capacity
as Chief of Police; JOHN DOES, 1–
25; JANE DOES, 1–25; DOE
CORPORATIONS, 1–5; DOE ENTITIES,
1–5,
Defendants-Appellees.

No. 12-17808
D.C. No.
1:12-cv-00336HG-BMK
OPINION

Appeal from the United States District Court
for the District of Hawaii
Helen W. Gillmor, Senior District Judge, Presiding

App. 216

(1 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 2 of 76

2

YOUNG V. STATE OF HAWAII
Argued and Submitted February 12, 2018
Honolulu, Hawaii
Filed July 24, 2018
Before: Diarmuid F. O’Scannlain, Richard R. Clifton,
and Sandra S. Ikuta, Circuit Judges.
Opinion by Judge O’Scannlain;
Dissent by Judge Clifton

App. 217

(2 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 3 of 76

YOUNG V. STATE OF HAWAII

3

SUMMARY *

Civil Rights
The panel reversed the district court’s dismissal of
claims brought against the County of Hawaii, dismissed
plaintiff’s appeal as to the State of Hawaii, and remanded, in
plaintiff’s 42 U.S.C. § 1983 action alleging that the denial of
his application for a handgun license violated his Second
Amendment right to carry a loaded firearm in public for selfdefense.
The County of Hawaii’s Chief of Police denied
plaintiff’s application to carry a handgun because he failed
to satisfy Hawaii’s licensing requirements, as set forth in
section 134-9 of the Hawaii Revised Statutes. Section 134-9
acts as a limited exception to the State of Hawaii’s “Place[s]
to Keep” statutes, which generally require that gun owners
keep their firearms at their “place of business, residence, or
sojourn.” H.R.S. §§ 134-23, 134-24, 134-25. The exception
allows citizens to obtain a license to carry a loaded handgun
in public, either concealed or openly, under certain
circumstances. Plaintiff alleged that the County violated the
Second Amendment by enforcing against him the State’s
limitations in section 134-9 on the open carry of firearms to
those “engaged in the protection of life and property” and on
the concealed carry of firearms to those who can
demonstrate an “exceptional case.”
The panel acknowledged that while the concealed carry
of firearms categorically falls outside Second Amendment
This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.
*

App. 218

(3 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 4 of 76

4

YOUNG V. STATE OF HAWAII

protection, see Peruta v. County of San Diego, 824 F.3d 919,
939 (2016) (en banc), it was satisfied that the Second
Amendment encompasses a right to carry a firearm openly
in public for self-defense. Analyzing the text of the Second
Amendment and reviewing the relevant history, including
founding-era treatises and nineteenth century case law, the
panel stated that it was unpersuaded by the County’s and the
State’s argument that the Second Amendment only has force
within the home. The panel stated that once identified as an
individual right focused on self-defense, the right to bear
arms must guarantee some right to self-defense in public.
The panel held that because Hawaii law restricted plaintiff
in exercising the right to carry a firearm openly, it burdened
conduct protected by the Second Amendment.
In determining the appropriate level of scrutiny to apply
to section 134-9, the panel first held that the right to carry a
firearm openly for self-defense falls within the core of the
Second Amendment. The panel stated that restricting open
carry to those whose job entails protecting life or property
necessarily restricts open carry to a small and insulated
subset of law-abiding citizens. The panel reasoned that the
typical, law-abiding citizen in the State of Hawaii was
entirely foreclosed from exercising the core Second
Amendment right to bear arms for self-defense. The panel
concluded that Hawaii’s limitation on the open carry of
firearms to those “engaged in the protection of life and
property” violated the core of the Second Amendment and
was void under any level of scrutiny.
Dissenting, Judge Clifton stated the majority opinion
disregarded the fact that states and territories in a variety of
regions have long allowed for extensive regulations of and
limitations on the public carry of firearms. Judge Clifton
wrote that such regulations are presumptively lawful under

App. 219

(4 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 5 of 76

YOUNG V. STATE OF HAWAII

5

District of Columbia v. Heller, 554 U.S. 570 (2008), and do
not undercut the core of the Second Amendment. In
addition, Judge Clifton stated that the majority opinion
misconceived the intermediate scrutiny test, assumed
without support in the record that Hawaii’s statute operates
as a complete ban, and substituted its own judgment about
the efficacy of less restrictive regulatory schemes.
COUNSEL
Alan A. Beck (argued), Law Offices of Alan Beck, San
Diego, California; Stephen D. Stamboulieh, Stamboulieh
Law PLL, Madison, Mississippi; for Plaintiff-Appellant.
D. Kaena Horowitz (argued), County of Hawaii Deputy
Corporation Counsel; Laureen L. Martin, County of Hawaii
Assistant Corporation Counsel; Office of the Corporation
Counsel, Hilo, Hawaii; for Defendants-Appellees County of
Hawaii, William P. Kenoi, and Harry S. Kubojiri.
Kimberly Tsumoto Guidry, First Deputy Solicitor General;
Robert Tadao Nakatsuji, Deputy Solicitor General;
Department of the Attorney General, Honolulu, Hawaii; for
Defendant-Appellee and Amicus Curiae State of Hawaii.
No appearance for Defendants-Appellees Neil Abercrombie
and David Mark Louie I.

App. 220

(5 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 6 of 76

6

YOUNG V. STATE OF HAWAII
OPINION

O’SCANNLAIN, Circuit Judge:
We must decide whether the Second Amendment
encompasses the right of a responsible law-abiding citizen
to carry a firearm openly for self-defense outside of the
home.
I
A
George Young wishes to carry a firearm publicly for
personal self-defense in the State of Hawaii. He twice in
2011 applied for a license to carry a handgun, either
concealed or openly. His application was denied each time
by the County of Hawaii’s Chief of Police, Harry Kubojiri,
because Young failed to satisfy the requirements set forth in
section 134-9 of the Hawaii Revised Statutes (“H.R.S.”).
Section 134-9 acts as a limited exception to the State of
Hawaii’s “Place[s] to Keep” statutes, which generally
require that gun owners keep their firearms at their “place of
business, residence, or sojourn.” H.R.S. §§ 134-23, 134-24,
134-25. The exception allows citizens to obtain a license to
carry a loaded handgun in public, either concealed or openly,
under certain circumstances. H.R.S. § 134-9. Respecting
concealed carry, section 134-9 provides that “[i]n an
exceptional case, when an applicant shows reason to fear
injury to the applicant’s person or property, the chief of
police . . . may grant a license to an applicant . . . to carry a
pistol or revolver and ammunition therefor concealed on the
person.” The chief of police may, under section 134-9, grant
a license for the open carry of a loaded handgun only
“[w]here the urgency or the need has been sufficiently

App. 221

(6 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 7 of 76

YOUNG V. STATE OF HAWAII

7

indicated” and the applicant “is engaged in the protection of
life and property.” The County of Hawaii has promulgated
regulations to clarify that open carry is proper only when the
license-holder is “in the actual performance of his duties or
within the area of his assignment.” Police Dep’t of Cty. of
Haw., Rules and Regulations Governing the Issuance of
Licenses 10 (Oct. 22, 1997).
Absent a license under section 134-9, a person may only
transport an unloaded firearm, in an enclosed container, to
and from a place of repair, a target range, a licensed dealer,
a firearms exhibit, a hunting ground, or a police station,
H.R.S. §§ 134-23, 134-24, 134-25, 134-26, 134-27, and may
only use those firearms while “actually engaged” in hunting
or target shooting, H.R.S. § 134-5.
B
On June 12, 2012, Young filed this suit pro se under
42 U.S.C. § 1983 against the State of Hawaii, its thenGovernor, Neil Abercrombie, and its then-Attorney General,
David Louie (collectively “the State”), as well as the County
of Hawaii, its then-Mayor, William Kenoi, the Hilo County
Police Department, and its then-Chief of Police, Harry
Kubojiri (collectively “the County”). Primarily alleging that
denying his application for a handgun license violates his
Second Amendment right to carry a loaded firearm in public
for self-defense, Young requested, among other things,
injunctive and declaratory relief from the enforcement of
section 134-9’s licensing requirements.
The State filed a motion to dismiss Young’s claims under
Federal Rules of Civil Procedure 12(b)(1) and 12(b)(6), and
the County filed a motion to dismiss the claims under Rule
12(b)(6). The district court granted both. As for the State of
Hawaii, the district court found Young’s action to be barred

App. 222

(7 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 8 of 76

8

YOUNG V. STATE OF HAWAII

by sovereign immunity. Young’s action against the State
officials—while not barred by sovereign immunity under Ex
Parte Young, 209 U.S. 123 (1908)—was dismissed because
the district court found their general oversight of the
enforcement of Hawaii’s laws “insufficient to establish a
nexus between [such] officials and the alleged violation of
[Young’s] civil rights.”
Dismissing Young’s action against the County on the
merits, the district court found that section 134-9 “does not
implicate activity protected by the Second Amendment,”
because that Amendment “establishes only a narrow
individual right to keep an operable handgun at home for
self-defense.” In the alternative, the district court indicated
that it would uphold section 134-9’s open and concealed
carry limitations under intermediate scrutiny. As the court
reasoned, the State’s “substantial interest in safeguarding the
public from the inherent dangers of firearms” was
reasonably furthered by policies that “enable[] officials to
effectively differentiate between individuals who need to
carry a gun for self-defense and those who do not.”
Young timely appealed. 1

1
Young filed a notice of appeal with respect to the dismissal of his
claims against both the State and County, but on appeal he makes no
arguments to contest the district court’s reasons for dismissing his claims
against the State. Believing itself no longer a party to the case, the State
has neither filed a response brief nor sought to participate in oral
argument. We thus do not review the district court’s judgment in its favor
and Young’s appeal against the State accordingly must be dismissed.

The State has, however, filed several briefs as amicus curiae. At oral
argument, the County explicitly endorsed the arguments of the State

App. 223

(8 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 9 of 76

YOUNG V. STATE OF HAWAII

9

II
A
Young’s argument is straightforward: he asserts that the
County has violated the Second Amendment by enforcing
against him the State’s limitations in section 134-9 on the
open carry of firearms to those “engaged in the protection of
life and property” 2 and on the concealed carry of firearms to
those who can demonstrate an “exceptional case.” 3

made as amicus curiae. Thus, when we refer to arguments made by the
State they are to be found in its amicus briefs as adopted by the County.
Young does not address the additional limitation in section 134-9
providing that an open carry license may only be granted “[w]here the
urgency or the need has been sufficiently indicated.” Nor could we
evaluate such a requirement at the motion to dismiss stage, absent
evidence showing the stringency of the requirement. Thus, we do not
decide whether such requirement violates the Second Amendment.
2

3
In the district court, Young also argued that section 134-9 violates
the Ninth Amendment, the Privileges or Immunities Clause, the Bill of
Attainder Clause, and the Contracts Clause. Young has abandoned such
claims on appeal.

But Young does raise several new arguments on appeal. He argues
that the State of Hawaii’s prohibitions on the possession of electric guns
(H.R.S. § 134-16), switchblades (H.R.S. § 134-52), and butterfly knives
(H.R.S. § 134-53) violate the Second Amendment. He also argues that
the prohibition on carrying rifles and shotguns publicly, arising out of
section 134-24, violates the Second Amendment. Because Young failed
properly to raise these arguments before the district court, we deem such
arguments forfeited. See United States v. Greger, 716 F.2d 1275, 1277
(9th Cir. 1983).

App. 224

(9 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 10 of 76

10

YOUNG V. STATE OF HAWAII
1

The County and the State respond that Young’s claim is
foreclosed by our en banc decision in Peruta v. County of
San Diego (Peruta II), 824 F.3d 919 (2016) (en banc), which
overturned a three-judge panel’s decision striking down a
concealed carry licensing regime, see Peruta v. County of
San Diego (Peruta I), 742 F.3d 1144 (9th Cir. 2014).
In Peruta II, we considered a challenge to San Diego’s
limitations on the concealed carry of handguns outside of the
home. 824 F.3d at 924. California law generally prohibits
carrying firearms in public, whether concealed or openly.
See Cal. Penal Code §§ 25400, 25850, 26350. But San Diego
County leaves open the opportunity to carry a concealed
firearm upon the demonstration of “good cause.” See Peruta
II, 824 F.3d at 926. Rejecting Peruta’s challenge, our en banc
court held that “the Second Amendment right to keep and
bear arms does not include, in any degree, the right of a
member of the general public to carry concealed firearms in
public.” Id. at 939 (emphasis added). But, as even the dissent
acknowledges, our court explicitly left unresolved the
question of whether the Second Amendment encompasses a
right to open carry. See id. (“There may or may not be a
Second Amendment right for a member of the general public
to carry a firearm openly in public. The Supreme Court has
not answered that question, and we do not answer it here.”).
Young’s claim therefore picks up where Peruta’s left off and
presents an issue of first impression for this circuit: whether
the Second Amendment encompasses a right to carry
firearms openly in public for self-defense.

App. 225

(10 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 11 of 76

YOUNG V. STATE OF HAWAII

11

2
Our interpretation of the Second Amendment is guided
by the Supreme Court’s decisions in District of Columbia v.
Heller, 554 U.S. 570 (2008), and McDonald v. City of
Chicago, 561 U.S. 742 (2010). In Heller, the Court
invalidated a District of Columbia ban on handgun
possession in the home, holding that the Second Amendment
guarantees an individual right to keep a handgun in one’s
home for self-defense, and rejecting a collective view of the
right. See 554 U.S. at 635. Because the District of Columbia
law had completely banned “the quintessential self-defense
weapon” within the home, the Court saw no need to clarify
further the scope of the right or the level of scrutiny it
demands. See id. at 629. “Under any of the standards of
scrutiny that [the Court has] applied to enumerated
constitutional rights,” such a severe deprivation must fail. Id.
at 628–29.
In McDonald, the Court incorporated the Second
Amendment against the States through the Fourteenth
Amendment, invalidating a Chicago law that effectively
banned handgun possession by residents of the city. 561 U.S.
at 750. In determining whether the pre-existing right
codified by the Second Amendment was “fundamental to
our scheme of ordered liberty,” the Court stressed the
centrality of self-defense: “Self-defense is a basic right,
recognized by many legal systems from ancient times to the
present day . . . .” Id. at 767. Consequently, the Court held it
“clear that this right is ‘deeply rooted in this Nation’s history
and tradition,’” thus binding the States alongside the federal
government. Id. at 768 (quoting Washington v. Glucksberg,
521 U.S. 702, 721 (1997)); see also id. at 805–06 (Thomas,
J., concurring in part and concurring in the judgment)
(agreeing that the Second Amendment is “fully applicable to

App. 226

(11 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 12 of 76

12

YOUNG V. STATE OF HAWAII

the States,” but via the Fourteenth Amendment’s Privileges
or Immunities Clause).
As was the case in Peruta II, we find ourselves
navigating waters uncharted by Heller and McDonald: the
degree to which the Second Amendment protects, or does
not protect, the carrying of firearms outside of the home.
B
Our circuit, like others, employs a two-step approach to
Second Amendment challenges. See Jackson v. City & Cty.
of San Francisco, 746 F.3d 953, 960 (9th Cir. 2014); see also
United States v. Chester, 628 F.3d 673, 680 (4th Cir. 2010);
United States v. Marzzarella, 614 F.3d 85, 89 (3d Cir. 2010).
We first ask “whether the challenged law burdens conduct
protected by the Second Amendment.” Jackson, 746 F.3d at
960 (quoting United States v. Chovan, 735 F.3d 1127, 1136
(9th Cir. 2013)). If so, we must “apply an appropriate level
of scrutiny.” Id. And because Heller makes clear that
evaluating restrictions of Second Amendment rights under
rational basis review is inappropriate, see 554 U.S. at 628
n.27, any means-end scrutiny applied must be some form of
heightened scrutiny, such as intermediate or strict scrutiny.
Of course, we remain ever mindful not to treat the Second
Amendment any differently from other individual
constitutional rights. It is not “a second-class right,”
McDonald, 561 U.S. at 780, nor a “constitutional orphan,”
Silvester v. Becerra, No. 17-342, 2018 WL 943032, at *8
(U.S. Feb. 20, 2018) (Thomas, J., dissenting from denial of
certiorari).
Heller and McDonald set the goalposts for our inquiry,
which requires determining the scope of the Second
Amendment with respect to public carry. We must discern
the scope of the Amendment not as it appears to us now, but

App. 227

(12 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 13 of 76

YOUNG V. STATE OF HAWAII

13

“with the scope [it was] understood to have when the people
adopted [it].” Heller, 554 U.S. at 634–35. Our lodestars are
“text and history,” id. at 595, because they bear most
strongly on what the right was understood to mean, at the
time of enactment, to the public. Because “words and
phrases were used in their normal and ordinary as
distinguished from technical meaning,” id. at 576 (quoting
United States v. Sprague, 282 U.S. 716, 731 (1931)), our
approach is not just a textual one, but also a contextual one.
See Antonin Scalia & Bryan A. Garner, Reading Law: The
Interpretation of Legal Texts, at xxv (2012) (“Words don’t
have intrinsic meanings; the significance of an expression
depends on how the interpretive community alive at the time
of the text’s adoption understood those words.”). History and
convention, therefore, illuminate our understanding of the
text.
We are not the first circuit to grapple with how far, and
to what extent, the Second Amendment applies outside the
home. Two circuits, looking closely at the text and history of
the Amendment, have held that the Second Amendment
indeed protects a general right to carry firearms in public for
self-defense. See Wrenn v. District of Columbia, 864 F.3d
650, 665 (D.C. Cir. 2017); Moore v. Madigan, 702 F.3d 933,
936–37 (7th Cir. 2012). 4 Three others have simply assumed
the Second Amendment applies outside the home, without
The Illinois Supreme Court has agreed with the reasoning of Moore
and subsequently held that the Second Amendment applies outside the
home. See People v. Aguilar, 2 N.E.3d 321, 327 (Ill. 2013) (“[I]f Heller
means what it says, and ‘individual self-defense’ is indeed ‘the central
component’ of the second amendment right to keep and bear arms, then
it would make little sense to restrict that right to the home, as
‘confrontations are not limited to the home.’” (internal citations and
brackets omitted) (quoting Heller, 554 U.S. at 599 and Moore, 702 F.3d
at 935–36)).
4

App. 228

(13 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 14 of 76

14

YOUNG V. STATE OF HAWAII

delving into the historical nature of the right. See Woollard
v. Gallagher, 712 F.3d 865, 876 (4th Cir. 2013); Drake v.
Filko, 724 F.3d 426, 431 (3d Cir. 2013); Kachalsky v. Cty.
of Westchester, 701 F.3d 81, 89 (2d Cir. 2012).
III
A
We start, as we must, with the text. The Second
Amendment provides: “A well regulated Militia, being
necessary to the security of a free State, the right of the
people to keep and bear Arms, shall not be infringed.” U.S.
Const. amend. II. It is apparent from the face of the text that
the Amendment protects the right not only to “keep” but also
to “bear” arms. The latter verb is central to Young’s
challenge.
Heller provides useful guidance. To “bear,” the Court
explained, means to “wear” or to “carry . . . upon the person
or in the clothing or in a pocket, for the purpose . . . of being
armed and ready for offensive or defensive action in a case
of conflict with another person.” Heller, 554 U.S. at 584
(quoting Muscarello v. United States, 524 U.S. 125, 143
(1998) (Ginsburg, J., dissenting)). And Heller explained that
“bear arms” did not solely refer to carrying a weapon as part
of a militia. Id. at 585. Rather, to “bear” an object means to
carry it, and “[w]hen used with ‘arms,’ . . . the term has a
meaning that refers to carrying for a particular purpose—
confrontation.” Id. at 584.
The prospect of confrontation is, of course, not limited
to one’s dwelling. See Wrenn, 864 F.3d at 657 (“After all,
the Amendment’s core lawful purpose is self-defense, and
the need for that might arise beyond as well as within the
home.” (internal quotations and citations omitted)); Moore,

App. 229

(14 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 15 of 76

YOUNG V. STATE OF HAWAII

15

702 F.3d at 941 (“[T]he interest in self-protection is as great
outside as inside the home.”). Thus, carrying firearms
outside the home fits comfortably within Heller’s definition
of “bear.”
Indeed, the fact that the Second Amendment protects
bearing as well as keeping arms implies some level of public
carry in case of confrontation. A right to “keep” arms, on its
own, necessarily implies a right to carry those arms to some
extent. For instance, in order to “keep” arms, one would have
to carry them home from the place of purchase and
occasionally move them from storage place to storage place.
Cf. Ezell v. City of Chicago, 651 F.3d 684, 704 (7th Cir.
2011) (holding that the right to possess firearms “implies a
corresponding right to acquire and maintain proficiency in
their use”). The addition of a separate right to “bear” arms,
beyond keeping them, should therefore protect something
more than mere carrying incidental to keeping arms. See
Thomas M. Cooley, The General Principles of
Constitutional Law in the United States of America 271
(1880) (“[T]o bear arms implies something more than mere
keeping.”). Understanding “bear” to protect at least some
level of carrying in anticipation of conflict outside of the
home provides the necessary gap between “keep” and “bear”
to avoid rendering the latter guarantee as mere surplusage.
See Marbury v. Madison, 5 U.S. (1 Cranch) 137, 174 (1803)
(“[I]t cannot be presumed that any clause in the constitution
is intended to be without effect . . . .”).
Heller and McDonald suggest a similar understanding of
“bear.” Heller described the “inherent right of self-defense”
as “most acute” within the home, implying that the right
exists, perhaps less acutely, outside the home. 554 U.S. at

App. 230

(15 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 16 of 76

16

YOUNG V. STATE OF HAWAII

628. 5 McDonald similarly described the right as “most
notabl[e]” within the home, implying the right exists,
perhaps less notably, outside the home. 561 U.S. at 780.
Heller also identified “laws forbidding the carrying of
firearms in sensitive places such as schools and government
buildings” as presumptively lawful. 554 U.S. at 626. Why
bother clarifying the definition of sensitive public places if
the Second Amendment did not apply, at all, to any public
place? 6
In short, the text of the Amendment, as interpreted by
Heller and McDonald, points toward the conclusion that
“bear” implies a right to carry firearms publicly for selfdefense. 7
B
We next consider the writings of “important foundingera legal scholars” to discern the original public
The Delaware Supreme Court recently adopted this interpretation
of Heller’s “most acute” language. See Bridgeville Rifle & Pistol Club,
Ltd. v. Small, 176 A.3d 632, 651 n.100 (Del. 2017) (“[T]he Heller
Court’s statement that ‘the need for defense of self, family, and property’
is ‘most acute’ in the home suggests that the need must be less acute
elsewhere—but nonetheless present.” (quoting Heller, 554 U.S. at 628)
(internal citation omitted)).
5

The State’s amicus brief asks us to stretch this list of presumptively
lawful measures to allow all laws “preserving public safety.” This
argument borders on the absurd. Surely not all areas of the public are as
sensitive as schools or government buildings, nor is it, as the State
suggests, a “very small and reasonable step to view virtually the entire
public sphere as a ‘sensitive place.’”
6

Strangely, the dissent is content to reach a contrary conclusion and
effectively to limit the Second Amendment’s protections to within the
home without even bothering to grapple with the text of the Amendment.
7

App. 231

(16 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 17 of 76

YOUNG V. STATE OF HAWAII

17

understanding of the Second Amendment right, because, as
Heller explains, “[t]hat sort of inquiry is a critical tool of
constitutional interpretation.” 554 U.S. at 605; see also
Jackson, 746 F.3d at 960, 962–63.
Several legal treatises that were in wide circulation
throughout the founding era support our textual
understanding of “bear arms.” In an early American edition
of Blackstone’s Commentaries on the Laws of England—
indeed, the “most important” edition, as Heller points out,
see 554 U.S. at 594—St. George Tucker, a law professor at
the College of William & Mary and former influential
Antifederalist, insisted that the right to armed self-defense is
the “first law of nature” and that “the right of the people to
keep and bear arms” is the “true palladium of liberty.” 1 St.
George Tucker, Blackstone’s Commentaries: With Notes of
Reference to the Constitution and Laws of the Federal
Government of the United States; and of the Commonwealth
of Virginia app. n.D. at 300 (Phil., William Young Birch &
Abraham Small 1803); see also McDonald, 561 U.S. at 769
(treating Tucker’s notes on Blackstone as heavily instructive
in interpreting the Second Amendment); Heller, 554 U.S. at
606 (same). And in advocating for the prerogative of the
Judiciary to strike down unconstitutional statutes, Tucker
wrote: “If, for example, congress were to pass a law
prohibiting any person from bearing arms, as a means of
preventing insurrections, the judicial courts, . . . would be
able to pronounce decidedly upon the constitutionality of
these means.” Tucker, supra, at 289; see also Michael P.
O’Shea, Modeling the Second Amendment Right to Carry
Arms (I): Judicial Tradition and the Scope of “Bearing
Arms” for Self-Defense, 61 Am. U. L. Rev. 585, 637–38
(2012). Indeed, as Tucker explained, “[i]n many parts of the
United States, a man no more thinks, of going out of his
house on any occasion, without his rifle or musket in his

App. 232

(17 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 18 of 76

18

YOUNG V. STATE OF HAWAII

hand, than a European fine gentleman without his sword by
his side.” Tucker, supra, vol. 5, app., n.B, at 19.
Blackstone himself espoused a similarly sacred view on
the right to bear arms for Englishmen, which was most
notably codified in the 1689 English Declaration of Rights
as the right of Protestants to “have Arms for their Defense
suitable to their Conditions and as allowed by Law.” Bill of
Rights 1689, 1 W. & M., c. 2 (Eng.); see also Alden v. Maine,
527 U.S. 706, 715 (1999) (noting that Blackstone’s works
“constituted the preeminent authority on English law for the
founding generation”). As Blackstone explained, the 1689
Declaration enshrined “the natural right of resistance and
self-preservation” and “the right of having and using arms
for self-preservation and defence.” 1 William Blackstone,
Commentaries *144. 8 It followed from Blackstone’s
premise that such a right, the predecessor to our Second
Amendment, “was by the time of the founding understood to
be an individual right protecting against both public and
private violence.” Heller, 554 U.S. at 594 (emphasis added);
see also 2 William Blackstone, Commentaries on the Laws
of England 441 (Edward Christian ed., 1795) (“[E]veryone
8
Blackstone was far from alone in viewing the right to self-defense
as a natural right, thus “belong[ing] to [all] persons merely in a state of
nature, and which every man is intitled to enjoy whether out of society
or in it.” 1 WILLIAM BLACKSTONE, COMMENTARIES *119. Quite a few
scholars and commentators of that era on either side of the Atlantic
likewise championed a natural right to defend oneself. See Leonard W.
Levy, Origins of the Bill of Rights 140–41 (2001) (referencing a 1768
article in the prominent colonial newspaper A Journal of the Times that
described the English right as “a natural right which the people have
reserved to themselves, confirmed by the Bill of Rights, to keep arms for
their own defence”); see also David B. Kopel, The Natural Right of SelfDefense: Heller’s Lesson for the World, 59 Syracuse L. Rev. 235, 242
(2008) (“The Anglo-Americans learned the language of natural rights,
including the natural right of self-defense . . . .”).

App. 233

(18 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 19 of 76

YOUNG V. STATE OF HAWAII

19

is at liberty to keep or carry a gun, if he does not use it for
the [unlawful] destruction of game.”).
C
Following Heller’s historical imperative, we next move
to nineteenth century judicial interpretations of the right to
bear arms, whether as part of the Second Amendment or
analogous state constitutional provisions. See 554 U.S. at
605 (“We now address how the Second Amendment was
interpreted from immediately after its ratification through
the end of the 19th century.”). As we will soon discover,
many of the same nineteenth century cases marshalled in
Heller to prove that the Second Amendment secures an
individual right to self-defense reveal just as persuasively
that the Second Amendment must encompass a right to carry
a firearm openly outside the home.
1
We begin with Bliss v. Commonwealth, 12 Ky. (2 Litt.)
90 (1822), cited in Heller, 554 U.S. at 585 n. 9, a decision
“especially significant both because it is nearest in time to
the founding era and because the state court assumed (just as
[Heller] does) that the constitutional provision at issue
codified a preexisting right.” Nelson Lund, The Second
Amendment, Heller, and Originalist Jurisprudence,
56 UCLA L. Rev. 1343, 1360 (2009). Interpreting
Kentucky’s Second Amendment analogue—providing that
“the right of the citizens to bear arms in defense of
themselves and the state, shall not be questioned”—the
state’s highest court had no doubt that any law restricting the
public carry of firearms would “import a restraint on the
right of the citizens to bear arms.” Bliss, 12 Ky. at 90–92.
The court then invalidated a restriction on the concealed
carry of weapons, despite the availability of open carry,

App. 234

(19 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 20 of 76

20

YOUNG V. STATE OF HAWAII

reasoning that “whatever restrains the full and complete
exercise of [the right to bear arms], though not an entire
destruction of it, is forbidden by the explicit language of the
constitution.” See id. The Bliss court’s strict approach to
restraints on the concealed carry of firearms was an outlier
in the Nineteenth Century, see Peruta II, 824 F.3d at 935–
36, and Kentucky did later amend its constitution to allow
the legislature to “pass laws to prevent persons from carrying
concealed arms,” Ky. Const. art. XIII, § 25. Nonetheless, the
Kentucky constitutional convention left untouched the
premise in Bliss that the right to bear arms protects open
carry.
In Tennessee, the state’s highest court offered its
interpretation of the right to bear arms eleven years after
Bliss. See Simpson v. State, 13 Tenn. (5 Yer.) 356 (1833),
cited in Heller, 554 U.S. at 585 n.9. After he was convicted
of disturbing the peace by appearing armed in public,
Simpson faulted the indictment for failing clearly to require
proof of actual violence. Id. at 357–58. The high court
agreed, because—even assuming that colonial law did not
require proof of actual violence to punish colonists for
walking with weapons—the Tennessee “constitution ha[d]
completely abrogated it.” Id. at 360. No such prohibition
could survive the state constitution’s grant of “an express
power . . . secured to all the free citizens of the state to keep
and bear arms for their defence, without any qualification
whatever as to their kind or nature.” Id. Absent an act of
violence, then, Simpson’s indictment for merely carrying
firearms could allege no crime tolerable to the constitution
of Tennessee. See id. at 360–62.
The Alabama Supreme Court joined the chorus seven
years later. See State v. Reid, 1 Ala. 612 (1840), cited in
Heller, 554 U.S. at 629. Interpreting the Alabama “right to

App. 235

(20 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 21 of 76

YOUNG V. STATE OF HAWAII

21

bear arms, in defense of []self and the State,” the high court
declared that an Alabamian must be permitted some means
of carrying a weapon in public for self-defense. Id. at 615–
16. The court ultimately upheld a restriction on “the evil
practice of carrying weapons secretly,” citing the
legislature’s power “to enact laws in regard to the manner in
which arms shall be borne. . . . as may be dictated by the
safety of the people and the advancement of public morals.”
Id. at 616. But the court made clear where that power of the
legislature ran dry:
We do not desire to be understood as
maintaining, that in regulating the manner of
bearing arms, the authority of the Legislature
has no other limit than its own discretion. A
statute which, under the pretence of
regulating, amounts to a destruction of the
right, or which requires arms to be so borne
as to render them wholly useless for the
purpose of defence, would be clearly
unconstitutional.
See id. at 616–17.
The Georgia Supreme Court embraced precisely that
position six years later, making explicit what Reid intimated.
See Nunn v. State, 1 Ga. 243 (1846), cited in Heller, 554 U.S.
at 612, 626, 629. There, the Georgia high court considered a
Second Amendment challenge to a statute creating a
misdemeanor for carrying a pistol, either openly or
concealed. Id. at 246. Starting off with a clear statement of
the constitutional guarantee, the court explained: “The right
of the whole people, old and young, men, women and boys,
and not militia only, to keep and bear arms of every
description, and not such merely as are used by the militia,

App. 236

(21 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 22 of 76

22

YOUNG V. STATE OF HAWAII

shall not be infringed, curtailed, or broken in upon, in the
smallest degree . . . .” Id. at 251 (emphasis omitted). And
with those Second Amendment lines properly set, the court
held that Georgia’s statute went too far:
We are of the opinion, then, that so far as the
act of 1837 seeks to suppress the practice of
carrying certain weapons secretly, that it is
valid, inasmuch as it does not deprive the
citizen of his natural right of self-defence, or
of his constitutional right to keep and bear
arms. But that so much of it, as contains a
prohibition against bearing arms openly, is
in conflict with the Constitution, and void . . .
Id. (emphasis added). Critically, we must afford Nunn’s
understanding of the Second Amendment a good deal of
weight, because, as Heller explains, “[i]ts opinion perfectly
captured the way in which the operative clause of the Second
Amendment furthers the purpose announced in the prefatory
clause.” 554 U.S. at 612; see also O’Shea, supra, at 627 (“No
case, historic or recent, is discussed more prominently or
positively in Heller than the Georgia Supreme Court’s 1846
decision in Nunn v. State.”).
The Louisiana Supreme Court soon followed the course
set by Alabama and Georgia. See State v. Chandler, 5 La.
Ann. 489 (1850), cited in Heller, 554 U.S. at 613, 626. The
high court first rejected Chandler’s Second Amendment
challenge to a Louisiana law prohibiting concealed carry,
reasoning that the law was “absolutely necessary to
counteract a vicious state of society, growing out of the habit
of carrying concealed weapons, and to prevent bloodshed
and assassinations committed upon unsuspecting persons.”
Id. at 489–90. But, in precisely the same manner as the Nunn

App. 237

(22 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 23 of 76

YOUNG V. STATE OF HAWAII

23

and Reid courts, the Chandler court drew the line which the
legislature could not cross. As the court explained: “[The
prohibition on concealed carry] interfered with no man’s
right to carry arms . . . ‘in full open view,’ which places men
upon an equality. This is the right guaranteed by the
Constitution of the United States . . . .” Id. at 490; see also
Heller, 554 U.S. at 613 (citing favorably Chandler’s holding
that “citizens had a right to carry arms openly”).
Thus, each of these nineteenth century cases found
instructive by Heller when settling the Second Amendment
as an individual right to self-defense is just as instructive
when evaluating the application of that right outside the
home. While nineteenth century legislatures enjoyed latitude
to regulate the “manner in which arms shall be borne,” no
legislature in these states could, “under the pretence of
regulating,” destroy the right to carry firearms in public
altogether. See Reid, 1 Ala. at 616–17. Accordingly, even
though our court has read these cases to exclude concealed
carry from the Second Amendment’s protections, see Peruta
II, 824 F.3d at 933–36, the same cases command that the
Second Amendment must encompass a right to open carry. 9

The dissent faults our reliance on decisions from the South,
implying that the thorough analysis found in such opinions must have
been the product of a “culture where slavery, honor, violence, and the
public carrying of weapons were intertwined.” Dissent at 6 (citations and
quotations omitted). To say the least, we are puzzled. The dissent
overlooks the fact that the Southern cases on which we rely only arose
because the legislatures in those states had enacted restrictions on the
public carry of firearms. Indeed, were it the case that the Southern culture
of slavery animated concerns to protect the right to open carry, why
would the Georgia legislature have sought to ban open carry in the first
place?
9

App. 238

(23 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 24 of 76

24

YOUNG V. STATE OF HAWAII
2

We are well aware that there were judicial proponents of
a more limited right to bear arms during the nineteenth
century.
Most prominent is the Arkansas Supreme Court’s 1842
interpretation of the right in State v. Buzzard, 4 Ark. 18
(1842). There, a divided court upheld an Arkansas
prohibition on the concealed carry of “any pistol, dirk,
butcher or large knife, or a sword in a cane,” but each judge
in the splintered majority appeared poised to go much
further. Chief Justice Ringo advocated his view that the
Second Amendment served as no bar to the Arkansas
legislature’s authority to restrict any carrying of firearms:
“[N]o enactment on this subject, which neither directly nor
indirectly so operates as to impair or render inefficient the
means provided by the Constitution for the defense of the
State, can be adjudged invalid on the ground that it is
repugnant to the Constitution.” Id. at 27. But Justice
Dickinson went even further, writing that the Second
Amendment was nothing “but an assertion of that general
right of sovereignty belonging to independent nations to
regulate their military force,” thus finding no individual right
within its guarantee. Id. at 32; but see id. at 34–35 (Lacy, J.,
dissenting) (viewing the Second Amendment as an
individual right to self-defense).

As a more fundamental matter, too, we cannot agree with the
dissent’s choice to cast aside Southern cases. Heller placed great
emphasis on cases from the South, and Nunn in particular. We are an
inferior court. Can we really, while keeping a straight face, now say that
such cases have little persuasive effect in analyzing the contours of the
Second Amendment? We think not.

App. 239

(24 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 25 of 76

YOUNG V. STATE OF HAWAII

25

Several nineteenth century courts hewed to Buzzard’s
approach and upheld restrictions on the public carry of
weapons without emphasizing, as did courts in Nunn’s camp,
the limits of legislative authority. See Hill v. State, 53 Ga.
472, 474–75 (1874) (upholding prohibition on carrying
weapons “to any court of justice . . . or any place of public
worship, or any other public gathering . . . except militia
muster grounds”); English v. State, 35 Tex. 473, 474 (1871)
(upholding prohibition on carrying “pistols, dirks, daggers,
slungshots, swordcanes, spears, brass-knuckles and bowie
knives”); State v. Workman, 14 S.E. 9, 10–12 (W. Va. 1891)
(upholding presumption of criminality “when a man is found
going around with a revolver, razor, billy, or brass knuckles
upon his person”).
Yet, with Heller on the books, cases in Buzzard’s flock
furnish us with little instructive value. That’s because Heller
made clear that the Second Amendment is, and always has
been, an individual right centered on self-defense; it has
never been a right only to be exercised in connection with a
militia. See, e.g., 554 U.S. at 592, 599, 616, 628. And bound
as the inferior court that we are, we may only assess whether
the right to bear arms extends outside the home on the
understanding that the right is an individual one centered on
self-defense. Thus, Heller knocks out the load-bearing
bricks in the foundation of cases like Buzzard, for those
courts only approved broad limitations on the public carry of
weapons because such limitations in no way detracted from
the common defense of the state. See, e.g., Buzzard, 4 Ark.
at 27 (opinion of Ringo, C.J.) (“The act in question does not,
in my judgment, detract anything from the power of the
people to defend their free state and the established
institutions of the country.”); Hill, 53 Ga. at 475 (“In what
manner the right to keep and bear these pests of society
[dirks, bowie knives, and the like], can encourage or secure

App. 240

(25 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 26 of 76

26

YOUNG V. STATE OF HAWAII

the existence of a militia, and especially of a well regulated
militia, I am not able to divine.”); English, 35 Tex. at 477
(“The terms dirks, daggers, slungshots, sword-canes, brassknuckles and bowie knives, belong to no military
vocabulary.”); Workman, 14 S.E. at 11 (“So, also, in regard
to the kind of arms referred to in the amendment, it must be
held to refer to the weapons of warfare to be used by the
militia . . . .”); see also Wrenn, 864 F.3d at 658 (reasoning
that such cases are “sapped of authority by Heller”); Moore,
702 F.3d at 941 (regarding “the historical issues as settled by
Heller”); O’Shea, supra, at 653 (same). 10
3
Once we set aside each of those cases that rest on a
militia-focused view of the right to bear arms, we find only
two cases from the nineteenth century that might be read to
allow severe deprivations on open carry.

Not all cases with views of the Second Amendment contrary to
Heller took the Buzzard approach, however. Several of such cases
protected the right to bear arms in a way that supports, or is at least
consistent with, the right to open carry. See Andrews v. State, 50 Tenn.
(3 Heisk.) 165, 186–87 (1871) (holding that, if a pistol “is adapted to the
usual equipment of the soldier,” then a statute that “forbids by its terms
the carrying of the weapon publicly or privately, without regard to time
or place, or circumstances . . . violates the constitutional right to keep
arms.”); Aymette v. State, 21 Tenn. (2 Hum.) 154, 160 (1840) (“In the
nature of things, if they were not allowed to bear arms openly, they could
not bear them in their defence of the State at all.”); Cockrum v. State,
24 Tex. 394, 401–03 (1859) (construing the Second Amendment purely
as a tyranny-deterring measure, but nevertheless barring the complete
prohibition of carrying a bowie-knife, “an exceeding[ly] destructive
weapon”).
10

App. 241

(26 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 27 of 76

YOUNG V. STATE OF HAWAII

27

The first, State v. Duke, is an 1874 decision from the
Supreme Court of Texas, where the court concluded that the
legislature could confine the carry of firearms to certain
places, and only when the bearer had reasonable grounds to
fear an attack. 42 Tex. 455, 456–59 (1874). Why the
departure from the Nunn line of cases? One need only take a
peek at the Texas constitutional provision that served as the
basis for the court’s decision, which provided that “[e]very
person shall have the right to keep and bear arms in the
lawful defense of himself or the State, under such
regulations as the Legislature may prescribe.” See id. at 458
(emphasis added). While the Second Amendment surely
tolerates some degree of regulation, its very substance is not
so explicitly limited by such a regulatory caveat. We
shouldn’t pencil one in. 11
The second case, Walburn v. Territory, is a decision from
the Supreme Court of the Territory of Oklahoma, coming at
the very end of the nineteenth century in 1899. 59 P. 972
(Okla. Terr. 1899) (Mem). Convicted of carrying a revolver
on his person, Walburn challenged his conviction on several
grounds, one of which being an argument that Oklahoma’s
carrying prohibition was “in conflict with the constitution of
the United States.” Id. at 973. Beyond such a general
assertion, however, “[n]o authorities [were] cited in support
of this position, nor [was] the proposition very earnestly
urged.” Id. Accordingly, the court rejected the challenge:
“As at present advised, we are of the opinion that the statute
11
But “even Duke, an outlier which marks perhaps the most
restrictive interpretation that any nineteenth-century court gave to the
defense-based right to bear arms, implicitly rejected no-carry laws as
unconstitutional” when it reasoned that the Texas law “respected the
right to carry a pistol openly when needed for self-defense.” O’Shea,
supra, at 655 (quoting Duke, 42 Tex. at 459).

App. 242

(27 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 28 of 76

28

YOUNG V. STATE OF HAWAII

violates none of the inhibitions of the constitution of the
United States, and that its provisions are within the police
power of the territory.” Id. (emphasis added). We see little
reason to credit much a decision that explicitly
acknowledged a lack of due consideration. Cf. Heller,
554 U.S. at 623–24 (rejecting dissent’s reliance on United
States v. Miller, 307 U.S. 174 (1939), in part because of the
incomplete briefing in Miller and its lack of a thorough
consideration of the history of the Second Amendment).
D
Finally, as did the Court in Heller, we turn to the
legislative scene following the Civil War. See 554 U.S. at
614–16. While considering materials that post-date the Bill
of Rights by at least 75 years might stretch the term “original
public meaning,” Heller explains that, “[i]n the aftermath of
the Civil War, there was an outpouring of discussion of the
Second Amendment in Congress and in public discourse, as
people debated whether and how to secure constitutional
rights for newly free slaves.” Id. at 614. So, although such
evidence “do[es] not provide as much insight into [the
Second Amendment’s] original meaning as earlier sources,”
we nevertheless consider such evidence somewhat
instructive on its meaning. 12 See id.

12
This evidence is not more probative when applying the right to
state and local governments. While McDonald relied extensively on
history from the post–Civil War period when deciding whether the right
to bear arms is “among those fundamental rights necessary to our system
of ordered liberty,” thus incorporating it against the States, 561 U.S. at
770–78, McDonald also made clear that the substantive restrictions the
right imposes on states are precisely the same as those imposed on the
federal government, id. at 785–86; id. at 805 (Thomas, J., concurring in
part and concurring in the judgment) (agreeing that “the right to keep and

App. 243

(28 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 29 of 76

YOUNG V. STATE OF HAWAII

29

Particularly relevant in this period are the efforts of many
Southern states to disarm free blacks after the Civil War by
adopting Black Codes, because “[t]hose who opposed these
injustices frequently stated that they infringed blacks’
constitutional right to keep and bear arms.” Heller, 554 U.S.
at 614–16; see also Clayton E. Cramer, The Racist Roots of
Gun Control, 4 Kan. J.L. & Pub. Pol’y 17, 20 (1995) (“The
various Black Codes adopted after the Civil War required
blacks to obtain a license before carrying or possessing
firearms or bowie knives . . . . These restrictive gun laws
played a part in provoking Republican efforts to get the
Fourteenth Amendment passed.”).
The Supreme Court’s infamous decision in Dred Scott v.
Sanford, 60 U.S. 393 (1857), rendered four years before the
first shots were fired at Fort Sumter, would pave the way for
such Black Codes to proliferate after the war. See
McDonald, 561 U.S. at 807–08, 822, 849 (Thomas, J.,
concurring in part and concurring in the judgment) (looking
to Dred Scott as necessary context in Civil War era historical
analysis). Writing for the Court, Chief Justice Taney—
disgracefully—dismissed Dred Scott’s suit for freedom after
concluding that blacks had never been a part of the sovereign
“people” of the United States and therefore could find no
recourse in an Article III court. See 60 U.S. at 407. To hold
otherwise, Chief Justice Taney wrote, would have “entitled
[blacks] to the privileges and immunities of citizens” and
thus granted them the rights he felt only whites could enjoy:
bear arms set forth in the Second Amendment [is] ‘fully applicable to the
States’” (emphasis added)). Because Heller ascribed less weight to
evidence from the post-Civil War period when interpreting the Second
Amendment’s restrictions on the federal government, 554 U.S. at 614, it
necessarily follows that the evidence is less probative when interpreting
the Amendment’s restrictions on state and local governments.

App. 244

(29 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 30 of 76

30

YOUNG V. STATE OF HAWAII

“[I]t would give them the full liberty of speech in public and
in private upon all subjects upon which its own citizens
might speak; to hold public meetings upon political affairs,
and to keep and carry arms wherever they went.” Id. at 416–
17.
Perhaps emboldened by Chief Justice Taney’s opinion,
“those who sought to retain the institution of slavery . . .
[began] to eliminate more and more of the basic liberties of
slaves, free blacks, and white abolitionists.” See McDonald,
561 U.S. at 843–44 (Thomas, J., concurring in part and
concurring in the judgment). And the pervasive fear of slave
rebellions “led Southern legislatures to take particularly
vicious aim at the rights of free blacks and slaves to speak or
to keep and bear arms for their defense.” Id. at 845; see also
Act of Dec. 23, 1833, § 7, 1833 Ga. Acts 226, 228 (“[I]t shall
not be lawful for any free person of colour in this state, to
own, use, or carry fire arms of any description whatever.”).
The subsequent Civil War was far from a perfect fix to
these problems. Those freedmen who had fought for the
Union Army during the war frequently returned home “to the
States of the old Confederacy, where systematic efforts were
made to disarm them and other blacks.” McDonald, 561 U.S.
at 771; see also The Freedmen’s Bureau Bill, N.Y. Evening
Post, May 30, 1866, at 2 (“In South Carolina and Florida the
freedmen are forbidden to wear or keep arms.”). Emblematic
of these efforts was an 1865 law in Mississippi that declared
“no freedman, free negro or mulatto . . . shall keep or carry
fire-arms of any kind, or any ammunition, dirk or bowie
knife.” McDonald, 561 U.S. at 771 (quoting Certain
Offenses of Freedmen, 1865 Miss. Laws p. 165, § 1, in
1 Documentary History of Reconstruction 289 (W. Fleming
ed. 1950)). The law was vigorously enforced. As an 1866
letter from Rodney, Mississippi to the Harper’s Weekly

App. 245

(30 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 31 of 76

YOUNG V. STATE OF HAWAII

31

magazine lamented, “[t]he militia of this county have seized
every gun and pistol found in the hands of the (so called)
freedmen. . . . They claim that the statute laws of Mississippi
do not recognize the negro as having any right to carry
arms.” The Labor Question at the South, Harper’s Weekly,
Jan. 13, 1866, at 19. Seeking help from outside of the state,
the letter emphasized that such Mississippi laws did “not
protect, but insist[ed] upon infringing on their liberties.” Id.
Worse still, “[w]ithout federal enforcement of the
inalienable right to keep and bear arms, . . . militias and
mobs were tragically successful in waging a campaign of
terror against [newly free slaves].” McDonald, 561 U.S. at
856 (Thomas, J., concurring in part and concurring in the
judgment).
Such blatant injustices did not continue unnoticed by
Congress, which established the Freedmen’s Bureau to aid
newly freed blacks still suffering in the Reconstruction
South. Working to fulfill its mandate, an 1866 report by the
Bureau targeted a Kentucky law that sought to deprive
freedmen of their Second Amendment rights: “[T]he civil
law [of Kentucky] prohibits the colored man from bearing
arms . . . . Their arms are taken from them by the civil
authorities . . . . Thus, the right of the people to keep and bear
arms as provided in the Constitution is infringed.” Heller,
554 U.S. at 614–15 (quoting H.R. Exec. Doc. No. 70, 39th
Cong., 1st Sess., 233, 236). But Kentucky was far from the
only state subject to scrutiny; a joint congressional report
decried a South Carolina practice of “seizing all fire-arms
found in the hands of the freedmen.” Id. at 615 (quoting Joint
Comm. on Reconstruction, H.R. Rep. No. 30, 39th Cong.,
1st Sess., pt. 2, p. 229 (1866) (Proposed Circular of Brigadier
General R. Saxton)). The joint report plainly envisioned a
right to bear arms outside the home, emphasizing that

App. 246

(31 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 32 of 76

32

YOUNG V. STATE OF HAWAII

freedmen in South Carolina “need [firearms] to kill game for
subsistence.” Id.
Indeed, even those congressmen who opposed federal
action to protect the rights of freedmen understood the
fundamental constitutional rights at stake. Senator Davis of
Kentucky acknowledged, alongside the writ of habeas
corpus, the right “for every man bearing his arms about him
and keeping them in his house, his castle, for his own
defense,” but argued that congressional action on the matter
would usurp the role of Kentucky in caring for its citizens.
See Cong. Globe, 39th Cong., 1st Sess. 370–71 (1866)
(emphasis added), cited in Heller, 554 U.S. at 616.
To summarize the history canvassed thus far: the
important founding-era treatises, the probative nineteenth
century case law, and the post-civil war legislative scene
each reveal a single American voice. The right to bear arms
must include, at the least, the right to carry a firearm openly
for self-defense.
E
But wait! The dissent says we have yet to consider the
impact of historical “good cause” restrictions on the scope
of the Second Amendment right to carry a firearm in public.
According to the dissent, many states heavily restricted the
public carry of weapons absent good cause to fear injury to
person or property. Dissent at 65–67. A review of the
dissent’s evidence compels us to disagree.
Many states during the nineteenth century required
people who carried weapons in a disruptive fashion to post a
bond (or a “surety”) to ensure their good behavior. See, e.g.,
The Revised Statutes of the Commonwealth of Massachusetts
750 § 16 (Boston, Theron Metcalf & Horace Mann 1836)

App. 247

(32 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 33 of 76

YOUNG V. STATE OF HAWAII

33

(hereinafter Mass. Acts). And to enforce the surety
requirement, such states commonly relied on a citizencomplaint mechanism. That is, if an arms carrier gave any
observer “reasonable cause to fear an injury, or breach of the
peace,” the observer could complain to his local magistrate,
who might then require the disruptive carrier “to find
sureties for keeping the peace,” generally “for a term not
exceeding six months.” See id. But if the disruptive carrier
also had “reasonable cause to fear an assault or other injury,”
such person could be excused from posting sureties despite
the complaint. Id. As an example of the pieces put together,
Michigan’s 1846 surety law provided that if any person went
armed with an “offensive and dangerous weapon, without
reasonable cause to fear an assault or other injury . . . he may,
on complaint of any person having reasonable cause to fear
an injury or breach of the peace, be required to find sureties
for keeping the peace.” The Revised Statutes of the State of
Michigan 692 § 16 (Detroit, Sanford M. Green 1846).
The dissent erroneously characterizes surety laws as
imposing a severe restriction on the public carry of weapons
absent good cause to fear injury. And its analysis of the
actual historical evidence is, in a word, cursory. While the
dissent focuses on the exception to the surety requirement
for carriers with a specialized need for self-defense, it
ignores the clearly limited scope of the requirement in the
first place: only upon a well-founded complaint that the
carrier threatened “injury or a breach of the peace” did the
good cause exception come into play, “by exempting even
the accused” from the burden of paying sureties. Wrenn,
864 F.3d at 661. Thus, “[a] showing of special need did not
expand carrying for the responsible; it shrank burdens on
carrying by the (allegedly) reckless.” Id.

App. 248

(33 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 34 of 76

34

YOUNG V. STATE OF HAWAII

Indeed, what is most troubling about the dissent’s
historical “analysis” is that it reliably quotes the good cause
exception to the surety requirements but hardly mentions the
limiting citizen-complaint mechanism present in virtually
every single one of its quoted sources. See The Statutes of
Oregon 220 § 17 (Oregon, Asahel Bush 1854) (complainant
must possess “reasonable cause to fear an injury, or breach
of the peace”); The Revised Statutes of the Territory of
Minnesota 528 § 18 (Saint Paul, James M. Goodhue 1851)
(complainant must possess “reasonable cause to fear an
injury or breach of the peace”); The Revised Statutes of the
State of Maine 709 § 16 (Hallowell, Glazier, Masters &
Smith 1847) (complainant must possess “cause to fear an
injury or breach of the peace”); Statutes of the Territory of
Wisconsin 381 § 16 (Albany, Packard, Van Benthuysen &
Co. 1839) (complainant must possess “reasonable cause to
fear an injury or breach of the peace”); 1836 Mass. Acts 750
§ 16 (complainant must possess “reasonable cause to fear an
injury, or breach of the peace”). The dissent might wish to
set aside the requirements to complain under surety laws, but
we suspect those who actually did complain under such laws
would hesitate before treating the requirements so lightly.
Were a complainant to bring an “unfounded, frivolous or
malicious” claim that an arms carrier threatened the public
peace, the magistrate would not only dismiss the complaint,
but also hold the complainant “answerable to the magistrate
and the officer for their fees.” See, e.g., 1836 Mass. Acts 749
§ 7. 13

Only one of the surety laws cited by the dissent lacks explicit
reference to the citizen-complaint mechanism. An 1847 Virginia law
provided that if any person went armed with “any offensive or dangerous
weapon, without reasonable cause to fear an assault or other injury . . .
he may be required to find sureties for keeping the peace.” Acts of the
13

App. 249

(34 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 35 of 76

YOUNG V. STATE OF HAWAII

35

In any event, even if all arms carriers without good cause
had to post sureties (they did not), the laws would not add
much to our analysis. Heller saw little weight in historical
prohibitions that promised only “a small fine and forfeiture
of the weapon (or in a few cases a very brief stay in the local
jail).” 554 U.S. at 633. Certainly, an obligation to post a
surety fits that mold. Like a small fine, sureties are “‘akin to
modern penalties for minor public-safety infractions like
speeding or jaywalking,’ which makes them (in the Court’s
view) poor evidence of limits on the [Second] Amendment’s
scope.” Wrenn, 864 F.3d at 661 (quoting Heller, 554 U.S. at
633–34). In fact, sureties seem to us even less noteworthy
than small fines, since a disruptive carrier—once he posted
a surety—“could go on carrying without criminal penalty.”
Id. And if he refrained from breaching the peace, of course,
his money posted as a surety would be returned in a matter
of months.
All in all, we are unmoved by the dissent’s misguided
interpretation of history. While surety laws used the
language “reasonable cause,” they bear no resemblance to
modern-day good cause requirements to carry a firearm. 14
General Assembly of Virginia 129 § 16 (Richmond, Samuel Shepherd
1848). But the Virginia law doesn’t tell us much about the right of
Virginians to carry weapons in public, since it only provided that the
arms carrier “may” be required to find sureties, with no clarification.
What we do know, however, is that “may” certainly does not mean
“shall,” neither today nor in 1847.
Nor are we much persuaded by the remainder of the dissent’s
historical evidence. Dissent at 10–12. The dissent is correct, of course,
that near the close of the nineteenth century and the beginning of the
twentieth century some states began enacting stricter limitations on the
public carry of weapons. See, e.g., 1888 Idaho Sess. Laws 23 (prohibiting
public carry of weapons within the “confines of any city, town or
14

App. 250

(35 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 36 of 76

36

YOUNG V. STATE OF HAWAII
F
One more historical misconception to dispel.

The County and the State, apparently seeing little room
to quarrel with American history, argue that the English right
to carry weapons openly was limited for centuries by the
1328 Statute of Northampton, and that we should
incorporate wholesale that understanding of English rights
into our Constitution’s Second Amendment. Exploring
fourteenth century English law books (after a thorough
dusting) reveals that the statute allowed no ordinary
Englishman to “bring . . . force in affray of the peace, nor to
go nor ride armed by night nor by day, in Fairs, Markets, nor
in the presence of the Justices or other Ministers, nor in no
part elsewhere.” Statute of Northampton 1328, 2 Edw. 3, c.
3 (Eng.). 15 But the statute’s effects did not remain in the
fourteenth century, as it “would become the foundation for
firearms regulation in England for the next several
centuries.” Peruta II, 824 F.3d at 930. Our court has
village”). But it is difficult to ascribe much weight to isolated statutes,
with no record of enforcement, that were enacted so distant from the
founding. Cf. Heller, 554 U.S. at 632 (“[W]e would not stake our
interpretation of the Second Amendment upon a single law . . . that
contradicts the overwhelming weight of other evidence . . . .”). And we
are particularly reluctant to rely on such statutes given that it is
impossible to discern whether they were enacted with a militia or a selfdefense oriented view of the right to bear arms in mind. See O’Shea,
supra, at 642–43 (noting the popularity of a “hybrid view” of the Second
Amendment during the post-Civil War period, where the right was
individual but “the chief function of the right . . . was to support civic
purposes such as military readiness”).
An “affray,” derived from the French word “effraier” meaning “to
terrify,” is an act that disturbs the peace. See 1 William Hawkins, A
Treatise of the Pleas of the Crown 136, ch. 63, § 1 (1716).
15

App. 251

(36 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 37 of 76

YOUNG V. STATE OF HAWAII

37

interpreted the statute and its enforcement history as
consistently prohibiting concealed carry, see id. at 932, but
we have not until now considered whether it also prohibited
open carry.
1
As one would expect, delineating the precise lines within
which a fourteenth century English statute was enforced is a
difficult task. See, e.g., See Patrick J. Charles, The Faces of
the Second Amendment Outside the Home: History Versus
Ahistorical Standards of Review, 60 Clev. St. L. Rev. 1, 12
(2012). In the immediate period after Parliament enacted the
statute, it appears that some English constables were ordered
to enforce the statute literally and to arrest all those who
dared to “go armed,” without regard for the bearer’s apparent
peacefulness. See Letter to the Mayor and Bailiffs of York
(Jan. 30, 1334), in Calendar of the Close Rolls, Edward III,
1333–1337 294 (H.C. Maxwell-Lyte ed. 1898). But not all
English constables faced similar orders; for example,
Northumberland officers were ordered in 1332 to arrest only
“persons riding or going armed to disturb the peace.” Letter
to the Keeper and Justices of Northumberland (Oct. 28,
1332), in Calendar of the Close Rolls, Edward III, 1330–
1333 610 (H.C. Maxwell-Lyte ed. 1898) (emphasis added).
Nevertheless, looking only to Chaucer’s fourteenth
century England provides little instructive force, particularly
because “[c]ommon-law rights developed over time.” See
Wrenn, 864 F.3d at 660. And over the next few centuries, a
narrow interpretation of the statute—like that given to
Northumberland constables in 1332—began to dominate the
English legal landscape. Writing almost 300 years after the
statute was enacted, Serjeant William Hawkins, an English
legal commentator praised by Blackstone, explained that “no
wearing of Arms is within the meaning of this Statute, unless

App. 252

(37 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 38 of 76

38

YOUNG V. STATE OF HAWAII

it be accompanied with such Circumstances as are apt to
terrify the People; from whence it seems clearly to follow,
That Persons of Quality are in no Danger of Offending
against this Statute by wearing common Weapons.”
1 William Hawkins, A Treatise of the Pleas of the Crown
136 § 9 (1716). 16 Hawkins’s narrow interpretation of the
statute was in accord with that of the Court of King’s Bench,
which clarified that “the meaning of the [Statute of
Northampton] was to punish people who go armed to terrify
the King’s subjects.” Sir John Knight’s Case, 87 Eng. Rep.
75, 76, 3 Mod. 117 (K.B. 1686) (emphasis added). 17

Indeed, even some wearing of arms that might have been “apt to
terrify the People” fell outside of the statutes prohibitions, as Hawkins
explained that one who “arm[ed] himself to suppress Rioters, Rebels, or
Enemies” or “upon a Cry made for Arms to keep the Peace” would face
no punishment under the statute. See id. at § 10.
16

We disagree with the view that Sir John Knight’s Case should
only be read for the proposition that government agents were exempt
from the statute. See Charles, supra, at 28–30. The case reports leave not
so much as a hint that Knight’s loyalty to the Crown was the critical issue
before the Court of King’s Bench. Indeed, Knight was charged with
“goeing with a blunderbus in the streets, to the terrifyeing his majesties
subjects.” 1 Narcissus Luttrell, A Brief Historical Relation of State
Affairs from September 1678 to April 1714 380 (Oxford Univ. Press
1857) (emphasis added). And contemporaneous reports of his acquittal
reported that “sir John Knight, the loyall, was tried at the court of kings
bench for a high misdemeanor, in goeing armed up and down with a gun
att Bristoll; who being tried by a jury of his own citty, that knew him
well, he was acquitted, not thinking he did it with any ill design.” Id. at
389 (emphasis added); see also Moore, 702 F.3d at 936 (interpreting the
case in the same manner). After his acquittal, Sir Knight was required to
post a bond for good behavior, Rex v. Knight, 90 Eng. Rep. 331,
Comberbach 41 (1686), a peculiar measure for one supposedly cloaked
in government authority.
17

App. 253

(38 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 39 of 76

YOUNG V. STATE OF HAWAII

39

Of course, an untoward intent to terrorize the local
townsfolk was not always needed to face arrest and
imprisonment; as Blackstone interpreted the statute—an
interpretation credited by Heller, 554 U.S. at 627—“going
armed, with dangerous or unusual weapons, is a crime
against the public peace, by terrifying the good people of the
land.” 4 William Blackstone, Commentaries *148–*149
(emphasis added). Indeed, Hawkins wrote that “a Man
cannot excuse the wearing such Armour” even “by alledging
that such a one threatened him.” Hawkins, supra, at 136 § 8.
But clearly not all weapons can be characterized as
“dangerous or unusual,” else Heller’s exemption of Second
Amendment protection for weapons of that kind would
swallow the Amendment’s protections as a whole. See
554 U.S. at 627; Moore, 702 F.3d at 936 (“[T]he Court
cannot have thought all guns are ‘dangerous or unusual’ and
can be banned, as otherwise there would be no right to keep
a handgun in one’s home for self-defense.”).
Consequently, we see little in the more recent historical
record to suggest that the Statute of Northampton barred
Englishmen from carrying common (not unusual) arms for
defense (not terror).
2
More fundamentally, however, we respectfully decline
the County’s and the State’s invitation to import English law
wholesale into our Second Amendment jurisprudence.
While English law is certainly relevant to our historical
inquiry because the Second Amendment “codified a preexisting right,” Heller, 554 U.S. at 592, our aim here is not
merely to discover the rights of the English. Indeed, there is
a scholarly consensus that the 1689 English right to have
arms was less protective than its American counterpart. See
Jonathan Meltzer, Note, Open Carry for All: Heller and Our

App. 254

(39 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 40 of 76

40

YOUNG V. STATE OF HAWAII

Nineteenth-Century Second Amendment, 123 Yale L.J.
1486, 1500 (2014); Joyce Lee Malcolm, To Keep and Bear
Arms: The Origins of an Anglo-American Right 120–21
(1994). That is because the English right was “not available
to the whole population, given that it was restricted to
Protestants, and like all written English rights it was held
only against the Crown, not Parliament.” Heller, 554 U.S. at
593. Accordingly, it only guaranteed the right of Protestants
to have arms “as allowed by law.” See Malcom, supra, at
121, 162. But not all laws that restricted the right of
Englishmen to have arms found a place across the Atlantic.
As St. George Tucker observed, it would have been strange
to apply in the United States an English law that presumed
any gathering of armed men was treasonous, because “the
right to bear arms is recognized and secured in the
[American] constitution itself.” See Tucker, supra, vol. 5,
app., n.B, at 19; see also Cooley, supra, at 270 (noting that
the Second Amendment “was adopted with some
modification and enlargement from the English Bill of
Rights”); William Rawle, A View of the Constitution of the
United States of America 126 (2d ed. 1829) (writing that the
English right, unlike the Second Amendment, “is allowed
more or less sparingly, according to circumstances”).
Thus, instead of stitching into the Second Amendment
every odd law that hemmed in the rights of fourteenth
century Englishmen, we consider those English laws only to
the extent they inform the original public understanding of
the Second Amendment. See Heller, 554 U.S. at 594 (“By
the time of the founding, the right to have arms had become
fundamental for English subjects.” (emphasis added)). With
our historical inquiry properly framed, the fog encircling the
Statute of Northampton’s “true” meaning clears away, for
the American understanding and implementation of the

App. 255

(40 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 41 of 76

YOUNG V. STATE OF HAWAII

41

statute was unambiguously consistent with a robust Second
Amendment right to open carry.
To the extent the Framers considered the Statute of
Northampton as instructive of the pre-existing right to bear
arms, they took a narrow view of its prohibitions. See
Eugene Volokh, The First and Second Amendments,
109 Colum. L.Rev. Sidebar 97, 101 (2009). In that vein,
Justice James Wilson, a leading drafter of the Constitution,
credited Serjeant Hawkins and construed the statute to
prohibit arming oneself “with dangerous and unusual
weapons, in such a manner, as will naturally diffuse a terrour
among the people.” 2 James Wilson, Collected Works of
James Wilson 654 (Kermit L. Hall & Mark D. Hall eds.
1967); see also Volokh, The First and Second Amendments,
supra, at 101 (“American benchbooks for justices of the
peace echoed [Wilson’s observation], citing Hawkins
. . . .”). William Rawle, a prominent member of the
Pennsylvania Assembly that ratified the Constitution,
likewise cited Hawkins and wrote that the right to bear arms
would not rule out a law prohibiting “the carrying of arms
abroad by a single individual, attended with circumstances
giving [observers] just reason to fear that he purposes to
make an unlawful use of them.” Rawle, supra, at 126. 18

18
To the extent that one could read Hawkins as having thought the
Statute of Northampton would permit only “Persons of Quality”
(nobility) to carry weapons, see Hawkins, supra, at 136 § 9, such a classbased limitation clearly found no place in the United States. Volokh, The
First and Second Amendments, supra, at 101–02. Indeed, neither Justice
Wilson nor William Rawle makes any mention of such a limitation when
citing Hawkins, nor do any other American sources that we have read.
See William W. Hening, The New Virginia Justice, Comprising the
Office and Authority of a Justice of the Peace, in the Commonwealth of

App. 256

(41 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 42 of 76

42

YOUNG V. STATE OF HAWAII

Justice Wilson and William Rawle’s reading of the
statute is confirmed by the various state weapons carry
regulations throughout the founding era and beyond that
were expressly modelled after the Statute of Northampton
(“Northampton analogues”). See Eric M. Ruben & Saul
Cornell, Firearm Regionalism and Public Carry: Placing
Southern Antebellum Case Law in Context, 125 Yale L.J.
Forum 121, 128–29 (2015) (“[S]everal early American states
expressly incorporated versions of the Statute of
Northampton into their laws.”). Like the surety laws relied
on by the dissent, the state-enacted Northampton analogues
only sought to regulate disruptive—or more specifically,
terrifying—arms carrying. For example, Massachusetts in
1795 enacted a law authorizing justices of the peace to arrest
“all affrayers, rioters, disturbers, or breakers of the peace,
and such as shall ride or go armed offensively, to the fear or
terror of the good citizens.” 1795 Mass. Acts 436 (emphasis
added); see also 1786 Va. Acts 33 (prohibiting going “armed
by night []or by day, in fairs or markets, or in other places,
in terror of the Country”).
The North Carolina Supreme Court offered a definitive
interpretation of its Northampton analogue in 1843,
providing us with the benefit of a more thorough discussion
of its elements. State v. Huntly, 25 N.C. (3 Ired.) 418 (1843).
After holding that firearms fell within the reach of the crime,
the court clarified:
[I]t is to be remembered that the carrying of a
gun per se constitutes no offence. For any
lawful purpose—either of business or
amusement—the citizen is at perfect liberty
Virginia 18 (1795) (discussing Hawkins’s explanation of the Statute of
Northampton without any reference to “Persons of Quality”).

App. 257

(42 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 43 of 76

YOUNG V. STATE OF HAWAII

43

to carry his gun. It is the wicked purpose—
and
the
mischievous
result—which
essentially constitute the crime. He shall not
carry about this or any other weapon of death
to terrify and alarm, and in such manner as
naturally will terrify and alarm, a peaceful
people.
Id. at 422–23. True, the court cited “business or
amusement,” instead of self-defense, as examples of lawful
purposes, but a moment’s thought refutes the notion that
such a list was exhaustive; surely a North Carolinian wasn’t
at liberty to carry his rifle only so long as he twirled it in
amusement. Rather, it was the “wicked purpose” that
“constitute[d] the crime.” Id. at 423.
3
We thus disagree with the dissent’s view that carrying a
weapon was itself sufficient to face punishment under a
state-enacted Northampton analogue. Dissent at 65 n.1. As
that argument goes, when the drafters of virtually every
single state Northampton analogue criminalized going
armed “to the terror” or “in affray” of others, the terror or
affray language was just purposive; that is, “terrorizing the
public was the consequence of going armed,” so such
language was incorporated into the statutes merely to clarify
why going armed was itself unlawful. See Ruben & Cornell,
supra, at 129–30; Charles, supra, at 33.
What an odd way it would be to write a criminal statute!
To interpret such language as merely purposive is to remove
its operative effect, for if going armed was itself unlawful
then clarifying the consequences of going armed adds not an
iota of substance to the crime. Of course, “where the text of
a clause itself indicates that it does not have operative effect,

App. 258

(43 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 44 of 76

44

YOUNG V. STATE OF HAWAII

such as ‘whereas’ clauses in federal legislation or the
Constitution’s preamble, a court has no license to make it do
what it was not designed to do.” Heller, 554 U.S. at 578 n.3.
But it is entirely another endeavor to read language mixed in
among operative elements in a criminal statute as merely
purposive. See id. (“[O]perative provisions should be given
effect as operative provisions, and prologues as
prologues.”); Ratzlaf v. United States, 510 U.S. 135, 140–41
(1994) (counseling “heightened” resistance before treating
statutory terms as “words of no consequence . . . when the
words describe an element of a criminal offense”). For
instance, Maine’s 1821 Northampton analogue authorized
the arrest of “all affrayers, rioters, disturbers or breakers of
the peace, and such as shall ride or go armed offensively, to
the fear or terror of the good citizens of this State, or such
others as may utter any menaces or threatening speeches.”
1821 Me. Laws 285. If riding armed were itself unlawful
because it terrorized the good citizens of Maine, it strains
credulity to suggest that Maine drafters would have felt the
need to clarify such reasoning right in the middle of the
statute’s operative provisions. Indeed, why only clarify the
consequences of riding armed, and no other prohibited
conduct?
More troubling, reading the “to the terror” language as
merely purposive frequently places a Northampton analogue
in conflict with its neighboring criminal provisions. Take a
closer look at the Northampton analogue in chapter 97
section 13 of Delaware’s 1852 Revised Statutes, which—in
familiar fashion—authorized the arrest of “all who go armed
offensively to the terror of the people, or are otherwise
disorderly and dangerous.” Revised Statutes of the State of
Delaware, to the Year of Our Lord One Thousand Eight
Hundred and Fifty-Two, Inclusive 333 § 13 (Dover, W.B.
Keen 1852). With that provision in mind, turn to Section 30,

App. 259

(44 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 45 of 76

YOUNG V. STATE OF HAWAII

45

where the Delaware Code authorized justices of the peace to
“punish any slave . . . who shall, without the special
permission of his master, go armed with any dangerous
weapon.” Id. at 336 § 30. How might one grant another
permission to “go armed with any dangerous weapon” if one
had no lawful authority to go armed in the first place? Or
consider Tennessee’s 1831 Revised Statutes, which,
immediately after providing its standard-form Northampton
analogue, authorized sheriffs to arrest any person “armed
with the intention of committing a riot or affray.” 1 The
Statute Laws of the State of Tennessee, of a Public and
General Nature 10 (Knoxville, John Haywood & Robert L.
Cobbs 1831). Why on earth would Tennessee have so
limited a sheriff’s authorization to arrest if going armed was
itself unlawful?
Thus, utterly confused by how we might read a
Northampton analogue to prohibit all arms carry, we feel the
better approach with these statutes is to take them at their
word: an American, just like an Englishman, could not go
armed offensively to the terror of the people. Such a
reasonable restriction on public carry is perfectly consistent
with a robust right peacefully to carry a firearm in public. In
all, then, the various Northampton analogues found in states
across the United States confirm that, “whatever
Northampton banned on the shores of England,” the
American right to carry common weapons openly for selfdefense “was not hemmed in by longstanding bans on
carrying.” Wrenn, 864 F.3d at 660–61.
G
Concluding our analysis of text and review of history, we
remain unpersuaded by the County’s and the State’s
argument that the Second Amendment only has force within
the home. Once identified as an individual right focused on

App. 260

(45 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 46 of 76

46

YOUNG V. STATE OF HAWAII

self-defense, the right to bear arms must guarantee some
right to self-defense in public. While the concealed carry of
firearms categorically falls outside such protection, see
Peruta II, 824 F.3d at 939, we are satisfied that the Second
Amendment encompasses a right to carry a firearm openly
in public for self-defense. Because section 134-9 restricts
Young in exercising such right to carry a firearm openly, it
burdens conduct protected by the Second Amendment.
IV
Accordingly, we must evaluate section 134-9 under “an
appropriate level of scrutiny.” Jackson, 746 F.3d at 962. In
doing so, we consider “(1) how close the law comes to the
core of the Second Amendment right, and (2) the severity of
the law’s burden on the right.” Id. at 963 (internal quotations
omitted).
We treat this approach as a “sliding scale.” Silvester v.
Harris, 843 F.3d 816, 821 (9th Cir. 2016). On one end, “[a]
law that imposes such a severe restriction on [a] core right
[of the Amendment] that it ‘amounts to a destruction of the
. . . right,’ is unconstitutional under any level of scrutiny.”
Jackson, 746 F.3d at 961 (quoting Heller, 554 U.S. at 629).
On the other end of the spectrum, intermediate scrutiny is
appropriate if the challenged law “does not implicate a core
Second Amendment right, or does not place a substantial
burden on the Second Amendment right.” Id.
A
So, what constitutes the core of the Second Amendment?
As we know, the Second Amendment protects the right “to
keep and bear arms.” U.S. Const. amend. II. The key inquiry
is whether the core of the right encompasses both verbs, or
only one: keeping and bearing arms for self-defense, or,

App. 261

(46 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 47 of 76

YOUNG V. STATE OF HAWAII

47

more narrowly, only keeping arms for self-defense within
the home. 19
Heller aids our inquiry but provides no definitive
answer. On the one hand, in rejecting the collective view of
the right, Heller made clear that “self-defense had little to do
with the right’s codification; it was the central component of
the right itself.” 554 U.S. at 599 (emphasis in original); see
also id. at 628 (“[T]he inherent right of self-defense has been
central to the Second Amendment right.”). On the other
hand, Heller noted that “whatever else [the Amendment]
leaves to future evaluation, it surely elevates above all other
We disagree with the dissent that our circuit has already
determined whether the Second Amendment’s core applies outside the
home. Dissent at 14. As underscored by our recent en banc decision in
Teixeira v. County of Alameda, 873 F.3d 670 (9th Cir. 2017) (en banc),
our circuit has not yet decided the extent to which Second Amendment
rights—let alone core rights—exist outside of the home. See id. at 686
n.19 (“We have not decided the degree to which the Second Amendment
protects the right to bear arms outside the home.”).
19

To the extent that other cases in our circuit might have, in passing,
indicated that publicly carrying firearms falls outside the right’s core, the
question was not squarely presented in those cases because each dealt
with restrictions on keeping arms within the home. See, e.g., Chovan,
735 F.3d at 1129–30 (evaluating 18 U.S.C. § 922(g)’s prohibition on
domestic violence misdemeanants from “possessing firearms for life”).
Naturally, then, no such case seriously grappled with the existence of
core rights outside the home. Indeed, we doubt our court would have
resolved in a sentence or two an issue that the Wrenn majority and dissent
debated extensively. See Wrenn, 864 F.3d at 657–64, 668–69; see also
United States v. Johnson, 256 F.3d 895, 915 (9th Cir. 2001) (en banc)
(Kozinski, J., concurring) (“Of course, not every statement of law in
every opinion is binding on later panels. Where it is clear that a statement
is made casually and without analysis, where the statement is uttered in
passing without due consideration of the alternatives, or where it is
merely a prelude to another legal issue that commands the panel’s full
attention, it may be appropriate to re-visit the issue in a later case.”).

App. 262

(47 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 48 of 76

48

YOUNG V. STATE OF HAWAII

interests the right of law-abiding, responsible citizens to use
arms in defense of hearth and home.” 554 U.S. at 635. We
recognize that several of our sister circuits have interpreted
this language to limit the Amendment’s core to the home.
See Drake, 724 F.3d at 431; Woollard, 712 F.3d at 874;
Kachalsky, 701 F.3d at 93. But we afford little weight to
Heller’s emphasis on the application of the Second
Amendment to the home specifically, for the challenge there
exclusively concerned handgun possession in the home.
554 U.S. at 575–76; see also Drake, 724 F.3d at 445
(Hardiman, J., dissenting). And in any event, it may very
well be the case that within the core of the Amendment, selfdefense at home is “most acute.” Heller, 554 U.S. at 628.
But much of Heller’s reasoning implied a core purpose
of self-defense not limited to the home. The Court cited “at
least seven [state constitutional provisions that]
unequivocally protected an individual citizen’s right to selfdefense,” which is “strong evidence that that is how the
founding generation conceived of the right.” Id. at 603. Also
without any reference to the home, Heller noted that
“[a]ntislavery advocates routinely invoked the right to bear
arms for self-defense,” id. at 609, including Joel Tiffany,
who wrote “the right to keep and bear arms, also implies the
right to use them if necessary in self defence; without this
right to use the guaranty would have hardly been worth the
paper it consumed.” Id. (quoting Joel Tiffany, A Treatise on
the Unconstitutionality of American Slavery 117–18 (1849)).
Charles Sumner’s famous “Bleeding Kansas” speech,
quoted at length in Heller, can hardly be read without
sensing its vociferous declaration that the Second
Amendment’s core reaches self-defense on the American
frontier: “Never was this efficient weapon [the rifle] more
needed in just self-defense, than now in Kansas, and at least
one article in our National Constitution must be blotted out,

App. 263

(48 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 49 of 76

YOUNG V. STATE OF HAWAII

49

before the complete right to it can in any way be impeached.”
Id. (quoting The Crime Against Kansas, May 19–20, 1856,
in American Speeches: Political Oratory From the
Revolution to the Civil War 553, 606–07 (T. Widmer ed.
2006)); see also McDonald, 561 U.S. at 775 (“[O]ne of the
‘core purposes of the Civil Rights Act of 1866 and of the
Fourteenth Amendment was . . . to ‘affirm the full and equal
right of every citizen to self-defense.’” (quoting Akhil Amar,
The Bill of Rights: Creation and Reconstruction 264–65
(1998)).
Hence, we heed Heller’s—and McDonald’s—
admonition that citizens be allowed to use firearms “for the
core lawful purpose of self-defense.” Heller, 554 U.S. at
630, quoted in McDonald, 561 U.S. at 768; see also Wrenn,
864 F.3d at 659 (“Whatever motivated the Amendment, at
its core was the right to self-defense.”). While the
Amendment’s guarantee of a right to “keep” arms
effectuates the core purpose of self-defense within the home,
the separate right to “bear” arms protects that core purpose
outside the home. Indeed, Heller tied together the core rights
of keeping and bearing firearms in precisely the same
manner. When describing the “[f]ew laws in the history of
our Nation [that] have come close to the severe restriction of
the District’s handgun ban [within the home],” Heller
pointed to several state statutes that severely restricted the
open carrying of firearms outside the home. 554 U.S. at 629
(emphasis added) (citing Reid, 1 Ala. at 612; Nunn, 1 Ga. at
251; Andrews, 50 Tenn. at 187).
We are unpersuaded that historical regulation of public
carry requires us to remove the right to bear arms from the
Second Amendment’s core protection. See, e.g., Kachalsky,
701 F.3d at 94; United States v. Masciandaro, 638 F.3d 458,
470– 71 (4th Cir. 2011). As the D.C. Circuit has explained,

App. 264

(49 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 50 of 76

50

YOUNG V. STATE OF HAWAII

“[t]he rights to keep and to bear, to possess and to carry, are
equally important inasmuch as regulations on each must
leave alternative channels for both.” Wrenn, 864 F.3d at 662.
Regulations on public carry tend to “leave alternative
channels” for self-defense outside the home, id., because
“[w]hen a state bans guns merely in particular places, such
as public schools, a person can preserve an undiminished
right of self-defense by not entering those places,” Moore,
702 F.3d at 940. 20 The prevalence of modest regulations on
bearing arms, such as a restriction on carrying firearms in a
school-zone, does not itself indicate that bearing arms is any
less protected than keeping arms, because the Second
Amendment tolerates equally modest restrictions on keeping
firearms, such as open surface restrictions in the home.
Wrenn, 864 F.3d at 663. Thus, historical restrictions on
public carry “go to show the scope of the right, not its lack
of fundamental character.” See McDonald, 561 U.S. at 802.
In sum, we reject a cramped reading of the Second
Amendment that renders to “keep” and to “bear” unequal
guarantees. Heller and McDonald describe the core purpose
of the Second Amendment as self-defense, see Heller,
554 U.S. at 599; McDonald, 561 U.S. at 787, and “bear”
The dissent mischaracterizes the Seventh Circuit’s decision in
Moore. According to the dissent, Moore did not address whether the
“core” of the Second Amendment includes the right to bear arms outside
the home. Dissent at 3. That is incorrect. While not discussing the core
as explicitly as we do here, Moore did make clear that the Second
Amendment “confers a right to bear arms for self-defense, which is as
important outside the home as inside.” 702 F.3d at 942 (emphasis
added); see also id. at 941 (“[T]he interest in self-protection is as great
outside as inside the home.”). And at the very least, Moore rejected our
dissenting colleague’s attempt “[t]o confine the right to be armed to the
home [and thereby] to divorce the Second Amendment from the right of
self-defense described in Heller and McDonald.” Id. at 937.
20

App. 265

(50 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 51 of 76

YOUNG V. STATE OF HAWAII

51

effectuates such core purpose of self-defense in public. We
are persuaded, therefore, that the right to carry a firearm
openly for self-defense falls within the core of the Second
Amendment.
B
We next ask whether section 134-9 “amounts to a
destruction” of the core Second Amendment right to carry a
firearm openly for self-defense. Silvester, 843 F.3d at 821. If
so, the law is “unconstitutional under any level of scrutiny.”
Id.
As previously explained, section 134-9 limits the open
carry of firearms to people engaged in the protection of life
and property, and even those lucky few may carry firearms
only when in the actual course of their duties. Counsel for
the County acknowledged as much at oral argument, stating
that, to his knowledge, no one other than a security guard—
or someone similarly employed—had ever been issued an
open carry license.
Restrictions challenged under the Second Amendment
must be analyzed with regard to their effect on the typical,
law-abiding citizen. Wrenn, 864 F.3d at 665 (“[I]f the
Amendment is for law-abiding citizens as a rule, then it must
secure gun access at least for each typical member of that
class.” (emphasis omitted)). That’s because the Second
Amendment protects the right of individuals to keep and to
bear arms, not groups of individuals. See Heller, 554 U.S. at
595. An individual right that does not apply to the ordinary
citizen would be a contradiction in terms; its existence
instead would wax and wane with the whims of the ruling
majority.

App. 266

(51 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 52 of 76

52

YOUNG V. STATE OF HAWAII

Restricting open carry to those whose job entails
protecting life or property necessarily restricts open carry to
a small and insulated subset of law-abiding citizens. Just as
the Second Amendment does not protect a right to bear arms
only in connection with a militia, it surely does not protect a
right to bear arms only as a security guard. The typical, lawabiding citizen in the State of Hawaii is therefore entirely
foreclosed from exercising the core Second Amendment
right to bear arms for self-defense. 21 It follows that section
134-9 “amounts to a destruction” of a core right, and as such,
it is infirm “[u]nder any of the standards of scrutiny.” See id.
at 628. Thus, we hold that section 134-9’s limitation on the
open carry of firearms to those “engaged in the protection of
We do not address whether, after Peruta II, a concealed carry
regime could provide a sufficient channel for typical, law-abiding
citizens to exercise their right to bear arms for self-defense. See 824 F.3d
at 927. While the County’s police chief purportedly awaits an
“exceptional case” to grant a concealed carry license, section 134-9 is
effectively a ban on the concealed carry of firearms. As counsel for the
County openly admitted at oral argument, not a single concealed carry
license has ever been granted by the County. Nor have concealed carry
applicants in other counties fared much better: Hawaii counties appear
to have issued only four concealed carry licenses in the past eighteen
years. See 2000 Haw. Att’y Gen. Reps., Firearm Registrations in
Hawaii, 2000 et seq; see also City of Sausalito v. O’Neill, 386 F.3d 1186,
1223 n.2 (9th Cir. 2004) (“We may take judicial notice of a record of a
state agency not subject to reasonable dispute.”). And there is no dearth
of applicants. See, e.g., 2016 Haw. Att’y Gen. Rep., Firearm
Registrations in Hawaii, 2016 at 9 (noting all 27 applicants for concealed
licenses in the State were denied); 2015 Haw. Att’y Gen. Rep., Firearm
Registrations in Hawaii, 2015 at 9 (noting all 44 applicants for concealed
licenses in the State were denied); 2014 Haw. Att’y Gen. Rep., Firearm
Registrations in Hawaii, 2014 at 9 (noting all 21 applicants for concealed
licenses in the State were denied). Thus, even if the State and County
remain free to accommodate the right to bear arms with concealed carry
after Peruta II, an issue we do not decide, section 134-9 does not offer a
realistic opportunity for a concealed carry license.
21

App. 267

(52 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 53 of 76

YOUNG V. STATE OF HAWAII

53

life and property” violates the core of the Second
Amendment and is void; the County may not constitutionally
enforce such a limitation on applicants for open carry
licenses.
V
Notwithstanding the fact that section 134-9 eviscerates a
core Second Amendment right—and must therefore be
unconstitutional—the dissent would uphold the law under
intermediate scrutiny. We do not wish to dive into the weeds
of intermediate scrutiny, but we feel obligated to note a few
aspects of the dissent’s analysis that are patently inconsistent
not only with intermediate scrutiny, but with the judicial role
itself.
A
As an initial mistake, the dissent chooses to analyze
section 134-9 as a “good cause” requirement to carry a
firearm in public, similar to those upheld by the Second,
Third, and Fourth Circuits. Dissent at 72–73; see Kachalsky,
701 F.3d at 101; Drake, 724 F.3d at 434; Woollard, 712 F.3d
at 876. The dissent emphasizes the language of section 1349 that purportedly authorizes the issuance of a concealed
carry license in an “exceptional case.” Yet, to analyze
section 134-9 as such, the dissent must shut its eyes to the
inconvenient fact that no concealed carry license has ever
been granted by the County.
The dissent claims that we lack a factual basis to
acknowledge that reality, but the dissent is clearly wrong.
The County’s attorney conceded at oral argument that no
concealed carry license has ever been granted by the County.
The dissent gives short shrift to such concession, but it is
nothing more than elementary that a party “is bound by

App. 268

(53 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 54 of 76

54

YOUNG V. STATE OF HAWAII

concessions made in its brief or at oral argument.” Hilao v.
Estate of Marcos, 393 F.3d 987, 993 (9th Cir. 2004).
Besides, official (and thus judicially noticeable) reports from
the State’s Attorney General confirm what the County
concedes: at least since 2000, no concealed carry license has
been granted by the County. See supra, note 21. And even if
some truly “exceptional” person in the County might one
day receive a concealed carry license, it would be
extraordinary to hold such a purely hypothetical stroke of
luck to be sufficient in safeguarding a constitutional right.
The Second, Third, and Fourth Circuits certainly did not
make such a leap. Those circuits, quite unlike the dissent,
confirmed that the good cause requirements at issue did not
disguise an effective ban on the public carry of firearms. As
the Second Circuit flatly insisted, “New York’s proper cause
requirement does not operate as a complete ban on the
possession of handguns in public.” Kachalsky, 701 F.3d at
91. Likewise, the Third Circuit observed that New Jersey’s
regime provided “clear and specific” standards,
“accompanied by specific procedures that provide
‘safeguards against arbitrary official action.’” Drake,
724 F.3d at 435 (footnote omitted) (quoting Siccardi v. State,
59 N.J. 545, 555 (1971)); see also Woollard, 712 F.3d at
869, 881 & n.10 (distinguishing Maryland’s law, which
allowed for licenses on a showing of a “good and substantial
reason,” from the outright ban invalidated by Moore,
702 F.3d at 940). And each of the good cause regimes that
were upheld provided for administrative or judicial review
of any license denial, Kachalsky, 701 F.3d at 87; Drake,
724 F.3d at 429; Woollard, 712 F.3d at 870, a safeguard
conspicuously absent from Hawaii’s laws. Far from
supporting the dissent’s argument, then, the reasoning of the
Second, Third, and Fourth Circuits suggests that they too

App. 269

(54 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 55 of 76

YOUNG V. STATE OF HAWAII

55

would invalidate a firearms carry regime as restrictive as
Hawaii’s.
We should also note the perplexing nature of the
dissent’s reasoning on this point. Suppose the dissent were
correct that “[n]o record has been developed in this case”
sufficient to discount section 134-9’s “exceptional case”
avenue. Dissent at 73. Utilizing the lack of such evidence to
uphold section 134-9 as a good cause requirement—thus
rejecting Young’s claim—would plainly be inappropriate at
this juncture. Young’s action sits at the motion to dismiss
stage. Are we now to dismiss claims under Rule 12(b) for a
lack of record evidence? Of course not!
B
Beyond the dissent’s misconception about how section
134-9 operates, its analysis under intermediate scrutiny is
utterly unpersuasive.
1
First, and foremost, the dissent chooses to omit one-half
of the inquiry. According to the dissent, the only question a
court must answer under intermediate scrutiny is whether the
government action “promotes a substantial government
interest that would be achieved less effectively absent the
regulation.” Dissent at 74 (quoting Fyock v. Sunnyvale,
779 F.3d 991, 1000 (9th Cir. 2015)). That is incomplete,
because a court must also determine whether the government
action “‘burden[s] substantially more [protected conduct]
than is necessary to further’ that interest.” Turner Broad.
Sys., Inc. v. F.C.C. (Turner II), 520 U.S. 180, 213–14 (1997)
(quoting Turner Broad. Sys., Inc. v. F.C.C. (Turner I),
512 U.S. 622, 662 (1994)); see also Shapero v. Ky. Bar
Ass’n, 486 U.S. 466, 476 (1988) (invalidating a flat ban on

App. 270

(55 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 56 of 76

56

YOUNG V. STATE OF HAWAII

direct-mail solicitation by lawyers because the government
could regulate “abuses . . . through far less restrictive and
more precise means”). Thus, while intermediate scrutiny
surely does not require the government to pursue the least
restrictive means of achieving an important interest, the
substantial overbreadth or impreciseness of a government
action must be considered.
Here, however, the dissent simply points out Hawaii’s
low firearm death rate and claims victory, at no point
seriously analyzing whether the State could reduce gun
violence through means considerably more targeted than
section 134-9.
2
Confounding the dissent’s erroneous understanding of
intermediate scrutiny is its willingness to defer entirely to the
State regarding the constitutionality of section 134-9.
Dissent at 74–75. The dissent relies on the Supreme Court’s
decision in Turner Broadcasting to justify its analysis, but in
reality the decision undermines the level of deference the
dissent would offer.
“Although we do ‘accord substantial deference to the
predictive judgments’ of the legislature” when conducting
intermediate scrutiny, “the [State] is not thereby ‘insulated
from meaningful judicial review.’” Heller v. District of
Columbia (Heller II), 670 F.3d 1244, 1259 (D.C. Cir. 2011)
(quoting Turner II, 520 U.S. at 195 & Turner I, 512 U.S. at
666). Quite the contrary, a court must determine whether the
legislature has “base[d] its conclusions upon substantial
evidence.” Turner II, 520 U.S. at 196. Indeed, despite the
deference owed, the State bears the burden “affirmatively
[to] establish the reasonable fit we require.” See Bd. of Trs.
of State Univ. of N.Y. v. Fox, 492 U.S. 469, 480 (1989).

App. 271

(56 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 57 of 76

YOUNG V. STATE OF HAWAII

57

The State and County here offer some empirical studies
in support of their argument that section 134-9 is a
reasonable means of reducing gun violence, but where does
the dissent actually engage with such evidence? It doesn’t.
Its analysis of the evidence is nothing more than the
conclusory assertion that “Hawaii has met its burden by
citing to significant empirical evidence [apparently two or so
pages in its brief is “significant”] and by explaining the
logical inferences behind its policy choices.” Dissent at 75
(emphasis added).
Mere citation is an inadequate application of
intermediate scrutiny, even according deference to the
predictive judgment of a legislature, and Turner
Broadcasting itself shows why. There, the Supreme Court
extensively analyzed over the course of twenty pages the
empirical evidence cited by the government, and only then
concluded that the government’s “policy [was] grounded on
reasonable factual findings supported by evidence that is
substantial for a legislative determination.” See Turner II,
520 U.S. at 196–224. To say that the dissent’s treatment of
the State’s evidence is in any way comparable to the analysis
of Turner Broadcasting is to omit nearly the entirety of the
Court’s opinion; the Court did much more than cite-check
the government’s brief.
The dissent is comfortable letting the State perform its
intermediate scrutiny analysis because “[i]t is the
legislature’s job, not ours, to weigh conflicting evidence and
make policy judgments.” Dissent at 74 (quoting Kachalsky,
701 F.3d at 99). No statement could more clearly indicate
where the dissent goes wrong: we are certainly not
evaluating a mere “policy judgment” but rather determining
the scope and application of a constitutional right. At
bottom, the dissent would have us fundamentally reject

App. 272

(57 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 58 of 76

58

YOUNG V. STATE OF HAWAII

Heller and construe the Second Amendment as nothing more
than an illusory promise. While the dissent might think
Heller was wrongly decided, it is far beyond our power to
overrule it.
VI
We do not take lightly the problem of gun violence,
which the State of Hawaii “has understandably sought to
fight . . . with every legal tool at its disposal.” Wrenn,
864 F.3d at 667. We see nothing in our opinion that would
prevent the State from regulating the right to bear arms, for
the Second Amendment leaves the State “a variety of tools
for combatting [the problem of gun violence], including
some measures regulating handguns.” Heller, 554 U.S. at
636.
But, for better or for worse, the Second Amendment does
protect a right to carry a firearm in public for self-defense.
We would thus flout the Constitution if we were to hold that,
“in regulating the manner of bearing arms, the authority of
[the State] has no other limit than its own discretion.” Reid,
1 Ala. at 616. While many respectable scholars and activists
might find virtue in a firearms-carry regime that restricts the
right to a privileged few, “the enshrinement of constitutional
rights necessarily takes certain policy choices off the table.”
Heller, 554 U.S. at 636.

App. 273

(58 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 59 of 76

YOUNG V. STATE OF HAWAII

59

Young has indeed stated a claim that section 134-9’s
limitations on the issuance of open carry licenses violate the
Second Amendment. 22
REVERSED as to the County, DISMISSED as to the
State, 23 and REMANDED for further proceedings
consistent with this opinion. 24

CLIFTON, Circuit Judge, dissenting:
Morris Udall once observed at a congressional
committee hearing that “everything has been said but not
everyone has said it.” After decades of relative inattention,
the Second Amendment has sparked substantial comment in
the last forty years. Others have said things that reflect my
view. I do not feel the need to repeat them.

22
Because we reverse the district court on Second Amendment
grounds, we need not reach Young’s due process claim.

The appeal as to the State is dismissed for the reasons discussed
in footnote 1.
23

We deal with the pending motions as follows: (1) The County’s
motion to strike Young’s 28(j) letters, ECF No. 20, is DENIED;
(2) Young’s motion to file a supplemental brief, ECF No. 24, is
GRANTED; (3) Young’s motion to strike the State’s amicus brief, ECF
No. 36, is DENIED; (4) Young’s motion to take judicial notice, ECF
No. 80, is GRANTED IN PART, and we take judicial notice of the
Hawaii Attorney General’s 2014 Firearms Registration Report;
(5) Young’s second motion to file a supplemental brief, ECF No. 84, is
GRANTED; (6) The State’s motion to file a supplemental amicus brief,
ECF No. 92, is GRANTED.
24

App. 274

(59 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 60 of 76

60

YOUNG V. STATE OF HAWAII

Following the Supreme Court’s decisions in District of
Columbia v. Heller, 554 U.S. 570 (2008), and McDonald v.
City of Chicago, 561 U.S. 742 (2010), our court has spoken
more than once regarding the reach of the Second
Amendment. This case requires us to do so again. One
notable decision by our court was Peruta v. County of San
Diego, 742 F.3d 1144 (9th Cir. 2014) (Peruta I). It expressed
an interpretation of the Second Amendment and an
explanation for that understanding very similar to the
majority opinion in this case. This court voted to rehear
Peruta I en banc, however, and effectively overturned that
decision in Peruta v. County of San Diego, 824 F.3d 919 (9th
Cir. 2016) (en banc) (Peruta II). Our opinion in Peruta II
contained a lengthy discussion of history relevant to the
Second Amendment, including the right to bear arms in old
England, colonial America, and in the United States
following adoption of the Fourteenth Amendment. It is
sufficient for now to say that its assessment was different
from that contained in Peruta I and in the opinion of the
majority here.
The Peruta II en banc panel did not opine on the precise
question presented in this case, limiting its holding to the
conclusion that “the Second Amendment does not preserve
or protect a right of a member of the general public to carry
concealed firearms in public.” Id. at 924. As the majority
opinion notes, at 10, that decision left unresolved the
question of whether the Second Amendment supports the
right of a member of the general public to carry a firearm
openly in public.
A majority of the members of the Peruta II en banc panel
expressed additional views relevant to our current case in a
non-precedential fashion, however. In a separate concurring
opinion. Judge Graber, joined by two other members of the

App. 275

(60 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 61 of 76

YOUNG V. STATE OF HAWAII

61

panel, fully concurred in the en banc panel’s majority
opinion but went on to express the view that even if it was
assumed that the Second Amendment applied to the carrying
of concealed weapons, the restrictions at issue in that case
struck “a permissible balance between granting handgun
permits to those persons known to be in need of selfprotection and precluding a dangerous proliferation of
handguns on the streets.” Id. at 942 (internal quotation
omitted). The other four judges on the panel who made up
the majority stated that “if we were to reach that question,
we would entirely agree with the answer the concurrence
provides.” Id. In sum, seven of the eleven members of that
en banc panel expressed views that are inconsistent with the
majority opinion in this case.
Other circuit courts have weighed in as well. One other
circuit has expressed an opinion that aligns with the majority
opinion here: Wrenn v. District of Columbia, 864 F.3d 650,
665 (D.C. Cir. 2017). One has decided that the Second
Amendment protects the right to carry firearms in public,
generally agreeing with the conclusion of the majority here,
but it did not describe that right as part of the “core” of the
Second Amendment, as the majority has here: Moore v.
Madigan, 702 F.3d 933 (7th Cir. 2012). Three others have
reached contrary conclusions: Drake v. Filko, 724 F.3d 426
(3d Cir. 2013), Woollard v. Gallagher, 712 F.3d 865 (4th
Cir. 2013), and Kachalsky v. County of Westchester,
701 F.3d 81 (2d Cir. 2012).
In light of the already existing circuit split, I assume that
the Supreme Court will find it appropriate at some point to
revisit the reach of the Second Amendment and to speak
more precisely to the limits on the authority of state and local
governments to impose restrictions on carrying guns in
public. In the meantime, this court and our counterparts

App. 276

(61 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 62 of 76

62

YOUNG V. STATE OF HAWAII

elsewhere will do the best we can to sort out the conflicting
arguments. I respect the opinion of the majority, but my
conclusion is different.
H.R.S. § 134-9 regulates both open carry and concealed
carry. Open carry licenses are available to those who are
“engaged in the protection of life and property” and “[w]here
the urgency or the need has been sufficiently indicated.”
Concealed carry licenses are available “[i]n an exceptional
case, when an applicant shows reason to fear injury to the
applicant’s person or property.” H.R.S. § 134-9.
In my view, this statutory scheme is the same type of
“good cause” public carry regulation that the Second, Third,
and Fourth Circuits upheld in Kachalsky, Drake, and
Woollard, respectively. Good cause licensing schemes, and
extensive state regulation of public carry more generally,
have a long history in the United States. While explicitly
declining to elaborate on specific regulations, the Supreme
Court in Heller expressly noted that the right secured by the
Second Amendment is “not unlimited” and that there were
“longstanding prohibitions” that were “presumptively
lawful.” Heller, 554 U.S. at 626–27 & n. 26. I would hold
that Hawaii’s statute is a longstanding, presumptively lawful
regulation under Heller. At a minimum, the statute survives
intermediate scrutiny, as the core of the Second Amendment
does not include a general right to publicly carry firearms
and there is a reasonable fit between the licensing scheme
and Hawaii’s legitimate interest in promoting public safety.
As a result, I respectfully dissent. As promised, I will try
not to repeat all that has already been said by other judges. I
will limit my comments to a few additional thoughts about
the historical record and the application of intermediate
scrutiny to the statute at hand.

App. 277

(62 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 63 of 76

YOUNG V. STATE OF HAWAII

63

I. History
The majority opinion’s conclusions rest heavily on
historical analysis in the vein of the Supreme Court’s
decisions in Heller and McDonald. The premise of that
approach is that the history of firearms regulations prior to
the adoption of the Second Amendment and in the decades
that followed that adoption shed light on the right that the
founders intended to provide. Much of the analysis offered
in the majority opinion repeats what was said in Peruta I,
despite the en banc rejection of that opinion in Peruta II.
The discussion in the majority opinion is incomplete, at
best. Throughout our history, states and their predecessor
colonies and territories have taken divergent approaches to
the regulation of firearms. While some, like the states that
the majority cites, have historically allowed for a general
right to publicly carry firearms, many others have not.
“History and tradition do not speak with one voice here.
What history demonstrates is that states often disagreed as to
the scope of the right to bear arms, whether the right was
embodied in a state constitution or the Second Amendment.”
Kachalsky, 701 F.3d at 91.
The majority opinion supports its conclusion by focusing
solely on the laws and decisions from one region, the
antebellum South. Take a look at the jurisdictions relied
upon by the majority opinion, at 19–23: Kentucky,
Tennessee, Alabama, Georgia, and Louisiana. What jumps
out is that those were all slave states, and the decisions relied
upon by the majority opinion all date from before the Civil
War. The majority opinion affirmatively acknowledges, at
28–32, the peculiar pattern of southern states following the
Civil War, during the era of Black Codes and efforts to keep
firearms out of the hands of former slaves, but it fails to
appreciate that the peculiarity did not start in 1865. To

App. 278

(63 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 64 of 76

64

YOUNG V. STATE OF HAWAII

suggest that the approach of the antebellum South reflected
a national consensus about the Second Amendment’s
implications for public carry of firearms is misguided. The
cases from the antebellum South relied upon by the majority
“did not emerge in a vacuum and do not reflect the full range
of American legal history. Rather, they come from a time,
place, and culture where slavery, honor, violence, and the
public carrying of weapons were intertwined.” Eric M.
Ruben & Saul Cornell, Firearm Regionalism and Public
Carry, 125 Yale L.J. F. 121, 125 (2015), http://www.yalela
wjournal.org/forum/firearm-regionalism-and-public-carry.
A more balanced historical analysis reveals that states
have long regulated and limited public carry of firearms and,
indeed, have frequently limited public carry to individuals
with specific self-defense needs. Hawaii’s regulatory
framework fits squarely into that long tradition.
There are two legal conclusions to be drawn from a more
thorough historical analysis. First, good cause licensing
schemes are longstanding and, therefore, are presumptively
lawful limitations on public carry of firearms under Heller.
Second, even if they are not presumptively lawful, the
widespread and longstanding nature of such schemes
supports the conclusion that a general right to publicly carry
firearms is not part of the core of the Second Amendment.
A. An Overview of State Regulation of Public Carry
Other decisions have detailed much of the history of
regulations and limitations on public carry, so I need not
fully reiterate that history here. I will instead provide only a
brief overview of the tradition of regulation of public carry,
with reference to the analysis performed by our court and
other circuits where appropriate.

App. 279

(64 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 65 of 76

YOUNG V. STATE OF HAWAII

65

As we recognized in our en banc Peruta II decision,
regulation of public carry has its roots in English law. Dating
back to the thirteenth century, England regulated public
carry of firearms, including both concealed and concealable
weapons. See Peruta II, 824 F.3d at 929–32 (citing, inter
alia, the Statute of Northampton, which prohibited men “to
go nor ride armed by night nor by day, in Fairs, Markets, nor
in the presence of the Justices or other Ministers, nor in no
part elsewhere” and subsequent laws emphasizing that the
Statute prohibited the carrying of concealable weapons). 1 In
the colonial period, several colonies “adopted verbatim, or
almost verbatim, English law” that limited or banned public
carry. Id. at 933.
In the late 18th and 19th centuries, states began to
develop good cause limitations or otherwise continued to
limit public carry. The Second Circuit detailed much of the
19th century history in Kachalsky, 701 F.3d at 90–93.
The majority’s analysis of English law and the colonies’ treatment
of English law, at 36–45, is also flawed. For example, the majority
assumes that historical regulations authorizing the arrest of or
criminalizing going armed “to the fear or terror” of the public mean that
the person who goes armed must have had the intent to terrify the public.
See, e.g., Maj. Op. at 42–45. But the majority opinion does not cite
adequate authority for that proposition, and there is no consensus that
supports such an interpretation. Another equally reasonable
interpretation is that these statutes meant that a member of the general
public could not go armed because to do so would terrify the people, and
the statutes included this language to “highlight[] the importance of the
police power in preventing the dangers imposed by public carrying . . . .
The terminology did not legally require circumstances where carrying of
arms was unusual and therefore terrifying. Instead, the act of riding or
going armed among the people was deemed terrifying itself and
considered a breach against the public peace.” Patrick J. Charles, The
Faces of the Second Amendment Outside the Home, 60 Clev. St. L. Rev.
1, 33 (2012).
1

App. 280

(65 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 66 of 76

66

YOUNG V. STATE OF HAWAII

Massachusetts, for example, first adopted a good cause
statute in 1836. Its law provided an exception to its limitation
on public carry for those with “reasonable cause to fear an
assault or other injury, or violence to his person, or to his
family or property.” 1836 Mass. Laws 748, 750, ch. 134,
§ 16. Under this law, any person who went armed without
such good cause “may, on complaint of any person having
reasonable cause to fear an injury or breach of the peace, be
required to find sureties for keeping the peace.” Id.
Wisconsin, Oregon, Minnesota, Michigan, Virginia, and
Maine adopted similar laws. See Act to Prevent the
Commission of Crimes, § 16, reprinted in The Statutes of the
Territory of Wisconsin 379, 381 (1839) (restricting “go[ing]
armed with a . . . pistol or pistols, or other offensive and
dangerous weapon, without reasonable cause to fear an
assault or other injury.”); Proceedings to Prevent
Commission of Crimes, ch. 16, § 17, 1853 Or. Laws 220
(restricting any person from going armed with “pistol, or
other offensive and dangerous weapon, without reasonable
cause to fear an assault, injury, or other violence to his
person, or to his family or property.”); Of Proceedings to
Prevent the Commission of Crime, ch. 193, § 16, reprinted
in Thomas M. Cooley, Compiled Laws of the State of
Michigan 1572 (1857) (restricting any person from going
armed with a “pistol, or other offensive and dangerous
weapon, without reasonable cause to fear an assault or other
injury”); Of Proceedings to Prevent the Commission of
Crimes, 1847 Va. Laws 129, ch. 14, § 16 (restricting
“go[ing] armed with any offensive or dangerous weapon
without reasonable cause to fear an assault or other injury”);
Of Proceedings to Prevent the Commission of Crimes, ch.
112, § 18, Rev. Stat. Minn. 528 (1851) (restricting “go[ing]
armed with a . . . pistol or pistols, or other offensive and
dangerous weapon, without reasonable cause to fear an
assault or other injury.”); Of Proceedings for Prevention of

App. 281

(66 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 67 of 76

YOUNG V. STATE OF HAWAII

67

Crimes, ch. 169, § 16, Rev. Stat. Me. 709 (October 22, 1840)
(“Any person, going armed with any dirk, dagger, sword,
pistol, or other offensive and dangerous weapon, without a
reasonable cause to fear an assault on himself, or any of his
family or property, may . . . be required to find sureties for
keeping the peace.”). 2
After the Civil War, additional states adopted laws
similar to the Massachusetts good cause model. Texas, for
example, prohibited “[a]ny person [from] carrying on or
about his person” certain weapons, including pistols, but
provided an affirmative defense if the defendant could show
that he was “in danger of an attack on his person” that was
“immediate and pressing.” An Act to Regulate the Keeping
and Bearing of Deadly Weapons, ch. 35, §§ 1–2, 1871 Tex.
Laws 25 (discussed in State v. Duke, 42 Tex. 455 (1874)).
Several other states and territories also adopted full open
carry bans during this time. See An Act Defining and
Punishing Certain Offenses Against the Public Peace, § 1,
1889 Ariz. Sess. Laws 16 (prohibiting any person within any
settlement from “carry[ing] on or about his person, saddle,
or in his saddlebags, any pistol.”); An Act to Prevent the
Carrying of Fire Arms and Other Deadly Weapons, ch. 52,
§ 1, Wyo. Comp. Laws 352 (1876) (declaring that it is
unlawful for any resident of or visitor to a city or village to
“bear upon his person, concealed or openly, any fire arm or
other deadly weapon.”); An Act Regulating the Use and
The majority considers these types of regulations unpersuasive
because of the citizen-complaint mechanism used to enforce some of
these laws. See Maj. Op. at 33–34. But the point here is that states have
long regulated public carry and specifically provided exceptions to their
regulations for those with specific self-defense needs. The fact that the
public carry regulations may have been triggered by citizen-complaint
mechanisms does not change the states’ recognition that public carry
may be limited.
2

App. 282

(67 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 68 of 76

68

YOUNG V. STATE OF HAWAII

Carrying of Deadly Weapons in Idaho Territory, § 1, 1888
Idaho Sess. Laws 23 (declaring that it is unlawful for anyone
who is not a state or federal employee on duty “to carry,
exhibit or flourish any . . . pistol, gun or other deadly
weapons, within the limits or confines of any city, town or
village.”); 1881 Kan. Sess. Laws 92, ch. 37, § 23 (“The
council shall prohibit and punish the carrying of firearms, or
other dangerous or deadly weapons, concealed or
otherwise.”).
Numerous states adopted good cause limitations on
public carry in the early 20th century. Laws from this time
period may also be considered “longstanding” under Heller.
See Heller v. District of Columbia, 670 F.3d 1244, 1253
(D.C. Cir. 2011) (noting that the Supreme Court “considered
prohibitions on the possession of firearms by felons to be
longstanding although states did not start to enact them until
the early 20th century.” (internal quotation marks omitted)).
Indeed, Hawaii’s law dates to this time. 1927 Haw. Laws
209, act 206, § 7; see also 1913 N.Y. Laws 1629 (requiring
a showing of “proper cause”); Drake, 724 F.3d at 432
(explaining that New Jersey’s “justifiable need” standard
based on “special danger” for public carry licenses has
existed in some form for nearly 90 years, beginning in 1924).
Other states imposed other public carry restrictions.
Oklahoma, for example, established strict limits on public
carry. See Will T. Little et al., The Statutes of Oklahoma,
495–96, § 2 (1890) (“It shall be unlawful for any person in
this territory of Oklahoma, to carry upon or about his person
any pistol, revolver . . . or any other offensive or defensive
weapon.”). A more comprehensive review demonstrates that
state regulation of public carry has existed throughout
United States history, and that there is a long history of
regulations similar to Hawaii’s statute.

App. 283

(68 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 69 of 76

YOUNG V. STATE OF HAWAII

69

B. Good Cause Regulations Are Longstanding and
Presumptively Lawful
The longstanding and widespread nature of these
regulations is determinative as we decide on the
constitutionality of Hawaii’s regulatory framework. As
noted above, the Supreme Court emphasized in Heller that
nothing in its opinion “should be taken to cast doubt” on the
legitimacy of various longstanding limitations on the carry
of firearms and that the list of “presumptively lawful
regulatory measures” it specifically mentioned did not
“purport to be exhaustive.” Heller, 554 U.S. at 626–27 n. 26.
In Drake, the Third Circuit concluded that New Jersey’s
limitations on public carry to those with a justifiable need to
carry a handgun due to “special danger to the applicant’s life
that cannot be avoided by [other] means” are such
longstanding regulations that they join this presumptively
lawful list. 724 F.3d at 428, 431–34. Hawaii’s limitation on
public carry to those with a fear of injury is very similar to
New Jersey’s regime. Based on the analysis in that decision
and the history discussed above, I conclude that Hawaii’s
scheme should likewise be presumptively lawful under
Heller. 3

The majority opinion elects to disregard these enactments because
it says it does not know the level of enforcement and cannot discern
whether they were enacted “with a militia or a self-defense oriented view
of the right to bear arms in mind.” Maj. Op. at 35 n. 13. Those
explanations do not speak to the point, though. States did in fact adopt
these limitations on the carry of firearms, presuming the limitations to be
lawful and consistent with the Second Amendment, and they did so long
ago, making the restrictions long-established regulatory measures that
are presumptively lawful.
3

App. 284

(69 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 70 of 76

70

YOUNG V. STATE OF HAWAII
C. Public Carry Is Not the Core of the Second
Amendment

Even if Hawaii’s regulations were not presumptively
lawful, it is plain from the long history of state regulation
that a general right to publicly carry firearms is not part of
the “core” of the Second Amendment. As the Second Circuit
held in Kachalsky, “[t]he historical prevalence of the
regulation of firearms in public demonstrates that while the
Second Amendment’s core concerns are strongest inside
hearth and home, states have long recognized a
countervailing and competing set of concerns with regard to
handgun ownership and use in public. . . . Because our
tradition so clearly indicates a substantial role for state
regulation of the carrying of firearms in public, we conclude
that intermediate scrutiny is appropriate in this case.”
Kachalsky, 701 F.3d at 96.
The majority opinion is simply incorrect when it
concludes, at 32, that “the important founding-era treatises,
the probative nineteenth century case law, and the post-civil
war legislative scene each reveal a single American voice.”
As demonstrated by the discussion above, there was no
single voice on this question, as there is not today.
The majority’s assertion that our court has not yet
concluded that the core of the Second Amendment is focused
on self-defense in protection of hearth and home is also
incorrect. We have repeatedly made statements to that effect.
See Jackson v. Cty. of San Francisco, 746 F.3d 953, 963–64
(9th Cir. 2014) (“On its face, section 4512 implicates the
core because it applies to law-abiding citizens, and imposes
restrictions on the use of handguns within the home. . . .
Having to retrieve handguns from locked containers or
removing trigger locks makes it more difficult ‘for citizens
to use them for the core lawful purpose of self-defense’ in

App. 285

(70 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 71 of 76

YOUNG V. STATE OF HAWAII

71

the home.” (quoting Heller, 554 U.S. at 630)); United States
v. Chovan, 735 F.3d 1127, 1138 (9th Cir. 2013) (“Heller tells
us that the core of the Second Amendment is ‘the right of
law-abiding, responsible citizens to use arms in defense of
hearth and home.’” (quoting Heller, 554 U.S. at 635)); Bauer
v. Becerra, 858 F.3d 1216, 1222 (9th Cir. 2017) (“Heller
identified the core of the Second Amendment as the right of
law-abiding, responsible citizens to use arms in defense of
hearth and home.” (internal quotation marks omitted)). It is
true that “[w]e have not decided the degree to which the
Second Amendment protects the right to bear arms outside
the home.” See Teixeira v. Cty. of Alameda, 873 F.3d 670,
686 n. 19 (9th Cir. 2017) (en banc). But despite the majority
opinion’s assertion, Maj. Op. at 47 n. 19, Teixeira did not
say that we have not mapped the “core” of the Second
Amendment. The cases cited above have spoken to that
subject.
Many of the other circuits have defined the core of the
Second Amendment as our prior cases have. See Drake,
724 F.3d at 431 (stating that “the individual right to bear
arms for the purpose of self-defense” in the home is “the
‘core’ of the right as identified by Heller.”); Kachalsky,
701 F.3d at 89, 94 (“Heller explains that the ‘core’
protection of the Second Amendment is the ‘right of lawabiding, responsible citizens to use arms in defense of hearth
and home.’” (quoting Heller, 554 U.S. at 634–35)); United
States v. Masciandaro, 638 F.3d 458, 467 (4th Cir. 2011)
(“[T]here now exists a clearly-defined fundamental right to
possess firearms for self-defense within the home.”); Bonidy
v. U.S. Postal Serv., 790 F.3d 1121, 1126 (10th Cir. 2015)
(“If Second Amendment rights apply outside the home, we
believe they would be measured by the traditional test of
intermediate scrutiny.”); Nat’l Rifle Ass’n of America, Inc. v.
ATFE, 700 F.3d 185, 193 (5th Cir. 2012) (“The [Heller]

App. 286

(71 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 72 of 76

72

YOUNG V. STATE OF HAWAII

Court invalidated the laws because they violated the central
right that the Second Amendment was intended to protect—
that is, the ‘right of law-abiding, responsible citizens to use
arms in defense of hearth and home.’” (quoting Heller,
554 U.S. at 635) (emphasis in original)). I am thus joined by
most of the other circuits that have spoken to the question in
defining the core of the Second Amendment as defense of
hearth and home. My understanding is firmly grounded in
the long history of allowing substantial state regulation of
public carry.
II. Intermediate Scrutiny
Because I conclude that Hawaii’s regulatory framework
does not “impose[] such a severe restriction on the
fundamental right of self defense of the home that it amounts
to a destruction of the Second Amendment right,” the most
demanding level of review that can be applied to Hawaii’s
regulatory framework is intermediate scrutiny. Silvester v.
Harris, 843 F.3d 816, 821 (9th Cir. 2016). It appears to me
that there is a reasonable fit between Hawaii’s public carry
regulations and its unquestionably legitimate goal of
promoting public safety so that Hawaii’s statute would pass
constitutional muster. Given the stage of the case and the
direction of the majority, it does not seem worthwhile to try
to launch a complete intermediate scrutiny analysis at this
point. I note, however, that the majority opinion makes some
critical errors in declining to consider that analysis.
First, Hawaii does provide an alternative mode of access
to publicly carry firearms for self-defense. As we stated in
Jackson, “firearm regulations which leave open alternative
channels for self-defense are less likely to place a severe
burden on the Second Amendment right than those which do
not.” 746 F.3d at 961. Under Hawaii’s law, citizens may
obtain a concealed carry permit if they can show reason to

App. 287

(72 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 73 of 76

YOUNG V. STATE OF HAWAII

73

fear injury. They thus are not “entirely foreclosed” from
obtaining a permit to bear arms in public for self-defense, as
asserted in the majority opinion, at 52. Moreover, the
majority opinion’s assessment, at 52 n. 21, that “section 1349 does not offer a realistic opportunity for a concealed carry
license” lacks support in the record. No record has been
developed in this case, so a conclusion that the regulation
acts as a total ban is unsupported. It may be, as stated at oral
argument, that no concealed carry permit has been issued by
the County, but we have no information whatsoever about
the applicants for concealed carry permits, let alone enough
information to support a finding that those applicants would
have been eligible for a permit even if Hawaii had a “shallissue” regime. Under our precedent, the fact that Hawaii may
provide an alternative channel for public carry should weigh
in favor of finding that the law withstands constitutional
scrutiny. 4
This point speaks to a broader problem with the majority’s
analysis. Throughout its opinion, the majority attempts to focus only on
whether the Second Amendment protects a right to open carry, based on
an erroneous assumption that any other analysis is foreclosed by our
decision in Peruta II. I do not agree with this approach, and its
artificiality becomes clear when we move to the intermediate scrutiny
analysis. Peruta II specifically declined to decide not only whether the
Second Amendment protects open carry, but also whether it protects “a
right of a member of the general public to carry firearms in public.”
Peruta II, 824 F.3d at 927. In applying intermediate scrutiny, the
majority opinion specifically states, at 49 n. 16, that it does not address
whether “a concealed carry regime could provide a sufficient channel for
typical, law-abiding citizens to exercise their right to bear arms for selfdefense.” But this is illogical. The existence of alternative access to
public carry for self-defense in the form of concealed carry is
unquestionably relevant in an intermediate scrutiny analysis. Nothing in
Peruta II said otherwise. If we apply intermediate scrutiny, we must
consider the statute as a whole, rather than pretending that Hawaii has
instituted a complete ban on public carry, both open and concealed.
4

App. 288

(73 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 74 of 76

74

YOUNG V. STATE OF HAWAII

Second, the majority’s decision to pick apart the various
studies cited by the state ignores the Supreme Court’s dictate
to “accord substantial deference to the predictive judgments”
of the state legislature. Turner Broadcasting Sys., Inc. v.
F.C.C., 520 U.S. 180, 195 (1997) (internal quotation marks
omitted). As the Second Circuit stated in Kachalsky, “[i]t is
the legislature’s job, not ours, to weigh conflicting evidence
and make policy judgments.” Kachalsky, 701 F.3d at 99; see
also Drake, 724 F.3d at 439 (noting that “conflicting
empirical evidence . . . does not suggest, let alone compel, a
conclusion that the ‘fit’ between [a state’s] individualized,
tailored approach and public safety is not ‘reasonable.’”).
The test is not whether the state has provided flawless
empirical analysis that is immune to dispute to support its
reasonable conclusion that the regulatory measures promote
public safety. That limiting public carry of firearms may
have a positive effect on public safety is hardly a illogical
proposition. Many other states appear to have reached
similar conclusions, and so have most other nations.
Although the majority may not like the outcomes of
those studies, and may even disagree with their approaches,
intermediate scrutiny does not allow us to dismiss statutes
based on our own policy views or disagreements with
aspects of the analyses cited. In an intermediate scrutiny
analysis, Hawaii is not required to show that its regulatory
scheme “is the least restrictive means of achieving its
interest” in public safety, but rather need only show that the
scheme “promotes a substantial government interest that
would be achieved less effectively absent the regulation.”
Fyock v. Sunnyvale, 779 F.3d 991, 1000 (9th Cir. 2015)
(internal quotation marks omitted).

App. 289

(74 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 75 of 76

YOUNG V. STATE OF HAWAII

75

Hawaii has met its burden by citing to significant
empirical evidence and by explaining the logical inferences
behind its policy choices. See IMS Health Inc. v. Ayotte, 550
F.3d 42, 55 (1st Cir. 2008) (abrogated on other grounds by
Sorrell v. IMS Health Inc., 564 U.S. 552 (2011) (explaining
that under intermediate scrutiny states are “allowed to justify
speech restrictions by reference to studies and anecdotes”
and “history, consensus, and simple common sense”
(internal quotation marks omitted)). As other circuits have
held in Kachalsky, Drake, and Woollard, and as a majority
of the judges on our en banc panel indicated in Peruta II,
there is a reasonable fit between good cause limitations on
public carry licenses and public safety. See Kachalsky,
701 F.3d at 96–100; Drake, 724 F.3d at 439–40; Woollard,
712 F.3d at 878–82; Peruta II, 824 F.3d at 942.
Hawaii has a very low firearm death rate as compared to
other states: 4.5 deaths per 100,000 total population. See
National Center for Health Statistics, Firearm Mortality by
State,
https://www.cdc.gov/nchs/pressroom/sosmap/firearm_mort
ality/firearm.htm. There are undoubtedly many factors that
lead to that result, but we should not ignore the evidence that
Hawaii has been highly successful in limiting firearm deaths
and promoting public safety. Hawaii has shown that there is
a reasonable fit between its statutory scheme and public
safety, and the state’s decision is owed deference. Any
conclusion otherwise disregards our proper role in an
intermediate scrutiny analysis.
III.

Conclusion

The majority opinion goes astray in several respects.
Most obviously, the majority opinion has disregarded the
fact that states and territories in a variety of regions have
long allowed for extensive regulations of and limitations on

App. 290

(75 of 91)

Case: 12-17808, 07/24/2018, ID: 10952459, DktEntry: 128-1, Page 76 of 76

76

YOUNG V. STATE OF HAWAII

the public carry of firearms. Many have taken the approach
that Hawaii has taken for almost a century. Such regulations
are presumptively lawful under Heller and do not undercut
the core of the Second Amendment. In addition, the majority
opinion misconceives the intermediate scrutiny test, assumes
without support in the record that Hawaii’s statute operates
as a complete ban, and substitutes its own judgment about
the efficacy of less restrictive regulatory schemes. This
approach is in conflict with Supreme Court precedent, our
own decisions, and decisions by other circuits.
I respectfully dissent.

App. 291

(76 of 91)

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 1 of 40

PageID #: 221

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
GEORGE K. YOUNG, JR.,
Plaintiff,
vs.
STATE OF HAWAII and NEIL
ABERCROMBIE in his capacity
as Governor of the State of
Hawaii; DAVID M. LOUIE in his
capacity as State Attorney
General; COUNTY OF HAWAII, as
a sub-agency of the State of
Hawaii and WILLIAM P. KENOI
in his capacity as Mayor of
the County of Hawaii; and the
HILO COUNTY POLICE
DEPARTMENT, as a sub-agency
of the County of Hawaii and
HARRY S. KUBOJIRI in his
capacity as Chief of Police;
JOHN DOES 1-25; JANE DOES 125; CORPORATIONS 1-5, and DOE
ENTITIES 1-5,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Civ. No. 12-00336 HG BMK

ORDER GRANTING COUNTY OF HAWAII OFFICIAL DEFENDANTS’ MOTION TO
DISMISS (DOC. 23) AND STATE OF HAWAII DEFENDANTS’ MOTION TO
DISMISS (DOC. 25)
Plaintiff George K. Young, Jr. sues County and State
Officials alleging violations of 42 U.S.C. §§ 1983, 1985 and 1986
in the denial of his application for a license to carry a weapon
in public, pursuant to Hawaii Revised Statute § 134-9. Plaintiff
asserts that the enforcement of Hawaii Revised Statutes §§ 134-6
and 134-9 violate the rights guaranteed him by Article I of the
United States Constitution, and by the Second, Ninth, and
1
App. 292

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 2 of 40

Fourteenth Amendments.

PageID #: 222

To remedy the alleged violations,

Plaintiff seeks damages, an order enjoining the enforcement of
Chapter 134 of Hawaii Revised Statutes, and a three-year permit
for carrying a weapon in public.
Defendants move to dismiss the Complaint.
Plaintiff's claims against the State and State Officials are
barred by the doctrine of sovereign immunity.

Plaintiff’s claims

against the County and County Officials fail because Plaintiff
has not alleged a Constitutional violation.
The Court GRANTS Defendants’ Motions to Dismiss Plaintiff’s
Complaint.
PROCEDURAL HISTORY
On June 12, 2012, Plaintiff filed a Complaint. (Doc. 1.)
On August 10, 2012, the County Official Defendants filed a
Motion to Dismiss Plaintiff's Complaint. (Doc. 23.) The County of
Hawaii and Hilo County Police Department were never served.
On August 16, 2012, the State of Hawaii Defendants filed a
Motion to Dismiss Plaintiff's Complaint. (Doc. 25.)
On September 6, 2012, Plaintiff filed an Opposition to the
Motions to Dismiss. (Doc. 29.)
On October 1, 2012, the County of Hawaii Officials
Defendants filed a Reply. (Doc. 33.)
On October 1, 2012, the State of Hawaii Defendants filed a
Reply.

(Doc. 34.)

2
App. 293

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 3 of 40

PageID #: 223

The Court elected to decide the matter without a hearing
pursuant to Local Rule 7.2(d).
BACKGROUND
A.

Factual Allegations Set Forth In The Complaint
The Complaint alleges that Defendants violated Plaintiff

George K. Young, Jr.’s rights under the United States
Constitution by denying his applications for a license to carry a
firearm, pursuant to Hawaii Revised Statute (“HRS”) § 134-9.
Plaintiff also alleges that HRS § 134-6, which was repealed in
2006, is unconstitutional.
B.

Legal Allegations Set Forth In The Complaint
The Complaint sets out claims asserting that HRS §§ 134-6

and 134-9 (“Hawaii’s Firearm Carrying Laws”) violate Plaintiff’s
rights guaranteed by Article I of the United States Constitution,
and by the Second, Ninth, and Fourteenth Amendments.
Plaintiff’s primary contention involves HRS § 134-9,
Hawaii’s License to Carry Law. The law conditions the ability to
carry a pistol or revolver and ammunition in public. Haw. Rev.
Stat. § 134-9.
The other challenged provision, HRS § 134-6, was repealed in
2006 and replaced by HRS §§ 134-21 through 134-27.

See Act 66, §

6, of the 2006 Haw. Sess. Laws; State v. Ancheta, 220 P.3d 1052
(Haw.Ct.App. 2009)(noting the similarity between HRS § 134-6 and
the replacement statutes). The statutes at issue regulate the
transportation of weapons outside of a person’s private property.
3
App. 294

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 4 of 40

PageID #: 224

People who hold a License to Carry, pursuant to HRS § 134-9, are
exempt from the provisions.
Counts One through Five allege the following claims against
all Defendants:
COUNT ONE - "(42 U.S.C. § 1983, 1985, 1986) Violation of
U.S. Constitution, Article I, Section 10, Cls. 1: ‘No State
shall . . . pass . . . any Bill of Attainder. . .’”
COUNT TWO - "(42 U.S.C. 1983, 1985, 1986) Violation of U.S.
Constitution, Article I, Section 10: ‘No State shall . . .
pass any . . . law impairing the Obligations of
Contract . . .’”
COUNT THREE - "Violation of U.S. Constitution, Amendment II"
COUNT FOUR - "Violation of U.S. Constitution, Amendment IX"
COUNT FIVE - "Violation of U.S. Constitution, Amendment XIV
‘. . .No State shall make or enforce any law which shall
abridge the privileges and immunities of citizens of the
United States . . . ‘"
The Complaint also alleges a cause of action under the Due
Process Clause of the Fourteenth Amendment. (Complaint at pg. 6.)
Plaintiff requests a permanent injunction preventing the
enforcement of HRS Chapter 134, damages, and punitive damages. He
also requests that he be immediately issued a permit to carry an
unconcealed or concealed weapon for three years.
C.

Plaintiff’s Previous Cases
Plaintiff has previously filed two similar Complaints in the

Federal District of Hawaii. In the first case, Young v. Hawaii,
548 F.Supp.2d 1151 (D. Haw. 2008)(“Young I”), Plaintiff sued
State and County Officials based on the denial of his application
to carry a weapon in public. The factual and legal basis are
4
App. 295

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 5 of 40

PageID #: 225

nearly identical to the case before the Court. On March 12, 2008,
the District Court dismissed the Complaint with prejudice. The
Court held that sovereign immunity barred suit against the State
and State officials. As to the County, the Court held that
Plaintiff lacked standing to sue for a Second Amendment
violation, reflecting the state of the law at the time of the
decision.
In the second case, Young v Hawaii, No. 08-00540, 73 Fed.R.
Serv.3d 1635 (D. Haw. Jul. 2, 2009)(“Young II”), Plaintiff
alleged the same violations as in Young I after he was again
denied a permit after reapplying. Three differences existed
between Young I and Young II. First, in Young II, Plaintiff
brought causes of action against County Officials in their
individual capacities, as well as official capacities. Second,
after Young I, the Supreme Court of the United States decided
Heller v. District of Columbia, 540 U.S. 570 (2008), holding that
the Second Amendment of the United States Constitution conferred
a limited right to individuals to keep and bear arms. Third, at
the time of the District Court’s Order, the Ninth Circuit Court
of Appeals held that the Second Amendment applied to the states,
not just to the federal government. Nordyke v. King, 563 F.3d 439
(9th Cir. 2009), vacated, 611.F.3d 1015 (9th Cir. 2010)(remanding
back to panel after McDonald v. City of Chicago), rehearing en
banc, 681 F.3d 1041 (9th Cir. 2012). While Heller and King did
confer standing on Plaintiff to challenge an alleged infringement
5
App. 296

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 6 of 40

PageID #: 226

of his Second Amendment right, Plaintiff was estopped from
bringing the claims a second time due to the preclusive effect of
Young I.
STANDARD OF REVIEW
Defendants move to dismiss the alleged causes of action in
Counts I through V, pursuant to Federal Rule of Civil Procedure
12(b)(6).

The Court may dismiss a complaint as a matter of law

pursuant to Rule 12(b)(6) where it fails “to state a claim upon
which relief can be granted.” Rule 8(a)(2) of the Federal Rules of
Civil Procedure requires “a short and plain statement of the claim
showing that the pleader is entitled to relief.”

When considering

a Rule 12(b)(6) motion to dismiss, the Court must presume all
allegations of material fact to be true and draw all reasonable
inferences in favor of the non-moving party.
139 F.3d 696, 699 (9th Cir. 1998).

Pareto v. F.D.I.C.,

Conclusory allegations of law

and unwarranted inferences are insufficient to defeat a motion to
dismiss.

Id.

at

699.

The

Court

need

not

accept

as

true

allegations that contradict matters properly subject to judicial
notice or allegations contradicting the exhibits attached to the
complaint.

Sprewell v. Golden State Warriors, 266 F.3d 979, 988

(9th Cir. 2001).
In Bell Atl. Corp. v. Twombly, the United States Supreme Court
addressed the pleading standards under the Federal Rules of Civil
Procedure in the anti-trust context.

550 U.S. 544 (2007).

The

Supreme Court stated that Rule 8 of the Federal Rules of Civil
6
App. 297

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 7 of 40

Procedure

“requires

more

than

labels

and

PageID #: 227

conclusions,

and

a

formulaic recitation of the elements of a cause of action,” and
that “[f]actual allegations must be enough to raise a right to
relief above the speculative level.”
Most

recently,

in

Ashcroft

v.

Id. at 555.
Iqbal,

the

Supreme

Court

clarified that the principles announced in Twombly are applicable
in all civil cases.

556 U.S. 662 (2009).

The Court stated that

“the pleading standard Rule 8 announces does not require ‘detailed
factual allegations,’ but it demands more than an unadorned, thedefendant-unlawfully-harmed-me-accusation.”
Twombly, 550 U.S. at 555).

Id. at 678 (citing

To survive a motion to dismiss, a

complaint must contain sufficient factual matter, accepted as true,
to state a claim to relief that is plausible on its face.
(quoting

Twombly,

550

U.S.

at

570).

A

claim

has

Id.

facial

plausibility when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the defendant is
liable for the misconduct alleged. The plausibility standard is not
akin to a “probability requirement,” but it asks for more than a
sheer possibility that a defendant has acted unlawfully.

Id.

(quoting Twombly, 550 U.S. at 556). Where a complaint pleads facts
that are “merely consistent with” a defendant’s liability, it
“stops short of the line between possibility and plausibility of
‘entitlement to relief.’”

Id. (quoting Twombly, 550 U.S. at 557).

The complaint “must contain sufficient allegations of underlying
facts to give fair notice and to enable the opposing party to
7
App. 298

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 8 of 40

defend

itself

effectively”

and

must

“plausibly

PageID #: 228

suggest

an

entitlement to relief, such that it is not unfair to require the
opposing party to be subjected to the expense of discovery and
continued litigation.” AE ex rel Hernandez v. Cnty. of Tulare, 666
F.3d 631, 637 (9th Cir. 2012)(internal quotations omitted).
A plaintiff should be given leave to amend the complaint,
unless it could not be saved by any amendment. Harris v. Amgen,
Inc.,

573

F.3d

728,

737

(9th

Cir.

2009)(internal

quotations

omitted). A court may deny leave to amend a complaint if a
plaintiff could not possibly cure the deficiency by alleging “other
facts consistent with the challenged pleading.” Telesaurus VPC, LLC
v. Power, 623 F.3d 998, 1003 (9th Cir. 2010), cert. denied, 132
S.Ct. 95 (Oct. 03 2011). A court may also deny leave to amend if it
would be futile, such as when a claim will inevitably be defeated
on summary judgment. Johnson v. Am. Airlines, Inc., 834 F.2d 721,
724 (9th Cir. 1987).

ANALYSIS
Plaintiff’s allegations arise from being denied a permit to
carry a firearm, pursuant to HRS § 134-9. County Officials and
all State Defendants move to dismiss Plaintiff’s causes of
action. State Defendants claim that Plaintiff’s suit against them
is barred by the Eleventh Amendment to the United States
Constitution. County Official Defendants claim that Plaintiff
lacks standing and that the Complaint does not allege a United
8
App. 299

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 9 of 40

PageID #: 229

States Constitutional violation. The County of Hawaii and Hilo
County Police Department were not served and have not entered an
appearance in the action.
I.

PLAINTIFF'S FEDERAL CONSTITUTIONAL CLAIMS AGAINST THE STATE OF
HAWAII DEFENDANTS ARE BARRED BY ELEVENTH AMENDMENT IMMUNITY
Plaintiff sues the State of Hawaii, Neil Abercrombie in his

official capacity as the Governor of Hawaii, and David M. Louie in
his official capacity as the Attorney General of Hawaii.
The doctrine of sovereign immunity applies when civil rights
claims are brought against the State of Hawaii.

The State of

Hawaii has not waived its Eleventh Amendment immunity, and Congress
did not abrogate the States' sovereign immunity when enacting 42
U.S.C. § 1983.

Plaintiff’s claims against the State of Hawaii and

Defendants Abercrombie and Louie under 42 U.S.C. §§ 1983, 1985, and
1986 for violation of the prohibition on Bills of Attainders in the
United States Constitution, the Contract Clause, and the Second,
Ninth, and Fourteenth Amendments are barred by Eleventh Amendment
Immunity.
A.

The Doctrine of Sovereign Immunity

The doctrine of sovereign immunity is set out in the Eleventh
Amendment of the United States Constitution:
The Judicial power of the United
construed to extend to any suit
commenced or prosecuted against one
by Citizens of another State, or by
of any Foreign State.

9
App. 300

States shall not be
in law or equity,
of the United States
Citizens or Subjects

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 10 of 40

U.S. Const. amend. XI.

PageID #: 230

The United States Supreme Court has held

that Eleventh Amendment immunity extends to suits against a State
or its agencies by citizens of that same State. Hans v. Louisiana,
134 U.S. 1 (1890).
Sovereign immunity generally bars the federal courts from
entertaining suits brought against a State or its agencies, unless
a State waives immunity or Congress abrogates immunity pursuant to
§ 5 of the Fourteenth Amendment to the United States Constitution.
L.A. Cnty. Bar Ass'n v. Eu, 979 F.2d 697, 704 (9th Cir. 1992);
Wilbur v. Locke, 423 F.3d 1101, 1111 (9th Cir. 2005), cert. denied
546 U.S. 1173 (2006).
Sovereign

immunity

also

bars

federal

statutory

and

constitutional claims for money damages against state officials
sued in their official capacities, absent a waiver or abrogation of
immunity. See Dittman v. State of California, 191 F.3d 1020, 102526 (9th Cir. 1999). State officials may be subject to suit for
prospective injunctive relief under the doctrine established in Ex
parte Young, 209 U.S. 123 (1908).
B.

Hawaii Has Not Waived Sovereign Immunity

In order to waive sovereign immunity, a State's consent must
be

expressed

unequivocally.

Pennhurst

Halderman, 465 U.S. 89, 99 (1984).

State

Sch.

&

Hosp.

v.

The State of Hawaii has not

waived its sovereign immunity from suit in federal court for civil
rights actions. See Linville v. State of Hawaii, 874 F.Supp. 1095,

10
App. 301

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 11 of 40

PageID #: 231

1103 (D.Haw. 1994). Here, the State of Hawaii Defendants have
invoked the doctrine of sovereign immunity.
C.

42 U.S.C. §§ 1983, 1985, and 1986 Do Not Abrogate
Sovereign Immunity

Congress has the power to abrogate the sovereign immunity of
the States, pursuant to Section 5 of Amendment XIV of the United
States Constitution: “The Congress shall have power to enforce, by
appropriate legislation, the provisions of this article.” Congress
must do so by enacting a statute which “explicitly and by clear
language indicate[s] on its face an intent to sweep away the
immunity of the States.” Quern v. Jordon, 440 U.S. 332, 332 (1979);
Kimel v. Fla. Bd. of Regents, 528 U.S. 62, 73 (2000)(Congress may
abrogate the States' constitutionally secured immunity from suit in
federal court only by making its intention unmistakably clear in
the language of the statute).
Plaintiff’s claims are brought pursuant to 42 U.S.C. § 1983.
Section 1983 states, in relevant part:
Every person who, under color of any statute, ordinance,
regulation, custom, or usage . . . subjects or causes to
be subjected, any citizen of the United States . . . to
the deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity or
other proper proceeding for redress . . . .
42 U.S.C. § 1983. Congress did not abrogate the States' Eleventh
Amendment immunity when enacting 42 U.S.C. § 1983. Will v. Mich.
Dep’t of State Police, 491 U.S. 58, at 65-66 (1989). States and
State officials acting in their official capacities, except where
11
App. 302

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 12 of 40

sued

for

prospective

injunctive

relief,

are

not

“persons” for purposes of Section 1983 liability.

PageID #: 232

considered
Id. at 71;

Sherez v. Hawaii Dep’t of Educ., 396 F.Supp.2d 1138, 1142-43 (D.
Haw. 2005) (dismissing claims against the Department of Education
and against State official in their official capacity on Eleventh
Amendment immunity grounds). The same rule applies to Plaintiff’s
other Eleventh Amendment claims, as Congress did not abrogate the
States' Eleventh Amendment immunity when enacting 42 U.S.C. §§ 1985
and 1986.
The State of Hawaii has not waived sovereign immunity, and
Congress, in passing 42 U.S.C. §§ 1983, 1985, and 1986, did not
abrogate Eleventh Amendment immunity of state governments.
Court

lacks

constitutional

jurisdiction
claims

over

against

all

the

of

State

Plaintiff’s
of

Hawaii,

The

federal
and

over

Plaintiff’s claims for money damages against the Governor of Hawaii
and the Attorney General of Hawaii.

The claims are DISMISSED WITH

PREJUDICE.
D.

Plaintiff’s Claims Against The Governor Of Hawaii and The
Attorney General Of Hawaii In Their Official Capacities

Plaintiff’s claims under 42 U.S.C. §§ 1983, 1985, and 1986 for
prospective injunctive relief against the Governor of Hawaii and
the State Attorney General, in their official capacities, are not
barred by sovereign immunity. Under the doctrine established in Ex
parte Young, 209 U.S. 123 (1908), Eleventh Amendment immunity does
not apply to a suit "for prospective declaratory and injunctive
12
App. 303

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 13 of 40

PageID #: 233

relief against state officers, sued in their official capacities,
to enjoin an alleged ongoing violation of federal law.”

Wilbur,

423 F.3d at 1111 (quoting Agua Caliente Band of Cahuilla Indians v.
Hardin, 223 F.3d 1041, 1045 (9th Cir. 2000)). Such actions are not
considered actions against the State. Will, 491 U.S. at 71 n.10.
The United States Supreme Court ruled in 1908, in Ex Parte
Young that a claim against a state official is appropriate when the
complaint (1) alleges an ongoing violation of federal law and (2)
seeks relief properly characterized as prospective.

Verizon Md.,

Inc. v. Public Serv. Comm'n, 535 U.S. 635, 645 (2002); ACS of
Fairbanks, Inc. v. GCI Commc’n Corp., 321 F.3d 1215, 1216-17 (9th
Cir. 2003). The holding by the United States Supreme Court in Ex
Parte Young does not allow claims for retroactive relief. Eleventh
Amendment immunity bars a federal court from awarding compensation
for past injuries from state treasury funds. Edelman v. Jordan, 415
U.S. 651 (1974). The suit must be brought against a state officer
with a sufficient connection to a law’s enforcement. Pennington
Seed, Inc. v. Produce Exch. No. 299, 457 F.3d 1334, 1342 (Fed. Cir.
2006). The named state official must actually violate federal law.
Broad

generalizations,

such

as

a

governor

or

state

attorney

general’s obligation to enforce all state laws, do not have a
sufficient nexus for an Ex Parte Young claim.
While Plaintiff requests an injunction against the enforcement
of HRS Chapter 134, he is actually challenging the constitutional
validity of Hawaii’s Firearm Carrying Laws, HRS §§ 134-9 and 134-23
13
App. 304

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 14 of 40

through

134-27.

Plaintiff’s

primary

contention

PageID #: 234

involves

the

licensing scheme in HRS § 134-9. Plaintiff argues that because the
Second Amendment guarantees the fundamental individual right to
bear arms, HRS Chapter 134's restrictions are unconstitutional.
The analysis of Hawaii’s Firearm Carrying Laws infra finds them to
be constitutional.
Additionally, Plaintiff’s claims against Governor Abercrombie
and Attorney General Louie are based on their general oversight of
Hawaii laws. These allegations are insufficient to establish a
nexus between the named State officials and the alleged violation
of Plaintiff’s civil rights. See Pennington, 457 F.3d at 1342-43;
L.A. Cnty. Bar Ass’n v. Eu, 979 F.2d 697, 704 (9th Cir. 1992).
Governor Abercrombie and Attorney General Louie do not have a
sufficient nexus to the enforcement of Hawaii’s Firearm Carrying
Laws. See Young I, 548 F.Supp.2d at 1164.
Plaintiff does not sufficiently allege claims against the
Governor of Hawaii and the State Attorney General of Hawaii in
their

official

capacities.

The

claims

against

Defendants

Abercrombie and Louie are DISMISSED WITH PREJUDICE.
II.

PLAINTIFF’S FEDERAL CONSTITUTIONAL CLAIMS AGAINST THE COUNTY
OF HAWAII, THE HILO COUNTY POLICE DEPARTMENT, AND WILLIAM P.
KENOI AND HARRY S. KUBOJIRI IN THEIR OFFICIAL CAPACITIES
The Complaint names the County of Hawaii, the Hilo County

Police Department, Mayor William P. Kenoi, and Police Chief Harry
S. Kibojiri as Defendants. Mayor Kenoi and Police Chief Kibojiri
are sued only in their official capacities. Plaintiff has not
14
App. 305

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 15 of 40

PageID #: 235

served the County of Hawaii or the Hilo County Police Department.
Mayor Kenoi and Police Chief Kibojiri move to dismiss all claims.
A.

Plaintiff's Claims Against Defendants Mayor Kenoi and
Police Chief Kubojiri Are Analyzed in the Same Manner as
If They Were Directly Brought Against the County of
Hawaii

A Section 1983 claim against a county official in his or her
official capacity is the same as bringing a direct action against
the government. See Wong v. City & Cnty. of Honolulu, 333 F.Supp.2d
942, 947 (D. Haw. 2004)(citing Kentucky v. Graham, 473 U.S. 159,
166-67 n. 14 (1985)).
The claims asserted against Defendants Mayor Kenoi and Police
Chief Kubojiri, in their official capacities, are analyzed as a
municipal liability claim against the County of Hawaii.
B.

Municipal Liability Under § 1983

Plaintiff's municipal liability claims against Defendants
Mayor

Kenoi

and

Police

Chief

Kibojiri

(“County

Official

Defendants”), in their official capacities, are based on 42 U.S.C.
§ 1983. Section 1983 provides a mechanism for plaintiffs to
challenge
officials.

allegedly

unconstitutional

actions

by

governmental

Cholla Ready Mix, Inc. v. Civish, 382 F.3d 969, 978

(9th Cir. 2004). The statute does not create any substantive
rights.
must

Id. To state a cause of action under § 1983, a "plaintiff

demonstrate

a

deprivation

of

a

right

secured

by

the

Constitution or laws of the United States, and that the defendant
acted under color of state law.” Kirtley v. Rianey, 326 F.3d 1088,
15
App. 306

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 16 of 40

PageID #: 236

1092 (9th Cir. 2003); Leer v. Murphy, 844 F.2d 628, 632 (9th Cir.
1988).
A municipality may be liable in a Section 1983 action under
two theories.

In the first instance, a municipality is liable in

a Section 1983 action for injuries caused by a municipality’s
unconstitutional policy or custom. See Monell v. Dep't of Social
Servs., 436 U.S. 658, 694 (1978); Webb v. Sloan, 330 F.3d 1158,
1164 (9th Cir. 2003), cert. denied, 540 U.S. 1141 (2004). The
official policy or custom requirement limits municipal liability to
actions in which the municipality is actually responsible for the
unconstitutional act.

Gausvik v. Perez, 239 F.Supp.2d 1047, 1053

(E.D. Wash. 2002) (citing Pembaur v. City of Cincinnati, 475 U.S.
469, 479-80 (1986)).

Even if the unconstitutional practice is not

authorized by written law, the municipality may still be liable
when the practices are “so permanent and well-settled as to
constitute a ‘custom or usage’ with the force of law.” Monell, 436
U.S. at 691.
The second action for which a municipality may be held liable
under

Section

1983

is

for

failure

to

train,

supervise,

or

discipline its employees. City of Canton v. Harris, 489 U.S. 378,
387 (1989).
C.

Plaintiff Fails To State A Federal Constitutional Claim
Against the County Official Defendants Under Section 1983

It is not disputed that County Official Defendants acted under
color of State law. Plaintiff’s claims against the County Official
Defendants are that the County’s policy of enforcing Hawaii’s
16
App. 307

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 17 of 40

PageID #: 237

Firearm Carrying Laws results in a deprivation of Plaintiff’s civil
rights under Article I of the United States Constitution, and the
Second, Ninth, and Fourteenth Amendments to the United States
Constitution. Plaintiff’s claims primarily concern the licensing
scheme for pistols and revolvers in HRS § 134-9.
The statute provides:
(a) In an exceptional case, when an applicant shows
reason to fear injury to the applicant's person or
property, the chief of police of the appropriate county
may grant a license to an applicant who is a citizen of
the United States of the age of twenty-one years or more
or to a duly accredited official representative of a
foreign nation of the age of twenty-one years or more to
carry a pistol or revolver and ammunition therefor
concealed on the person within the county where the
license is granted. Where the urgency or the need has
been sufficiently indicated, the respective chief of
police may grant to an applicant of good moral character
who is a citizen of the United States of the age of
twenty-one years or more, is engaged in the protection of
life and property, and is not prohibited under section
134-7 from the ownership or possession of a firearm, a
license to carry a pistol or revolver and ammunition
therefor unconcealed on the person within the county
where the license is granted. The chief of police of the
appropriate
county,
or
the
chief's
designated
representative, shall perform an inquiry on an applicant
by using the National Instant Criminal Background Check
System, to include a check of the Immigration and Customs
Enforcement databases where the applicant is not a
citizen of the United States, before any determination to
grant a license is made. Unless renewed, the license
shall expire one year from the date of issue.
(b) The chief of police of each county shall adopt
procedures to require that any person granted a license
to carry a concealed weapon on the person shall:
(1) Be qualified to use the firearm in a safe manner;
(2) Appear to be a suitable person to be so licensed;
(3) Not be prohibited under section 134-7 from the
17
App. 308

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 18 of 40

PageID #: 238

ownership or possession of a firearm; and
(4) Not have been adjudged insane or not appear to
be mentally deranged.
(c) No person shall carry concealed or unconcealed on the
person a pistol or revolver without being licensed to do
so under this section or in compliance with sections 1345(c) or 134-25.
(d) A fee of $10 shall be charged for each license and
shall be deposited in the treasury of the county in which
the license is granted.
Haw. Rev. Stat. § 134-9.
Hawaii’s Places to Keep Statutes require firearms to “be
confined

to

the

possessor’s

place

of

business,

residence

or

sojourn,” but allowing lawful transport between those places and
repair shops, target ranges, licensed dealerships, firearms shows,
firearm training, and police stations. See Haw. Rev. Stat. §§ 13423, 134-24; 134-25; 134-27. Section 134-26 prohibits carrying or
possessing a loaded firearm on a public highway. Holders of a valid
license to carry, pursuant to HRS § 134-9, are exempt from the
provisions.
County Official Defendants seek dismissal of Plaintiff's
Section 1983 claims on the grounds that Plaintiff has failed to
allege a deprivation of a constitutional right and lacks standing.
1.

Plaintiff Has Standing To Raise a Second Amendment
Challenge to HRS Chapter 134

Article III of the United States Constitution limits the
jurisdiction of the federal courts to adjudicating actual cases or
controversies. Allen v. Wright, 468 U.S. 737, 750 (1984). Standing

18
App. 309

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 19 of 40

PageID #: 239

includes constitutional and jurisprudential considerations. Lujan
v. Defenders of Wildlife, 504 U.S. 555, 560-61 (1992).
Plaintiff has the burden to establish standing to sue. Id.,
504 U.S. at 560-61.

To establish standing, Plaintiff first must

show that he suffers from an “injury in fact” that is “concrete and
particularized” and either “actual or imminent.”

Plaintiff must

then show that the injury can be traced to some wrongful or illegal
conduct by the Defendants that is likely to be redressed by a
favorable decision by the court.

Id. Plaintiff must demonstrate

standing for each form of relief he seeks. Clark v. City of
Lakewood, 259 F.3d 996, 1006 (9th Cir. 2001)(citing Friends of the
Earth, Inc. v. Laidlaw Envtl. Servs., 528 U.S. 167, 191-92 (2000).
A plaintiff’s claims that his rights have been violated are
assumed to be valid for the purpose of his standing inquiry. See
Lujan, 504 U.S. at 561; Kachalsky v. Cacace, 817 F.Supp.2d 235, 249
n.12 (S.D.N.Y. 2011). A plaintiff seeking injunctive relief must
show that he is suffering from ongoing injury or faces threat of
immediate injury. Los Angeles v. Lyons, 461 U.S. 95, 105 (1983).
Plaintiff claims that Hawaii’s Firearm Carrying laws in HRS
Chapter 134 violate his rights protected by the Second Amendment to
the United States Constitution.
The Second Amendment provides:
A well regulated Militia, being necessary to the security
of a free State, the right of the people to keep and bear
Arms, shall not be infringed.
U.S. Const. amend. II.
19
App. 310

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 20 of 40

PageID #: 240

It is possible that a license or permit denial pursuant to a
state administrative scheme regulating firearms may constitute an
actual and ongoing injury for infringing upon an alleged Second
Amendment violation. See Kachalsky, 817 F.Supp.2d at 248-49; Dearth
v. Holder, 641 F.3d 499, 501-02 (D.C.Cir. 2011). In Parker v.
District of Columbia, 478 F.3d 370 (D.C. Cir. 2007), the District
of Columbia Circuit Court of Appeals held that the denial of a gun
license

constituted

an

injury

independent

of

the

prospective

enforcement of criminal laws related to gun possession. The denial
of the license conferred standing on the plaintiff to challenge the
statute

regulating

the

issuance

of

permits

and

the

statutes

criminalizing possession without a license. Id. at 375-76 (D.C.
Cir. 2007), aff'd sub nom. District of Columbia v. Heller, 554 U.S.
570 (2008); see also Ezell v. City of Chicago, 651 F.3d 684, 695
(7th Cir. 2011)(plaintiff had standing to bring a pre-enforcement
constitutional challenge to city ordinance governing prerequisites
for gun ownership because forcing him to keep his firearm outside
the city was an ongoing injury to his claimed right to possess
firearms for self defense).
Plaintiff alleges that the enforcement of Hawaii’s Firearm
Carrying Laws deprive him of his Second Amendment right to carry a
firearm in public.

If we assume that Hawaii’s Firearm Carrying

Laws violate Plaintiff’s federal constitutional rights, Plaintiff
sufficiently alleges an injury and causation to establish standing
for injunctive relief. A decision enjoining the enforcement of the
20
App. 311

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 21 of 40

PageID #: 241

Hawaii statutes would redress Plaintiff’s injury. See Moore v.
Madigan, 842 F.Supp.2d 1092, 1098 (C.D. Ill. 2012)(plaintiffs have
standing to seek relief enjoining the enforcement of statutes that
allegedly infringe upon their claimed right to carry firearms in
public).
The Complaint does not set forth a basis for Plaintiff’s
claims for monetary relief, including compensatory damages of at
least one-million dollars. Plaintiff does not have standing to
support his claims for damages.
2.

Plaintiff Fails to State a Second Amendment Claim

After the Court dismissed Plaintiff’s first constitutional
challenge to HRS chapter 134 in Young v. Hawaii, 548 F.Supp.2d 1151
(D. Haw. 2008)(“Young I”), two significant developments occurred in
Second Amendment law. First, in District of Columbia v. Heller, the
United States Supreme Court explicitly recognized that the Second
Amendment confers an individual right to keep and bear arms. 554
U.S. 570 (2008)(overturning Hickman v. Block, 81 F.3d 98, 101-102
(9th Cir. 1996)). Second, in McDonald v. City of Chicago, the
Supreme Court determined that the Second Amendment applies to the
actions of the States through the Fourteenth Amendment to the
United States Constitution. 130 S.Ct. 3020 (2010). After McDonald,
it is clear that neither state nor federal governments may pass
laws that violate the Second Amendment right to bear arms. Id.
Both Supreme Court decisions, Heller and McDonald, focused on
the right to bear arms for self-defense within the home. In Heller,
21
App. 312

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 22 of 40

PageID #: 242

the Supreme Court held that the Second Amendment confers the right
for “law-abiding responsible citizens to use arms in defense of
hearth and home.”

Heller, 554 U.S. at 635; see also McDonald, 130

S.Ct. at 3044 (“[O]ur central holding in Heller [is] that the
Second Amendment protects the personal right to keep and bear arms
for lawful purposes, most notably for self-defense within the
home.”).
The Supreme Court Heller decision stated that the Second
Amendment does not confer “a right to keep and carry any weapon
whatsoever in any manner whatsoever and for whatever purpose.” Id.
at 626. Heller did not, however, foreclose the possibility that the
core right to possess and carry a weapon at home may extend outside
the home.
The Supreme Court decisions in Heller and McDonald created
uncertainty

surrounding

(1)

the

extent

to

which

the

Second

Amendment rights apply outside the home and (2) the level of
scrutiny necessary in evaluating Second Amendment restrictions.
Heller, 554 U.S. at 634; United States v. Masciandaro, 638 F.3d
458, 466-67 (4th Cir.), cert. denied, 132 S.Ct. 756 (2011).
The Third, Fourth, Seventh, Tenth, and District of Columbia
Circuits have adopted a two-step approach for evaluating Second
Amendment challenges. First, a court must determine whether the
challenged law regulates activity that falls within the Second
Amendment’s

scope.

If

the

challenged

law

does

not

regulate

protected activity, the inquiry is complete. If the challenged law
22
App. 313

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 23 of 40

PageID #: 243

does regulate activity within the scope of the Second Amendment, a
court must then determine whether it imposes an unconstitutional
burden by applying a level of scrutiny higher than rational review.
See United States v. Marzzarella, 614 F.3d 85, 89 (3d Cir. 2010),
cert. denied, 131 S.Ct. 958 (2011); Heller v. District of Columbia,
670 F.3d 1244, 1256-58 (D.C.Cir. 2011); Ezell, 651 F.3d at 702–04;
United States v. Chester, 628 F.3d 673, 680 (4th Cir. 2010); United
States v. Reese, 627 F.3d 792, 800–01 (10th Cir. 2010).
a.

The Second Amendment Does Not Provide an
Unlimited Right to Carry a Weapon in Public

The holding in Heller is that the “core” Second Amendment
right is that of “law-abiding, responsible citizens to use arms in
defense of hearth and home.” 554 U.S. at 635-36. At the same time,
the Supreme Court recognized that the Second Amendment does not
convey the “right to keep and carry any weapon whatsoever in any
manner whatsoever and for whatever purpose.” Id. at 626.
The Supreme Court held that the Second Amendment does not
protect a right to possess “weapons not typically possessed by lawabiding citizens for lawful purposes.” The Supreme Court also
identified a “non-exhaustive” list of regulations that do not
infringe on Second Amendment rights:
Although we do not undertake an exhaustive
historical analysis today of the full scope of
the Second Amendment, nothing in our opinion
should be taken to cast doubt on longstanding
prohibitions on the possession of firearms by
felons
and
the
mentally
ill,
or
laws
forbidding the carrying of firearms in
sensitive
places
such
as
schools
and
government
buildings,
or
laws
imposing
23
App. 314

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 24 of 40

conditions
and
qualifications
commercial sale of arms.

on

PageID #: 244

the

Id. at 625-27. The Supreme Court added a footnote, calling the
enumerated measures “presumptively lawful.” Id. at 626 n.26. Lower
courts have struggled with how to interpret the text. It is unclear
whether such conduct would fall outside the scope of the Second
Amendment or if regulations on such conduct are presumptively
lawful because they pass constitutional muster under the applicable
standard

of

scrutiny.

See

Masciandaro,

638

F.3d

at

473;

Marzzarella, 614 F.3d at 91.
The weight of authority in the Ninth Circuit, other Circuits,
and state courts favors the position that the Second Amendment
right articulated by the Supreme Court in Heller and McDonald
establishes only a narrow individual right to keep an operable
handgun at home for self-defense. United States v. Skoien, 614 F.3d
638, 640 (7th Cir.2010) (en banc), cert. denied, 131 S.Ct. 1674,
179 L.Ed.2d 645 (2011). The right to carry a gun outside the home
is

not

part

of

the

core

Second

Masciandaro, 638 F.3d at 470-71.

Amendment

right.

See

id.;

In Masciandaro, the Fourth

Circuit Court of Appeals held that the right to carry a firearm in
public is more limited than at home because public safety interests
outweigh the individual interest in self defense. Id. (noting
Heller’s examination of 19th-century decisions which upheld statutes
prohibiting carrying concealed weapons).

24
App. 315

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 25 of 40

PageID #: 245

Most federal district courts have upheld statutes similar to
Hawaii’s
schemes

Firearm
do

not

Carrying
infringe

Laws,
upon

holding

rights

that

protected

such
by

regulatory
the

Second

Amendment. See Piszczatoski v. Filko, 840 F.Supp.2d 813 (D.N.J.
2012); Kachalsky v. Cacace, 817 F.Supp.2d 235, 258 (S.D.N.Y. 2011);
Moore v. Madigan, 842 F.Supp.2d 1092, 1101-06 (C.D. Ill. 2012).
A District Court in the District of New Jersey upheld a
carrying law similar to Hawaii’s in Piszczatoski, 840 F.Supp.2d
813. The District Court in Piszczatoski held that the carrying law
did not burden protected conduct because the Second Amendment did
not provide an absolute right to carry a gun for self-defense
outside the home. 840 F.Supp.2d at 821-831; see also Moore, 842
F.Supp.2d at 1101-06 (focusing on language in the Supreme Court’s
opinions in Heller and McDonald limiting the scope of the Second
Amendment).
A District Court in the Southern District of New York upheld
a carrying law more restrictive than Hawaii’s in Kachalsky v.
Cacace, 817 F.Supp.2d 235, 258 (S.D.N.Y. 2011). The New York law
required a permit to carry a concealed gun at home or in public. To
receive a permit, an applicant had to show “a special need for
self-protection distinguishable from that of the general community
or of persons engaged in the same profession.” Id. at 239–40
(internal citations omitted). The District Court held that the
carrying law did not infringe upon a constitutional right because
(1) the statute did not operate as a complete ban on carrying
25
App. 316

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 26 of 40

PageID #: 246

concealed firearms and (2) the Second Amendment does not protect
the right to carry a weapon concealed or openly outside the home.
Id. at 263-65.
Hawaii

Federal

District

Court

decisions

have

held

that

Hawaii’s carrying laws do not infringe upon protected rights. In
Young II, the Hawaii District Court held that Hawaii’s firearm
licensing

scheme

in

HRS

§

134-9

did

not

implicate

activity

protected by the Second Amendment because Heller did not establish
possession of an unconcealed firearm in public as a fundamental
right. No. 08-00540, 2009 WL 1955749, at *8-9; see also Baker v.
Kealoha, Civ. No. No. 11-00528 ACK-KSC, Order Granting Defendants
State of Hawaii and Governor Abercrombie’s Motion for Judgment on
the Pleadings, Granting in Part and Denying in Part Defendants City
and County of Honolulu, Honolulu Police Department and Louis
Kealoha’s Motion to Dismiss, and Denying Plaintiff’s Motion for
Preliminary Injunction (Doc. 51)(Hawaii’s Firearm Carrying Laws do
not implicate protected Second Amendment activity).
Plaintiff alleges that Defendants violated his civil rights by
denying his applications, dated August 29, 2011 and September 16,
2011, for a license to carry a concealed and unconcealed firearm.
He

alleges

that

Hawaii’s

Firearm

Carrying

Laws

are

unconstitutional.
HRS § 134-9 empowers a county police chief to grant a permit
to carry a concealed pistol or revolver and ammunition in “an
exceptional case, when an applicant shows reason to fear injury to
26
App. 317

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 27 of 40

PageID #: 247

the applicant’s person or property.” Haw. Rev. Stat. § 134-9(a).
The chief of police may grant a license to carry an unconcealed
firearm “[w]here the urgency or the need has been sufficiently
indicated.” Id.
The Places to Keep Statutes require that firearms be confined
to “the possessor’s place of business, residence or sojourn” but
allow lawful transport between those places and repair shops,
target

ranges,

licensed

dealerships,

firearms

shows,

firearms

training, and police stations. Haw. Rev. Stat. §§ 134-23, 134-24,
134-25, and 134-27. Section 134-26 prohibits carrying or possessing
a loaded firearm on a public highway. People with a license to
carry, pursuant to Section 134-9, are exempt from the provisions.
Hawaii’s Firearm Carrying Laws do not violate Plaintiff's
Second Amendment rights. The Carrying Laws do not restrict the core
protection afforded by the Second Amendment. See Kachalsky, 817
F.Supp.2d at 264. They only apply to carrying a weapon in public.
They do not operate as a ban on all firearms. The challenged
licensing scheme in HRS § 134-9 only applies to pistols and
revolvers. See State v. Modica, 567 P.2d 420 (Haw. 1977).
Unlike the law held unconstitutional in McDonald, 130 S.Ct.
3020, which operated as a complete ban, or Ezell, 651 F.3d 684,
which burdened gun ownership for self-defense in the home, Hawaii’s
Firearm Carrying Laws allow firearms to be carried in public
between specified locations or with a showing of special need.
Plaintiff does not allege a constitutional violation because the
27
App. 318

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 28 of 40

PageID #: 248

right to bear arms does not include the right “to carry any weapon
whatsoever in any manner whatsoever and for whatever purpose.”
Heller, 554 U.S. at 626. HRS Chapter 134's limitations on carrying
weapons in public does not implicate activity protected by the
Second Amendment.
b.

Hawaii’s
Carrying
Constitutional Scrutiny

Restrictions

Pass

In the wake of Heller and McDonald, federal appellate courts
have advised lower courts to await direction from the Supreme Court
regarding

the

Second

Amendment’s

scope

outside

the

home

environment. See e.g. Masciandaro, 638 F.3d at 475. Even if the
Second Amendment extended a right to carry handguns outside the
home, it would still be permissible to regulate the conduct, so
long as it did not unconstitutionally burden it.
The Ninth Circuit Court of Appeals has not issued a binding
decision as to the appropriate level of scrutiny. Many courts have
applied intermediate scrutiny to laws burdening protected conduct
that falls outside the core Second Amendment right of a law-abiding
citizen to possess weapons for self defense in the home. See
Masciandaro, 538 F.3d at 470-71; Piszczatoski, 840 F.Supp.2d at 834
(importing

the

intermediate

scrutiny

standard

used

in

First

Amendment speech cases).
Federal district courts in the Ninth Circuit have applied the
intermediate scrutiny standard for the Second Amendment context
crafted by the Third Circuit Court of Appeals. See Peruta v. Cnty.
of San Diego, 758 F.Supp.2d 1106, 1117 (S.D.Cal.2010). Under the
28
App. 319

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 29 of 40

standard

set

forth

by

the

Third

Circuit

Court

of

PageID #: 249

Appeals,

intermediate scrutiny requires that the governmental interest be
significant, substantial, or important. Marzzarella, 614 F.3d at
98. The challenged regulation must reasonably fit the asserted
objective. Id.
Hawaii’s licensing scheme in HRS § 134-9 requires that a
plaintiff provide a sufficient showing of urgency or need or fear
of injury to receive a license to carry a concealed or unconcealed
pistol or revolver in public. Haw. Rev. Stat. § 134-9. The other
Firearm Carrying laws, HRS §§ 134-23 through 134-27, limit the
situations in which a person may carry a weapon in public without
a license. In enacting and enforcing the Firearm Carrying Laws, the
government

protects

an

important

and

substantial

interest

in

safeguarding the public from the inherent dangers of firearms. See
Masciandaro, 638 F.3d at 473 (substantial interest in regulating
loaded firearms) (citing United States v. Salerno, 481 U.S. 739,
745 (1987)); Kachalsky, 817 F.Supp.2d at 270 (substantial interest
in regulated concealed and open carry). The policy behind the
statutory

limitations

reasonably

relates

to

the

government’s

interest by enabling officials to effectively differentiate between
individuals who need to carry a gun for self-defense and those who
do not. See Peruta, 758 F.Supp.2d at 1117. The Firearm Carrying
Laws do not operate as an outright ban on firearms. Additionally,
HRS § 134-9 regulates only pistols and revolvers.

29
App. 320

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 30 of 40

Other

federal

district

courts

have

held

that

PageID #: 250

comparable

licensing schemes survive intermediate scrutiny, in the event that
the Second Amendment right to carry a weapon for self-defense
extends outside the home. See Kachalsky, 817 F.Supp.2d at 270–71
(upholding licensing law requiring a showing of “articulable need
for

self-defense”

to

openly

carry

and

completely

prohibiting

concealed carry); Peruta, 758 F.Supp.2d at 1110, 1117 (upholding
concealed carry licensing scheme requiring a showing of good cause
based on personal circumstances and not generalized fear for one's
safety);

Piszczatoski,

840

F.

Supp.

2d

at

836-37

(upholding

licensing scheme for open and concealed carry).
Hawaii’s

Firearm

Carrying

Laws

do

not

unconstitutionally

burden rights protected by the Second Amendment.
c.

Plaintiff’s Facial Challenge Fails

The prior restraint doctrine allows a plaintiff to raise a
facial challenge to a licencing statute that “allegedly vests
unbridled discretion in a government official over whether to
permit or deny expressive activity.” City of Lakewood v. Plain
Dealer Publ’g Co., 486 U.S. 750, 755-56 (1988); World Wide Rush,
LLC v. City of Los Angeles, 606 F.3d 676, 687 (9th Cir. 2010).
The prior restraint doctrine is applicable only in the First
Amendment context. Its rationale is rooted in preventing risks
specific to the First Amendment: self-censorship and the difficulty
of detecting, reviewing, or correcting content-based censorship on
an as-applied challenge. These rationales do not apply in the
30
App. 321

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 31 of 40

PageID #: 251

Second Amendment context. See e.g. Hightower v. City of Boston, 693
F.3d 61, 80 (1st Cir. 2012)(“The prior restraint doctrine is not a
label that may be attached to allow any facial challenge, whatever
the constitutional ground.”); Pisczctoski, 840 F.Supp.2d at 831-32;
Kachalsky,

817

F.Supp.2d

at

267

n.32

(although

some

Second

Amendment cases borrow an analytical framework from the First
Amendment, they do not apply substantive First Amendment rules).
Plaintiff’s attempt to import the prior restraint doctrine from the
First Amendment of the United States Constitution to Hawaii’s
Carrying Law fails. (Complaint at pgs. 17-20.)
Plaintiff’s

claims

alleging

a

violation

of

the

Second

Amendment to the United States Constitution, in Count Three, fail
to state a cause of action. The Second Amendment cause of action is
DISMISSED WITH PREJUDICE.
3.

Plaintiff Lacks Standing To Challenge HRS Chapter
134 On The Basis Of An Alleged Deprivation Of Ninth
Amendment Rights

The Ninth Amendment to the United States Constitution provides
that:
The enumeration in the Constitution of certain rights
shall not be construed to deny or disparage others
retained by the people.
U.S. Const. amend. IX.
The Ninth Amendment does not “independently secur[e] any
constitutional rights for purposes of making out a constitutional
violation.” San Diego Cnty. Gun Rights Comm. v. Reno, 98 F.3d 1121,
1125

(9th

Cir.

1996)(internal

citations

31
App. 322

omitted).

The

Ninth

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 32 of 40

PageID #: 252

Amendment does not guarantee an individual right to bear arms. See
id.; Young I, 548 F.Supp.2d at 1168; Ross v. Fed. Bureau of
Alcohol, Tobacco, & Firearms, 807 F.Supp.2d 362, 372 (D. Md. 2011).
Plaintiff does not have standing to challenge HRS Chapter 134
on the basis of an alleged deprivation of Ninth Amendment rights.
Plaintiff’s claims alleging a violation of his Ninth Amendment
rights, Count Four, are DISMISSED WITH PREJUDICE.
4.

HRS Chapter 134 Does Not Violate the Privileges or
Immunities Clause of the Fourteenth Amendment

In Count Five of the Complaint Plaintiff asserts the claim
that the enforcement of HRS Chapter 134 violates the Privileges and
Immunities clause of the Fourteenth Amendment to the United States
Constitution.
The

Privileges

and

Immunities

Clause

of

the

Fourteenth

Amendment provides that “No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the
United States.” The Privileges and Immunities Clause protects
fundamental rights, but even that protection is extremely limited,
extending only to the right to travel or right to privacy. See
Saenz v. Roe, 526 U.S. 489 (1999). In McDonald v. City of Chicago,
the plurality of Justices of the Supreme Court rejected using the
Privileges and Immunities Clause to apply the Second Amendment to
the States. 130 S. Ct. at 3031.
There is no basis for Plaintiff’s assertion that the licensing
scheme in HRS Chapter 134 interferes with his fundamental right to
bear arms. The cause of action for a violation of the Privileges
32
App. 323

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 33 of 40

PageID #: 253

and Immunities Clause of the Fourteenth Amendment to United States
Constitution in Count V is DISMISSED WITH PREJUDICE.
5.

The Complaint Fails To State A Claim For Violation
of the Fourteenth Amendment Due Process Clause

Plaintiff contends that the enforcement of Hawaii’s licensing
scheme in HRS Chapter 134 violates the Due Process Clause of the
Fourteenth Amendment of the United States Constitution.1
The Fourteenth Amendment protects against the deprivation of
property or liberty without due process.

See Carey v. Piphus, 435

U.S. 247, 259 (1978); Brady v. Gebbie, 859 F.2d 1543, 1547 (9th
Cir. 1988).
due

process

Courts employ a two-step test to determine whether
rights

government official.

have

been

violated

by

the

actions

of

a

First, a court must determine whether a

liberty or property interest exists entitling a plaintiff to due
process protections. If a constitutionally protected interest is
established, courts employ a three-part balancing test to determine
what process is due.

Hewitt v. Grabicki, 794 F.2d 1373, 1380 (9th

Cir. 1986). The three-part balancing test set forth in Mathews v.
Eldridge examines (1) the private interest that will be affected by
the official action; (2) the risk of an erroneous deprivation of
such interest through the procedures used, and the probable value,
if any, of additional or substitute procedural safeguards; and

Plaintiff also cites the Due Process Clause of the
Fifth Amendment on one page of the Complaint. (Complaint at pg.
24). Plaintiff’s due process challenge to a state law is properly
brought pursuant to the Fourteenth Amendment Due Process Clause.
See Castillo v. McFadden, 399 F.3d 933, 1002 n.5 (9th Cir. 2005).
1

33
App. 324

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 34 of 40

PageID #: 254

(3) the Government's interest, including the function involved and
the fiscal and administrative burdens that the additional or
substitute

procedural

requirement

would

entail.

Mathews

v.

Eldridge, 424 U.S. 319, 335 (1976).
If a liberty or property interest does not exist, no process
is due. Plaintiff must prove that Hawaii’s Firearm Carrying Laws
adversely affect a protected interest to carry a weapon in public
under the facts of the case. In Erdelyi v. O’Brien, 680 F.2d 61, 63
(9th Cir. 1982), the Ninth Circuit Court of Appeals held that
California’s comparable licensing scheme did not create a property
interest or liberty interest in obtaining a concealed weapon. PostHeller federal district court decisions confirm the holding that
there is no unlimited right to carry a gun in public. See Peruta,
758 F.Supp.2d 1106, 1121 (S.D.Cal. 2010)(concealed carry); cf.
Fisher v. Kealoha, No. 11-00589, 2012 WL 2526923, at *11 (D. Haw.
June 29, 2012)(due process rights attach to requiring a license for
carrying a firearm at home, as opposed to carrying a weapon in
public) .
The Complaint alleges Plaintiff was twice denied a license to
carry a pistol or revolver. HRS Chapter 134 does not implicate
Plaintiff’s liberty or property interests because there is no right
to carry weapons in public. Having no fundamental interest in
carrying a weapon, Plaintiff is not entitled to due process.
The Complaint fails to state a claim on which relief may be
granted for violation of Plaintiff’s due process rights guaranteed
34
App. 325

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 35 of 40

PageID #: 255

by the Fourteenth Amendment to the United States Constitution. The
cause of action for violation of the Procedural Due Process Clause
of the Fourteenth Amendment is DISMISSED WITH PREJUDICE.
6.

HRS Chapter 134 Does Not Constitute a Bill of
Attainder in Violation of Article I, Section 10 Of
the United States Constitution

Plaintiff

asserts

that

HRS

Chapter

134

constitutes

an

unconstitutional bill of attainder under Article I, section 10,
clause 1 of the United States Constitution: “No State shall ...
pass any Bill of Attainder . . . .”
A statute is an unconstitutional bill of attainder when it
“legislatively determines guilt and inflicts punishment upon an
identifiable individual without provision of the protections of a
judicial trial.”

Nixon v. Administrator of Gen. Servs., 433 U.S.

425, 468 (1977). Burdensome consequences to legislation do not
create a bill of attainder, so long as they do not rise to the
level of inflicting punishment. See id. at 472 (quoting United
States v. Lovett, 328 U.S. 303, 315 (1946)).
A legislative act is not a bill of attainder merely because it
burdens some persons or groups, but not others. Id. at 471. If a
statute sets forth a rule that is generally applicable to all
persons with a certain characteristic and is reasonably calculated
to

achieve

a

unconstitutional

non-punitive
bill

of

purpose,

attainder.

the
See

law
United

is

not

an

States

v.

Munsterman, 177 F.3d 1139, 1142 (9th Cir. 1999).
HRS Chapter 134 applies to all applicants for a permit to
35
App. 326

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 36 of 40

carry

a

revolver

or

firearm.

It

furthers

the

PageID #: 256

non-punitive

legislative purpose of controlling when and where certain types of
weapons are carried in the community to ensure public safety.
HRS Chapter 134 is not an impermissible bill of attainder.
Young I, 548 F.Supp.2d at 1172-73.
The claim that HRS Chapter 134 constitutes an unconstitutional
bill of attainder is DISMISSED WITH PREJUDICE.
7.

The Complaint Fails To State a Claim of Impairment
of the Obligation Of Contracts

Count Two of the Complaint asserts that HRS Chapter 134
violates the Contract Clause of the United States Constitution
The

Contract

Clause

of

the

United

States

Constitution

prohibits any state from passing a law “impairing the Obligation of
Contracts.” U.S. Const. Art. I, § 10. To bring a claim for a
violation of the Contract Clause, a plaintiff must allege facts
demonstrating that he possesses contractual rights that have been
substantially impaired by the challenged law. Nat’l R.R. Passenger
Corp. v. Atchison, Topeka & Santa Fe Ry. Co., 470 U.S. 451 (1985).
If the threshold inquiry is met, the court must determine if the
state

has

a

significant

or

legitimate

purpose

behind

the

regulation. RUI One Corp. v. City of Berkeley, 371 F.3d 1137, 1147
(9th Cir. 2004).
It is not possible to determine what contract Plaintiff is
referring to in his challenge to HRS Chapter 134. A statute itself
may be treated as a contract when its “language and circumstances
evince

a

legislative

intent

to

create

36
App. 327

private

rights

of

a

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 37 of 40

PageID #: 257

contractual nature enforceable against the State.” U.S. Trust Co.
of New York v. New Jersey, 431 U.S. 1, 17 n.14 (1977). HRS Chapter
134 does not evince such an intent. It does not bestow any
contractual rights upon Plaintiff. See Young I, 548 F.Supp.2d at
1174; see also Martinkovich v. Or. Legis. Body, CIV. 11-3065-CL,
2011

WL

7693036,

recommendation

at

*5

adopted,

(D.

Or.

Aug.

24,

2012

WL

1245663

2011)
(D.

Or.

report

and

Apr.

12,

2012)(rejecting a Contract Clause challenge to Oregon’s concealed
gun licensing law).
Plaintiff’s claim for the violation of the Article I, Section
10 prohibition of the impairment of the obligation of contracts, in
Count Two of the Complaint, is DISMISSED WITH PREJUDICE.
D.

Plaintiff’s §§ 1985 and 1986 Claims Are Precluded By
Plaintiff’s Failure To Allege a § 1983 Violation

Plaintiff sues pursuant to 42 U.S.C. §§ 1985 and 1986, as well
as § 1983.
Under § 1985, claims may be brought for conspiracy to violate
a citizen’s § 1983 civil rights. Section 1986 allows claims for
neglecting to prevent conspiratorial acts set forth in § 1985.
If a plaintiff fails to establish a constitutional deprivation
to support a § 1983 claim, the same allegations necessarily cannot
establish claims brought pursuant to §§ 1985 and 1986.

Cassettari

v. Nevada Cnty., Cal., 824 F.2d 735, 739 (9th Cir. 1987); White v.
Pac.

Media

Grp.,

Inc.,

322

F.Supp.2d

1101,

1112

(D.

Haw.

2004)(insufficiency of a § 1985 cause of action precludes an
actionable § 1986 claim).
37
App. 328

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 38 of 40

PageID #: 258

Plaintiff’s § 1985 conspiracy claim is based solely upon
allegations which fail to state a claim for deprivation of a
federal right under § 1983.
Plaintiff’s §§ 1985 and 1986 causes of action are DISMISSED
WITH PREJUDICE.
E.

Plaintiff’s Claims Against Defendants County of Hawaii
and Hilo County Police Department

Plaintiff still has not served Defendants County of Hawaii and
Hilo County Police Department. Pursuant to Federal Rule of Civil
Procedure

4(m),

the

120-day

time

limit

for

service

of

the

Complaint, which was filed on June 20, 2012, expired over one month
ago.
Pursuant to Federal Rule of Civil Procedure 12(b)(6), a court
may

properly

dismiss

an

action

sua

sponte,

without

giving

a

plaintiff notice of its intention to dismiss and an opportunity to
respond if a plaintiff “cannot possibly win relief.” See Sparling
v. Hoffman Construction Co., 8654 F.2d 635, 638 (9th Cir. 1981);
Omar v. Sea-Land Serv., Inc., 813 F.2d 986, 991 (9th Cir. 1987). If
a plaintiff cannot possibly win relief, the court may dismiss an
action sua sponte without notice in favor of a party that has not
been served, answered, or appeared. Columbia Steel Fabricators,
Inc. V. Ahistrom Recovery, 44 F.3d 800, 802 (9th Cir. 1995);
Arreola v. Wells Fargo Home Mortg., No. 10-3272, 2011 WL 1205249
(E.D. Cal. Mar. 29, 2011). It is appropriate to do so when the
party that has not appeared is in a position similar to the moving
38
App. 329

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 39 of 40

PageID #: 259

defendants. Abagnin v. AMVAC Chemical Corp., 545 F.3d 733, 742-43
(9th Cir. 2008).
The Hilo County Police Department and County of Hawaii, which
have not been served or appeared, are in positions similar to the
County

Officials

who

moved

to

dismiss.

Hilo

County

Police

Department is considered the same legal entity as the County of
Hawaii. See Pourny v. Maui Police Department, 127 F.Supp.2d 1129,
1143 (D. Haw. 2000) (treating the Maui Police Department and the
County of Maui as one party); see also Headwaters Forest Defense v.
County of Humboldt, 276 F.3d 1125, 1127 (9th Cir. 2002) (treating
police departments as part of their respective county or city).
Plaintiff’s claims against the County of Hawaii and the Hilo County
Police Department are analyzed under the same standard used for the
claims

against

capacities.

the

County

Officials

sued

in

their

official

See Wong v. City & County of Honolulu, 333 F.Supp.2d

942, 947 (D. Haw. 2004)(citing Kentucky v. Graham, 473 U.S. 159,
166-67 n.14 (1985)).
For the reasons set forth for dismissal of the claims against
the

County

Officials,

Plaintiff

“cannot

possibly

win

relief”

against the County of Hawaii or the Hilo County Police Department.
The causes of action against Defendants County of Hawaii and
Hilo County Police Department are DISMISSED WITH PREJUDICE.
CONCLUSION
The Complaint fails to state a claim for deprivation of a
federal right, which is a necessary prerequisite for actions
39
App. 330

Case 1:12-cv-00336-HG-BMK Document 42 Filed 11/29/12 Page 40 of 40

brought

pursuant

to

42

U.S.C.

§§

1983,

1985,

PageID #: 260

and

1986.

Additionally, the State Defendants are protected by sovereign
immunity.
State Defendants’ Motion to Dismiss (Doc. 25) is GRANTED. All
causes of action against State Defendants are DISMISSED WITH
PREJUDICE.
County Officials Defendants’ Motion to Dismiss (Doc. 23) is
GRANTED. The Court dismisses the causes of action against the
County and the County Police Department. All causes of action
against the County Officials, the County, and the County Police
Department are DISMISSED WITH PREJUDICE.
The Clerk of Court is directed to close the case.
IT IS SO ORDERED.
DATED: November 28, 2012, Honolulu, Hawaii.

/s/ Helen Gillmor
Helen Gillmor
Senior United States District Judge
GEORGE K. YOUNG, JR. vs. STATE OF HAWAII and NEIL ABERCROMBIE in
his capacity as Governor of the State of Hawaii; DAVID M. LOUIE in
his capacity as State Attorney General; COUNTY OF HAWAII, as a subagency of the State of Hawaii and WILLIAM P. KENOI in his capacity
as Mayor of the County of Hawaii; and the HILO COUNTY POLICE
DEPARTMENT, as a sub-agency of the County of Hawaii and HARRY S.
KUBOJIRI in his capacity as Chief of Police; JOHN DOES 1-25; JANE
DOES 1-25; CORPORATIONS 1-5, and DOE ENTITIES 1-5, Civ. No. 1200336 HG BMK; ORDER GRANTING COUNTY OF HAWAII OFFICIAL DEFENDANTS’
MOTION TO DISMISS PLAINTIFF’S COMPLAINT (DOC. 23) AND STATE OF
HAWAII DEFENDANTS’ MOTION TO DISMISS PLAINTIFF’S COMPLAINT (Doc.
25).
40
App. 331

Case 1:12-cv-00336-HG-BMK Document 43 Filed 11/29/12 Page 1 of 2

PageID #: 261

AO 450 (Rev. 5/85) Judgment in a Civil Case

UNITED STATES DISTRICT COURT
DISTRICT OF HAWAII

GEORGE K. YOUNG, JR.,
Plaintiff(s),

JUDGMENT IN A CIVIL CASE
Case: CIV. NO. 12-00336 HG BMK

V.

FILED IN THE
UNITED STATES DISTRICT COURT
DISTRICT OF HAWAII
November 29, 2012

STATE OF HAWAII and NEIL
ABERCROMBIE in his capacity
as Governor of the State of
Hawaii; DAVID M. LOUIE in his
capacity as State Attorney
General; COUNTY OF HAWAII, as
a sub-agency of the State of
Hawaii and WILLIAM P. KENOI
in his capacity as Mayor of
the County of Hawaii; and the
HILO COUNTY POLICE
DEPARTMENT, as a sub-agency
of the County of Hawaii and
HARRY S. KUBOJIRI in his
capacity as Chief of Police;
JOHN DOES 1-25; JANE DOES 125; CORPORATIONS 1-5, and DOE
ENTITIES 1-5,

At 4 o’clock and 00 min p.m.
SUE BEITIA, CLERK

Defendant(s).

[T]

Decision by Court. This action came for consideration before the Court. The issues
have been considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that all causes of action against the State
Defendants, County Officials, the County, and the County Police Department are
DISMISSED WITH PREJUDICE pursuant to the “Order Granting County of Hawaii
Official Defendants’ Motion to Dismiss and State of Hawaii Defendants’ Motion to
Dismiss” filed on November 29, 2012.

App. 332

Case 1:12-cv-00336-HG-BMK Document 43 Filed 11/29/12 Page 2 of 2

PageID #: 262

AO 450 (Rev. 5/85) Judgment in a Civil Case

Page 2 of 2

November 29, 2012
Date

SUE BEITIA
Clerk
/s/ Sue Beitia by ES
(By) Deputy Clerk

App. 333

Case: 12-17808, 02/08/2019, ID: 11184101, DktEntry: 199, Page 1 of 2

FILED

FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
GEORGE K. YOUNG, Jr.,

No.

Plaintiff-Appellant,
v.
STATE OF HAWAII; NEIL
ABERCROMBIE, in his capacity as
Governor of the State of Hawaii; DAVID
MARK LOUIE I, Esquire, in his capacity as
State Attorney General; COUNTY OF
HAWAII, as a sub-agency of the State of
Hawaii; WILLIAM P. KENOI, in his
capacity as Mayor of the County of Hawaii;
HILO COUNTY POLICE DEPARTMENT,
as a sub-agency of the County of Hawaii;
HARRY S. KUBOJIRI, in his capacity as
Chief of Police; JOHN DOES, 1-25; JANE
DOES, 1-25; DOE CORPORATIONS, 1-5;
DOE ENTITIES, 1-5,

FEB 8 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

12-17808

D.C. No.
1:12-cv-00336-HG-BMK
District of Hawaii,
Honolulu
ORDER

Defendants-Appellees.
THOMAS, Chief Judge:
Upon the vote of a majority of nonrecused active judges, it is ordered that
this case be reheard en banc pursuant to Federal Rule of Appellate Procedure 35(a)
and Circuit Rule 35-3. The three-judge panel disposition in this case shall not be
cited as precedent by or to any court of the Ninth Circuit.

App. 334

Case: 12-17808, 02/08/2019, ID: 11184101, DktEntry: 199, Page 2 of 2

Judges Bennett did not participate in the deliberations or vote in this case.

2

App. 335

Case: 12-17808, 04/15/2021, ID: 12074949, DktEntry: 316, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
APR 15 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

GEORGE K. YOUNG, Jr.,

No. 12-17808

Plaintiff - Appellant,

D.C. No. 1:12-cv-00336-HG-BMK
U.S. District Court for Hawaii,
Honolulu

v.
STATE OF HAWAII; et al.,
Defendants - Appellees.

MANDATE

The judgment of this Court, entered March 24, 2021, takes effect this date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: David J. Vignol
Deputy Clerk
Ninth Circuit Rule 27-7

App. 336

USCS Const. Amend. 2
Current through the ratification of the 27th Amendment on May 7, 1992.

United States Code Service > Amendments > Amendment 2 Right to bear arms.

Amendment 2 Right to bear arms.
A well regulated Militia, being necessary to the security of a free State, the right of the people to keep and
bear Arms, shall not be infringed.

United States Code Service
Copyright © 2021 Matthew Bender & Company, Inc.
a member of the LexisNexis Group (TM)
All rights reserved. All rights reserved.

End of Document

App. 337

USCS Const. Amend. 14, Part 1 of 15
Current through the ratification of the 27th Amendment on May 7, 1992.

United States Code Service > Amendments > Amendment 14

Amendment 14
Sec. 1. [Citizens of the United States.] All persons born or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United States and of the State wherein they reside. No State
shall make or enforce any law which shall abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.
Sec. 2. [Representatives—Power to reduce apportionment.] Representatives shall be apportioned
among the several States according to their respective numbers, counting the whole number of persons in
each State, excluding Indians not taxed. But when the right to vote at any election for the choice of electors
for President and Vice-President of the United States, Representatives in Congress, the Executive and
Judicial officers of a State, or the members of the Legislature thereof, is denied to any of the male
inhabitants of such State, being twenty-one years of age, and citizens of the United States, or in any way
abridged, except for participation in rebellion, or other crime, the basis of representation therein shall be
reduced in the proportion which the number of such male citizens shall bear to the whole number of male
citizens twenty-one years of age in such State.
Sec. 3. [Disqualification to hold office.] No person shall be a Senator or Representative in Congress, or
elector of President and Vice-President, or hold any office, civil or military, under the United States, or
under any State, who, having previously taken an oath, as a member of Congress, or as an officer of the
United States, or as a member of any State legislature, or as an executive or judicial officer of any State, to
support the Constitution of the United States, shall have engaged in insurrection or rebellion against the
same, or given aid or comfort to the enemies thereof. But Congress may by a vote of two-thirds of each
House, remove such disability.
Sec. 4. [Public debt not to be questioned—Debts of the Confederacy and claims not to be paid.] The
validity of the public debt of the United States, authorized by law, including debts incurred for payment of
pensions and bounties for services in suppressing insurrection or rebellion, shall not be questioned. But
neither the United States nor any State shall assume or pay any debt or obligation incurred in aid of
insurrection or rebellion against the United States, or any claim for the loss or emancipation of any slave;
but all such debts, obligations and claims shall be held illegal and void.
Sec. 5. [Power to enforce amendment.] The Congress shall have the power to enforce, by appropriate
legislation, the provisions of this article.

United States Code Service
Copyright © 2021 Matthew Bender & Company, Inc.
a member of the LexisNexis Group (TM)
All rights reserved. All rights reserved.

End of Document

App. 338

HRS § 134-5
This document is current through Ch. 1 of 2021 Legislative Session. Subject to changes by Revisor pursuant to
HRS 23G-15.

Michie's™ Hawaii Revised Statutes Annotated > Division 1. Government (Titles 1 — 21) > Title
10 Public Safety and Internal Security (Chs. 121 — 138) > Chapter 134 Firearms, Ammunition and
Dangerous Weapons (Pts. I — IV) > Part I. General Regulations (§§ 134-1 — 134-29)

§ 134-5. Possession by licensed hunters and minors; target shooting; game
hunting.
(a) Any person of the age of sixteen years, or over or any person under the age of sixteen years while
accompanied by an adult, may carry and use any lawfully acquired rifle or shotgun and suitable ammunition
while actually engaged in hunting or target shooting or while going to and from the place of hunting or target
shooting; provided that the person has procured a hunting license under chapter 183D, part II. A hunting
license shall not be required for persons engaged in target shooting.
(b) A permit shall not be required when any lawfully acquired firearm is lent to a person, including a minor,
upon a target range or similar facility for purposes of target shooting; provided that the period of the loan
does not exceed the time in which the person actually engages in target shooting upon the premises.
(c) A person may carry unconcealed and use a lawfully acquired pistol or revolver while actually engaged
in hunting game mammals, if that pistol or revolver and its suitable ammunition are acceptable for hunting
by rules adopted pursuant to section 183D-3 and if that person is licensed pursuant to part II of chapter
183D. The pistol or revolver may be transported in an enclosed container, as defined in section 134-25 in
the course of going to and from the place of the hunt, notwithstanding section 134-26.

History
L 1988, c 275, § 2; am L 1997, c 254, § 1; am L 2002, c 79, § 1; am L 2006, c 66, § 2.

Michie's™ Hawaii Revised Statutes Annotated
Copyright © 2021 Matthew Bender & Company, Inc.
a member of the LexisNexis Group. All rights reserved.

End of Document

App. 339

HRS § 134-9
This document is current through Ch. 1 of 2021 Legislative Session. Subject to changes by Revisor pursuant to
HRS 23G-15.

Michie's™ Hawaii Revised Statutes Annotated > Division 1. Government (Titles 1 — 21) > Title
10 Public Safety and Internal Security (Chs. 121 — 138) > Chapter 134 Firearms, Ammunition and
Dangerous Weapons (Pts. I — IV) > Part I. General Regulations (§§ 134-1 — 134-29)

§ 134-9. Licenses to carry.
(a) In an exceptional case, when an applicant shows reason to fear injury to the applicant's person or
property, the chief of police of the appropriate county may grant a license to an applicant who is a citizen of
the United States of the age of twenty-one years or more or to a duly accredited official representative of a
foreign nation of the age of twenty-one years or more to carry a pistol or revolver and ammunition therefor
concealed on the person within the county where the license is granted. Where the urgency or the need
has been sufficiently indicated, the respective chief of police may grant to an applicant of good moral
character who is a citizen of the United States of the age of twenty-one years or more, is engaged in the
protection of life and property, and is not prohibited under section 134-7 from the ownership or possession
of a firearm, a license to carry a pistol or revolver and ammunition therefor unconcealed on the person
within the county where the license is granted. The chief of police of the appropriate county, or the chief's
designated representative, shall perform an inquiry on an applicant by using the National Instant Criminal
Background Check System, to include a check of the Immigration and Customs Enforcement databases
where the applicant is not a citizen of the United States, before any determination to grant a license is
made. Unless renewed, the license shall expire one year from the date of issue.
(b) The chief of police of each county shall adopt procedures to require that any person granted a license
to carry a concealed weapon on the person shall:
(1) Be qualified to use the firearm in a safe manner;
(2) Appear to be a suitable person to be so licensed;
(3) Not be prohibited under section 134-7 from the ownership or possession of a firearm; and
(4) Not have been adjudged insane or not appear to be mentally deranged.
(c) No person shall carry concealed or unconcealed on the person a pistol or revolver without being
licensed to do so under this section or in compliance with sections 134-5(c) or 134-25.
(d) A fee of $10 shall be charged for each license and shall be deposited in the treasury of the county in
which the license is granted.

History
L 1988, c 275, § 2; am L 1994, c 204, § 8; am L 1997, c 254, § 2; am L 2002, c 79, § 1; am L 2006, c 27, § 3; am L
2006, c 66, § 3; am L 2007, c 9, § 8.

Michie's™ Hawaii Revised Statutes Annotated

App. 340

Page 2 of 2
HRS § 134-9
Copyright © 2021 Matthew Bender & Company, Inc.
a member of the LexisNexis Group. All rights reserved.

End of Document

App. 341

HRS § 134-23
This document is current through Ch. 1 of 2021 Legislative Session. Subject to changes by Revisor pursuant to
HRS 23G-15.

Michie's™ Hawaii Revised Statutes Annotated > Division 1. Government (Titles 1 — 21) > Title
10 Public Safety and Internal Security (Chs. 121 — 138) > Chapter 134 Firearms, Ammunition and
Dangerous Weapons (Pts. I — IV) > Part I. General Regulations (§§ 134-1 — 134-29)

[§ 134-23.] Place to keep loaded firearms other than pistols and revolvers;
penalty.
(a) Except as provided in section 134-5, all firearms shall be confined to the possessor's place of business,
residence, or sojourn; provided that it shall be lawful to carry unloaded firearms in an enclosed container
from the place of purchase to the purchaser's place of business, residence, or sojourn, or between these
places upon change of place of business, residence, or sojourn, or between these places and the following:
(1) A place of repair;
(2) A target range;
(3) A licensed dealer's place of business;
(4) An organized, scheduled firearms show or exhibit;
(5) A place of formal hunter or firearm use training or instruction; or
(6) A police station.
“Enclosed container” means a rigidly constructed receptacle, or a commercially manufactured gun
case, or the equivalent thereof that completely encloses the firearm.
(b) Any person violating this section by carrying or possessing a loaded firearm other than a pistol or
revolver shall be guilty of a class B felony.

History

L 2006, c 66, § 1.

Michie's™ Hawaii Revised Statutes Annotated
Copyright © 2021 Matthew Bender & Company, Inc.
a member of the LexisNexis Group. All rights reserved.

End of Document

App. 342

HRS § 134-24
This document is current through Ch. 1 of 2021 Legislative Session. Subject to changes by Revisor pursuant to
HRS 23G-15.

Michie's™ Hawaii Revised Statutes Annotated > Division 1. Government (Titles 1 — 21) > Title
10 Public Safety and Internal Security (Chs. 121 — 138) > Chapter 134 Firearms, Ammunition and
Dangerous Weapons (Pts. I — IV) > Part I. General Regulations (§§ 134-1 — 134-29)

[§ 134-24.] Place to keep unloaded firearms other than pistols and revolvers;
penalty.
(a) Except as provided in section 134-5, all firearms shall be confined to the possessor's place of business,
residence, or sojourn; provided that it shall be lawful to carry unloaded firearms in an enclosed container
from the place of purchase to the purchaser's place of business, residence, or sojourn, or between these
places upon change of place of business, residence, or sojourn, or between these places and the following:
(1) A place of repair;
(2) A target range;
(3) A licensed dealer's place of business;
(4) An organized, scheduled firearms show or exhibit;
(5) A place of formal hunter or firearm use training or instruction; or
(6) A police station.
“Enclosed container” means a rigidly constructed receptacle, or a commercially manufactured gun
case, or the equivalent thereof that completely encloses the firearm.
(b) Any person violating this section by carrying or possessing an unloaded firearm other than a pistol or
revolver shall be guilty of a class C felony.

History

L 2006, c 66, § 1.

Michie's™ Hawaii Revised Statutes Annotated
Copyright © 2021 Matthew Bender & Company, Inc.
a member of the LexisNexis Group. All rights reserved.

End of Document

App. 343

HRS § 134-25
This document is current through Ch. 1 of 2021 Legislative Session. Subject to changes by Revisor pursuant to
HRS 23G-15.

Michie's™ Hawaii Revised Statutes Annotated > Division 1. Government (Titles 1 — 21) > Title
10 Public Safety and Internal Security (Chs. 121 — 138) > Chapter 134 Firearms, Ammunition and
Dangerous Weapons (Pts. I — IV) > Part I. General Regulations (§§ 134-1 — 134-29)

[§ 134-25.] Place to keep pistol or revolver; penalty.
(a) Except as provided in sections 134-5 and 134-9, all firearms shall be confined to the possessor's place
of business, residence, or sojourn; provided that it shall be lawful to carry unloaded firearms in an enclosed
container from the place of purchase to the purchaser's place of business, residence, or sojourn, or
between these places upon change of place of business, residence, or sojourn, or between these places
and the following:
(1) A place of repair;
(2) A target range;
(3) A licensed dealer's place of business;
(4) An organized, scheduled firearms show or exhibit;
(5) A place of formal hunter or firearm use training or instruction; or
(6) A police station.
“Enclosed container” means a rigidly constructed receptacle, or a commercially manufactured gun
case, or the equivalent thereof that completely encloses the firearm.
(b) Any person violating this section by carrying or possessing a loaded or unloaded pistol or revolver shall
be guilty of a class B felony.

History

L 2006, c 66, § 1.

Michie's™ Hawaii Revised Statutes Annotated
Copyright © 2021 Matthew Bender & Company, Inc.
a member of the LexisNexis Group. All rights reserved.

End of Document

App. 344

HRS § 134-26
This document is current through Ch. 1 of 2021 Legislative Session. Subject to changes by Revisor pursuant to
HRS 23G-15.

Michie's™ Hawaii Revised Statutes Annotated > Division 1. Government (Titles 1 — 21) > Title
10 Public Safety and Internal Security (Chs. 121 — 138) > Chapter 134 Firearms, Ammunition and
Dangerous Weapons (Pts. I — IV) > Part I. General Regulations (§§ 134-1 — 134-29)

[§ 134-26.] Carrying or possessing a loaded firearm on a public highway;
penalty.
(a) It shall be unlawful for any person on any public highway to carry on the person, or to have in the
person's possession, or to carry in a vehicle any firearm loaded with ammunition; provided that this section
shall not apply to any person who has in the person's possession or carries a pistol or revolver in
accordance with a license issued as provided in section 134-9.
(b) Any vehicle used in the commission of an offense under this section shall be forfeited to the State,
subject to the notice and hearing requirements of chapter 712A.
(c) Any person violating this section shall be guilty of a class B felony.

History

L 2006, c 66, § 1.

Michie's™ Hawaii Revised Statutes Annotated
Copyright © 2021 Matthew Bender & Company, Inc.
a member of the LexisNexis Group. All rights reserved.

End of Document

App. 345

HRS § 134-27
This document is current through Ch. 1 of 2021 Legislative Session. Subject to changes by Revisor pursuant to
HRS 23G-15.

Michie's™ Hawaii Revised Statutes Annotated > Division 1. Government (Titles 1 — 21) > Title
10 Public Safety and Internal Security (Chs. 121 — 138) > Chapter 134 Firearms, Ammunition and
Dangerous Weapons (Pts. I — IV) > Part I. General Regulations (§§ 134-1 — 134-29)

[§ 134-27.] Place to keep ammunition; penalty.
(a) Except as provided in sections 134-5 and 134-9, all ammunition shall be confined to the possessor's
place of business, residence, or sojourn; provided that it shall be lawful to carry ammunition in an enclosed
container from the place of purchase to the purchaser's place of business, residence, or sojourn, or
between these places upon change of place of business, residence, or sojourn, or between these places
and the following:
(1) A place of repair;
(2) A target range;
(3) A licensed dealer's place of business;
(4) An organized, scheduled firearms show or exhibit;
(5) A place of formal hunter or firearm use training or instruction; or
(6) A police station.
“Enclosed container” means a rigidly constructed receptacle, or a commercially manufactured gun
case, or the equivalent thereof that completely encloses the ammunition.
(b) Any person violating this section shall be guilty of a misdemeanor.

History

L 2006, c 66, § 1.

Michie's™ Hawaii Revised Statutes Annotated
Copyright © 2021 Matthew Bender & Company, Inc.
a member of the LexisNexis Group. All rights reserved.

End of Document

App. 346

